CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE ELEVENTH CIRCUIT COURT

APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI

David D. Hendry
Florida Bar Number 0160016
Law Office of the Capital Collateral Regional
Counsel – Middle Region
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600 ext. 624
Fax No.
(813) 558-1601
hendry@ccmr.state.fl.us
Attorney of Record for Petitioner

CAPITAL CASE
DOCKET NO. ____________
IN THE SUPREME COURT OF THE UNITED STATES

RAY LAMAR JOHNSTON,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE ELEVENTH CIRCUIT COURT

INDEX OF APPENDICES

APPENDIX A: 02/03/2020 United States Court of Appeals, Eleventh Circuit
Opinion, Johnston v. Sec’y, Fla. Dep’t of Corr., 949 F.3d 619 (11th Cir. 2020). . App 1
APPENDIX B: 11/06/2019 United States Court of Appeals, Eleventh Circuit Order
denying Motion for Reconsideration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App 23
APPENDIX C: 4/13/2017 Letter and Trial Practices, Inc. Report -- Caldwell Content
Analysis of the Johnston Trial Transcripts (Dr. Harvey Moore) . . . . . . . . . . . . App 27
APPENDIX D: 03/03/2016 Petitioner’s Motion for Stay and Abeyance of this Case
Pending the Florida Supreme Court’s Ruling on the Implications of Hurst v.
Florida.to the United States Circuit Court of Appeals, Eleventh Circuit. . . . . .App 53
APPENDIX E: 03/10/2016 United States Court of Appeals, Eleventh Circuit Order
denying Motion to Stay Pending the Ruling of Hurst v. Florida. . . . . . . . . . . . App 61
i

APPENDIX F: 05/05/2017 United States Court of Appeals, Eleventh Circuit
Memorandum. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 63
APPENDIX G: 01/11/2019 Petitioner’s Motion to Remand Case to the Florida Middle
District to Permit Addition of Hurst Claim, or, in the alternative, Motion for
Opportunity to Move to Expand the Current COA and for Supplemental Briefing on
Hurst v. Florida to the United States Court of Appeals, Eleventh Circuit. . . . .App 65
APPENDIX H: 10/07/2019 United States Court of Appeals, Eleventh Circuit
Memorandum Scheduling Oral Argument. . . . . . . . .. . . . . . . . . . . . . . . . . . . . .App 73
APPENDIX I: 10/09/2019 United States Court of Appeals, Eleventh Circuit Order
denying Motion to Remand to district court and denying Motion to Stay pending the
Florida Supreme Court’s ruling on the implications of Hurst v. Florida. . . . . .App 75
APPENDIX J: 10/11/2019 Petitioner’s Motion for Reconsideration of the Denial of
the Motion to Remand Case to the Florida Middle District Court to Permit Addition
of a Hurst Claim, or, in the alternative, Motion for Opportunity to Move to Expand
the Current COA and for Supplemental Briefing on Hurst v. Florida. . . . . . . App 77
APPENDIX K: 06/14/2017 Hillsborough County Circuit Court Amended Order
granting State’s Motion to Strike Defendant’s Witness/Exhibit List and Attachment
and Order Striking June 15, 2017 Evidentiary Hearing. . . . . . . . . . . . . . . . . . App 90
APPENDIX L: United States Court of Appeals, Eleventh Circuit Order denying
Petition for Rehearing and Petition for Rehearing En Banc. . . . . . . . . . . . . . . App 172
APPENDIX M: 04/17/2014 United States District Circuit Court, Florida Middle
District Order denying petition for habeas corpus. . . . . . . . . . . . . . . . . . . . . . . App 174
APPENDIX N: 11/13/2018 Supreme Court of the United States Order denying
petition for writ of certiorari (Hurst claim). . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 331
APPENDIX O: 04/05/2018 Florida Supreme Court Opinion, Johnston v. State, 246
So.3d 266 (Fla. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App 333
APPENDIX P: 07/21/2017 Hillsborough County Circuit Court Order denying Hurst
relief. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 336
APPENDIX Q: 08/30/2019 United States Court of Appeals, Eleventh Circuit
Opinion, Knight v. Fla. Dep’t of Corr., 396 F.3d 1322 (11th Cir. 2019). . . . . . .App 351
APPENDIX R: 04/02/2020 Florida Supreme Court Opinion, State v. Poole, --- So.3d
---, 2020 WL 3116597 (Fla. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .App 364

ii

APPENDIX A

App 001

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

949 F.3d 619
United States Court of Appeals, Eleventh Circuit.
Ray Lamar JOHNSTON, Petitioner-Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Attorney General, State of Florida,
Respondents-Appellees.
No. 14-14054
|
(February 3, 2020)

Synopsis
Background: After affirmance, 841 So.2d 349, of state prisoner’s murder conviction and death sentence, prisoner petitioned
for federal habeas relief, alleging that counsel were ineffective at guilt and penalty phases in failing to investigate and present
a witness who could have undermined prosecution’s theory that prisoner had a monetary motive for the murder and who
could have offered mitigation testimony about everything prisoner had done for her during her hospitalization in intensive
care unit (ICU). The United States District Court for the Middle District of Florida, D.C. Docket No.
8:11-cv-02094-EAK-TGW, Elizabeth Kovachevich, J., denied relief. Prisoner appealed.

Holdings: The Court of Appeals, Ed Carnes, Chief Judge, held that:
prisoner was not prejudiced by counsel’s allegedly deficient performance at guilt phase, and
prisoner was not prejudiced by counsel’s allegedly deficient performance at penalty phase.
Affirmed.
Martin, Circuit Judge, filed an opinion concurring in the result.
Attorneys and Law Firms
*622 David Dixon Hendry, James L. Driscoll, Jr., Capital Collateral Regional Counsel, Middle Region, TEMPLE
TERRACE, FL, for Petitioner - Appellant.
Timothy A. Freeland, Attorney General’s Office, Criminal Division, TAMPA, FL, for Respondents - Appellees.
Appeal from the United States District Court for the Middle District of Florida, D.C. Docket No. 8:11-cv-02094-EAK-TGW
Before ED CARNES, Chief Judge, MARTIN, and ROSENBAUM, Circuit Judges.
Opinion
ED CARNES, Chief Judge:
LeAnne Coryell had a mother and father, two brothers, and a six-year-old daughter. She was her parents’ only daughter. She
was her brothers’ only sister. And, of course, she was her young daughter’s only mother. LeAnne had recently celebrated her
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 002

1

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

thirtieth birthday, and her family and friends had every reason to believe that she would be with them for a long time. She
was in the prime of her life and had decades of living ahead of her. Or she should have.

I. JOHNSTON’S CRIMES AGAINST LEANNE CORYELL AND THE TOTAL HARM THOSE CRIMES CAUSED
Tuesday, August 19, 1997, began as a typical day for LeAnne. That afternoon she went to work at Dr. Gregory Dyer’s
orthodontic office where she was a clinical orthodontic assistant. Johnston v. State, 841 So. 2d 349, 351 (Fla. 2002). He knew
her to be someone who took pride in what she did, was exceptional at it, and had a good career ahead of her. She was warm
and intelligent, positive, and passionate about all that she did. Dr. Dyer had been constantly reminded of “how incredibly
fortunate and blessed [he] was” to have had her on his staff. That is the kind of person she was.
Around 6:00 p.m. that Tuesday evening, LeAnne called a good friend and told her that she was going to leave work around
8:00 p.m. and stop by the local supermarket to pick up a few items. She told the friend she’d call again when she got home.
LeAnne clocked out of work at 8:38 p.m. She and her co-worker, Melissa Hill, tried to set the security system before leaving
but had trouble with it. LeAnne called Dr. Dyer’s wife for instructions. During their conversation Ms. Dyer asked about
LeAnne’s daughter Ansley, who was to start first grade the next week, and LeAnne told her: “She’s with grandma, you know,
doing the shopping and things before school.” Before their mother hung up, Ms. Dyer’s young sons insisted on talking with
LeAnne and telling her goodnight because they liked her so much. That is the kind of person she was.
After setting the alarm and leaving work, LeAnne stopped by the grocery store and bought, among other things, milk, grapes,
fish, and green beans. Johnston, 841 So. 2d at 351. She also got a Nickelodeon toothbrush for Ansley, some goldfish
crackers, and some oatmeal cookies. The kind of things a mother buys. One of the employees at the grocery store who saw
her that night described LeAnne as “happy [and] smiling.” She and the cashier chatted about their kids, as they usually did,
and LeAnne told the woman about the plans she and Ansley had for the next day. The store’s surveillance cameras showed
*623 her leaving the store at 9:23 p.m. Johnston, 841 So. 2d at 351.
That was the last time anyone saw LeAnne alive. Anyone other than Ray Lamar Johnston. LeAnne had the misfortune of
living in the same apartment complex as him, although they were not acquainted. Johnston, 841 So. 2d at 351. Before
LeAnne arrived at the apartment building that Tuesday night, Johnston had gotten into an argument with one of his two
roommates about his failure to pay his share of the utilities. After that argument Johnston went outside, which is where he
was when LeAnne pulled into the parking lot and started unloading her groceries. Id. at 354–55.
Johnston walked up to LeAnne, said “hello,” and offered to help her carry the groceries to her apartment. She either said
“hello” back and declined his offer, or she didn’t respond at all. Johnston didn’t like being turned down or ignored by a
woman. As he would later tell it, “I just wanted her attention, and I didn’t get it and I grabbed her .... I just grabbed her
around the neck ....” He threw LeAnne into the back seat of her own car and drove her to a dark field nearby, a field next to
St. Timothy’s Church. While a religious meeting was being conducted inside the church, Johnston was violently brutalizing
LeAnne outside of it.
After he got her out of the car, Johnston removed all of LeAnne’s clothes. He then either raped her or used a blunt object to
penetrate her with such force that it caused both internal and external lacerations to her vaginal area. During his demeaning
assault of her, Johnston whipped LeAnne repeatedly across the buttocks with her own belt. He whipped her with enough
force that the blows left distinct bruises on her body in the shape of the metal design on the belt. He also beat her on her
buttocks with another blunt object. Some of the bruising on LeAnne’s body was so deep that it invaded the underlying
muscle and soft tissue. Her chin and the inside of her lip were lacerated, which could have been caused by a punch to the face
or by her being thrown to the ground. Johnston inflicted all of the blows, beating, and injuries to LeAnne while she was alive.
He made her suffer.
Johnston could have stopped and left LeAnne there. She would have been naked, beaten, violated, and in pain alone in a dark
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 003

2

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

field. But she would have been alive. She could have made her way to the church and been rescued and gotten medical help;
she could have been returned to the care of her family and friends; she could have seen her daughter again. Johnston could
have let her live. But he chose, instead, to fasten his hands around LeAnne’s neck and slowly strangle her to death in that
field. She was conscious for up to two minutes as Johnston choked the life out of her. Johnston, 841 So. 2d at 353. She fought
to live. While Johnston killed her, LeAnne scratched at his hands, trying desperately to free herself. She clawed at the
ground, grabbing a handful of grass in her desperate attempt to escape. But Johnston wouldn’t let her.
After he choked the last breath of life from LeAnne, Johnston grabbed her body by the legs and dragged her into a nearby
retention pond. (The reason he did that became evident later when he told detectives they would not find any DNA evidence,
hair, or saliva linking him to the murder, and they didn’t.) Johnston, 841 So. 2d at 353. Johnston left LeAnne in four inches
of water, face down and nude, with her back and bruised buttocks exposed above the water level. Before leaving her body
and personal effects behind, Johnston stole her ATM card and a piece of paper with her PIN on it.
*624 A man walking his dogs found LeAnne’s body at 11:00 p.m. and called 911 within minutes. In addition to all of the
injuries already described, the medical examiner found extensive bruising around her neck. There were also scratches on her
neck, which may have been caused by her own fingernails as she tried to free herself from Johnston’s grip while he strangled
her. And there was that grass still clutched in her hand, bearing witness to how desperately she had struggled. As the state
trial judge would later write in describing LeAnne’s final minutes of life: “the photograph of the grass clawed and grasped in
her hands speaks louder than words that this victim fought for her life and was aware of her impending death after having
been beaten with her own belt and sexually battered.”
LeAnne’s car, which Johnston had used to take her to the field, was found in the church’s parking lot with the keys in the
ignition. Johnston, 841 So. 2d at 352. One of his fingerprints was found on the outside of the car. Id. Some, but not all, of the
groceries LeAnne had bought on the way home were in the back seat. Id. The milk and grapes she had bought were on the
pavement of the parking lot where Johnston had grabbed her.
Soon after leaving LeAnne’s body in the retention pond, Johnston used her ATM card at 10:53 p.m. to withdraw $500 from
her bank account. At that same machine, he attempted three more withdrawals (two for $500 and one for $400) over the next
two minutes, but those efforts were thwarted by the daily limit on withdrawals. Johnston drove to a second ATM machine in
an effort to withdraw money there, but that failed again. He eventually returned to his apartment and threw some cash at the
roommate who had argued with Johnston about money and yelled, “That’s all you’re getting from me, you son-of-a-bitch.”
Id. at 351.
The next morning, Johnston took LeAnne’s card to an ATM machine at a McDonald’s and withdrew another $500 from her
bank account. He then tried twice to withdraw $500 more but was thwarted by the daily limit on withdrawals. After making
an account balance inquiry at the same ATM and seeing that there was more money in LeAnne’s account, he tried again to
withdraw more cash — $100 and then $500 — but was again unsuccessful.
The night before, while Johnston was stealing money from LeAnne’s bank account, her family learned that she had been
murdered. The police told her parents, who had to tell Ansley. LeAnne’s father said: “Telling a six-year-old granddaughter
that her mommy went to be with Jesus and she will never see her again” was “not an experience that my wife and I would
wish on anyone.”
According to her father, LeAnne was “the love of [Ansley’s] life.” She was a devoted mother who went to great efforts to be
a positive influence on her young daughter. She was active in the PTA at Ansley’s school. She baked cookies and cupcakes
for kindergarten parties. Even after a long day of work, she would prepare a home-cooked meal for Ansley, and help her with
her homework, and play games with her, and read her a story, and give her a bath, and tuck her into bed. That is the kind of
mother she was.
Reverend Hartsfield, LeAnne’s pastor, considered her a “model” for other parents in the church. He recounted how involved
she was in the church and the positive impact she had on other parishioners. He described her as a “bright light of joy,
energy, love, generosity and graciousness.” She was, he said, “an encourager and an inspiration to all of Ansley’s teachers
and *625 the entire teaching and administrative staff” at her school. Reverend Hartsfield recalled that just weeks before she
was murdered, LeAnne had met with him to discuss how she could “get even more involved in the ministries of the church
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 004

3

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

and how her life could be used in an even greater way to make a difference in this world.” She was: “Always improving.
Always looking to the interests of others; never settling for mediocrity or comfort.” That is the kind of person she was.
Dr. Dyer, LeAnne’s boss, described being constantly reminded of how blessed he was to have her on his staff, and how his
young patients, through the news of her death, were “exposed to a violent, life changing experience.”
As Clarence the angel told George Bailey, each person’s life touches so many other lives that when she is no longer around it
leaves an awful hole.1 About the hole that LeAnne’s death left in the lives of her family and friends, a number of people
spoke eloquently, none more so than her father. He described how he, her mother, and her younger brother “no longer hear
the front door open” with a greeting from LeAnne “followed by the giggling of granddaughter Ansley.” “No more nightly
phone calls to discuss the day[’]s happenings.” “No more visits” to her apartment. “No more family outings.” “Just a missing
void” in “a close knit family.” Her death left such an awful hole in the lives of so many people because that is the kind of
person she was.
1

“Each man’s life touches so many other lives. When he isn’t around he leaves an awful hole, doesn’t he?” It’s a Wonderful Life
(Liberty Films 1946).

II. JOHNSTON’S VIOLENT CRIMES AGAINST FIVE OTHER WOMEN
The same cannot be said of the man who murdered her. LeAnne Coryell was not the first woman Ray Johnston brutally
attacked and sadistically beat, she was not the first woman he raped, and she was not the first woman he murdered. In fact,
the 18 years that Johnston has been on death row without access to women is the longest period of time in his adult life he
has ever gone without brutally attacking one.
Between the ages of 19 and 20, Johnston assaulted three different women. In 1973, when he was 19 years old, he was
charged with robbing an Alabama convenience store twice in one week and raping a store clerk during one of those robberies.
In 1974, he was charged with robbing and sexually assaulting a woman named Judy Elkins in Georgia as she was getting out
of her car. The indictment stated that he raped her, struck her with a belt –– as he would strike Coryell with a belt more than
20 years later –– and stole $15 cash and two credit cards from her at knifepoint.
That same year Johnston also attacked a woman named Susan Reeder in Alabama. He followed her as she drove to her
fiancé’s apartment one night. When she got out of the car, Johnston grabbed her, put one hand over her mouth and nose, and
used his other hand to hold a six-inch hunting knife to her throat. He told Reeder that if she made a sound, he would cut her
throat. He then put her in the back seat of her car, made her lie down, and started the car as she was terrified and crying.
Johnston drove to a deserted area where a number of houses were under construction.
Fearing that Johnston was going to rape her, Reeder told him that she was having her period, hoping that “maybe things
wouldn’t happen.” Not believing her, Johnston ordered her to undress and he touched her. When he found that she had *626
lied to him, he got angry. He took his belt off and told Reeder, who was nude, to lean over the hood of her car. He beat her
with his belt and said he was doing it because she lied to him. He whipped her with the belt from her “waistline down on the
back side,” just as he would Coryell two decades later. After beating Reeder, Johnston took her into the garage area of a
partially built house. She tried to talk, to have a conversation, in an attempt to “make it all go away.” But Johnston didn’t
want it to go away.
Still holding his hunting knife, Johnston tried to rape Reeder. When he was unable to perform, he “got mad and made [her]
get on top.” He then made “her body go in motion.” This went on, Reeder estimated, for about two hours. After he finished
raping her, Reeder begged him to let her go, promising him that if he let her live she would never tell anybody what had
happened. He said he would take her to her fiancé’s place –– whether Johnston actually intended to do that or not is unknown
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 005

4

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

–– but he accidentally hit a curb and rendered the car undrivable, giving Reeder a chance to escape, which she managed to
do.
For the robberies and rape he committed at a convenience store in Alabama in 1973 and against Susan Reeder in 1974,
Johnston was convicted of two counts of robbery and one count of rape. He was sentenced to 10 years for each robbery
count, to be served concurrently, and 10 years for the rape count. For the crime he committed in Georgia against Judy Elkins
in 1974, he was convicted of robbery by intimidation and sentenced to 15 years.
Johnston started serving the 15-year sentence in Georgia first, in September 1974, but after spending less than seven years in
prison there he was released on parole and transferred to Alabama to serve out his ten-year sentences for the robbery and rape
convictions. In March of 1986, five years after he was transferred to Alabama, the Alabama Central Review Board
recommended that Johnston not be granted parole because he was a “dangerous man to have released” due to his history of
violent criminal behavior. Three months later, in June of 1986, he was paroled anyway. He had served only five-and-a-half
years of his sentence for the two robberies and rape.
Unfortunately, but not surprisingly, the Alabama Central Review Board’s March 1986 assessment that Johnston was too
dangerous to be released proved correct. In January 1988, less than two years after his early release on parole, Johnston ––
this time in Jacksonville, Florida –– broke into the house of Julia Maynard, a woman he didn’t know. When she came home
one night, she entered through the foyer, went toward her kitchen and looked up. She saw Johnston on the stairwell, staring at
her. He was wearing a jumpsuit, ski mask, and surgical gloves. Maynard was terrified.
She tried to run out, but Johnston grabbed her and backed her into the corner. He pulled out a knife, and while holding it to
her throat told her that he was not there to hurt her but had been paid by somebody to attack her. He led her into her bedroom,
“where he had made preparations” by removing all of her lingerie from her drawers and placing it on the bed. Then he took
photos of her in various stages of dress and undress for 45 minutes. At one point, Johnston touched her “in the vaginal area.”
When Johnston was finished with Maynard, he used her own panty hose to tie her to the bed, face down. He warned her that
if she told anybody about what happened he would come back. Before walking out he placed the knife to her head, patted her,
told her she was a nice lady, and said that it was too bad this had to happen to *627 her. After Johnston left, she managed to
free herself and call for help.
The police didn’t catch Johnston right away. Unfortunately. Within six months he abducted another woman in Florida,
Carolyn Peak, as she was getting out of her car at her apartment complex, just as he would abduct Coryell years later.
Johnston held a knife to Peak’s throat and told her that if she screamed he would cut her. He eventually ordered her to lie on
the floor in the back seat, used an Ace bandage to tie her hands together, and drove away. When she asked him why he was
doing this to her, he said he would tell her later and swore that if she went to the police, “he would hunt her down and kill
her.”
Before Johnston could assault Peak, a police officer pulled the car over because the front headlight was out and the tag that
had been propped up in the back window had fallen down. Following that stop, one thing led to another and it ended with
Peak being rescued and Johnston being arrested. Inside the car the officer found a camera, surgical gloves, and a mask.
In addition to being charged with the crimes that he had committed against Peak, Johnston was also linked to the attack on
Maynard and charged in connection with it. In combination, the charges included one count of armed kidnapping and two
counts of burglary with assault. In September 1988, Johnston pleaded guilty to or was found guilty of all three charges and
was sentenced to 18 years in Florida state prison.
While in prison, Johnston was disciplined for, among other things, lying and failing to report for work, as well as disorderly
conduct. After he was transferred to a new prison in 1993, he was disciplined for a variety of offenses and was put into
“admin confinement” at one point. The report about the disciplinary action that caused him to be put in admin confinement
states that an inmate had reported another inmate’s “plan to attack and rape a female staff member.” Johnston was released
from prison in May 1996 even though he had served barely half of his sentence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 006

5

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

III. JOHNSTON’S BRUTAL MURDER OF JANICE NUGENT
Within nine months after he was released from prison, Johnston invaded Janice Nugent’s home in Florida, beat her with a
belt, and slowly strangled her to death. Johnston v. State, 863 So. 2d 271, 274 (Fla. 2003). Within six months after doing that,
he kidnapped, beat, sexually assaulted, and strangled to death Coryell, the victim in this case. We have already discussed in
detail the crimes Johnston committed against Coryell. The crimes he committed against Janice Nugent are similar, although
the circumstances leading up to the two crimes are somewhat different.
Janice Nugent was friends with a woman named Frances Aberle, who was dating Johnston in 1997. Id. at 275. All three of
them were regulars at a bar called “Malio’s.” Id. Aberle told Johnston that she could no longer go to Malio’s with him
because Nugent did not want her to be with Johnston. Id. A short time later, Johnston attacked Nugent in her own home. Id.
at 274. During the attack he inflicted what the medical examiner would describe as “three to five blunt impact” injuries on
her buttocks and hips. Id. The medical examiner also found “within a reasonable medical probability, one or more of the
patterned injuries on Nugent’s buttocks were made by a belt.” Id. Just like the injuries on Coryell’s buttocks. He also found
that: “The other pattern type injuries could have been made by a belt or some other implement, possibly a vacuum cleaner
hose.” Id. Johnston killed Nugent *628 by strangling her with his hands. Id. Just like he did Coryell. The medical examiner
explained that the “extensive bruising to Nugent’s neck and shoulder area” showed that the strangulation “was not by
constant, continuous compression,” but “more of a manual throttling ... meaning it was more pressure, release, pressure,
release.” Id. In other words, it was done in a way that prolonged her suffering and terror.
Like LeAnne Coryell, Janice Nugent did not die without a fight. Id. She had defensive bruising on her arms and hands and
defensive fingernail injuries on her nose, indicating that she had struggled with Johnston and tried to pull his hands off her
face. Id. But she was not strong enough to fight him off. After Johnston killed Nugent, he wrapped her body in a bed
comforter and submerged her in water that he ran in her bathtub. Id. at 274, 275, 283. Under the comforter her body was clad
in only underwear and a bra. Id. at 274.
Several days after the murder of Janice Nugent, their mutual friend Aberle said to Johnston: “I just can’t understand someone
doing that. Why? No matter what somebody did, why somebody would do that.” Id. at 275. Johnston agreed and then said
“Well, now there’s no reason you can’t go to Malio’s with me.” Id. Six months later, before he was charged with murdering
Nugent, Johnston kidnapped, beat with a belt, and strangled Coryell and put her body into water.2 Much as he had Janice
Nugent.
2

Although Johnston beat and strangled Nugent to death six months before he beat and strangled Coryell to death, he was charged,
convicted, and sentenced for the murder of Coryell first. See Johnston v. State, 863 So. 2d 271, 277 (Fla. 2003). And the jury that
unanimously agreed Johnston should be sentenced to death for murdering Coryell heard nothing about his murder of Nugent. We
include a description of that crime in this opinion for the sake of completeness.

For all of the brutal crimes that Johnston had committed against the Alabama convenience store clerk in 1973, against Judy
Elkins in 1974, against Susan Reeder in 1974, against Julia Maynard in 1988, and against Carolyn Peak in 1988, he was
sentenced to a total of at least 43 years in prison. He served less than 20 years in all. Every time he was imprisoned for
violently attacking women Johnston was released early, and every time he was released early, he used that leniency as an
opportunity to violently attack other women, culminating in the murder of two women six months apart.

IV. JOHNSTON’S ARREST FOR THE MURDER OF LEANNE CORYELL
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 007

6

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

The day after LeAnne Coryell’s murder, the police publicized pictures captured by the ATM machines that Johnston had
used to withdraw money from Coryell’s account. Johnston, 841 So. 2d at 352. After learning that he had been identified as a
suspect, Johnston went to the police station to give a voluntary statement. Id. He told Detectives Iverson and Walters that he
had known Coryell for several weeks, that they were friends, and that they had gone out to dinner a few times. Id. He told the
detectives that the night of the murder he had met her for drinks at Malio’s at 6:15 p.m. and the two of them had then gone to
a restaurant called Carrabba’s about an hour later and stayed there until 8:30 or 9:00 p.m. Id. He also claimed that he had
loaned Coryell approximately $1,200 over the course of the several weeks that he had known her. According to Johnston,
before they parted ways, Coryell gave him her ATM card and PIN so that he could withdraw $1,200 to repay the loan he had
*629 made to her. Id. He said that after he left Carrabba’s restaurant he went home, changed clothes, went jogging, and then
withdrew $500 from her account. Id. He said he withdrew another $500 the next morning. Id. The ATM photographs and
records showed that he also unsuccessfully attempted to withdraw more cash from her account three times the night of the
murder and four more times the next day.
After Johnston admitted that he withdrew the $1,000 from Coryell’s account, the detectives arrested him for grand theft and
read him his Miranda rights. Then one of the detectives confronted Johnston with the fact that Coryell did not leave work
until 8:38 p.m. Johnston’s response was that one of her co-workers must have clocked out for her because he was with her at
that time. He was, however, unable to provide the names of anybody who could corroborate that he was out with Coryell that
evening.
The detectives then told Johnston that while executing a search warrant at his apartment earlier that day, they found his tennis
shoes and they were completely wet. He tried to explain the wet shoes by claiming that he jumped into the hot tub, shoes and
all, to wash off after jogging. During the interview, one of the detectives noticed scratches on Johnston’s wrist. When asked
about those scratches, Johnston claimed that he had been moving some boxes earlier at work and that he had also fallen while
jogging. The detectives asked him several times whether he was involved in Coryell’s death. He responded that they would
not find any DNA evidence, hair, or saliva linking him to the crime. Johnston, 841 So. 2d at 353. He had taken care to wash
that evidence off Coryell’s body by putting it into the retention pond, but he did leave his fingerprint on her car. See id. at
352.
While he was in jail awaiting trial, Johnston wrote to his pen pal, Laurie Pickelsimer, and asked her to provide a false alibi
for him. Id. Johnston asked her to tell his attorneys that on the night of the murder the two of them were working out in the
gym at his apartment complex from 9:00 p.m. until about 10:30 p.m., except for a short time when he walked back to his
apartment to get them a drink. Id. He told Pickelsimer in the letter that if she would lie for him she might get some money
from his family. She refused and later told the prosecutor about Johnston’s letter.

V. THE STATE COURT PROCEEDINGS

A. The Guilt Stage of the Trial
After a lengthy guilt stage trial with 56 witnesses, and after hearing overwhelming evidence against Johnston, a Florida jury
found him guilty of these crimes against LeAnne Coryell: first degree murder, kidnapping, robbery, sexual battery, and
burglary of a conveyance with assault. See Johnston, 841 So. 2d at 351–53.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 008

7

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

B. The Sentence Stage of the Trial
During the sentence stage that followed, the State introduced testimony from three of the victims Johnston had violently
assaulted: Susan Reeder, Julia Maynard, and Carolyn Peak, all of whom testified in detail about how Johnston had attacked
them. Id. at 353. The State also called Dr. Vega, the medical examiner who conducted Coryell’s autopsy. Id. at 352. The jury
had already heard during the guilt stage the details of Johnston’s brutal attack and murder of Coryell. See Part I, above. At
the sentence stage the State added to that evidence more testimony from Dr. Vega. Johnston, 841 So. 2d at 353. Among other
things, he told the jury that Coryell was likely conscious at the time Johnston raped and beat her, and that she was likely
conscious *630 for up to two minutes while Johnston strangled her. Id.
The State called three people to give victim impact evidence: Coryell’s father, Dr. Dyer, and Matthew Hartsfield (her pastor).
Id. We have already summarized their testimony about how Coryell’s death had affected her family, her colleagues, and her
parish. See Part I, above.
Defense counsel called a number of witnesses to provide mitigating evidence. Four mental health experts: Dr. Frank Wood,
Dr. Diana Pollock, Dr. Michael Maher, and Dr. Harry Krop, testified about Johnston’s mental health problems. Id. at 353–54.
Three of them testified that in their opinion he had frontal lobe brain damage, which impaired his decision-making. Id. But
Dr. Pollack admitted on cross-examination that despite conducting an MRI and a recording of brain waves (EEG), she did not
find any abnormal structural defects, lesions, tumors, or similar abnormalities in Johnston’s brain. And Dr. Maher testified
that in his opinion, Johnston was aware of what he was doing, including “the likely result of his actions,” when he murdered
Coryell. He also testified that Johnston did not suffer from schizophrenia or split personality disorder. Dr. Krop testified that
Johnston had an IQ of 104 and performed within or above normal limits on memory, speech, and information reception tests.
The defense also called Sara James (Johnston’s mother), Susan Bailey (one of his ex-wives), and Rebecca Vineyard (his
younger sister) to testify on his behalf. Johnston’s mother talked about his positive characteristics and good behavior, and she
begged the jury not to execute him. Id. at 354. His ex-wife testified that while they were married Johnston cooked, cleaned,
and took an active role in her two daughters’ lives, and that he was a model husband. Id. She also said that little things could
make him suddenly angry and cause him to “snap.” His sister told the jury that since Johnston was a child, he had tried too
hard to win other people’s approval and could not handle being rejected or feeling humiliated. Id.
Five other people testified on Johnston’s behalf. Three of them — Gloria Myer, William Jordan, and John Field — were
people who had worked in prisons where Johnston served time. They testified about how he was a good worker, followed
instructions, got along with other inmates, and did not cause any disciplinary problems. Id. John Walkup, Johnston’s
probation officer, told the jury that he had recommended that his probation be ended early because Johnston had a good
family life, had a good job, reported regularly, and paid his fees. Id. Finally, Bruce Drennan, the president of the Brandon
Chamber of Commerce, told the jury that Johnston represented a company that was a member of the Chamber. Id.
Johnston decided to testify. Id. He admitted to killing Coryell. Id. According to his testimony, on the night of the murder he
had just gotten out of the hot tub and was walking back to his apartment when he saw Coryell pull into the parking lot and
begin taking groceries out of her back seat. Johnston walked up to her and asked if he could help. Coryell either didn’t
respond or “just said hi or hello” and didn’t take him up on his offer. So he “grabbed her arm” and asked again. What
happened next, Johnston described as follows:

And I don’t know, Joe,3 it was like I reached for her and I was going to grab both of her shoulders, but
I grabbed her by the neck and it didn’t seem like it took but just a short time. I mean, it *631 wasn’t —
I don’t even remember her — I don’t even remember her reaching for me, it didn’t seem like. It took
just a short time.

When defense counsel asked Johnston why he put his hands around Coryell’s neck, Johnston said: “I wanted her attention
and I didn’t get it and I just — I just wanted her attention, and I didn’t get it and I grabbed her. It wasn’t — I just grabbed her
around the neck, Joe.”
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 009

8

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

3

Joe was the name of Johnston’s sentence stage attorney.

Johnston then explained that after he had strangled Coryell, she “was kind of bent,” “her legs just gave out and she hit her lip
on the edge of the door ... and then her chin hit the ground.” Johnston said he got down, rolled her over, and saw that her eyes
and mouth were open. He “tried to breathe in her mouth and she just laid there.” So he picked her up and put her in the back
seat of her car. He said that he thought he “broke her neck because” when he had his hands around her neck, he felt
something “push in.”
According to Johnston, once he had Coryell in her car, he got into the front seat and drove out of the apartment complex. He
decided not to take her up to her apartment because “there are security things” in the apartments and he didn’t know the code
to hers, and because he “didn’t want to be seen.” Instead, he took her to the field next to St. Timothy’s Church. When he
pulled into the field, he “got in the back seat and [he] put her head in [his] lap.” Her eyes were still open and she wasn’t
breathing. He held her face, and he was “just so mad” and “squeezed her head.” When asked why he was so mad, Johnston
said: “Cause I walked up to her and I just — I don’t know. She just didn’t respond to me, Joe.”
Johnston testified that he lifted Coryell’s body and sat it up by a tree. He explained that he was still “angry.” He said: “I can’t
— I don’t know how — you just have to feel it. You just have to feel it. It’s like you know exactly what you’re doing; you’re
aware of exactly what you’re doing, you know what’s going on around you; you just can’t stop.” Johnston said that after he
sat Coryell by the tree, he took off all her clothes and scattered them on the ground. He picked up her right leg and “dragged
her” away from the tree. Then he lifted up her leg and “kicked her .... [i]n her crotch.” After that he struck her with her belt
“about four” times.
When asked why he did those things to Coryell’s body, Johnston claimed that he wanted to “make her look like she was
assaulted.” He said: “I’m trying to make her look like, when somebody finds her at the church, that she had been assaulted
and yet cover my ownself up.”
Johnston recounted how he next “dragged her to the pond,” “laid her down,” and “rolled her on her stomach.” Then he “laid
down there with her in the dirt on [his] stomach.” He gave no explanation for that. After a few minutes went by, a car passed
through the church parking lot, so Johnston “took off running.” He ran to a pool, sat on the edge, and “tried to get the dirt off
[his] legs.” Then he hid his shirt behind some bushes and ran home. Once inside, he washed his shoes off in the bathtub, took
a shower, and put his shoes in the dryer.
Johnston said that after he was dressed in new clothes, he went back to the church parking lot to “check on her to see if
anybody found her yet.” When he pulled in, he stopped at Coryell’s car, reached in, and took her purse. Inside he found a
wallet and an address book. He said he may have found “a brush or something” too. Johnston took Coryell’s ATM card from
her wallet and her PIN from her address book.
*632 Johnston recounted that he immediately drove to the Barnett Bank ATM machine and, using Coryell’s ATM card,
withdrew from Coryell’s account the limit of $500. Then he drove to another bank and tried to use the card there, he
explained, “to see if there was any transactions left to be made” for that day. There weren’t, so he left. When asked if he
knew that his picture was being taken at the ATM machines, he said he did. He added: “I think at that time, like every other
time, it’s like — it’s like you do this stupid stuff and then you sit down and you say what have I done. Then you got to hide
yourself. You got to hide what you’ve done. You got to cover it up. And I think — I think when I showed my — I think I
wanted to show my picture.”
During cross-examination, the prosecutor asked Johnston: “You’re telling this jury that you wanted to get Leanne Coryell’s
attention and you didn’t get it, so you killed her; is that what you’re telling them?” Johnston said: “Yes, sir.” The prosecutor
rephrased the question: “You killed her because she didn’t respond to your hello; is that what you’re telling this jury?”
Johnston again said, “Yes, sir.”
The prosecutor also asked Johnston about the series of lies that he had told the police and the media following the murder.
The prosecutor asked: “You lied to Detective Walters ... that you had loaned Leanne Coryell twelve hundred dollars over
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 010

9

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

several, several weeks, didn’t you?” Johnston replied: “Yes, sir, I did.” The prosecutor asked: “And you lied to Detective
Walters when you said Leanne Coryell voluntarily gave you that ATM card at Carrabba’s Restaurant to pay you back this
money, didn’t you?” Johnston replied: “Yes, sir, I did.”
The prosecutor asked: “After you were arrested, you not only lied to Detective Walters, you lied to all the television stations
you called up, didn’t you?” Johnston replied: “Yes, sir, I lied to everyone.” The prosecutor asked: “You made it a point to
call the stations and tell them that you had known Leanne Coryell for several weeks, didn’t you?” Johnston replied: “Yes,
sir.” The prosecutor asked: “And that was a lie, obviously, right?” Johnston replied: “Yes, sir.”
The prosecutor continued, asking: “And you lied to the television stations when you told them that you couldn’t kill such a
sweet, sweet girl?” Johnston replied: “Yes, sir.” The prosecutor asked: “And you lied to the television stations when you told
them that you had gone dancing with her at Malio’s?” Johnston replied: “Yes, sir.” The prosecutor asked if Johnston had tried
to get his pen pal to lie about his alibi in front of the jury. Johnston replied: “Yes, sir.” The prosecutor asked if Johnston
“wanted to manipulate the media” to “get [his] defense out.” Johnston replied: “Yes, sir.”
During cross-examination, Johnston also admitted to attacking Susan Reeder. He admitted that he ambushed her at
knifepoint, drove her to an isolated area, made her undress, beat her with a belt, and raped her. When asked if he was acting
on impulse during his attack, Johnston said: “It’s the same old thing, same old story, same old action.” When asked if there
were a lot of similarities between his attack of Susan Reeder and his murder of Coryell, Johnston said: “They’re all the same.
They’re all the same old things.”
Johnston also admitted to attacking Julia Maynard. He admitted that he broke into her house, took photographs of her, and
tied her up. When the prosecutor asked him if he had to climb through a window to get in, he explained that “you do
whatever it takes because you don’t have the power to stop whatever it takes.” When asked why he wore a mask and *633
gloves, he said: “Again, it goes back to the means, that you do the things that you — that it takes to do whatever it is that
you’re going to do. If it’s a mask, if it’s gloves, if it’s clothes, if it’s a car, if it’s hair, it doesn’t matter.”
Johnston also admitted to attacking Carolyn Peak. He admitted that he ambushed her as she was getting out of her car. And
when asked, “Much like you did Ms. Coryell and much like you did Ms. Reeder, right,” he replied, “Same old thing.”
The jury unanimously recommended that Johnston be sentenced to death. Johnston, 841 So. 2d at 355. After holding a
Spencer hearing,4 the trial court found the following aggravators: (1) Johnston was previously convicted of violent felonies;
(2) the crime was committed while Johnston was committing sexual battery and kidnapping; (3) the crime was committed for
pecuniary gain; and (4) the murder was especially heinous, atrocious, or cruel. Id. at 355 n.3. The court found one statutory
mitigator: Johnston’s capacity to appreciate the criminality of his conduct or to conform his conduct to the requirement of
law was substantially impaired. Id. at 355 n.4. It also considered all of the nonstatutory mitigating circumstances the defense
offered and in its order indicated the weight, if any, it gave each alleged mitigating circumstance. Sentencing Order, State v.
Johnston, Case No. 97-13379, 2000 WL 35771916 (Fla. Cir. Ct., Crim. Div. March 13, 2000) (available in Johnston, 841 So.
2d 349, Appeal Record, Ex. A-18 at 1833–39).5 The court followed the jury’s recommendation *634 and imposed the death
penalty. Johnston, 841 So. 2d at 355.
4

“A Spencer hearing occurs after the jury has recommended a sentence but before the judge imposes a sentence.” Kormondy v.
Sec’y, Fla. Dep’t of Corr., 688 F.3d 1244, 1271 n.29 (11th Cir. 2012) (citing Spencer v. State, 615 So. 2d 688, 691 (Fla. 1993) (per
curiam)).

5

The State trial court’s order, which it read into the record, stated: “The defense offered and this Court considered each of the
following factors: (A) The time passing between the decision to cause the victim’s death and the time of the killing itself was
insufficient under the circumstances to allow Defendant’s cool and thoughtful consideration of his conduct. This was given no
weight. (B) It is unlikely that the Defendant would be a danger to others while serving a sentence of life in prison. This is given no
weight. (C) Defendant has shown remorse. This is given slight weight. (D) The Defendant did not plan to commit the offense in
advance, it was an act of a man out of control, and in an irrational frenzy. This was given no weight. [E] The Defendant has a long
history of mental illness. His mother and sister testified about his hospitalization as a child at the Hillcrest Institution in Alabama,
where as a teenager he received electro shock treatments and was thought to be schizophrenic. This was given slight weight. (F) As

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 011

10

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810
testified to by Dr. Michael Maher, the Defendant suffers from a disassociative disorder. This was given no weight. (G) The
Defendant suffers from seizure disorder and blackouts, but there is no evidence that any such disorder contributed to this crime.
This was given no weight. (H) The murder was the result of impulsivity and irritability. This was given no weight. (I) The
Defendant is capable of strong loving relationships. His mother, sister and former wife testified at length as to his ability to love
and be loved. He lavished affections on his ex-wife, Susan Bailey. She believed they would have still been together if not for his
mental problems. This was given slight weight. (J) The Defendant is a man who excels in a prison environment. Chaplain Fields
and Gloria Myers established this in mitigation, and Dr. Maher also testified that he would do well in the structured environment of
prison. This was given slight weight. (K) The Defendant could work and contribute while in prison, as he has done in the past. He
could teach and be an example to other prisoners not to follow the same life-course he has. This was given slight weight. (L) The
Defendant has extraordinary musical skills and is a gifted musician, according to the testimony of Chapl[a]in Fields. This was
given no weight. (M) The Defendant obtained additional education from the University of Florida while he was in prison in 1992.
This was given no weight. (N) The Defendant served in the United States Air Force and was honorably discharged in 1974. This
was given slight weight. (O) The Defendant refused workman’s compensation and wanted to work for a living despite constant
headaches and seizures he was having. This was given no weight. (P) During the time that the Defendant was on parole, he
excelled and was recommended for early termination, showing a propensity and desire to do well in the world. This was
established by his former probation officer. This was given slight weight. (Q) The Defendant was a productive member of society
after his release from prison and took care of his wife and daughter with a good job and supported the household. This was given
slight weight. (R) When notified that the police were looking for him, he did not flee, but turned himself in and otherwise offered
no resistance to his arrest. This was given slight weight. (S) The Defendant demonstrated appropriate courtroom behavior during
trial. This was given slight weight. (T) The Defendant has tried to conform his behavior to normal time after time, but has been
thwarted by his mental illness and brain disfunction. This was given slight weight. (U) The Defendant has a special bond with
children, as testified to by his sister and ex-wife. This was given no weight. (V) The Defendant has the support of his mother and
sister who will visit him in prison. This was given slight weight. (W) The Defendant can be sentenced to multiple consecutive life
sentences in addition to the sentence for first degree murder. He will die in prison and the death sentence is not necessary to protect
society. This was given no weight. (X) The totality of circumstances do not set this murder apart from the norm of other murders.
This was given no weight. (Y) Defendant might be subject to Jimmy Ryce Act involuntary commitment. This was given no weight.
(Z) The Defendant offered to be a kidney donor for his ex-wife. This was given slight weight.”

C. The Direct Appeal
Johnston appealed his convictions and death sentence to the Florida Supreme Court. He contended that one of the jurors from
his trial should have been disqualified and that his trial counsel was ineffective for not individually questioning jurors who
had exposure to pretrial publicity. See Johnston v. State, 841 So. 2d 349, 355–58 (Fla. 2002). He also contended that his
death sentence was invalid because the trial court did not instruct the sentence stage jury about, or address in its sentencing
order, the mitigating circumstance of “extreme mental or emotional disturbance at the time of the offense.” Id. at 358–61. The
Florida Supreme Court rejected each of those contentions, and it added that his death sentence was proportional to the
circumstances of his crime. Id. at 360–61.

D. The State Post-Conviction
Johnston then filed a motion for state post-conviction relief. He raised twelve claims, most of which asserted ineffective
assistance of counsel. The Florida circuit court denied relief on all of those claims. See Florida v. Johnston, Case No.
97-13379 (Hillsborough Cty. Cir. Ct. Feb. 5, 2009). Johnston appealed to the Florida Supreme Court, and while that appeal
was pending, he also filed a state habeas petition with it. The Florida Supreme Court affirmed the denial of his state
post-conviction motion and denied his state habeas petition. Johnston v. State, 63 So. 3d 730 (Fla. 2011).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 012

11

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

VI. THE FEDERAL DISTRICT COURT PROCEEDINGS
Having failed in state court, Johnston filed a 28 U.S.C. § 2254 petition in the Middle District of Florida, and then amended it.
In the amended petition he claimed that he was entitled to habeas relief on grounds of juror misconduct, defects in the jury
instructions and in the sentence order, and because of ineffective assistance of counsel. The district court denied his petition,
his later Rule 59(e) motion to alter or amend the judgment, and his motions for a certificate of appealability.

*635 VII. DISCUSSION
We granted Johnston a certificate of appealability on two issues: (1) whether he was denied effective assistance of counsel
because his attorneys failed to investigate and call Diane Busch as a witness at the guilt stage, and (2) whether he was denied
effective assistance of counsel because his attorneys failed to investigate and call Diane Busch as a witness at the sentence
stage. We will begin our discussion of those issues with a description of the relationship between Johnston and Busch.

A. The Facts Involving Diane Busch and Johnston
Diane Busch was a friend of Johnston for a short period of time. After meeting in the beginning of June 1997, they began
seeing each other socially. Two weeks later, Busch fell ill and was admitted to the intensive care unit for treatment. She was
in the hospital for four months. Johnston continued seeing Busch for a few weeks while she was in the hospital, but their
relationship ended shortly before he murdered LeAnne Coryell in August of that same year.
After the police arrested Johnston on August 21, Detective Taylor interviewed Busch at the hospital four days later.
According to Detective Taylor, Busch told her that she had started dating Johnston after meeting him at church, and that he
was “very polite and nice to her.” Busch recounted how he was “overly anxious to please, even offering to watch her children
for her,” and that she had called Johnston when she suffered an asthma attack and needed to go to the hospital.
Things changed, however, after Busch was admitted to the hospital. Johnston began acting possessive of her and became
“verbally abusive to her family and the nurses.” When Busch “finally realized how out of control things were getting, she
requested that Johnston not be permitted to enter her ICU room any longer” and asked the hospital staff to stop accepting his
phone calls to her.
After interviewing Busch, Detective Taylor interviewed her mother and sister and three of the nurses who had treated Busch.
They told her that Johnston was controlling, would not abide by hospital rules, had threatened the nurses, had threatened
Busch’s parents, and had threatened her friends. Each nurse recalled instances in which Johnston had made sexual comments
or advances toward Busch while she was heavily medicated and they were attempting to treat her. One of them told Detective
Taylor how she had once found Johnston on top of Busch in the hospital bed while the medical alarms were going off, and
when the nurses tried to attend to her, Johnston wouldn’t allow them to do it. Only a nurse’s threat to call hospital security
got him to leave. All three nurses told the detective that they were uncomfortable around Johnston, and two of them were so
disturbed by his behavior that they asked hospital security to walk them to their cars at the end of their shifts.
Busch’s mother told Detective Taylor that she had met Johnston for the first time at the hospital and was “very upset over his
behavior, his language, and his treatment of Diane and the nurses.” She told her that Johnston had used Busch’s car while
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 013

12

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

Busch was in the ICU. She also told her about finding in the car while Johnston was using it a bag containing “a pair of
surgical gloves, an elastic type wristband, and a knife ... with an approximate 2 [inch] pointed blade.” Busch’s mother had
filed a report with the Sheriff’s Office about the bag and its contents, but the Sheriff’s Office took no action after determining
that “no crime had been committed.”
*636 Diane Busch’s sister told Detective Taylor that Johnston took Busch’s “vehicle without anyone’s permission and that
Diane was very heavily medicated at the time.” The family “had to request the vehicle back from Johnston.” She remembered
that in response Johnston “threw the keys at her parents.” Three weeks later, Detective Willette interviewed Busch over the
phone. She told him that Johnston had used her car while she was in the hospital, but that “he did not have permission” to do
so.
After those interviews, the State listed Diane Busch as a witness who might have information relevant to the case. It gave that
list, along with a copy of the detective reports, to the defense team before trial. Defense counsel gave those documents to
Johnston, and Johnston reviewed them and gave his attorneys written notes about them.
In those notes Johnston wrote that there was “[a] lot of history” between himself and Busch, and she “need[ed] to be
interviewed by herself.” He explained that he “stayed with her for 15 days and nights and saved her life 3 times.” He claimed
that while he was “very protective of her” in the hospital, it was “not to the point where [he] was rude to others.” He also
noted that the “deposition [he] gave for her divorce [would] more closely explain the role [he] played in her life.” He listed
her phone number and added her name to two lists of potential witnesses. One list was: “Witnesses to the fact that we drove
their cars on dates and not mine. The same as I did w/ Leanne.” The second list was: “Women I had personal relationships
with.”
Johnston testified during state post-conviction proceedings that he didn’t just give his attorneys notes about Busch, he
discussed her with his defense team several times before trial. He recalled telling them that he “protected her and her
possessions,” that he “took ten thousand dollars of hers” and “watched over it in her house,” and that he “gave all of [it] back
to her when the proper time came.” Although there are no records corroborating those discussions, one of his former
attorney’s handwritten notes reflect that Johnston showed her “the depo from Diane Busch’s divorce/custody case,” told her
that “he had been with Diane when she was ill” and “helped her out,” and said that he was “trying to have positive
relationships [with] women” and “wanted to overcome his past behavior.”
Neither of the attorneys who represented Johnston at trial (one was lead counsel during the guilt stage and the other during
the sentence stage) contacted Diane Busch to investigate whether she would be a favorable witness. Johnston’s lead attorney
at the guilt stage said he could not remember who Busch was or whether he ever spoke with her. And Johnston’s lead
attorney at the sentence stage stated that because Johnston never told him about Busch, he did not attempt to contact her.
During state post-conviction proceedings, Busch testified that had defense counsel reached out to her, she could (and would)
have testified on Johnston’s behalf. She denied that Johnston was verbally abusive to her family and claimed not to recall
telling the nurses or the detectives that he was. She also claimed that she did not recall telling anybody that she thought things
were “getting out of control” or requesting that Johnston be banned from visiting or calling her in the ICU.
Instead, Busch testified in the state post-conviction proceeding that while she was in the hospital, Johnston “managed all of
[her] medical care” and that “[h]is role was nothing short of a caring, loving individual wanting the best possible care for the
success of recovery.” She even went as *637 far as crediting Johnston with saving her life. She explained that “nobody in the
hospital would listen to the pain [she] was in” and that “by the minute [she] was failing.” Johnston “was very, very concerned
and protective and listened to everything that [she] said.” He was “the only one that shook people up and gave attention to”
the fact that her “organs were shutting down.” She claimed that he “got [her] to another hospital and orchestrated the doctors
to coordinate what [was] going on,” and “complete[ly] manage[d]” the situation. “Without him,” she thought, “[she] would
have died.”
Busch also testified that on her second day in the ICU, she asked Johnston to help her remove $10,000 from her home so that
her estranged husband could not take it. Johnston agreed and went to Busch’s house with one of her friends. He retrieved the
money from under Busch’s mattress, counted it, and gave it to the friend, who immediately deposited the money into her own
bank account for safekeeping. Busch added that while she was in the hospital, Johnston had access to her vehicle, her credit
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 014

13

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

cards, and her home, and he never stole from her.
Busch acknowledged that her family made her cut off all contact with Johnston when they became involved with her care and
that they retrieved her personal belongings from him. But she asserted that her family took those steps not because they were
upset with Johnston’s behavior in the hospital, but because they found out about his violent past and did not want him around
her. Busch also testified that while watching the news in the hospital, she saw that law enforcement was looking for Johnston
in connection with the Coryell murder (based on an ATM photo of him) and in response she called the Crimestoppers number
to identify him.
During cross-examination, the State asked Busch about some statements she had made to either the prosecutor or detectives
before trial about a sexual encounter she had with Johnston:
Q: [D]idn’t you [state] that you were shocked and frightened either during or as a result of Mr. Johnston’s behavior during
[a] sexual encounter?
A: I don’t recall saying that. But I was in an 18-year stale marriage, and the encounter was different.
Q: And do you recall [stating] that the defendant used phrases that shocked you such as, excuse my language, bitch and
fucking bitch?
A: I don’t recall exactly.
Q: Do you recall indicating that the defendant turned into a mean character during that encounter?
A: I don’t recall.
Q: Do you recall [stating] in words or substance, because I don’t know if this is a direct quote or my interpretation as I’m
writing my notes, that the defendant either loved or was enamored or obsessed with the buttock area?
A: I don’t recall.6
6

When asking Busch about these statements, the prosecutor said he was reading from his notes about her pretrial deposition. But
neither his notes, nor a transcript of any pretrial deposition, is in the record. During oral argument before us, the attorney for the
State said that it is unlikely that there ever was a pretrial deposition, and that the prosecutor was probably reading from notes about
a pretrial interview of Busch by the police.

On redirect, Johnston’s post-conviction attorney asked Busch if she remembered “any instance when Ray Lamar Johnston
frightened [her] in any manner or mistreated [her] in any way.” She answered, “[n]o.” Later Johnston’s attorney asked if
there was anything that she had “left out” that she “wish[ed] to comment on.” She *638 responded: “As I sit here in reflection
of the encounter that I had with Mr. Johnston ten years ago sexually, to this date, that encounter is not unusual. I feel that it’s
kind of the norm of a lot of gentlemen, so I just wanted to add that.”

B. The Two Claims Relating to Diane Busch
In his state post-conviction motion, Johnston claimed that it was ineffective assistance of counsel not to investigate what
Diane Busch could testify to and not to call her as a witness at both the guilt and sentence stages of trial. As for the guilt
stage, he claimed that Busch’s testimony about how he did not steal the $10,000, her credit cards, or her car would have
undermined the State’s theory that he murdered LeAnne Coryell in part for monetary gain. And as for the sentence stage, he
claimed that Busch’s testimony about how he cared for her and saved her life in the hospital would have provided powerful
non-statutory mitigating evidence and swayed the jury not to impose the death penalty.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 015

14

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

The Florida trial court rejected both claims and denied Johnston’s post-conviction motion. The Florida Supreme Court
affirmed. Johnston v. State, 63 So. 3d 730, 741 (Fla. 2011). It held that Johnston’s trial counsel was not deficient in failing to
investigate and call Busch as a witness “[g]iven the slight value of her proffered testimony and the likelihood that it would
have opened the door to the prosecution’s highly damaging cross-examination and impeachment evidence.” Id.
We review a state court’s denial of a claim on the merits only to determine if the state court’s decision (1) “was contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the
United States,” or (2) “was based on an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(1)–(2).
There are two showings that a petitioner must make to have a valid ineffective assistance of counsel claim: deficiency and
prejudice. Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). Where a state court denies
an ineffective assistance of counsel claim for failure to show that counsel performed deficiently, without reaching the
prejudice issue, we may skip over the deficiency issue and deny the claim if we determine for ourselves that the petitioner has
not established prejudice. See Rompilla v. Beard, 545 U.S. 374, 390, 125 S.Ct. 2456, 162 L.Ed.2d 360 (2005) (“Because the
state courts found the representation adequate, they never reached the issue of prejudice, and so we examine this element of
the Strickland claim de novo.”); Reaves v. Sec’y, Fla. Dep’t of Corr., 872 F.3d 1137, 1151 (11th Cir. 2017); Ferrell v. Hall,
640 F.3d 1199, 1224 (11th Cir. 2011).
That is the course we will follow here. We will not pass on the Florida Supreme Court’s decision that counsel did not
perform deficiently regarding Diane Busch as a potential witness at the guilt or sentence stage because, even if they did,
Johnston cannot show prejudice. That is true as to both stages.
To show prejudice, the petitioner must establish that his counsel’s errors were so serious that they deprived him of a fair trial
or sentence proceeding, or in other words, one whose result is reliable. Strickland, 466 U.S. at 686–87, 104 S.Ct. 2052. That
occurs if there is a “reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different.” Id. at 694, 104 S.Ct. 2052. And “reasonable probability” *639 means “a probability sufficient to
undermine confidence in the outcome.” Id. In gauging that, we must consider “the totality of the evidence before the judge or
jury.” Id. at 695, 104 S.Ct. 2052.

1. The Guilt Stage Ineffective Assistance of Counsel Claim
Johnston contends that if trial counsel had called Diane Busch at the guilt stage, there is a reasonable probability that the jury
would have found him not guilty of murdering LeAnne Coryell. See Strickland, 466 U.S. at 694–95, 104 S.Ct. 2052.
Johnston cannot make that showing.
We begin by noting an intriguing question arising from the fact that during the sentence stage Johnston took the stand and
under penalty of perjury confessed that he had murdered Coryell. (He hoped that strategy would make a favorable impression
on the jury and help him escape a death sentence, but it did not.) The question is whether his confession at the sentence stage
washes back to the prejudice determination regarding the guilt stage ineffective assistance of counsel claim he is pursuing.
The prejudice inquiry, after all, is “focuse[d] on the question whether counsel’s deficient performance renders the result of
the trial unreliable or the proceeding fundamentally unfair.” Lockhart v. Fretwell, 506 U.S. 364, 372, 113 S.Ct. 838, 122
L.Ed.2d 180 (1993).
One could certainly argue that a guilty verdict is not an unreliable result and a conviction is not fundamentally unfair where
the defendant has taken the stand in a later stage of the same trial and under oath voluntarily confessed that he is guilty of the
crime. As intriguing as that question is, we have no need to answer it. Even disregarding entirely Johnston’s sentence stage
confession, he has not carried his burden of establishing that if Diane Busch had testified at the guilt stage, there is a
reasonable probability that the jury would not have convicted him of murdering Coryell.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 016

15

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

This claim of ineffective assistance of counsel at the guilt stage is related to the prosecution’s theory at trial that Johnston’s
motive for murdering Coryell was that he needed money, which he obtained by using her ATM card and PIN after he killed
her. Busch testified at the state post-conviction hearing about Johnston helping her get $10,000 from her house while she was
bedridden in the hospital. Johnston argues that her testimony undermines the motive the prosecution put forward because if
he had been desperate for money he would have stolen that $10,000. Motive “is not an essential element of the crime of first
degree murder and a person may be convicted of this crime even if no motive is established.” See Bedoya v. State, 779 So. 2d
574, 578 (Fla. 5th DCA 2001). In any event, the testimony that Busch could have given as a guilt stage witness would not
have refuted the prosecution theory that Johnston needed money and killed Coryell to get it.
According to Busch, in order to keep her estranged husband from getting it, she wanted $10,000 that she had hidden under
her mattress put into a bank. She could not move the money because she was in the ICU. So she asked Johnston and a woman
who was a friend of hers to do it for her. They agreed and went to Busch’s house. Johnston got the money from under
Busch’s mattress, counted it, and gave it to Busch’s friend who was standing there, and who immediately deposited the
money into her own bank account for safekeeping. Busch added that while she was in the hospital, Johnston had access to her
vehicle, her credit cards, and her home, but he never stole from her.
*640 Testimony that Johnston did not steal the $10,000 from Busch would not have persuaded a jury that he did not need
money. First, when Johnston had temporary access to Busch’s money, credit cards, and car, he was trying to establish a
romantic relationship with her. That gave him an incentive not to steal from her; had he stolen from her, Busch surely would
have broken things off with him, not to mention reported him to law enforcement. By contrast, Johnston was not having a
relationship with Coryell; they were strangers, and he had no incentive to be nice to her.
Second, even if Johnston had been willing to jeopardize his budding relationship with Busch by stealing from her, he would
have known that he could not get away with it. Busch sent Johnston to get the $10,000 cash and to see that it was deposited in
a bank. If he had stolen any of it she would have known. Johnston was accompanied by another friend of Busch’s who stood
by as he removed the money from under the mattress and counted it. She would have known if he had stolen it and would
have reported the theft to Busch or the police, or both. There is no way Johnston could have prevented Busch from knowing.
Busch, after all, had sent Johnston and her friend to her home together while she stayed in the ICU where she was surrounded
by hospital staff.
As for Busch’s credit cards and her car, she and her family knew that Johnston was driving her car while she was in the
hospital, and Busch knew that he had access to her credit cards. Had he stolen either the credit cards or the car, he would have
been identified as the thief in no time. The point is that the fact Johnston did not steal from a woman he had a relationship
with when he almost certainly would have been caught does not mean that he did not have a need for money that motivated
him to rob and kill a stranger when he had a chance of not getting caught.
Besides, the evidence proved beyond any doubt that Johnston did badly need money. In 1997, the year in which Coryell was
murdered and robbed, Johnston was “in and out of work.” That year alone he had written 53 insufficient funds checks,
resulting in $1,537 in fees. The month before the crime Johnston had prepared an affidavit for use in his divorce proceeding
stating that his monthly expenses ($1,709) exceeded his total monthly income ($1,680). One of his roommates had to loan
him money. On the night of the murder, when Johnston had only $53.55 in his bank account, one of his roommates had
dunned him for the $163.92 he owed for his share of the cable and phone bills. After Coryell was murdered and her ATM
card was used to get cash, Johnston paid the roommate in cash part of what he owed.
It is undisputed that Johnston used Coryell’s ATM card to obtain $500 within an hour and a half after she was murdered. And
he unsuccessfully attempted to use it to make three more withdrawals that night, all within minutes after successfully
withdrawing the $500. It is also undisputed that at 7:27 a.m. the morning after the murder Johnston used Coryell’s ATM card
to withdraw another $500 from her bank account. And he then used the ATM card four more times in the next four minutes
that same morning in unsuccessful attempts to get $500 more, then $500 more, then $100 more, and then $500 more.
Johnston was desperate for money. Nothing that Diane Busch could say about Johnston not stealing from her two months
earlier could change the fact that he had a motive for robbery on the night Coryell was murdered. There is no reasonable
probability that if Busch had testified the jury would not have convicted Johnston of the murder.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 017

16

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

*641 2. The Sentence Stage Ineffective Assistance of Counsel Claim
The theory underlying Johnston’s sentence stage claim is that Diane Busch would have been a powerful mitigating witness
because she would have testified about their brief relationship and spoken in glowing terms about everything that he did for
her while she was hospitalized. In her state post-conviction testimony she described how, while she was in the hospital,
Johnston “managed all of [her] medical care” and “[h]is role was nothing short of a caring, loving individual wanting the best
possible care for the success of recovery.” She even credited Johnston with saving her life. She explained that “nobody in the
hospital would listen to the pain [she] was in” and that “by the minute [she] was failing.” Johnston, she believed, “was very,
very concerned and protective and listened to everything that [she] said.” He was “the only one that shook people up and
gave attention to” the fact that her “organs were shutting down.” She claimed that he “got [her] to another hospital and
orchestrated the doctors to coordinate what [was] going on,” and “complete[ly] manage[d]” the situation. “Without him,” she
thought, “[she] would have died.”
Johnston argues that, in spite of all of the violent crimes he has committed against women throughout his adult life,
culminating in his brutal murder of Coryell, Busch’s favorable testimony could have turned everything around for him in the
sentence stage.
To decide whether there is a reasonable probability of a different sentencing result if Busch had testified as a mitigation
witness for Johnston, we combine the evidence that was not presented with the evidence that was presented at both stages of
the trial. Then we reweigh the totality of the mitigating circumstances against the totality of the aggravating circumstances.
See Williams v. Taylor, 529 U.S. 362, 397–98, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000) (explaining that we must consider
“the totality of the available mitigation evidence — both that adduced at trial, and the evidence adduced in the habeas
proceeding” and then “reweigh[ ] it against the evidence in aggravation”); see also Porter v. McCollum, 558 U.S. 30, 41, 130
S.Ct. 447, 175 L.Ed.2d 398 (2009). But there is another, important, aspect of the analysis.
In reweighing the aggravating and mitigating circumstance evidence to gauge prejudice, we must take into account any
unfavorable evidence that could have come in if the additional mitigating evidence had been presented. See Wong v.
Belmontes, 558 U.S. 15, 20, 130 S.Ct. 383, 175 L.Ed.2d 328 (2009) (per curiam) (explaining that “it is necessary to consider
all the relevant evidence that the jury would have had before it if [the petitioner] had pursued the different path — not just the
mitigation evidence [the petitioner] could have presented, but also the [aggravating] evidence that almost certainly would
have come in with it”); Jones v. Sec’y, Fla. Dep’t of Corr., 834 F.3d 1299, 1313 (11th Cir. 2016) (finding no prejudice
because if the witness had testified at the sentence stage about the defendant’s mental illness, “that testimony would have
opened the door to a significant body of unfavorable and damaging evidence”). And when reweighing the circumstances, we
focus on their weight, rather than their sheer number. Boyd v. Allen, 592 F.3d 1274, 1302 n.7 (11th Cir. 2010).
For more than forty years it has been established Eighth Amendment law that a defendant convicted of a capital crime has the
constitutional right to put before the jury as a mitigating circumstance “any aspect of a defendant’s character or record and
any of the circumstances *642 of the offense that the defendant proffers as a basis for a sentence less than death.” Lockett v.
Ohio, 438 U.S. 586, 604, 98 S.Ct. 2954, 57 L.Ed.2d 973 (1978). But nothing in the Constitution requires juries to look in
only one direction. Just as the circumstances of the crime and the defendant’s character may weigh in favor of a life sentence,
they may also weigh in favor of a sentence of death. The defendant’s character can be shown in his criminal history, by the
other crimes he has committed. Tuilaepa v. California, 512 U.S. 967, 972, 114 S.Ct. 2630, 129 L.Ed.2d 750 (1994) (noting
that a jury can consider “evidence of the character and record of the defendant” during the sentence stage); Simmons v. South
Carolina, 512 U.S. 154, 163, 114 S.Ct. 2187, 129 L.Ed.2d 133 (1994) (explaining that a defendant’s “prior criminal history”
is just one “of the many factors ... that a jury may consider in fixing appropriate punishment”). That is why we have
described what the jury heard about the brutal crimes Johnston committed against five other women before he murdered
Coryell. See Part II, above.
In making “an individualized determination” of whether a capital murderer should live or die, the circumstances of the crime
are important. Zant v. Stephens, 462 U.S. 862, 879, 103 S.Ct. 2733, 77 L.Ed.2d 235 (1983); see also Proffitt v. Florida, 428
U.S. 242, 251, 96 S.Ct. 2960, 49 L.Ed.2d 913 (1976) (upholding Florida’s capital sentencing statute in part because the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 018

17

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

determination of sentence “requires the trial judge to focus on the circumstances of the crime and the character of the
individual defendant”). That is why we have set out in detail how Johnston abducted, brutalized, and murdered Coryell, and
the pain and suffering he inflicted on her. See Part I, above; Payne v. Tennessee, 501 U.S. 808, 822, 111 S.Ct. 2597, 115
L.Ed.2d 720 (1991) (rejecting the idea “that the defendant, entitled as he was to individualized consideration, was to receive
that consideration wholly apart from the crime which he had committed”).
A critical part of the circumstances of the crime is the amount of harm it caused. This is not a new concept. As the Supreme
Court has explained, “the assessment of harm caused by the defendant as a result of the crime charged has understandably
been an important concern of the criminal law, both in determining the elements of the offense and in determining the
appropriate punishment.” Id. at 819, 111 S.Ct. 2597. It informs sentencing discretion. Id. at 820, 111 S.Ct. 2597. A State may
properly conclude, as Florida has, “that for the jury to assess meaningfully the defendant’s moral culpability and
blameworthiness, it should have before it at the sentencing phase evidence of the specific harm caused by the defendant.” Id.
at 825, 111 S.Ct. 2597. The specific harm to the murder victim herself is, of course, the ultimate loss –– the extinction of her
life, the complete removal of self from everything she was and ever hoped to be, and the separation of her from everyone in
this existence. That is not the only lasting harm a murderer inflicts on the innocent. The harm extends beyond the murder
victim herself to the emotional suffering and loss inflicted on her family, her friends, and her community.
It is constitutionally permissible and appropriate for a jury to consider all of that harm when arriving at a proper sentence. See
Jones v. United States, 527 U.S. 373, 395, 119 S.Ct. 2090, 144 L.Ed.2d 370 (1999) (“[T]he Eighth Amendment ... permits
capital sentencing juries to consider evidence relating to the victim’s personal characteristics and the emotional impact of the
murder on the victim’s family in deciding whether an eligible defendant should receive a death sentence.”) (plurality *643
opinion). As the Supreme Court explained in its Payne decision, victim impact evidence is a good “form or method of
informing the sentencing authority about the specific harm caused by the crime in question.” 501 U.S. at 825, 111 S.Ct. 2597.
It shows “the loss to the victim’s family and to society which resulted from the defendant’s homicide,” id. at 822, 111 S.Ct.
2597, and it illustrates the “full reality of human suffering the defendant has produced.” Booth v. Maryland, 482 U.S. 496,
520, 107 S.Ct. 2529, 96 L.Ed.2d 440 (1987) (Scalia, J., dissenting).
Justice Souter, concurring in the Payne decision, explained it this way: “Murder has foreseeable consequences. When it
happens, it is always to distinct individuals, and, after it happens, other victims are left behind.” 501 U.S. at 838, 111 S.Ct.
2597 (Souter, J., concurring). “Every defendant knows,” he continued, “that the life he will take by his homicidal behavior is
that of a unique person, like himself, and that the person to be killed probably has close associates, ‘survivors,’ who will
suffer harms and deprivations from the victim’s death.” Id. It is therefore “morally both defensible and appropriate to
consider such evidence when penalizing a murderer, like other criminals, in light of common knowledge and the moral
responsibility that such knowledge entails.” Id. at 839, 111 S.Ct. 2597.
For whatever reason, prosecutors don’t always put in victim impact evidence. But the ones in this case did. They introduced
extensive evidence about LeAnne Coryell’s character and about the survivors she left behind. Her father, her employer, and
her pastor all testified that LeAnne was a model parent, daughter, sibling, employee, coworker, and parishioner. They
described her as “passionate,” “intelligent,” “social,” “positive,” “loving,” and “warm.” They recounted all that she had done
for her little daughter Ansley and for others, and they recounted all that she was planning to do. For example, her pastor
testified that just weeks before she was murdered, she had visited him to “discuss how she could get even more involved in
the ministries of the church and how her life could be used in an even greater way to make a difference in this world.” Her
father and her employer told the jury what a bright future she had both in her personal and her professional life.
The testimony of LeAnne’s father painted a heartbreaking picture about the pain her family had suffered and continues to
suffer as a result of her horrific death. He told the jury about how the death of his daughter devastated her family. About how
he, his wife, and two sons “no longer hear the front door open with the greeting” from LeAnne and “the giggling” of Ansley.
About how there are “[n]o more nightly phone calls to discuss the day[’]s happenings.” “No more visits” to her apartment.
“No more family outings.” “Just a missing void of one sixth of what was a close knit family.”
Her father also told the jury about how LeAnne’s six-year-old daughter, Ansley, was with him and his wife when the police
came to his house with the news that LeAnne had been murdered. He described how difficult it was to tell a child that young
she would never see her mother again.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 019

18

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

LeAnne’s father also recounted for the jury how her death has caused her one brother to become “an angry young man” and
her other brother to withdraw from some of life’s everyday experiences. How it has caused her mother “to become an
emotional basket case,” and how it has caused him to become a “sarcastic and caustic old man long before [his] time.” He
spelled out for the jury that he and his wife will have to suffer for “approximately twenty-five *644 years,” that LeAnne’s
brothers will have to suffer for “approximately fifty years,” and that “little Ansley can expect to live with this loss of her
mother about seventy-five years.” And “[t]hat’s a long, long time. In fact, it’s a lifetime.” His final words to the jury were
that his family’s loss was “great — Ansley’s loss even greater,” and that he doubted “that any of the family will ever recover
from the shock of that knock on the door in the early morning hours of August 20, 1997.” The murder of LeAnne left an
awful hole in the lives of her brothers, parents, six-year old daughter, church, and community.
Evidence about all of that loss was before the jury and weighed heavily in favor of a death sentence. And there was more, of
course. The jury also heard the details of Johnston’s brutal abduction, assault, and murder of LeAnne. See Part I, above. The
jury heard about his attack on Judy Elkins and his rape of Susan Reeder and his assault of Julia Maynard and his armed
kidnapping of Carolyn Peak and his robbery and sexual assault of the Alabama store clerk.7 See Part II, above. And the jury
heard everything Johnston had to say about those crimes when he took the stand at the sentence hearing, including his
matter-of-fact confessions as well as his dismissals of his horrific attacks on one woman after another as “the same old thing,
the same old story, same old action.” See pages 630–33, above. They heard Johnston refer dismissively to his abduction,
robbery, and murder of LeAnne as “stupid stuff.” See page 631–32, above. Not terrible, horrible, vicious crimes, but merely
“stupid stuff.”
7

The jury did not hear any evidence about Johnston’s brutal assault and murder of Janice Nugent six months before he brutally
raped and murdered LeAnne. He has since been convicted for murdering Nugent. Johnston, 863 So. 2d 271. If there were a future
trial in this case the prosecution likely could present evidence about Johnston’s murder of Nugent.

To overcome the extensive and weighty aggravating circumstances in this case Johnston would have had to introduce equally
powerful mitigating circumstances. See Ray v. Ala. Dep’t of Corr., 809 F.3d 1202, 1210–11 (11th Cir. 2016) (concluding
petitioner could not show prejudice despite “profound and compelling” mitigating evidence because of the “heinous nature of
the offense and prior convictions”). He did not. During the sentence stage Johnston called four mental health experts, three
family members, and five other character witnesses. See Part V.B, above. He also testified himself. See id.
We know that the jury did not find Johnston’s mitigating circumstance evidence compelling when compared to the facts of
the crime, his violent criminal history, and other aggravating circumstances because they heard all of it and still unanimously
sentenced him to death. The addition of the Diane Busch evidence would not have been strong enough to tip the scale in
Johnston’s favor. In fact, when all was said and done, it probably would have caused him more harm than good.
Had defense counsel called Diane Busch as a mitigation witness, the prosecutor would have had the opportunity to
cross-examine her and call rebuttal witnesses. See Dawson v. Delaware, 503 U.S. 159, 167–68, 112 S.Ct. 1093, 117 L.Ed.2d
309 (1992) (explaining that if a capital defendant introduces “good” character evidence, the State is entitled to introduce
“bad” character evidence in rebuttal); Chandler v. United States, 218 F.3d 1305, 1321 (11th Cir. 2000) (explaining that
calling character witnesses could be “counterproductive” because it “might provoke harmful cross-examination *645 and
rebuttal witnesses”). That would have allowed the prosecution to add more courses of damaging facts to the wall of
aggravating evidence it had already built against Johnston.
If trial counsel had called Busch as a witness at the sentence stage, as petitioner insists he should have, the prosecutor could
have cross-examined her regarding statements she had made about Johnston’s behavior when she was interviewed by
Detective Taylor and again by Detective Willette while she was in the hospital. According to the detectives’ reports, she
made a number of statements to them that were extremely unfavorable to Johnston and that contradicted the good things she
would have had to say in her direct testimony about his good nature and character. See pages 635–37, 637–39, above.
In the state post-conviction hearing, Busch testified that she did not recall either of the interviews happening, and when asked
about each statement testified that she did not recall making it. Under Florida law, if a witness “denies making or does not
distinctly admit making the prior inconsistent statement, extrinsic evidence of such statement is admissible” for impeachment
purposes. Pearce v. State, 880 So. 2d 561, 570 (Fla. 2004). If Busch had been called as a witness for Johnston at the sentence
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 020

19

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

hearing and had testified on cross-examination that she did not recall making those derogatory statements about him, the
detectives could have testified to her prior inconsistent statements. Their testimony would have impeached her own testimony
and undermined anything good that she had to say about Johnston.
In addition to destroying Busch’s credibility by cross-examining her about her inconsistent prior statements, the prosecutor
would have been able to bring out why Busch’s family had made her cut all of her ties to Johnston. She testified in the state
post-conviction proceeding that her family had made her quit seeing him because of his violent past. The prosecutor would
have presented the fact that Busch identified Johnston to law enforcement after learning of LeAnne’s murder. And if Busch
had testified at the sentence hearing about how kind Johnston had been to her, the prosecutor surely would have asked Busch
about her prior statements concerning her sexual encounter with Johnston, which cast Johnston in an entirely negative light.
She testified in the state post-conviction hearing that she did not recall those statements. That would have opened the door for
the prosecutor to introduce evidence of Busch’s statement that during sex Johnston turned into a “mean character,” called her
a “bitch” and “fucking bitch,” and was “enamored or obsessed with the buttock area.” Which would have undermined
Busch’s testimony and would have been devastatingly harmful to Johnston.
In addition, the prosecutor would have been able to call as witnesses all of the people Detective Taylor interviewed
concerning Johnston’s behavior while he was with Busch in the hospital. The testimony of the ICU nurses and Busch’s
mother and sister would have all corroborated the negative statements that Busch made about Johnston to Detective Taylor.
They could have testified, as they stated in their interviews with Detective Taylor, that Johnston was controlling, that he
would not abide by the hospital’s rules, that he threatened the nurses, and that he threatened Busch’s parents and friends.
Even worse, the nurses also could have recounted to the jury that Johnston made sexual comments and advances toward
Busch while she was lying in a hospital bed in the ICU, sick and heavily medicated. Nurse Davis could have testified, as she
told Detective Taylor, that on one occasion *646 she even found Johnston lying on top of Busch while Busch’s medical
alarms were going off, and that when the nurses tried to attend to Busch he would not allow them to do it. She could have
testified that once when he was interfering with Busch’s care she asked Johnston to leave and he refused and was abusive.
She had to threaten to call security to force him to get out. And she could have testified, as Nurse Anderson would have, that
the nurses asked security to escort them to their cars because of Johnston’s abusive behavior and the threats that he made to
them, to Busch’s parents, and to Busch’s friends.
Not only that, but if the defense had attempted to inject Johnston’s “good deeds” toward Busch, her mother could have told
the jury that Johnston started using her daughter’s car like it was his own while she was in the hospital. And her mother also
might have been permitted to recount how, after Johnston used her daughter’s car, she found in the back seat a paper bag
containing a pair of surgical gloves, an elastic wristband, and a knife. After all, the jury had heard from a number of other
witnesses that Johnston had used a knife when attacking Judy Elkins, had used a knife when attacking Susan Reeder, had
used a knife and surgical gloves when attacking Julia Maynard, and had used a knife and surgical gloves when attacking
Carolyn Peak. See Part II, above.
And Busch’s sister could have testified that Johnston not only did not have the family’s permission to use Busch’s car, as he
had been doing, but he also was so enraged when they asked for him to give it back that he threw the keys at her parents,
even as they were attending to their daughter in the ICU.
It is no wonder Johnston’s sentence stage attorney, after hearing all of that evidence come out during the state post-conviction
proceedings, stated: “The testimony from this woman would have been bad, ... very bad, based on what’s in [Detective
Taylor’s] report.” He was emphatic that if he had investigated using Busch as a witness, he wouldn’t have called her. He
recognized that the net effect of putting Diane Busch on the stand at the sentence stage would have made a bad situation even
worse for Johnston. It would have opened more doors leading to a death sentence.
Any favorable testimony that Diane Busch might have given if she had been called as a witness was open to impeachment
with her prior statements to detectives, as we have already discussed. Not only that, but as the Supreme Court said in another
case, it “would have triggered admission of ... powerful ... evidence in rebuttal,” which “would have made a difference, but in
the wrong direction.” Wong, 558 U.S. at 22, 130 S.Ct. 383. And what we have held in another case fits here as well:
“Prejudice is ... not established when the evidence offered in mitigation is not clearly mitigating or would open the door to
powerful rebuttal evidence.” Ledford v. Warden, GDCP, 818 F.3d 600, 649 (11th Cir. 2016). Busch’s testimony would have
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 021

20

Johnston v. Secretary, Florida Department of Corrections, 949 F.3d 619 (2020)
28 Fla. L. Weekly Fed. C 810

opened the door to a lot of evidence harmful to Johnston instead of altering the sentencing balance in favor of him.
The brutal details of Johnston’s abduction, beating, and murder of LeAnne, the lifelong pattern of his violent attacks against
other women, and the victim impact evidence about the devastating loss suffered by the family members and friends LeAnne
left behind still weigh overwhelmingly in favor of a death sentence. See Krawczuk v. Sec’y, Fla. Dep’t of Corr., 873 F.3d
1273, 1297 (11th Cir. 2017) (concluding that there was no reasonable *647 probability of a different result given the
“substantial weight due to aggravation”).

VIII. CONCLUSION
Because Johnston has not shown that his counsel’s failure to investigate and call Diane Busch as a witness prejudiced his
defense at either the guilt or sentence stage, we affirm the district court’s denial of his ineffective assistance claims.
AFFIRMED.

MARTIN, Circuit Judge, concurring in the result:
I agree with the majority’s decision to affirm the District Court’s dismissal of Mr. Johnston’s ineffective assistance of
counsel claim. Mr. Johnston failed to show he suffered prejudice from the exclusion of Ms. Busch’s testimony in both the
guilt phase and penalty phases of his trial.
All Citations
949 F.3d 619, 28 Fla. L. Weekly Fed. C 810
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 022

21

APPENDIX B

App 023

Case: 14-14054

Date Filed:
(1 of 4)
11/06/2019

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS

FOR THE ELEVENTH CIRCUIT
No. 14-14054-P

RAY LAMAR JOHNSTON,
Petitioner .. Appellant,
versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATIORNEY GENERAL, STATE OF FLORIDA,
Respondents .. Appellees.
Appeal from the United States District Court
for the Middle District of Florida
.Before: ED CARNES, Chief Judge, MARTIN, and ROSENBAUM, Circuit Judges.

BY THE COURT:
Appellant's motion for reconsideration of the October 9, 2019, panel order denying
motion to remand this case to the cli~ct court or, in the alternative, to expand the certificate of
appealability and to allow supplemental briefing and motion to stay appellate proceedings is
DENIED.

App 024

Case: 14-14054

Date Filed:
(2 of 4)
11/06/2019

Page: 2 of 3

MARTIN, Circuit Judge, concurring in the result:
I recognize that we are bound by our precedent holding that Hurst v. Florida,
. 577 U.S._, 136 S. Ct. 616 (2016) is not retroactive. See Knight v. Fla. Dep't of
Corr.; 936 F.3d 1322, 1337 (11th Cir. 2019). For that reason, I concur in the
Majority's decision to deny Mr. Johnston's motion for reconsideration.
Nonetheless, I write separately because I share the concerns expressed by
Justice Sotomayor in her dissent from the denial of certiorari in Reynolds v.
Florida, 586 U.S._, 139 S. Ct. 27, 32-36 (2018) (Sotomayor, J., dissenting from
the denial ~f certiorari). Following the Supreme Court's decision in Hurst, the
Florida Supreme Court ~as consiste~tly concluded ~at any claim of error pursuant
to Hurst is harmless if the jury unanimously recommended a sentence of death.
See Reynolds v. State, 251 So. 3d 811,815,818 (Fla.) (per curiam), cert. denied,
586 U.S._, 139 S. Ct. 27 (2018); Davis v. State, 207 So. 3d 142, 174-75 (Fla.
2016) (per curiam). It is particularly troubling that, "[b]y concluding that Hurst
violations are harmless [when] jury recommendations were unanimous, the Florida
Supreme Court transfonns those advisory jury recommendations into binding
findings of fact." Rev.nolds, 139 S. Ct. at 33 (Sotomayor, J., dissenting) (quotation
marks omitted). I therefore subscribe to Justice Sotomayor's view that this lin~ of
cases from the Florida Supreme Court raises substantial Eighth Amendment
concerns and may be invalid under Caldwell v. Mississippi, 472 U.S. 320, I 05 S.

App 025

Case: 14-14054

Date Filed:
(3 of 4)
11/06/2019

Page: 3 of 3

Ct 2633 (198S), in which the Supreme Court held "it is 'constitutionally

impermissible to rest a death sentence on a determination made by a sentencer who
has been led to believe that the responsibility for determining the appropriateness
of the defendant's death rests elsewhere.'" Reynolds, 139 S. Ct. at 33 (quoting
Caldwell, 472 U.S. at 328-29, 105 S. Ct. at 2639); g

id. at 3S ("I would grant

review to decide whether the Florida Supreme Court's harmless-error approach is
valid in light of Caldwell."). Like Justice Sotomayor, I believe ''the stakes in
capital cases are too high to ignore such constitutional challenges." Id. (quotation
marks omitted). So, while I concur in the denial of Mr. Johnston's motion for

reconsideration, I am concerned that this precedent raises serious constitutional
concerns for petitioners asserting Hurst claims.

2
App 026

APPENDIX C

App 027

App 028

App 029

App 030

App 031

App 032

App 033

App 034

App 035

App 036

App 037

App 038

App 039

App 040

App 041

App 042

App 043

App 044

App 045

App 046

App 047

App 048

App 049

App 050

App 051

App 052

APPENDIX D

App 053

Case: 14-14054

Date Filed: 03/03/2016

Page: 1 of 7

IN THE UNITED STATES CIRCUIT COURT OF APPEAL
FOR THE ELEVENTH CIRCUIT

RAY LAMAR JOHNSTON
Petitioner,

v.

Appeal No.14-14054-P
Lower Case No. 8:ll-cv-02094-EAK-TGW

SECRETARY, Florida
Department of Corrections, et al.,
Respondents.

________________!

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA

MOTION FOR STAY AND ABEYANCE OF THIS CASE PENDING THE FLORIDA
SUPREME COURT'S RULING ON THE IMPLICATIONS OF HURST V. FLORIDA

DAVID DIXON HENDRY
ASSISTANT CCRC-M
FLORIDA BAR NO. 0160016
CAPITAL COLLATERAL REGIONAL
COUNSEL - MIDDLE
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FL 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

App 054

Case: 14-14054

Date Filed: 03/03/2016

Page: 2 of 7

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE DISCLOSURE
STATEMENT

C-lof 1

JOHNSTON V. SEC. DEPT. OF CORR., APPEAL NO. 14-14054-P

There are no corporations to involved in this case.
Bondi, Pamela Jo (Attorney General State of Florida)
Coryell, Leanne (Victim deceased)
Driscoll Jr., James L.
Freeland,

Timothy A.

(Attorney for Appellant/Petitioner)
(Assistant

Attorney General,

Counsel

for

the Respondent).
Johnston, Ray Lamar (Petitioner/Appellant)
Jones, Julie L.
Hendry, David D.

(Secretary, Dept. Of Corrections)
(Attorney for Appellant/Petitioner)

Kovachevich, Elizabeth A. (United States District Court Judge,
United States District Court, Middle District of Florida)

2
App 055

Case: 14-14054

Date Filed: 03/03/2016

Page: 3 of 7

MOTION FOR STAY AND ABEYANCE OF THIS CASE PENDING THE FLORIDA
SUPREME COURT'S RULING ON THE IMPLICATIONS OF HURST V. FLORIDA

1.

COMES

NOW

the

Appellant,

through undersigned counsel,
this case pending the
implications of

Ray

Lamar

Johnston,

by

and

and moves for stay and abeyance of

Florida Supreme Court's decision on the

the United States Supreme Court's decision

Hurst v. Florida, --U.S.--, 136

s.

in

Ct. 616 (2016).

2. The instant case is a death penalty case originating out

of the State of Florida.

The Appellant filed a principal brief

on ineffective assistance of counsel issues unrelated to Hurst
on January 26,

2016.

The State filed its answer brief 31 days

later on February 26, 2016.
3.

December

The
17,

briefing
2015.

on

schedule
January

was

issued

in

12,

2016,

the

this

case

United

States

Supreme Court ruled in Hurst that:
A penalty-phase jury recommended that Hurst's judge
impose
a
death
sentence.
Notwithstanding
this
recommendation, Florida law required the judge to hold
a separate hearing and determine whether sufficient
aggravating circumstances existed to justify imposing
the death penalty. The judge so found and sentenced
Hurst to death.
We hold this sentencing scheme
Sixth Amendment requires a jury,
each fact necessary to impose a
jury's mere recommendation is not

Hurst, Id. at 619.
3
App 056

on

unconstitutional. The
not a judge, to find
sentence of death. A
enough.

Case: 14-14054

4.

Date Filed: 03/03/2016

The Appellant was

Page: 4 of 7

sentenced to death under the very

same unconstitutional death penalty scheme as Mr. Hurst.

In the

case at bar,

2002),

in Johnston v.

State,

841 So.

2d 349

(Fla.

the Florida Supreme Court acknowledged that:
The jury unanimously recommended the death penalty.
After holding a Spencer hearing, the trial court found
four aggravating factors, one statutory mitigator, and
numerous nonstatutory mitigators,
and followed the
jury's recommendation.
at

Johnston,

Id.

countless

times

merely

355

the

advisory,

a

(emphasis

jury was
mere

added)

In

informed

that

recommendation,

all

the

case

Currently

the

implications of Hurst.

Florida

Supreme

Court

bar,

their verdict
in

violation

Caldwell v. Mississippi, 472 U.S. 320, 105 S. Ct. 2633

5.

at

is

was
of

(1985)

deciding

the

Some of the issues to be decided by the

Florida Supreme are:
Whether Hurst is retroactive to cases in
postconviction?
Whether the doctrine of harmless error can be applied?
If harmless error can be applied then under what
standard and by what court?
And, do principles of double jeopardy prevent retrial
of defendants for capital offenses who were found
guilty of the lesser offense of first degree murder?
6.
Supreme
based

At the time of the filing of this motion,
Court
on

has

Hurst

unanimously

stayed

Case

Cary

(See

of

two

the Florida

scheduled executions

Michael

Lambrix,

Florida

Supreme Court Case Nos. SC 16-8 and 16-56; date of execution was

4
App 057

Case: 14-14054

Date Filed: 03/03/2016

Page: 5 of 7

scheduled for February 11, 2016; Oral Argument was held and stay
of Execution was Ordered on the same day:

February 2,

2016. And

Florida Supreme Court Case Nos. SC 16-223 and

see Asay v. State,

SC 16-102; date of execution scheduled for March 17,

2016; Oral

Argument was held and Stay of Execution was Ordered on the same
day:

yesterday,

March 2,

2016).

In addition,

recently filed a motion on February 19,

Timothy Lee Hurst

2016 asking the Florida

Supreme Court to remand his case back to the trial
imposition

of

a

life

sentence

Supreme Court decision in Hurst.

following

the

court

United

for

States

(Florida Supreme Court Case SC

12-1947). That motion is currently pending.
7.

Yesterday,

granted a
after

second stay of

hearing

oral

Court Case Nos.
motion

for

Franklin

on the same day the Florida Supreme Court

stay

execution based on Hurst

argument

(Asay

v.

in another

Phillips

Supreme

this Court granted a

Florida death penalty case:

Secretary,

V.

Florida

State,

SC 16-223 and SC 16-102),

just hours

Department

Florida

Harry
of

Corrections, Case No. 15-15714-P.
8.

The Hurst opinion has skewed the entire legal analysis

concerning

postconviction

assistance

of

prejudice
involves

counsel

prong
an

of

analysis

probability that

a

in

the

penalty
of

involving

claims

penalty
phase

whether

ineffective

the

Proving

phase.

ineffectiveness

there

is

a

the
claim

reasonable

the outcome would have been different absent
5

App 058

Case: 14-14054

the

ineffectiveness.

would

involve

recommended
presented

a

a

Under

the

determination

life

to

Date Filed: 03/03/2016

sentence

them.

usual
of

if

However,

the

"recommendation," with no findings,
9.

Post-Hurst

issues

pre-Hurst

whether
the

that

Page: 6 of 7

the

analysis,

jury would have

available
entire

this

mitigation
scheme

been

of

jury

is unconstitutional.

necessarily

must

be

resolved

include:
a) What standard would be applied?
b) What would a properly instructed jury would have
found?
c) What would a jury do under a new statute?
10.

Should

approximate
decision,
case

400

the

current

Florida
death

Supreme

sentences

Court
based

vacate
on

the

the
Hurst

the Appellant's pending penalty phase issues in this

will

decidedly

become

moot.

In

any

event,

even

if

the

Appellant's death sentence is not vacated by the Florida Supreme
Court,

this Court will have more guidance after the high state

court determines the full implications of Hurst.
11.

Wherefore,

the Appellant respectfully urges that this

Court stay this case and hold it in abeyance until the Florida
Supreme

Court

decides

the

full

decision.

6

App 059

implications

of

the

Hurst

Case: 14-14054

Date Filed: 03/03/2016

Page: 7 of 7

CERTIFICATE OF SERVICE

I

HEREBY CERTIFY that on this 3rd day of March,

electronically filed the
which will

2016,

I

foregoing by using the CM/ECF system

send notice of electronic filing to the

following:
and

capapp@myfloridalegal.com
timothy.freeland@myfloridalegal.com
Lamar Johnston.

/S/DAVID D. HENDRY
DAVID D. HENDRY
ASSISTANT CCRC-M
FLORIDA BAR NO. 0160016
hendry@ccmr.state.fl.us
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FL 33637
(813)558-1600 ext. 624

7
App 060

and

by

U.S.

mail

to

Ray

APPENDIX E

App 061

Case: 14-14054

Date Filed: 03/10/2016

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR Tim ELBVENTIICIRCUIT
No. 14-14054-P
RAY LAMAR JOHNSTON,
Petitioner - Appellant,

versus
SECRETARY, FLORIDA DBP ARTMENT OF CORRECTIONS.
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents • Appellees.
Appeal from the United States District Court

for the Middle District of Florida

ORDER:
Appellant's motion to stay further appellate proceedings pending the ruling

of Hurst v. Florida, Case No. 12-1947, is DENIED insofar as it involves the filing
of the reply brief. Otherwise, a ruling on the motion

CHIEF JUDGE

App 062

APPENDIX F

App 063

Case: 14-14054

Date Filed: 05/05/2017

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N. W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www. ca 11. uscourts. gov

May 05, 2017
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 14-14054-P
Case Style: Ray Johnston v. Secretary, FL DOC, et al
District Court Docket No: 8:11-cv-02094-EAK-TGW
At this time the Court does not intend to schedule oral argument in this case until after there is a
ruling on Ray Johnston's successive Fla. R. Crim. P. 3.851 motion to vacate, which was filed in
the Hillsborough County circuit court on January 5, 2017.
The attorneys are instructed to keep this Court informed of the status of that case and rulings in
it. The attorneys should file a report every 45 days or whenever a dispositive ruling is issued,
whichever is sooner.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone#: (404) 335-6171
MP-1

App 064

APPENDIX G

App 065

Case: 14-14054

Date Filed: 01/11/2019

Page: 1 of 7

IN THE UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT

RAY LAMAR JOHNSTON,
Petitioner,

APPEAL NO. 14-14054-P

v.

LOWER CASE NO.8:11-cv-02094-EAK-TGW

SECRETARY, DEPARTMENT OF
CORRECTIONS, et al.,
Respondents.
_________________________________________________________

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
District Court Number: 8:11-cv-02094-EAK-TGW
_________________________________________________________
MOTION TO REMAND CASE TO THE FLORIDA MIDDLE DISTRICT COURT TO
PERMIT ADDITION OF A HURST CLAIM, OR, IN THE ALTERNATIVE, MOTION
FOR OPPORTUNITY TO MOVE TO EXPAND THE CURRENT COA AND FOR
SUPPLEMENTAL BRIEFING ON HURST V. FLORIDA
_________________________________________________________

DAVID D. HENDRY
Fla. Bar No. 0160016
ATTORNEY FOR THE APPELLANT
Asst. CCRC-M
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone # (813) 558-1600 ext. 624
Fax# (813) 558-1601
hendry@ccmr.state.fl.us

App 066

i

Case: 14-14054

Date Filed: 01/11/2019

Page: 2 of 7

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
C-1of 1
JOHNSTON V. SEC. DEPT. OF CORR., APPEAL NO. 14-14054-P
There are no corporations to involved in this case.
Bondi, Pamela Jo (Attorney General State of Florida)
Coryell, Leanne (Victim deceased)
Driscoll Jr., James L.

(Attorney for Appellant/Petitioner)

Freeland, Timothy A. (Assistant Attorney General, Counsel for the
Respondent).
Johnston, Ray Lamar (Petitioner/Appellant)
Jones, Julie L. (Secretary, Dept. Of Corrections)
Hendry, David D. (Attorney for Appellant/Petitioner)
Kovachevich, Elizabeth A. (United States District Court Judge,
United States District Court, Middle District of Florida)

App 067

ii

Case: 14-14054

Date Filed: 01/11/2019

Page: 3 of 7

PAST ACTION IN THE DISTRICT COURT
The

District

Court’s

order

at

issue

was

a

final

order

disposing of all claims. United States District Judge A. Elizabeth
Kovachevich denied the Appellant’s amended petition for writ of
habeas corpus filed pursuant to Title 28, United States Code,
Section 2254 and supporting memorandum of law on April 17, 2014.
At the time of the denial of the petition in the district court in
this case, Hurst v. Florida, 136 S. Ct. 616 (2016) had yet to be
decided. As such, the Petitioner was not able to cite Hurst, and
was not able to raise the unconstitutionality of Florida’s death
penalty scheme as a basis of relief from the death sentence.
Consequently,

the

issue

of

the

unconstitutionality

of

Florida’s death penalty scheme pursuant to Hurst is not currently
before this Court.
STATEMENT OF THE ISSUES CURRENTLY BEFORE THIS COURT
1. Whether Mr. Johnston’s death sentence violates the Sixth
and

Fourteenth

Amendments

to

the

United

States

Constitution

because trial counsel failed to investigate Diane Busch who could
have been called at the guilt and penalty phases of his trial, and
whether the lower court’s decision was based on an unreasonable
determination of facts?
2. Whether Mr. Johnston’s death sentence violates the Sixth
and

Fourteenth

Amendments

to

the

United

States

Constitution

because trial counsel failed to investigate Diane Busch who could

App 068

1

Case: 14-14054

Date Filed: 01/11/2019

Page: 4 of 7

have been called at the guilt and penalty phases of his trial, and
whether the state court decisions were contrary to, or were an
unreasonable application of clearly established federal law?
PETITIONER’S REQUEST FOLLOWING THE JANUARY 7, 2019 DENIAL OF HIS
PETITION FOR REHEARING FOLLOWING THE DENIAL OF HIS PETITION FOR
WRIT OF CERTIORARI
In

fairness,

and

to

ensure

that

the

Appellant

has

an

opportunity to present and exhaust all current issues regarding
the constitutionality of Florida’s capital sentencing scheme in
the federal courts, the Appellant asks this Court to remand this
case back to the district court to permit him the opportunity to
amend his petition for writ of habeas corpus to include a claim
under Hurst v. Florida, 136 S. Ct. 616 (2016).
A Hurst claim was not previously raised in the original
petition because the Hurst opinion had yet to be released. The
Appellant is hoping that the district court will consider the vital
scientific evidence rejected by the Florida courts that supports
his contention that the Hurst errors that occurred at trial were
harmful

rather

than

harmless

beyond

a

reasonable

doubt.

The

scientific sociological evidence was certainly admissible under
Frye v. United States, 293 F. 1013 (D.C. Cir. 1923). Yet the
evidence was rejected. The state courts’ refusals to consider his
long-established,

generally

accepted

scientific

evidence

in

support of harmful Hurst error amounted to additional violations

App 069

2

Case: 14-14054

Date Filed: 01/11/2019

Page: 5 of 7

of due process in the state courts.
After

remand,

should

the

district

court

reject

these

arguments, the Appellant would be seeking a COA on these more
broader issues concerning the constitutionality of the entire
Florida capital sentencing scheme, rather than just the current
issues pending before this Court involving witness Diane Busch.
CONCLUSION
This Court should remand this case back to the district court
to permit him the opportunity to amend his petition for writ of
habeas corpus to include a claim under Hurst v. Florida, 136 S.
Ct. 616 (2016). In the alternative, the Appellant asks for an
opportunity to move to expand the current COA and for supplemental
briefing on Hurst v. Florida.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M
CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

App 070

3

Case: 14-14054

Date Filed: 01/11/2019

Page: 6 of 7

CERTIFICATE OF FONT AND WORD COUNT
Undersigned counsel certifies that this Motion is in 12 point
courier new with certificates of Interested Persons and Corporate
Disclosure Statement, contains 965 words.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M
CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

CERTIFICATE OF SERVICE

App 071

4

Case: 14-14054

Date Filed: 01/11/2019

Page: 7 of 7

I HEREBY CERTIFY that on January 11, 2019 a true copy of the
foregoing was sent to the Clerk of Court by United States Mail,
postage paid and filed electronically which caused a copy to be
served on opposing counsel Timothy A. Freeland, Assistant Attorney
General, Office of the Attorney General, 3507 E. Frontage Road,
Suite 200, Tampa, Florida 33607 by e-mail to:
timothy.freeland.@myfloridalegal.com and
CapApp.@myflorida.com.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M
CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

App 072

5

APPENDIX H

App 073

Case: 14-14054

Date Filed: 10/07/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

October 07, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 14-14054-P
Case Style: Ray Johnston v. Secretary, FL DOC, et al
District Court Docket No: 8:11-cv-02094-EAK-TGW
Counsel must acknowledge receipt of the attached calendar by docketing the "Calendar Receipt
Acknowledged" event in ECF.
Oral argument in the above capital appeal has been scheduled for Tuesday, November 12, 2019, at the Elbert P. Tuttle
Building at the above referenced address. The hearing will commence at approximately 12:00 noon. Counsel presenting
oral argument should check-in at Rm.339 no later than 11:30 a.m. Counsel will be allotted thirty (30) minutes oral
argument per side.
Court-appointed counsel who must travel for argument should contact the undersigned deputy clerk to provide travel
information in order to receive travel authorization in a timely manner.
Counsel for each party must present oral argument unless excused by the court for good cause shown. Please note that
after the date of this letter, any changes in or addition to counsel in the appeals listed on the attached calendar requires
leave of the court. See General Order 36.
The names of the judges of the oral argument panel may be obtained by calling the Courtroom Deputy shown below, no
earlier than 10/29/2019.

If you have questions or concerns, please do not hesitate to contact the Calendaring/Court Sessions
Section in Atlanta, Georgia at (404) 335-6141 or (404) 335-6200 Capital Cases Main line.
Personal electronic devices, such as cellular telephones, "smart phones," laptop computers, and tablet
computers are not allowed beyond the courthouse's security checkpoint unless prior approval has been
obtained from a judge of the Court.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
CAL-1 Oral Argument Calendar Issued

App 074

APPENDIX I

App 075

Case: 14-14054

Date Filed:
(1 of 2)
10/09/2019

Page: 1 of 1

IN THB UN1'IBD STATBS COUR.T OF APPBALS
POR. THB BLBVBNTH CIRCUIT

No. 14-140S4-P
RAY LAMAR.JOHNSTON,

· Peddoner • 'Appellant,

versus
SBCRBTARY, FLORIDA DBPAR'IMBNT OF CORRECTIONS,

ATI'ORNBY GBNBRAL, STATB OP FLORIDA,

Respondents -Appellees.

Appeal fiom the United States District Court
for the Middle District ofFlorida
Before: BD CARNES, ChiefJudge, MAR.TIN, and R.OSBNBAUM, Circuit

Judges.

BY THE COURT:

Appellant's motion to remand this case to the district court or, in the
alternative, to expand the cerdficate of appealablley and to allow supplemental
briefing is DBNIBD. Appellant's motion to stay appellate proceedings pending the

Florida Supeme Court's ruling on the implications of Hurst v. i,orida, 136 S. Ct.
616 (2016), is also DBNIBD.

App 076

APPENDIX J

App 077

Case: 14-14054

Date Filed: 10/11/2019

Page: 1 of 38

IN THE UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT

RAY LAMAR JOHNSTON,
Petitioner,

APPEAL NO. 14-14054-P

v.

LOWER CASE NO.8:11-cv-02094-EAK-TGW

SECRETARY, DEPARTMENT OF
CORRECTIONS, et al.,
Respondents.
_________________________________________________________

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
District Court Number: 8:11-cv-02094-EAK-TGW
_________________________________________________________
MOTION FOR RECONSIDERATION OF THE DENIAL OF THE MOTION TO REMAND
CASE TO THE FLORIDA MIDDLE DISTRICT COURT TO PERMIT ADDITION OF
A HURST CLAIM, OR, IN THE ALTERNATIVE, MOTION FOR OPPORTUNITY TO
MOVE TO EXPAND THE CURRENT COA AND FOR SUPPLEMENTAL BRIEFING ON
HURST V. FLORIDA
_________________________________________________________

DAVID D. HENDRY
Fla. Bar No. 0160016
ATTORNEY FOR THE APPELLANT
Asst. CCRC-M
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
Phone # (813) 558-1600 ext. 624
Fax# (813) 558-1601
hendry@ccmr.state.fl.us

App 078

i

Case: 14-14054

Date Filed: 10/11/2019

Page: 2 of 38

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
C-1of 1
JOHNSTON V. SEC. DEPT. OF CORR., APPEAL NO. 14-14054-P
There are no corporations involved in this case.
Bondi, Pamela Jo (Attorney General State of Florida)
Coryell, Leanne (Victim deceased)
Driscoll Jr., James L.

(Attorney for Appellant/Petitioner)

Freeland, Timothy A. (Assistant Attorney General, Counsel for the
Respondent).
Johnston, Ray Lamar (Petitioner/Appellant)
Jones, Julie L. (Secretary, Dept. Of Corrections)
Hendry, David D. (Attorney for Appellant/Petitioner)
Kovachevich, Elizabeth A. (United States District Court Judge,
United States District Court, Middle District of Florida)

App 079

ii

Case: 14-14054

Date Filed: 10/11/2019

Page: 3 of 38

INTRODUCTION
The Appellant Ray Lamar Johnston is housed on Florida’s Death
Row. On January 11, 2019 he filed a MOTION TO REMAND CASE TO THE
FLORIDA MIDDLE DISTRICT COURT TO PERMIT ADDITION OF A HURST CLAIM,
OR, IN THE ALTERNATIVE, MOTION FOR OPPORTUNITY TO MOVE TO EXPAND
THE CURRENT COA AND FOR SUPPLEMENTAL BRIEFING ON HURST V. FLORIDA.
The Court denied this motion on October 9, 2019. The Appellant now
moves

this

Court

pursuant

to

11th

Circuit

Rule

27-2

for

reconsideration of this denial.
STATEMENT OF THE ISSUES CURRENTLY BEFORE THIS COURT
1. Whether Mr. Johnston’s death sentence violates the Sixth
and

Fourteenth

Amendments

to

the

United

States

Constitution

because trial counsel failed to investigate Diane Busch who could
have been called at the guilt and penalty phases of his trial, and
whether the lower court’s decision was based on an unreasonable
determination of facts?
2. Whether Mr. Johnston’s death sentence violates the Sixth
and

Fourteenth

Amendments

to

the

United

States

Constitution

because trial counsel failed to investigate Diane Busch who could
have been called at the guilt and penalty phases of his trial, and
whether the state court decisions were contrary to, or were an
unreasonable application of clearly established federal law?

App 080

1

Case: 14-14054

Date Filed: 10/11/2019

Page: 4 of 38

APPELLANT’S BASIS FOR RECONSIDERATION
This case involves unique circumstances that warrant this
Court’s

careful

consideration

of

the

rejected

sociological

scientific evidence that Ray Johnston attempted to present in the
Florida state courts to establish that the trial errors that
occurred in this case were harmful rather than harmless beyond a
reasonable doubt. Specifically, following Hurst v. Florida, 136 S.
Ct. 616 (2016), the Appellant sought the assistance of sociologist
and jury trial scientist Harvey Moore, Ph. D. of Trial Practices,
Inc. to evaluate whether certain errors at the Johnston trial were
harmful

or

harmless.

Ultimately,

after

performing

a

content

analysis, Dr. Moore concluded that the errors were harmful rather
than harmless (see report attached). This report was largely the
Appellant’s focus of his argument in the state courts in attempts
to persuade the courts that the Hurst errors were harmful rather
than harmless.
The Supreme Court of Florida has continued to find Hurst
errors harmless beyond a reasonable doubt in all cases where the
advisory panel recommendation was unanimous (12-0 for death),
including the case at bar (see Johnston v. State, 246 So. 3d 266,
266 “Johnston received a unanimous jury recommendation death and,
therefore, the Hurst error in this case is harmless beyond a
reasonable doubt.”). Dr. Harvey Moore’s report, attached to this

App 081

2

Case: 14-14054

Date Filed: 10/11/2019

Page: 5 of 38

motion, compellingly illustrates that the Hurst errors at the
Johnston trial were harmful rather than harmless.
THE RELATIONSHIP BETWEEN CALDWELL1, RING2, HURST, STRICKLAND3,
THE TWO ISSUES BEFORE THIS COURT, AND THE NEED FOR A REMAND TO
THE DISTRICT COURT
The Appellant acknowledges that he is currently limited to
the two sole issues before this Court. But at the crux of his
argument is the issues of deficient performance and prejudice.
Specifically, was Ray Lamar Johnston prejudiced when trial counsel
failed to call Diane Busch as a witness to trial, and whether the
lower court’s decision in this regard was based on an unreasonable
determination of facts, and whether the state court decisions were
contrary

to,

or

were

an

unreasonable

application

of

clearly

established federal law.
Following Hurst, the Appellant’s arguments on the two issues
before this Court have become much stronger. To make the strongest
argument possible in this case, the Appellant needs this Court (or
the District Court) to consider the contents of Dr. Moore’s
attached report. The Appellant’s position is that he was denied
due process when the state courts refused to consider the contents
of Dr. Moore’s report.

1
2
3

Caldwell v. Mississippi, 472 U.S. 320 (1985).
Ring v. Arizona, 536 U.S. 584 (2002).
Strickland v. Washington, 466 U.S. 668 (1984).

App 082

3

Case: 14-14054

Date Filed: 10/11/2019

Page: 6 of 38

At issue currently before this Court is whether Mr. Johnston
was prejudiced at trial. He certainly was. Not only did trial
counsel fail to call a vital witness to trial (Diane Busch), but
the State of Florida’s entire capital system, which was once
thought to be constitutional at the time of this trial, has been
found unconstitutional by the United States Supreme Court in Hurst.
Mr. Johnston had a right for a jury to consider the testimony of
an available witness who would testify that Mr. Johnston saved her
life. Instead, Mr. Johnston was provided a mere advisory panel who
was informed unconstitutionally approximately 65 times that they
would not be making the decision of whether Mr. Johnston would
live or die, the trial judge would. In addition to the prejudice
resulting from the advisory panel failing to hear the mitigating
testimony of available witness Diane Busch, the advisory panel was
instructed in unambiguous terms that they would not be responsible
for the decision to sentence Mr. Johnston to death, contrary to
Caldwell and Hurst.
Following Hurst, properly instructed juries now make the life
and death decisions in capital cases in the State of Florida, not
trial judges. Also following Hurst, Florida juries’ decisions must
now be unanimous. Though this trial resulted in a unanimous
recommendation for death, it was the decision of a mere advisory
panel, not a constitutionally and properly instructed jury. Had
just one member of the advisory panel recommended life, Mr.

App 083

4

Case: 14-14054

Date Filed: 10/11/2019

Johnston would have received

Page: 7 of 38

Hurst relief from the State of

Florida. It is the Appellant’s position that until he is permitted
to

return

to

the

District

Court

to

present

the

information

contained within Dr. Moore’s report (or at least have this Court
consider the contents of Dr. Moore’s report), he will not be
permitted to make the strongest arguments available against this
unconstitutionally imposed death sentence.
Lack of diligence is not the reason for these issues not being
included in the Appellant’s 28 U.S.C §2254 Petition. Rather, lack
of availability of caselaw at the time of the filing of his §2254
Petition in District Court is the reason. Hurst did not issue until
2016, long after the filing of the §2254 Petition. Hurst holds
that juries rather than judges must make necessary factual findings
impose the death penalty. “The Sixth Amendment requires a jury,
not a judge, to find each fact necessary to impose a sentence of
death. A jury’s mere recommendation is not enough.” Id. at 619.
Although Hurst did not specifically raise Caldwell concerns with
the

prior

Florida

jury

instructions,

it

said

that

advisory

recommendations are not enough. It is the appellant’s position
that a properly instructed jury must make the necessary factual
findings

in

capital

cases.

The

appellant

only

received

an

improperly instructed advisory panel at his trial rather than a
properly instructed jury.

App 084

5

Case: 14-14054

Date Filed: 10/11/2019

Page: 8 of 38

Had Mr. Johnston’s advisory panel heard the testimony of Diane
Busch, at least one of the members of the advisory panel would
have recommended life over death. Had Mr. Johnston’s advisory panel
been actual jury members who were constitutionally informed that
they were the actual decision makers at the penalty phase, the
decision would have been different. One cannot have confidence in
the outcome of this case under Strickland when the advisory panel’s
decision was diminished approximately 65 times at trial. “The
defendant must show that there is a reasonable probability that,
but

for

counsel’s

unprofessional

errors,

the

result

of

the

proceeding would have been different. A reasonable probability is
a probability sufficient to undermine confidence in the outcome.”
Strickland at 694.
The current issues before this Court come into clear focus
when analyzed keeping the mandates of Hurst and Caldwell in mind.
Confidence in the outcome of this case for the failure to call
Diane Busch as a witness is clearly undermined considering that
the advisory panel’s role was undermined approximately 65 times at
trial.

The

opportunity

Appellant
to

present

once
his

again

requests

arguments

and

a

remand

scientific

and

the

evidence

refuting harmless error beyond a reasonable doubt in the district
court.

App 085

6

Case: 14-14054

Date Filed: 10/11/2019

Page: 9 of 38

CONCLUSION
This Court should reconsider its decision denying the motion
to remand this case back to the district court to permit him the
opportunity to amend his petition for writ of habeas corpus to
include his scientific evidence and arguments under Hurst and
Caldwell. In the alternative, the Appellant renews his request for
an

opportunity

to

move

to

expand

the

supplemental briefing on Hurst v. Florida.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M
CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

App 086

7

current

COA

and

for

Case: 14-14054

Date Filed: 10/11/2019

Page: 10 of 38

CERTIFICATE OF FONT AND WORD COUNT
Undersigned counsel certifies that this Motion is in 12 point
courier new with certificates of Interested Persons and Corporate
Disclosure Statement, contains 1781 words.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M
CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on October 11, 2019 a true copy of the
foregoing was sent to the Clerk of Court by United States Mail,
postage paid and filed electronically which caused a copy to be
served on opposing counsel Timothy A. Freeland, Assistant Attorney
General, Office of the Attorney General, 3507 E. Frontage Road,
Suite 200, Tampa, Florida 33607 by e-mail to:
timothy.freeland.@myfloridalegal.com and CapApp.@myflorida.com.

S/David D. Hendry
DAVID D. HENDRY
Florida Bar No. 0160016
Assistant CCRC-M

App 087

8

Case: 14-14054

Date Filed: 10/11/2019

CAPITAL COLLATERAL REGIONAL
COUNSEL-MIDDLE REGION
12973 N. Telecom Parkway
Temple Terrace, Florida 33637
(813) 558-1600 ext. 624
hendry@ccmr.state.fl.us

App 088

9

Page: 11 of 38

Case: 14-14054

Date Filed: 10/11/2019

Page: 12 of 38

ATTACHEMENT A
See Appendix C starting on page App 27

App 089

APPENDIX K

App 090

App 091

App 092

App 093

App 094

App 095

App 096

App 097

App 098

App 099

App 100

App 101

App 102

App 103

App 104

App 105

App 106

App 107

App 108

App 109

App 110

App 111

App 112

App 113

App 114

App 115

App 116

App 117

App 118

App 119

App 120

App 121

App 122

App 123

App 124

App 125

App 126

App 127

App 128

App 129

App 130

App 131

App 132

App 133

App 134

App 135

App 136

App 137

App 138

App 139

App 140

App 141

App 142

App 143

App 144

App 145

App 146

App 147

App 148

App 149

App 150

App 151

App 152

App 153

App 154

App 155

App 156

App 157

App 158

App 159

App 160

App 161

App 162

App 163

App 164

App 165

App 166

App 167

App 168

App 169

App 170

App 171

APPENDIX L

App 172

Case: 14-14054

Date Filed:
(1 of 2)
03/24/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 14-14054-P
________________________
RAY LAMAR JOHNSTON,
Petitioner - Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents - Appellees.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: ED CARNES, Chief Judge, MARTIN, and ROSENBAUM, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

App 173

APPENDIX M

App 174

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 1 of 156 PagelD 825

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
RAY LAMAR JOHNSTON,
Petitioner,
Case No. 8:11-cv-2094-T-17TGW
DEATH CASE PETITION

V.

SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondent.

ORDER

This cause is before the Court upon a petition for writ of habeas corpus filed pursuant
to Title 28, United States Code, Section 2254 and supporting memorandum of law. Petitioner
is proceeding on his amended petition (hereinafter "Petition") (Doc. 11 ).
A review of the record demonstrates that, for the following reasons, the petition must
be denied.
PROCEDURAL HISTORY

The facts adduced at trial are summarized in the Florida Supreme Court's opinion on
direct appeal, Johnston v. State, 841 So. 2d 349 (Fla. 2002):
Leanne Coryell, a clinical orthodontic assistant for Dr. Gregory Dyer,
went to work at 1 p.m. on August 19, 1997. At approximately 8:15 p.m., Dr.
Dyer went home, leaving Melissa Hill and Coryell to close the office. Coryell
clocked out at 8:38 and, after some difficulty setting the office's alarm, left
within the next ten minutes. Coryell picked up groceries at Publix Super Market
where the store's surveillance cameras documented her checking out at 9:23.
She was not seen alive again.
Ray Johnston, Gary Senchak, and Margaret Vasquez shared a
three-bedroom apartment at the Landings Apartment Complex-the same

App 175

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 2 of 156 PagelD 826

apartment complex in which Coryell lived. On the evening that Coryell was
murdered, Johnston argued with his roommates over the utility bills and left the
apartment between 8:30 and 9:30 p.m. Vasquez noted that around 9:45,
Johnston's car [FN1] was still in the parking lot although Johnston had not
returned. Sometime after 10:00, Johnston came back to the apartment and
threw $60 at Senchak, telling him, "That's all you're getting from me, you
son-of-a-bitch."
FN1. Johnston drove a Buick Skyhawk that had recently been in
a collision, causing one of his headlights to be out of adjustment.
One of the taillights was also out.
Coryell's body was discovered around 10:30 p.m. on the evening of
August 19 by John Debnar, who was playing catch with his dogs in a field close
to St. Timothy's Church. While there, he noticed that a car with an out-of-place
headlight entered St. Timothy's property and stopped briefly beside an empty
black car. When Debnar walked his dogs home, one of his dogs stopped at a
pond on the church's property, causing Debnar to notice the body of a woman
floating in the water.
Hillsborough County sheriffs officers arrived at St. Timothy's Church
shortly before 11 :30 p.m. and found Coryell's body lying face down in the pond,
completely nude. Her clothes were found on a nearby embankment. Dental
stone impressions were taken of some shoe prints that were in the general
area where the clothing was found. Coryell's empty black lnfiniti was in the
church's parking lot with the keys in the ignition and the engine still warm.
Some, but not all, of her groceries were sitting in the back seat. Although the
police were unable to lift any prints from the interior of the car, they did lift a
fingerprint matching Johnston's from the exterior.
Dr. Russell Vega performed the autopsy and opined that the victim died
sometime after 9 p.m. Based on the extensive bruising of the external and
internal neck tissues, Dr. Vega concluded that the victim died from manual
strangulation, as opposed to the use of a ligature. Dr. Vega also observed a
laceration on the left side of the victim's lower lip and a laceration on her chin,
both of which were caused by blunt impact. There were vertical scrapes on the
victim's back which suggested that she was dragged to the pond. There were
two unusually shaped bruises on Coryell's buttocks which were similar to the
metal appliques on her belt, causing Dr. Vega to believe that she was hit with
her own belt while still alive. Finally, the victim suffered both internal and
external injuries to her vaginal area, injuries which were consistent with vaginal
penetration. Her hand still clutched strands of grass.
In the late evening hours of August 19 and again early the next morning,
the victim's ATM card was used to withdraw the $500 daily limit. The police
2

App 176

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 3 of 156 PagelD 827

used the ATM surveillance videos to capture pictures of the person who was
using the victim's card, and these photographs were provided to the news
media, which aired them. Juanita Walker, a friend of Johnston, saw the
televised pictures and called the authorities, identifying Johnston as the person
in the photos. She also told police that she and Christine Cisilski saw Johnston
a little before 10 p.m. on the night of the crime, driving a black, mid-size car out
of the Landings Apartment Complex.
Based on telephone calls identifying Johnston as the person in the
photos, the police obtained a warrant to search his apartment and found a pair
of wet tennis shoes and shorts. The imprints from the tennis shoes matched
three partial impressions that were found at the scene of the crime. However,
the shoes did not have any individual characteristics which would enable an
expert to conclude that Johnston's shoes were the exact shoes which made
the impressions.
Johnston saw his picture on television and volunteered to give a
statement in which he initially told police that he was a friend of Coryell and
that they had gone out to dinner a few times. He told Detective Walters that on
the evening of the 19th, he had met Coryell at Malio's for drinks at 6:15 p.m.
The pair then went to Carrabba's and left around 8:30 or 9:00. According to
Johnston, the victim indicated that she needed to stop at a grocery store before
she went home, but before they parted, the victim gave Johnston her ATM card
and PIN so that he could withdraw $1200 in repayment of a loan she had
obtained from him. When he arrived home, he changed, went jogging, and
then withdrew $500 from her account. He withdrew another $500 the following
day.
Johnston was placed under arrest for grand theft, was read his rights
under Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966),
and agreed to continue the interview. The detective confronted Johnston with
the fact that Coryell did not leave work until 8:38. Johnston's response was that
other employees must have covered for her because he was with her at that
time, but he was unable to provide the names of anybody who could
corroborate this explanation. The detective then told Johnston that they had
found his jogging shoes, which were completely wet. Johnston justified the wet
shoes by claiming that he jumped into the hot tub, shoes and all, to wash off
after his run. The detective asked several times whether Johnston was
involved with Coryell's death and Johnston responded by saying that they
would not find any DNA evidence, hair, or saliva which would link him to the
victim.
In response to Johnston's contention that he loaned Coryell money, the
State introduced several witnesses who testified that Johnston near the time
of the murder did not have the financial ability to make a $1200 loan. The State
3

App 177

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 4 of 156 PagelD 828

also called Laurie Pickelsimer, the defendant's pen pal in prison, who testified
that Johnston asked her to provide a false alibi for him. Johnston suggested
that she tell his attorneys that on the night of the murder, she and Johnston
were working out in the gym at the apartment complex from 9:00 until about
10:30, except for a short time when he walked back to his apartment to get
them a drink for the hot tub. The jury found Johnston guilty of first-degree
murder, kidnapping, robbery, sexual battery, and burglary of a conveyance with
assault.
The penalty phase of the trial began on June 16, 1999. The State
introduced testimony from three victims of prior violent felonies that Johnston
had committed against total strangers. Susan Reeder was the first witness to
testify and recalled how Johnston grabbed her when she was stepping out of
her car, put a hunting knife to her throat, drove her to an isolated area, and
then beat her with his belt and raped her. Julia Maynard recounted how
Johnston broke into her home, and when she arrived, grabbed her, held a knife
to her neck, and took her to her bedroom so he could take pictures of her in
various states of dress and undress and touch her sexually. Carolyn Peak
testified that in June 1988, while she was getting out of her car, Johnston put
a knife to her throat, forced her back into the car, and tied her hands with an
Ace Bandage. She escaped when a police officer pulled the car over because
a head light was out.
Dr. Vega, the medical examiner who performed the autopsy on Coryell,
opined that Coryell was conscious at the time she was beaten and received her
vaginal injuries. He believed the last injury to the victim was manual
strangulation and that she was likely conscious for up to two minutes while
being strangled. Finally, the State introduced three witnesses to provide victim
impact evidence: the victim's father, Thomas Morris; her employer, Dr. Dyer;
and her pastor, Matthew Hartsfield.
Defense counsel introduced four experts to testify that Johnston had
frontal lobe brain damage and mental health problems. Dr. Diana Pollack, a
neurologist, treated Johnston a few months before the murder because
Johnston suffered from blackouts, headaches, a tingling sensation down one
side of his body, and spells of confusion. She administered various
neurological tests, including an MRI and an EEG, but was unable to find any
structural deficiencies in his brain.
Dr. Harry Krop, a clinical psychologist, testified that he performed a
neuropsychological evaluation on Johnston. When Johnston performed poorly,
Dr. Krop recommended that a PET scan be performed. Based on Johnston's
documented history and further testing, he concluded that Johnston suffered
from a frontal lobe impairment and that this problem has three main
manifestations: (1) difficulty starting an action; (2) difficulty stopping an existing
4

App 178

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 5 of 156 PagelD 829

action; and (3) being too impulsive or acting without thinking.
Dr. Frank Wood, a neuropsychologist, examined Johnston and reviewed
the results of his PET scan. He concluded that Johnston's frontal lobe area had
substantially less activity than was normal (below the first percentile) and that
this deficiency correlates with poor judgment, impulsivity, and "disinhibited"
behavior. Based on Johnston's medical and behavioral record, Dr. Wood
concluded that this was a chronic condition.
Dr. Michael Maher, a physician and psychiatrist, evaluated Johnston
and reviewed his history and medical records. Dr. Maher agreed that it was
evident from the PET scan that Johnston suffered from impairments of the
frontal lobe of his brain, making it extremely hard for him to resist any strong
urges. He also believed that Johnston suffered from seizures that were related
to his brain abnormality and had dissociative disorder (a psychiatric disorder
in which some aspect of a person's total personality or awareness is
unavailable at certain times).
Several character witnesses testified in Johnston's behalf. According to
Gloria Myer, a placement specialist for a correctional institution, Johnston was
dedicated to his job, very organized, and followed Myer's instructions. She also
recalled a time when she thought he was having a stroke because "his whole
side of his face had fallen, had drooped." John Walkup, Johnston's probation
officer, recommended Johnston for early termination because he had a stable
family life, worked at a steady job, reported regularly, paid his fees, and was
doing fine. William Jordon, a case manager for the Department of Corrections,
knew Johnston while he was in prison and asserted that he got along well with
other inmates and was not a disciplinary problem. John Field, a chaplain with
the Department of Corrections, knew Johnston when he was incarcerated in
the early 1990s and declared that Johnston was one of the chapel's best
clerks. Bruce Drennen, the president of the Brandon Chamber of Commerce,
testified that Johnston was a designated representative of a company that was
a member of the chamber.
Johnston's family provided mitigation. His mother, Sara James, testified
that at the age of three or four, Johnston had fallen out of a car and hit his
head on the curb, resulting in an injury which required stitches. Johnston did
not perform well in school, and by the time he was in the seventh grade, he
became disruptive in class and was sometimes sent home. Problems became
more serious the older he grew, and eventually he was sent to the Hillcrest
Institution for treatment. Normally, Johnston had a sweet disposition, but he
could get explosive at times. Susan Bailey, Johnston's ex-wife, testified that
while she was married to him, Johnston was the perfect husband-- he cooked,
cleaned, and helped raise her two daughters. She described him as very
tenderhearted, remembering how it would upset him if she had to paddle her
5

App 179

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 6 of 156 PagelD 830

girls for misbehaving. She also stated that even though he would occasionally
snap over minor issues, he would not vent his anger towards his family.
Rebecca Vineyard, Johnston's younger sister, stated that Johnston never
acted normal -- he would try too hard to make people love him and would go
overboard trying to get positive responses. However, his personality could
quickly change, and he did not like being rejected or humiliated.
Finally, Ray Johnston took the stand and admitted that he killed the
victim. According to Johnston, he saw Coryell drive in after he had just gotten
out of the hot tub. He asked her if he could help carry her groceries to her
apartment, but she ignored his request. Johnston stated that he just wanted
her attention and meant to reach for her shoulders but grabbed her neck
instead. He thought he held her for just a few seconds, but then her legs gave
out. She hit her lip on the edge of the door, and her chin hit the ground,
causing two lacerations on her face. When he rolled her over, he saw her eyes
and mouth were open. He tried reviving her by giving CPR, but it had no effect.
Thinking that he had broken her neck, Johnston put her in the back seat of her
car and drove her to the church. To make it look like she had been assaulted,
Johnston took off her clothes and scattered them out, kicked her in the crotch,
beat her with her belt, and dragged her to the pond. A car drove into the
parking lot, prompting Johnston to run home. After he took a shower, Johnston
drove back to the church to see if anybody had discovered the body. While
there, he found the victim's ATM card and its PIN, which was written on the
cover of her address book. He took her ATM card and drove to Barnett Bank
to withdraw some money. The next day, after Johnston learned his picture was
being broadcast on the news, he turned himself in and made up the story that
Coryell had given him the ATM card.
The jury unanimously recommended the death penalty. After holding a
Spencer hearing, [FN2] the trial court found four aggravating factors, [FN3] one
statutory mitigator, [FN4] and numerous nonstatutory mitigators, and followed
the jury recommendation. Johnston raises four claims on appeal.
FN2. See Spencer v. State, 615 So.2d 688 (Fla.1993).
FN3. The trial court found the following aggravators: (1) the
defendant was previously convicted of violent felonies; (2) the
crime was committed while Johnston was engaged in the
commission of sexual battery and a kidnapping; (3) it was
committed for pecuniary gain; and (4) it was especially heinous,
atrocious, or cruel.
FN4. The court found defense counsel proved that Johnston's
capacity to appreciate the criminality of his conduct orto conform
his conduct to the requirement of law was substantially impaired
6

App 180

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 7 of 156 PagelD 831

and gave it moderate weight.
Johnston, 841 So. 2d at 351-355.
DIRECT APPEAL

On December 5, 2002, the Florida Supreme Court affirmed Johnston's first-degree
murder conviction and death sentence for the murder of Coryell. The court also affirmed his
convictions and sentences for kidnaping, robbery, sexual battery; and burglary of a
conveyance with assault. Johnston v. State, 841 So. 2d 349, 361 (2002). Rehearing was
denied on March 13, 2003. The mandate issued March 13, 2003.
STATE POSTCONVICTION PROCEEDINGS

On March 11, 2004, Johnston filed a Rule 3.851 motion for postconviction relief in the
state trial court. (Ex. 81/171-193). On May 7, 2004, the State filed a motion to strike
Johnston's motion to vacate (on the grounds that Johnston's motion failed to comply with the
requirements of Rule 3.851 (e)), without prejudice to his filing a proper motion to vacate. (Ex.
81/194-197; 198-201 ).
On June 11, 2004, Johnston filed an amended motion to vacate. (Ex. 82/203-267).
On October 11, 2004, the State filed a response to the amended motion to vacate. (Ex.
82/276-342). A second amended motion was filed on December 8, 2005. Johnston's
amended motion raised twelve claims and multiple sub-claims. (Ex. 82/203-267, 355-404).
The state trial court held postconviction evidentiary hearings on December 1, 2006; June 1415, 2007; and July 12-13, 2007 on eight of Johnston's postconviction claims. (Ex.
852/601-862/1804). All postconviction relief was denied in the trial court's 136-page written
order of February 5, 2009. (Ex. 816/3102-617/3237).
Petitioner appealed the order denying postconviction relief to the Florida Supreme
7

App 181

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 8 of 156 PagelD 832

Court. Johnston v. State, 63 So. 3d 730 (Fla. 2011 ).
Simultaneously with his initial postconviction brief, Petitioner filed a Petition for Writ
of Habeas Corpus in the Florida Supreme Court, Case No. SC10-75.
On March 24, 2011, the Florida Supreme Court affirmed the denial of postconviction
relief and denied Petitioner's state habeas petition. Johnston v. State, 63 So.3d 730 (Fla.
2011) (Ex. B71 ). Petitioner's motion for rehearing was denied June 3, 2011, and the mandate
issued June 20, 2011. (Ex. B73; B74). Johnston did not petition the United States Supreme
Court for a writ of certiorari.
FEDERAL HABEAS PROCEEDINGS

On September 15, 2011, Petitioner Johnston filed a Petition for Writ of Habeas Corpus
in this Court (Doc. 1), which was amended on October 28, 2011. (Doc. 11 ). Petitioner filed
a Memorandum of Law on January 8, 2012. (Doc. 18).
TIMELINESS OF THE FEDERAL PETITION

Having considered the arguments of the parties, and the applicable case law, this
court assumes, without deciding, that the present petition was timely filed.
Respondent's Argument as to Timeliness

Johnston's habeas petition is governed by the provisions of the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA). Lindh v. Murphy, 521 U.S. 320, 326-27, 117
S. Ct. 2059 (1997); Abdul-Kabirv. Quarterman, 550 U.S. 233,127 S. Ct. 1654, 1664 (2007).
The AEDPA requires a state prisoner whose conviction has become final to seek federal
habeas corpus relief within one year. 28 U.S.C. § 2244(d)(1 )(A). The AEDPA tolls this 1-year
limitations period for the "time during which a properly filed application for State
postconviction or other collateral review ... is pending."§ 2244(d)(2).
8

App 182

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 9 of 156 PagelD 833

In this case, the one-year statute of limitations commenced when Johnston's
conviction became final upon "the conclusion of direct review or the expiration of the time for
seeking such review." See, 28 U.S.C. § 2244(d)(1)(A). See also, Bond v. Moore, 309 F.3d
770, 772 (11th Cir. 2002); Clay v. United States, 537 U.S. 522 (2003); San Martin v. McNeil,
633 F.3d 1257, 1266 (11th Cir. 2011), citing 28 U.S.C. § 2244(d)(1)(A).
On direct appeal, the Florida Supreme Court denied Petitioner's motion for rehearing
on March 13, 2003. The 90th day thereafter -- June 11, 2003 -- was the Petitioner's last day
to file a petition for writ of certiorari to the United States Supreme Court. See, Clay, 537 U.S.
522; Sibley v. Culliver, 377 F.3d 1196, 1199 (11th Cir. 2004) (noting AEDPA one year
"commences" on the "deadline" for seeking certiorari in the Supreme Court).
At that point, Johnston had one year from June 11, 2003, in which to either file his §
2254 habeas petition with this Court or file a "properly filed" application for postconviction
relief in state court. Because 2004 was a leap year, calculating 365 days from June 11, 2003
results in an end date of June 10, 2004. However, using the "anniversary" method (even
though it includes the intervening leap day), the "one year" anniversary "end" date was June
11, 2004.
Statutory Tolling
To statutorily toll the running of the limitations period, an application for state collateral
relief must be "properly filed" under state law. See 28 U.S.C. § 2244(d)(2); Allen v. Siebert,
552 U.S. 3,128 S. Ct. 2 (2007). Title 28 U.S.C. § 2244(d)(2) provides for tolling the limitation
period for "[t]he time during which a properly filed application for State post conviction or
other collateral review with respect to the pertinent judgment or claim is pending." Once the
petitioner has a filed a "properly filed" application for post-conviction relief in state court, "the
9

App 183

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 10 of 156 PagelD 834

AEDPA clock stops." It "resumes running when the state's highest court issues its mandate
disposing of the motion for post-conviction relief." San Martin, 633 F. 3d at 1266, citing
Lawrence v. Florida, 549 U.S. 327, 331-32, 127 S. Ct. 1079 {2007).
On March 11, 2004, Johnston filed a Rule 3.851 Motion to Vacate in the trial court, but
the motion failed to comply with the requirements of Rule 3.851{e). {Ex. 81/171-193). On
May 7, 2004, the State filed a motion to strike Johnston's motion to vacate on the grounds
that it failed to comply with the requirements of Rule 3.851 (e), without prejudice to Johnston's
filing a proper motion to vacate. 1 (Ex. 81/194-197; 198-201). On June 11, 2004, Johnston
filed an amended motion to vacate. (Ex. 82/203-267). On October 11, 2004, the State filed
a response to the amended motion to vacate. (Ex. 82/276-342). After the Florida Supreme
affirmed the denial of postconviction relief, the postconviction mandate issued on June 20,
2011.
In Artuz v. Bennett, 531 U.S. 4, 121 S. Ct. 361 (2000), the United States Supreme
Court determined that whether a motion is "properly filed" is based on whether the state court
pleading's delivery and acceptance are in compliance with the applicable laws and rules
governing filings. These usually prescribe, for example, the form of the document, the time
limits upon its delivery, the court and office in which it must be lodged, and the requisite filing
fee. Id. at 8. Under Artuz, postconviction motions that do not comply with state law regarding

1 There is no order in the postconviction record on the State's motion to strike.
However, the defense promptly filed an "amended" motion; thus, it appears that Johnston
did not dispute the State's motion to strike, without prejudice, on the grounds that the initial
motion failed to comply with the requirements of Rule 3.851 (e). The trial court's
postconviction orders did not address the motion filed in March of 2004, but, instead,
referred only to the "amended" motions filed in June of 2004 and in 2005.

10

App 184

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 11 of 156 PagelD 835

the form of such motions are not "properly filed." See, Artuz, 531 U.S. at 8; Melson v. Allen,
548 F.3d 993, 997-98 (11th Cir. 2008), vacated on other grounds, 130 S. Ct. 3491 (2010)
(unverified motion for post-conviction relief not properly filed}; Sibley v. Culliver, 377 F.3d
1196, 1203-04 (11th Cir. 2004) (pleading that was not on proper form, accompanied by
proper number of copies, nor submitted with proper filing fee not properly filed}.
Under Florida law, the requirements regarding the form of a motion for postconviction
relief in a capital case are set out in Fla. R. Crim. P. 3.851. The requirements were enacted
in response to criticism of the practice of filing "shell" motions merely to meet a time limit and
were designed to prevent the filing of such motions. See, Amendments to Fla. R. Crim. P.
3.851, 3.852, and 3.993 and Fla. R. Jud. Admin. 2.050, 802 So. 2d 298 (Fla. 2001 };
Amendments to Fla. R. Crim. P. 3.851, 3.852, and 3.993 and Fla. R. Jud. Admin. 2.050, 797
So. 2d 1213 (Fla. 2001); Amendments to Fla. R. Crim. P. 3.851, 3.852, and 3.993, 772 So.
2d 488 (Fla. 2000).
Johnston's incomplete "shell" motion to vacate was filed on March 11, 2004. However,
because that motion did not comply with the requirements of Rule 3.851 (e}(1 }, it was not
"properly filed" under Artuz and Pace; therefore, it did not toll the statute of limitations. Once
the limitations period expires, no state collateral proceedings filed thereafter will toll the
statute of limitations, because there is no longer anything left to toll. Sibley v. Culliver, 377
F.3d 1196, 1204 (11th Cir. 2004).
Respondent contends that Johnston's federal 28 U.S.C. § 2254 petition is untimely
regardless of the fact that there was no written order on the State's motion to strike and that
the Florida Supreme Court, in Gore v. State, 24 So. 3d 1, 15-16 (Fla. 2009}, ruled that an
amended motion related back to the date of the initial motion. Id., citing Bryant v. State, 901
11

App 185

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 12 of 156 PagelD 836

So. 2d 810, 818 (Fla. 2005) (noting that when an initial motion is stricken with leave to
amend, a subsequent amended motion relates back to the date of the original filing).
Respondent contends that under Eleventh Circuit's precedent, Petitioner's initial
incomplete "shell" motion was not "properly filed" so as to toll the federal limitations period
under§ 2244(d)(2). See, Melson v. Allen, 548 F. 3d 993, 998 (11th Cir. 2008), vacated on

other grounds, 130 S. Ct. 3491 (2010); Sibleyv. Culliver, 377 F.3d 1196, 1204 (11th Cir.
2004) ("Petitioner may not attempt to resurrect a terminated statute of limitations by
subsequently filing documents that purport to "relate back" to previously submitted
documents that were, in themselves, insufficient to toll the statute."); See also, Gonzalez v.

Secretary, Florida Dept. of Corrections, 629 F.3d 1219, 1221 (11th Cir. 2011) (finding no
need to address the timeliness issue where the state's own filing rules incorporated the
relation back doctrine because habeas petitioner's substantive claims were without merit}. 2

The first issue of whether Gonzalez's federal habeas petition was timely turns on
whether his "shell" motion was "properly filed" so as to toll the federal limitations period
under§ 2244(d)(2). Gonzalez argues that, although his "shell" motion was stricken by the
trial court, his amended Rule 3.850 motion was deemed to have "related back" and thus
rendered his "shell" motion "properly filed." Gonzalez relies on Gore v. State, where the
Florida Supreme Court indicated that the relation back doctrine rendered an initially-stricken
state post-conviction motion "properly filed" under Florida law for purposes of§ 2244(d)(2).
24 So.3d 1, 15-16 (Fla.2009). The state responds that this argument is foreclosed by our
case law. See Melson v. Allen, 548 F.3d 993, 998 (11th Cir. 2008), vacated on other
grounds,-U.S. - - , 130 S.Ct. 3491, 177 L.Ed.2d 1081 (2010); Sibleyv. Culliver, 377
F.3d 1196, 1204 (11th Cir. 2004). Gonzalez suggests that our cases are inapplicable
because none of them involved a situation where the state's own filing rules incorporated
the relation back doctrine. We need not address this issue here, however, because we find
Gonzalez's two substantive claims to be without merit. See Holland v. Florida, U.S.
- - , 130 S.Ct. 2549, 2560, 177 L.Ed.2d 130 (2010) ("[T]he AEDPA statute of limitations
defense is not jurisdictional.") (alteration, citation, and quotation marks omitted). Thus, even
if Gonzalez's federal habeas petition was timely filed, he is not entitled to relief.
2

12

App 186

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 13 of 156 PagelD 837

The determination of the meaning and operation of a federal statute is a question of federal
law upon which a federal court is not bound by a state court's decision. Johnson v. United
States, 130 S. Ct. 1265, 1269 (2010). Instead, federal courts are only bound by state court

decisions on issues of state law. Id.; Mullaney v. Wilbur, 421 U.S. 684,691, 95 S. Ct. 1881,
1886 (1975).
The Supreme Court has held that a postconviction motion is only "properly filed" if it
complies with the applicable laws and rules governing filings. Artuz, 531 U.S. at 8. The
determination of whether a motion that did not comply with a state's laws and rules could
nevertheless toll the federal habeas statute of limitations is a question regarding the meaning
of 28 U.S.C. 2244(d)(2), a federal statute. As a result, under Johnson, it is a question of
federal law to which this Court owes the state court's determination in Gore no deference.
See, Johnson, 130 S. Ct. at 1269.
In this case, absent tolling, the one-year limitations period ended on June 11, 2004
(using the anniversary date, including leap day), and any collateral application filed after that
date had no tolling effect. As the Eleventh Circuit has explained:
... Melson may not attempt to resurrect a terminated statute of limitations by
subsequently filing documents that purport to relate back to previously
submitted documents that were, in themselves, insufficient to toll the statute.
Sibley v. Culliver, 377 F.3d 1196, 1204 (11th Cir. 2004). Because Melson's
unverified petition filed on 4 March 2002 was insufficient to toll the statute of
limitations, his amended petition filed on 25 March 2002 does not relate back
to the earlier filing date to toll the statute either. The district court correctly
determined that Melson's one year limitations period was not statutorily tolled
by either his unverified or verified Rule 32 petitions, rendering his federal
habeas petition untimely under 2244(d)(1 )(A).
Melson, 548 F.3d at 997-98, vacated on other grounds; Sibley, 377 F.3d at 1204; Moore v.
Crosby, 321 F.3d 1377, 1380-81 (11th Cir. 2003). The fact that a state court gives a
13

App 187

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 14 of 156 PagelD 838

defendant more time to file state postconviction motions than is available under 2244(d) does
not extend the statute of limitations under AEDPA. Webster v. Moore, 199 F.3d 1256, 1259
(11th Cir. 2000). Thus, the issue of whether a state court motion can toll the statute of
limitations when it was not "properly filed" is an issue of federal law and meritless under
Melson and Sibley.

If the March 11, 2004, "shell" motion were "properly filed," then the one-year limitation
period remained tolled until the Florida Supreme Court issued its postconviction mandate.
San Martin, 633 F.3d at 1266; Lawrence, 549 U.S. at 331-32, 127 S. Ct. 1079. The Florida

Supreme Court's postconviction mandate issued on June 20, 2011. At that point, Johnston
clearly no longer had an application for state collateral relief pending. See, Lawrence v.
Florida, 549 U.S. 327. If any days arguably remained under AEDPA's statute of limitations,

the remaining time period began to run again when the mandate issued on June 20, 2011.
Johnston's federal habeas petition was filed on September 15, 2011 (Doc. 1) and
amended on October 28, 2011. The postconviction mandate issued on June 20, 2011. If the
"shell" postconviction motion filed March 11, 2004 is considered "properly filed," then the
instant habeas petition, filed on September 15, 2011, would appear to be timely filed. If the
"amended" motion, filed on June 11, 2004, is the first "properly filed" postconviction motion,
then the petition is untimely.
Petitioner's Argument as to Timeliness

Petitioner disagrees with the Respondents' argument that the March 11, 2004
postconviction motion was not properly filed. Noting that the State acknowledges that "There
is no order in the postconviction record on the State's motion to strike ... The trial court's
postconviction orders did not address the motion [to strike] filed in March of 2004," Petitioner
14

App 188

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 15 of 156 PagelD 839

contends that the lack of an order actually striking the Petitioner's 3.851 motion is fatal to the
State's procedural default argument. The motion was never stricken; it was amended and
then denied after an extensive evidentiary hearing. Petitioner contends that he properly filed
his postconviction motion in state court, tolling AEDPA's one year statute of limitations,
making this petition timely. Petitioner argues that no state court has ever made a finding that
Johnston's initial 3.851 motion was not properly filed, and this Court should not find this to
be the case either.
Petitioner argues that a procedural default defense is not available to the State and
he claims that Artuz v. Bennett, 531 U.S. 4 (2000) does not support the State's position:
"Like in Artuz, the Petitioner's Initial 3.851 Motion was not improperly filed for purposes of
2244(d)(2). Artuz at 11. In fact, Petitioner claims that Artuz actually supports the Petitioner.

Artuz held that in the absence of a written order, the postconviction motion was still pending
under § 2244(d)(2). There was no written order ever dismissing Johnston's Initial 3.851
Motion.
Petitioner claims that Melson v. Allen, 548 F. 3d 993 (11th Cir. 2008) is inapplicable
because Johnston actually did provide a written, sworn verification to his Initial 3.851 Motion.
Although Melson was decided adversely by the 11th Circuit Court of Appeals, Melson is an
Alabama case, not a Florida case. Therefore Melson was decided without the benefit or
control of Florida law.
In Bryant v. State, 901 So. 2d 810 (2005), the Florida Supreme Court held:
Bryant's initial motion was sixty-nine pages in length. It was stricken for mostly
technical deficiencies in form. (FN 5). For example, the motion failed to attach
a copy of the judgment and sentence as required under rule 3.851 (e)). Such
a lengthy motion can hardly be characterized as a 'shell motion.' .... [the]
failure to comply with the rule is more a matter of form than substance.
15

App 189

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 16 of 156 PagelD 840

Bryant, at 819. Petitioner claims that Bryant is right on point and should control this issue.
Even if the trial court had stricken Johnston's motion as the court did in Bryant, which the trial
court did not in Johnston's case, Johnston's federal habeas petition would not be timebarred. The more recent Florida case of Gore v. State, 24 So. 3d 1 (Fla. 2009), also on point,
stated:
Finally, although the trial court did not err in striking Gore's motion without
leave to amend, we conclude that because this Court granted an extension of
time pursuant to rule 3.851 (d)(5) in which to file an amended motion, Gore's
amended motion in this case relates back to the date of the initial motion filed
on June 18, 2002. See generally Bryant v. State, 901 So.2d 810, 818 (Fla.
2005) (noting that when an initial motion is stricken with leave to amend, a
subsequent amended motion relates back to the date of the original filing).
Accordingly, although the trial court did not err in its ruling, in our view this
Court's order granting an extension of time in which to file an amended motion
rendered Gore's motion timely for purposes of federal review.
Gore, at 16. Florida is different.
At least one federal court in Florida has decided the issues discussed in Melson
differently:
Petitioner corrected his original error. The amended motion was a copy of the
original with the oath added at the end. Under Florida law, an amendment that
does not change the original claims relates back to the original filing. Fla. R.
Civ. P .1.190(c) ("When the claim or defense asserted in the amended pleading
arose out of the conduct, transaction, or occurrence set forth or attempted to
be set forth in the original pleading, the amendment shall relate back to the
date of the original pleading."); Bryant v. State, 901 So.2d 810, 818 (Fla.2005)
( "Had the circuit court stricken the [Rule 3.851] motion with leave to amend,
the amended motion Bryant filed in March 2003 would have been timely
because it would have related back to the original filing," quoting Rule
1.190(c)); Schwenn v. State, 958 So.2d 531,532 (Fla. 4th DCA2007) (Rule
3.850 motion, explaining that an amended motion would relate back, -citing
Bryant). See also, Mederos v. United States, 218 F.3d 1252, 1253-1254 (11th
Cir.2000) (district court erred by not finding that a second 2255 motion,
identical to the first except that it corrected the lack of a signature under
penalty of perjury, related back to the date of filing of the first§ 2255 motion;
the court relied upon Fed. R. Civ. P. 15(c)(2), providing relation back much the
same as the Florida rule). Since Petitioner amended his motion and corrected
16

App 190

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 17 of 156 PagelD 841

the problem, Petitioner is entitled toAEDPA tolling from March 27, 2005, when
he originally filed the motion without an oath. Thus, his§ 2254 petition was
timely filed.
Patrick v. McDonough, 4:06CV543-SPM/WCS, 2007 WL 3231740 (N.D. Fla. Oct. 29, 2007).

Johnston's amended motions related back to the original motion.
The State cites Sibley v. Culliver, 377 F.3d 1196 (11th Cir. 2004) in support of
dismissal for lack of timeliness. This case is inapplicable because Johnston's pleading
actually contained meaningful state and federal analysis. "One fair inference of this holding
is that where a petitioner fails to include any meaningful federal or state legal analysis, we
need not consider his filing an application for state post-conviction review." Sibley, Id. at
1200. The State does not allege here that the Petitioner's Initial 3.851 Motion lacked
"meaningful state and federal analysis." They simply allege that it is a "shell" and that a
document from the original record on appeal was not attached to the pleading. Unlike Sibley,
Johnston did not file in the "wrong court." See Sibley, Id. at 1203. The holding in Sibley was
very narrow and is inapplicable to the case at bar:
All we are holding is that there is an outer limit to the nonsense a petitioner
may include in a purported "application for post-conviction or other relief' and
still have it count as such. Ramblings about how Sibley is not a "serf," is not "in
trade or business with any enemy of the Constitutional United States," does not
have a social security number, does not believe in self-representation yet
rejects all court-appointed attorneys, and for unspecified reasons was
somehow beyond the jurisdiction of any Alabama court, are insufficient for a
court to consider something a legitimate filing.
Sibley, Id. at 1201. Johnston never made any such allegations in his Initial 3.851 Motion.
Gonzalez v. Secretary, Florida Dept. Of Corrections, 629 F. 3d 1196 (11th Cir. 2011),

cited by the State, is distinguishable here because in that case, the court actually did strike
an incomplete "shell" motion, and the substantive claims had no merits. Mr. Johnston's Initial
17

App 191

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 18 of 156 PagelD 842

3.851 Motion was never stricken by the court, and his claims actually have merit. Also the
State cites to Johnson v. United States, 130 S. Ct. 1265, 1269 (2010) to support its position
that the federal courts are not bound by the relation back doctrine found in Gore.
The Petitioner alleges that the federal courts "are, however, bound by the Florida
Supreme Court's interpretation of state law." Johnson, Id. at 1269. Johnston tolled the time
for the filing of his federal habeas petition under both state and federal law.
The State makes the following erroneous claim: "this Court owes the state court's
determination in Gore no deference." If this Court is inclined to agree with the State's
position regarding untimeliness, which the Petitioner obviously disputes, Johnston should still
be permitted to proceed with his federal claims under the recent ruling in Martinez v.

Ryan, 132 S. Ct. 1309 (2012).
Respondent's Sur-Reply in Regard to Timeliness

Respondent argues that the instant habeas petition is time-barred and contends that

Bryant v. State, 901 So. 2d 810 (Fla. 2005) is not "right on point and should [not] control."
(Doc. 25 at 3). In Bolin v. Dept. of Corr., 2013 WL 3327873 (M.D. Fla. July 1, 2013), the
District Court, citing Jones v. Dept. of Corr., 499 Fed. Appx. 945, 952 (11th Cir. 2012),
rejected another inmate's similar reliance on Bryant
Bolin's reliance on Bryant v. State, 901 So.2d 810 (Fla. 2005) is misplaced.
Although the Florida Supreme Court in Bryant observed in dicta that an
amended Rule 3.851 motion would have related back to an original filing which
had been stricken because of deficiencies, that is a matter of Florida law and
procedure. Whether Bolin's corrected Rule 3.851 motion relates back to his
initial motion for purposes of the AEDPA "rest[s] on the nature of the federal
limitations period and federal law." Jones v. Secretary, Florida Dept. of
Corrections, 499 Fed. Appx. at 945,952 (11th Cir. 2012). As noted, precedent
in this Circuit compels a conclusion that Bolin's corrected Rule 3.851 motion
did not, as a matter of federal law and application of the AEDPA, relate back
to his improperly filed initial Rule 3.851 motion and accordingly, Bolin's federal
18

App 192

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 19 of 156 PagelD 843

habeas petition is time barred.
Here, as in Bolin 3 , Petitioner's reliance on Bryant is misplaced.
Petitioner cannot proceed with his federal habeas claims under Martinez v. Ryan, 132
S. Ct. 1309 (2012), even if his petition is untimely. (Doc. 25 at 5). Martinez does not address
timeliness; it addresses failure to exhaust state court remedies and procedural default of an
ineffective-assistance-of-trial-counsel-claim in two limited situations: 1) counsel was not
appointed in the initial-review collateral proceeding or 2) appointed postconviction counsel
in the initial-review collateral proceeding was ineffective, pursuant to Strickland v.
Washington, 466 U.S. 668 (1984), and failed to raise a "substantial" claim of ineffective

assistance of trial counsel. Martinez, 132 S. Ct. at 1318, 1321. In Gore v. Crews, 720 F.3d
811 (11th Cir. 2013), the Eleventh Circuit emphasized that "[b]y its own emphatic terms, the
Supreme Court's decision in Martinez is limited to claims of ineffective assistance of trial
counsel that are otherwise procedurally barred due to the ineffective assistance of postconviction counsel." Id. at 816. See a/so Arthur v. Thomas, 739 F.3d 611,629 (11th Cir.
2014) (addressing limitation of Martinez exception); Chavez v. Dept. of Corr., 742 F. 3d 940,
945 (11th Cir. 2014) (repeating the narrow scope of Martinez and noting that Chavez's initial
§ 2254 petition was dismissed as untimely because it was filed more than one year after his
convictions became final on direct review, see 28 U.S.C. § 2244(d)(1)(A), and "nothing in
Martinez alters that fact").

Notably, Petitioner Johnston does not make any claim for equitable tolling of the§

3 On September 20, 2013, the Eleventh Circuit denied Bolin's application for
certificate of appealability (COA). Bolin v. Dept. of Corr., Case No. 13-13539-P (11th Cir.
Sept. 20, 2013).

19

App 193

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 20 of 156 PagelD 844

2244(d) statute of limitations period under Holland v. Florida, 560 U.S. 631. Furthermore, in
Cadet v. Dept. of Corr., 742 F.3d 473 (11th Cir. 2014), the Eleventh Circuit, citing Maples v.
Thomas, 132 S. Ct. 912 (2012), held that "attorney negligence, however gross or egregious,

does not qualify as an "extraordinary circumstance" for purposes of equitable tolling;
abandonment of the attorney-client relationship, such as may have occurred in Holland, is
required." Petitioner has never alleged that "his attorney... abandoned him, thereby
supplying the 'extraordinary circumstances"' necessary to warrant equitable tolling of the
§2244(d) statute of limitations period." Cadet, 742 F.3d at 481-82.
As stated above, this Court assumes, without deciding, that the present petition was
timely filed. Furthermore, Johnston's grounds for relief have no merit, as discussed below.
STANDARDS OF REVIEW

In Cullen v. Pinholster, 131 S. Ct. 1388, 1398 (2011), the United States Supreme
Court reiterated the following standards of review under 28 U.S.C. § 2254:
As amended by AEDPA, 28 U.S.C. § 2254 sets several limits on the
power of a federal court to grant an application for a writ of habeas corpus on
behalf of a state prisoner. Section 2254(a) permits a federal court to entertain
only those applications alleging that a person is in state custody "in violation
of the Constitution or laws or treaties of the United States." Sections 2254{b)
and (c) provide that a federal court may not grant such applications unless,
with certain exceptions, the applicant has exhausted state remedies.
If an application includes a claim that has been "adjudicated on the
merits in State court proceedings,"§ 2254(d), an additional restriction applies.
Under§ 2254(d), that application "shall not be granted with respect to [such a]
claim ... unless the adjudication of the claim":
"(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
"(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
20

App 194

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 21 of 156 PagelD 845

the State court proceeding."
This is a "difficult to meet," Harrington v. Richter, 562 U.S.--,--, 131
S.Ct. 770, 786, 178 L.Ed.2d 624 (2011 ), and "highly deferential standard for
evaluating state-court rulings, which demands that state-court decisions be
given the benefit of the doubt," Woodford v. Visciotti, 537 U.S. 19, 24, 123
S.Ct. 357, 154 L.Ed.2d 279 (2002) (per curiam) (citation and internal quotation
marks omitted). The petitioner carries the burden of proof. Id., at 25, 123 S.Ct.
357.

Cullen v. Pinholster, 131 S. Ct. 1388, 1398.
AEDPA altered the federal court's role in reviewing state prisoner applications in order
to "prevent federal habeas 'retrials' and to ensure that state-court convictions are given effect
to the extent possible under law." Bell v. Cone, 535 U.S. 685,693, 122 S. Ct. 1843 (2002).

Federal Question
A federal court may only entertain an application for a writ of habeas corpus from a
state prisoner who claims his custody violates the "Constitution or the laws or treaties of the
United States." 28 U.S.C. § 2254(a). Questions of state law are generally insufficient to
warrant review or relief by a federal court under§ 2254. Estelle v. McGuire, 502 U.S. 62, 68,
112 S. Ct. 475 (1991); Carrizales v. Wainwright, 699 F.2d 1053, 1055 (11th Cir. 1983);

Cabberiza v. Moore, 217 F.3d 1329, 1333 (11th Cir. 2000). A violation of a state rule of
procedure, or of state law itself, is not a violation of the federal constitution. Branan v. Booth,
861 F.2d 1507, 1508 (11th Cir. 1989).

Exhaustion and Procedural Bar
Under the exhaustion requirement, a habeas petitioner challenging a state conviction
must first attempt to present his claim in state court. 28 U.S.C. § 2254(b). If the state court
rejects the claim on procedural grounds, the claim is barred in federal court unless one of the
exceptions to Wainwright v. Sykes, 433 U.S. 72, 82-84, 97 S. Ct. 2497 (1977) applies. To
21

App 195

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 22 of 156 PagelD 846

excuse a procedural default, a petitioner must demonstrate either (1) "cause for the default
and prejudice attributable thereto" or (2) "that failure to consider [the defaulted] claim will
result in a fundamental miscarriage of justice." Harris v. Reed, 489 U.S. 255,262, 109 S. Ct.
1038 (1989).
Furthermore, a claim "is procedurally defaulted if it has not been exhausted in state
court and would now be barred under state procedural rules." Mize v. Hall, 532 F.3d 1184,
1190 (11th Cir. 2008). Under the procedural default doctrine, "[i]f the petitioner has failed to
exhaust state remedies that are no longer available, that failure is a procedural default which
will bar federal habeas relief." Smith v. Jones, 256 F.3d 1135, 1138 (11th Cir. 2001).
A procedural default for failing to exhaust state court remedies will only be excused
in two narrow circumstances. First, a petitioner may obtain federal habeas review of a
procedurally defaulted claim if he shows both "cause" for the default and actual "prejudice"
resulting from the asserted error. House v. Bell, 547 U.S. 518, 536-37, 126 S. Ct. 2064
(2006). Second, under exceptional circumstances, a petitioner may obtain federal habeas
review of a procedurally defaulted claim if such review is necessary to correct a fundamental
miscarriage of justice. House, 547 U.S. at 536, 126 S. Ct. 2064; Edwards v. Carpenter, 529
U.S. 446,451, 120 S. Ct. 1587 (2000).

Retroactive Application of New Law
In Teague v. Lane, 489 U.S. 288, 297-98, 109 S. Ct. 1068 (1989); the Supreme Court
held that constitutional claims may not be raised on collateral review if they are based upon
a new rule that was enunciated after the conviction and sentence became final. 489 U.S. at
311, 109 S. Ct. at 1075. The Court has explained that Teague validates reasonable good
faith interpretations of existing precedent. Butler v. McKellar, 494 U.S. 407, 11 OS. Ct. 1212
22

App 196

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 23 of 156 PagelD 847

(1990). A precedent sets forth a new rule unless "reasonable jurists" would have "felt
compelled" at the time the petitioner's conviction became final to rule in the petitioner's favor
on the issue. Graham v. Collins, 506 U.S. 461, 467, 113 S. Ct. 892, 898 (1993). The
precedent will be considered a new rule even if the issue is "governed" or "controlled" by
existing precedent, Butler, 494 U.S. at 415,110 S. Ct. at 1217 and will be considered as a
collateral claim only if the relief sought was "dictated" by prior precedent.
Deference to State Court Decisions

On habeas review, the state court's application of the facts to the law may not be
overturned unless it contradicts a decision of the United States Supreme Court, or involves
an unreasonable factual finding. Habeas relief may not be granted with respect to a claim
adjudicated on the merits in state court unless the adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). These provisions bar de novo review in federal court. A decision of a
state court is only contrary to clearly established Supreme Court precedent if a state court
has applied the wrong legal standard or has applied the right legal standard but reached a
different conclusion than the United States Supreme Court did on materially indistinguishable
set of facts. Williams v. Taylor, 529 U.S. 362, 412-13, 120 S. Ct. 1495, 1522 (2000). In order
for the state court's determination of the merits of the claim to be unreasonable, the
determination must be objectively unreasonable. Id. "[A] federal habeas court may not issue
the writ simply because that court concludes in its independent judgment that the relevant
23

App 197

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 24 of 156 PagelD 848

state-court decision applied clearly established federal law erroneously or incorrectly. Rather,
that application must be unreasonable." Id. at 411.
Further, the state courts' factual findings are subject to a presumption of correctness
under 28 U.S.C. §2254(e)(1). The state court's factual conclusions must be accepted by the
federal courts on habeas review, unless the petitioner demonstrates by clear and convincing
evidence that they are incorrect. Id. The AEDPA imposes a '"difficult to meet,' and 'highly
deferential standard for evaluating state-court rulings, which demands that the state-court
decisions be given the benefit of the doubt."' Cullen v. Pinholster, -

U.S.-, 131 S. Ct.

1388, 1398 (2011) (internal quotations and citations omitted). Moreover, review "is limited to
the record that was before the state court that adjudicated the claim on the merits;" Cullen,
131 S. Ct. at 1398.
"The question under AEDPA is not whether a federal court believes the state court's
determination was correct but whether that determination was unreasonable - a substantially
higher threshold." Schriro v. Landrigan, 550 U.S. 465,473, 127 S. Ct. 1933, 1939 (2007). In
sum, in order to obtain any relief, Petitioner must show that the state courts' rejection of his
claims was contrary to, or an unreasonable application of, clearly established United States
Supreme Court precedent.
Brecht v. Abrahamson

In Brecht v. Abrahamson, 507 U.S. 619, 113 S. Ct. 1710 (1993), the Supreme Court
set forth the standard for relief where error is determined, on habeas review, to exist. This
test is "less onerous" then the harmless error standard enunciated in Chapman v. California,
386 U.S. 18, 87 S. Ct. 824 (1967). "The test is whether the error 'had substantial and
injurious effect or influence in determining the jury's verdict.' Under this standard, habeas
24

App 198

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 25 of 156 PagelD 849

petitioners may obtain plenary review of their constitutional claims, but they are not entitled
to habeas relief based on trial error unless they can establish that it resulted in 'actual
prejudice."' 507 U.S. at 637, 113 S. Ct. at 1722. The United States Supreme Court has
reaffirmed that this standard applies and does so even if the state court did not find error. Fry
v. Pliler, 551 U.S.112, 127 S. Ct. 2321 (2007).

Ineffective Assistance of Counsel

For an ineffectiveness of counsel claim, the "clearly established" standard is set forth
in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984). Under Strickland, "[a]
convicted defendant making a claim of ineffective assistance of counsel must identify the acts
or omissions of counsel that are alleged not to have been the result of reasonable
professional judgment." 466 U.S. at 690, 104 S. Ct. at 2066. Counsel "is strongly presumed
to have rendered adequate assistance and made all significant decisions in the exercise of
reasonable professional judgment." Id.
Even if deficient performance is demonstrated, a petitioner must also show "a
reasonable probability that, but for counsel's unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome." 466 U.S. at 694, 104 S. Ct. at 2068. It must be
"reasonably likely" the result would have been different; "[t)he likelihood of a different result
must be substantial, not just conceivable." Harrington, 131 S. Ct. at 793 (citations omitted).
The failure to demonstrate either prong of Strickland is dispositive of the claim against the
petitioner. 466 U.S. at 697, 104 S. Ct. at 2069.
The standards created by Strickland and§ 2254(d) are both "highly deferential," and
when the two apply in tandem, review is "doubly" so. When § 2254(d) applies, the question ·
25

App 199

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 26 of 156 PagelD 850

is not whether counsel's actions were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland's deferential standard. Hanington, 131
S. Ct. at 788 (citations omitted).
The "Federal Constitution imposes one general requirement: that counsel make
objectively reasonable choices." Bobby v. Van Hook, 130 S. Ct. 13, 17 (2009) (internal
quotations and citations omitted). It is petitioner who bears the heavy burden to "prove, by
a preponderance of the evidence, that counsel's performance was unreasonable." Jones v.
Campbell, 436 F.3d 1285, 1293 (11th Cir. 2006), cert. denied sub nom., Jones v. Allen, 549
U.S. 1030, 127 S. Ct. 619 (2006). Moreover, a court must "judge the reasonableness of
counsel's conduct on the facts of the particular case, viewed as of the time of counsel's
conduct," Roe v. Flores-Ortega, 528 U.S. 470, 477, 120 S. Ct. 1029 (2000) (quoting
Strickland, 466 U.S. at 690), applying a "highly deferential" level of judicial scrutiny.
DISCUSSION
GROUND ONE

THE STATE COURTS ERRED IN FAILING TO GRANT GUilT PHASE
RELIEF BASED ON FOREPERSON JUROR MISCONDUCT, INCLUDING
HER FAILURE TO DISCLOSE MATERIAL INFORMATION DURING VOIR
DIRE RELATED TO HER CAPIAS STATUS AT THE TIME OF JURY
SERVICE. THIS DEPRIVED MR. JOHNSTON OF A FUNDAMENTALLY FAIR
TRIAL GUARANTEED UNDER THE FIFTH, SIXTH, EIGHTH, AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES CONSTITUTION.
THE STATE COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO
FEDERAL LAW AND AN UNREASONABLE APPLICATION OF THE SAME.
THE COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT. THIS COURT SHOULD GRANT THE WRIT.
Petitioner's Allegations

The Foreperson of the Petitioner's jury, Tracy Neshell Robinson, failed to reveal her
own criminal arrest history under direct questioning during voir dire, thus depriving the
26

App 200

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 27 of 156 PagelD 851

Petitioner of due process. Because Robinson had been arrested before, she was correct to
check the box on the short jury questionnaire form informing the parties and the court that
either she or a family member had been arrested. But when questioned directly about this
by the State, she failed to reveal her own arrest. She stated that her child's father had been
arrested, but she failed to mention that she herself had also been arrested. As a matter of
fact, unknown to the parties and the court, she pied guilty to the criminal charges less than
a year before Johnston's trial. Also unknown to the parties and the court, she was ordered
to pay court costs after her plea; she was informed that a capias would issue for failure to
pay the court costs by a certain date; and she failed to pay the court costs. She was actually
sitting on the panel during voir dire with an active capias for her arrest, withholding material
information about her criminal case and arrest while being questioned directly about this
recent court case. Robinson's withheld arrest history was material information that would
have affected the decision of whether or not to move to strike her from the panel.
When a juror, especially one who serves as foreperson, withholds such material
information about an arrest that happened less than a year prior to trial, the verdict that led
to the sentence of death should be vacated. When material information is either falsely
represented or concealed by a juror upon voir dire, the entire proceeding is tainted and the
parties are deprived of a fair and impartial trial. This is especially the case when the withheld
information relates to that juror's criminal case, and a capias exists for that juror's arrest
based on that undisclosed criminal case. Although the juror's intent is not dispositive, and
even an unintentionally false or materially incomplete response deprives a defendant of a fair
and impartial jury. The circumstances of the instant case show rather convincingly that
Robinson's concealment was deliberate, though under the law in the State of Florida, the
27

App 201

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 28 of 156 PagelD 852

non-disclosure need not be intentional for the verdict to be overturned. Robinson's
concealment during voir dire amounts to juror misconduct that offends the United States
Constitution. This sitting foreperson juror's capias in this case was not purely civil in nature
as characterized by the State courts. She was simply incompetent to serve on the
Petitioner's jury .
The state court decisions on this issue were contrary to federal law and an
unreasonable application of the same. The courts' decisions were also based on an
unreasonable finding of fact.
Allegations in Petitioner's Reply

In his reply to the state's response to the petition, Petitioner alleges: At page 43 the
State makes the following conclusory argument: "Because the substantive 'juror nondisclosure' claim is procedurally barred, this Court cannot address the merits of this claim,
absent a showing of cause and prejudice. Coleman v Thompson, 501 U.S. 722, 111 S. Ct.
2546 (1991)." This claim is not procedurally barred. Johnston raised this claim in his 3.851
motion as ineffective assistance of counsel and it was fully litigated in state court. Johnston
attempted to raise it on direct appeal but the Florida Supreme Court found that the specific
issue was not preserved. It was raised in his postconviction motion and fully litigated in
postconviction. (See Ground Ill.) The ineffective assistance of counsel claim shows cause
and prejudice to overcome the procedural bar.
Just because this issue was initially deemed procedurally barred on direct appeal does
not forever bar it from federal review. Trial counsel should have raised this specific issue in
the motions for new trial. Because of the ineffective assistance of counsel, the claim had to
be litigated in postconviction. This is not a successive habeas -- Mr. Johnston is entitled to
28

App 202

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 29 of 156 PagelD 853

his bite of this apple here in federal court on this issue. See Owen v. Sec'y for Dept.of
Corrections, 568 F. 3d 894, 914-915 (11th Cir. 2009)(rejecting the use of a procedural bar
where the state courts had decided an issue on the merits). There is no procedural default
option available to the State.
In Murray v Carrier, 477 U.S. 478,488 (1986), the United States Supreme Court held
that "if the procedural default is the result of ineffective assistance of counsel, the Sixth
Amendment itself requires that responsibility for the default be imputed to the State." The
reason this underlying claim was deemed procedurally barred originally was because trial
counsel failed to raise it in a motion for new trial. The Petitioner is entitled to have this claim
heard in federal court.
The State claims that "Johnston failed to establish prejudice because defense counsel
would not have moved to strike juror Robinson even if she had disclosed her criminal
history." Trial counsel did not actually know about the failure of the juror to reveal her arrest
and capias status. There is no way strategy could have been employed at the time that trial
counsel and the state trial court were duped by this juror. Attributing a strategy for an
unknown is an unreasonable finding of fact. Had juror Robinson revealed her criminal history,
this would have led to the discovery that she had an active capias, she would have been
arrested and not permitted to serve as foreperson of the jury. (Doc. 25 at 18-29).
Exhaustion, Procedural Bar and Disposition of Ground One in State Court

Under the exhaustion requirement, a habeas petitioner challenging a state conviction
must first attempt to present his claim in state court. 28 U.S.C. § 2254(b). If the state court
rejects the claim on procedural grounds, the claim is barred in federal court unless one of the
exceptions to Wainwright v. Sykes, 433 U.S. 72, 82-84, 97 S. Ct. 2497 (1977) applies. To
29

App 203

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 30 of 156 PagelD 854

excuse a procedural default, a petitioner must demonstrate either (1) "cause for the default
and prejudice attributable thereto" or (2) "that failure to consider [the defaulted] claim will
result in a fundamental miscarriage of justice." Harris v. Reed, 489 U.S. 255,262, 109 S. Ct.
1038 (1989).
On direct appeal, Johnston raised a claim of alleged "concealment" by juror Robinson
in sub-claim l(D) of his amended initial brief. (Ex. A27 at 50-57). The claim of alleged
"concealment" by juror Robinson was not raised at trial and the Florida Supreme Court
applied a procedural bar on direct appeal. Johnston, 841 So. 2d at 357. On direct appeal,
Johnston argued that he was entitled to a new trial because juror Robinson (1) was under
prosecution at the time of the trial; (2) withheld a material fact during voir dire; and (3) may
have been abusing drugs during the trial. Johnston, 841 So. 2d at 355. The Florida Supreme
Court ruled that the sub-claim of juror Robinson's alleged "failure to disclose" [her prior
misdemeanor plea] was procedurally barred:
Johnston next asserts that he is entitled to a new trial because juror
Robinson deliberately failed to disclose that she pied nolo contendere to a
misdemeanor charge within the past year. Appellate counsel concedes that
defense counsel failed to specifically raise this claim with the trial court.
As this specific ground for a new trial was not raised with the lower
court, it will not be considered on appeal. [FN8] To the extent that Johnston
is claiming his counsel was ineffective, we find that this issue should be
addressed in a rule 3.850 motion-not on direct appeal. [FN9]
FN8. See Steinhorst v. State, 412 So. 2d 332, 338 (Fla. 1982)
("[l]n order for an argument to be cognizable on appeal, it must
be the specific contention asserted as legal ground for the
objection, exception, or motion below.").
Johnston, 841 So. 2d at 357.

Because the substantive "juror non-disclosure" claim is procedurally barred, this Court
cannot address the merits of this claim, absent a showing of cause and prejudice. Coleman
30

App 204

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 31 of 156 PagelD 855

v. Thompson, 501 U.S. 722, 111 S. Ct. 2546 {1991 ).

Johnston failed to show cause and prejudice to excuse his procedural default. On
postconviction appeal, the Florida Supreme court rejected Johnston's IAC claims based on
the alleged failure to sufficiently question juror Robinson during voir dire and failure to allege
juror Robinson's misconduct in his motion for new trial. The Florida Supreme Court denied
these IAC sub-claims as follows:
A. Failure to sufficiently question juror Robinson at voir dire

Johnston first claims that counsel was ineffective for failing to sufficiently
question juror Tracy Robinson at voir dire, suggesting that a targeted "followup" question would have brought out additional facts not disclosed by
Robinson. He also asserts that such information would have caused defense
counsel to move to strike Robinson for cause or to peremptorily exclude
Robinson. We disagree.
Juror Robinson, who served as the jury foreperson, was arrested for a
drug-related offense during the penalty phase. Johnston, 841 So. 2d at 355.
[FN7] Her arrest revealed that she pied nolo contendere approximately ten
months before Johnston's trial to misdemeanor charges of obstructing a police
officer without violence. Id. During voir dire, juror Robinson did not reveal her
prior plea and charges. Id. Robinson also failed to pay her court costs in that
obstruction case; therefore, at the time of Johnston's trial she was the subject
of an active capias for civil contempt charges. Id. at 357. On direct appeal,
Johnston argued that he was entitled to a new trial because of Robinson's
nondisclosure and active capias. Id. at 355-57. This Court rejected Johnston's
argument, holding that the capias did not statutorily disqualify Robinson and
that Johnston had failed to raise the issue of Robinson's nondisclosure with the
trial court. Id. at 357-58.
FN7. This Court's opinion on direct appeal fully set out the facts
regarding juror Robinson. See id. at 355-56.
Following the United State Supreme Court's decision in Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), this Court
has held that for ineffective assistance of counsel claims to be successful, the
defendant must demonstrate both deficiency and prejudice:
First, the claimant must identify particular acts or omissions of
the lawyer that are shown to be outside the broad range of
31

App 205

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 32 of 156 PagelD 856

reasonably competent performance under prevailing professional
standards. Second, the clear, substantial deficiency shown must
further be demonstrated to have so affected the fairness and
reliability of the proceeding that confidence in the outcome is
undermined.
Bolin v. State, 41 So. 3d 151, 155 (Fla. 2010) (quoting Maxwell v. Wainwright,
490 So. 2d 927, 932 (Fla. 1986)).

There is a strong presumption that trial counsel's performance was not
deficient. See Strickland, 466 U.S. at 690, 104 S.Ct. 2052. "A fair assessment
of attorney performance requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the circumstances of counsel's
challenged conduct, and to evaluate the conduct from counsel's perspective
at the time." Id. at 689, 104 S.Ct. 2052. The defendant carries the burden to
"overcome the presumption that, under the circumstances, the challenged
action 'might be considered sound trial strategy.' " Id. (quoting Michel v.
Louisiana, 350 U.S. 91, 101, 76 S.Ct. 158, 100 L.Ed. 83 (1955)). "Judicial
scrutiny of counsel's performance must be highly deferential." Id. "[S]trategic
decisions do not constitute ineffective assistance of counsel if alternative
courses have been considered and rejected and counsel's decision was
reasonable under the norms of professional conduct." Occhicone v. State, 768
So. 2d 1037, 1048 (Fla. 2000). Furthermore, where this Court previously has
rejected a substantive claim on the merits, counsel cannot be deemed
ineffective for failing to make a meritless argument. Melendez v. State, 612 So.
2d 1366, 1369 (Fla. 1992).
In demonstrating prejudice, the defendant must show a reasonable
probability that "but for counsel's unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome." Strickland, 466 U.S. at
694, 104 S.Ct. 2052.
Because both prongs of the Strickland test present mixed questions of
law and fact, this Court employs a mixed standard of review, deferring to the
circuit court's factual findings that are supported by competent, substantial
evidence, but reviewing the circuit court's legal conclusions de nova. See
Sochor v. State, 883 So. 2d 766, 771-72 (Fla. 2004).
First, in this case, counsel was not ineffective for failing to
sufficiently question juror Robinson regarding the capias. See Ferrell v.
State, 29 So. 3d 959, 976 (Fla. 2010) ("Trial counsel cannot be deemed
ineffective for failing to raise a meritless argument."). As this Court held on
direct appeal, Robinson's civil contempt charge did not disqualify her
from service under section 40.013(1), Florida Statutes (1999). Johnston,
32

App 206

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 33 of 156 PagelD 857

841 So. 2d at 356-57. Therefore, even if Robinson was aware of the capias
and disclosed it upon questioning, such disclosure would not have
provided a reason for Robinson to be removed for cause.
Second, counsel was not deficient because in keeping juror
Robinson, defense counsel was following its strategy of seeking a young
and minority jury. After conducting a mock trial and soliciting pretrial advice
from a professional jury consultant, defense counsel decided to pursue a
strategy of seating jurors matching the profile shared by juror Robinson.
Defense counsel testified at the evidentiary hearing that Robinson's prior
misdemeanor and active capias would not have made her any less desirable
to the defense. Counsel was not ineffective for pursuing this reasonable
strategy. See Oil/beck v. State, 964 So. 2d 95, 103 (Fla. 2007) ("Dillbeck's trial
counsel adopted a reasonable trial strategy of avoiding a death sentence by
attempting to seat jurors likely to recommend a life sentence.").
Additionally, Johnston has failed to establish prejudice; given that
defense counsel would not have moved to strike juror Robinson even if
counsel had further questioned Robinson and she had disclosed her
criminal history, our confidence in the outcome is not undermined. In
fact, after learning of juror Robinson's arrest, the defense verbally objected to
her removal, expressing a preference for juror Robinson over the alternate
juror.

Accordingly, because Johnston cannot demonstrate deficiency and
prejudice, this ineffectiveness claim is without merit.
B. Failure to cite juror Robinson's misconduct in motion for new trial
Johnston next claims that defense counsel was ineffective for
failing to include in the motion for new trial a claim of juror misconduct
based on juror Robinson's nondisclosure. Because Johnston cannot
demonstrate prejudice, we disagree.

This Court has explained that
[i]n determining whether a juror's nondisclosure of information
during voir dire warrants a new trial, courts have generally
utilized a three-part test. First, the complaining party must
establish that the information is relevant and material to jury
service in the case. Second, that the juror concealed the
information during questioning. Lastly, that the failure to disclose
the information was not attributable to the complaining party's
lack of diligence.
33

App 207

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 34 of 156 PagelD 858

De La Rosa v. Zequeira, 659 So. 2d 239, 241 (Fla. 1995)
(citations omitted); see also Lugo v. State, 2 So. 3d 1, 13 (Fla.
2008).

Under the first prong of De La Rosa, Johnston must establish that the
nondisclosed information is relevant and material to jury service in this case.
De La Rosa, 659 So. 2d at 241; see also Murray v. State, 3 So. 3d 1108,
1121-22 (Fla. 2009). "There is no per se rule that involvement in any particular
prior legal matter is or is not material." Roberts v. Tejada, 814 So. 2d 334, 345
(Fla. 2002); see also State Farm Fire & Gas. Co. v. Levine, 837 So. 2d 363,
366 n. 2 (Fla. 2002). Factors that may be considered in evaluating materiality
include the remoteness in time of a juror's prior exposure, the character and
extensiveness of the experience, and the juror's posture in the litigation.
Roberts, 814 So. 2d at 342.
But "materiality is only shown 'where the omission of the information
prevented counsel from making an informed judgment -- which would in all
likelihood have resulted in a peremptory challenge."' Levine, 837 So. 2d at 365
(internal quotation marks omitted) (quoting, 814 So. 2d at 340). In other words,
"[a] juror's nondisclosure ... is considered material if it is so substantial that, if
the facts were known, the defense likely would peremptorily exclude the juror
from the jury." Murray, 3 So. 3d at 1121-22 (quoting McCauslin v. O'Conner,
985 So. 2d 558, 561 (Fla. 5th DCA 2008)).
In Lugo, we held that a juror's nondisclosure was not sufficiently
material where the juror, sitting on a death penalty case, had been a victim of
theft. Lugo, 2 So. 3d at 14. In evaluating materiality, this Court observed that
the juror's "one-time isolated incident" did not resemble the murder victim's
"extended torture and captivity." Id. Thus, we concluded that the sheer disparity
between the experiences made the juror's experience insufficiently material or
relevant to service on that jury. Id.
Similarly, here, Johnston has failed to satisfy materiality under De
La Rosa's first prong. We find nothing about the character and
extensiveness of Robinson's own experience -- she committed a
nonviolent offense and then pied nolo contendere -- that suggests she
would be biased against a defendant pleading not guilty in a death
penalty case or against legal proceedings in general. See Lugo, 2 So. 3d
at 14; cf De La Rosa, 659 So. 2d at 241. The capias, furthermore, was not
issued for a criminal offense. Johnston, 841 So. 2d at 357. In fact, juror
Robinson's positioning as a prior defendant makes bias against Johnston
especially unlikely. See Gamettv. McClellan, 767 So. 2d 1229, 1231 (Fla. 5th
DCA 2000) (finding that prior litigation experience was immaterial, in part,
because the juror had been similarly situated to and was therefore more likely
to be sympathetic to the complaining party).
34

App 208

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 35 of 156 PagelD 859

Neither was there any evidence to suggest that here, "if the facts were
known, the defense likely would [have] peremptorily exclude[d] the juror from
the jury." Murray, 3 So. 3d at 1121-22 (quoting McCauslin, 985 So. 2d at 561).
In fact, as explained above, Robinson matched the profile of the optimal
juror sought by the defense. Defense counsel also testified at the
evidentiary hearing that in his experience, the substance of Robinson's
nondisclosure would have caused the prosecution -- not the defense -to exclude or strike a juror.

Accordingly, because Johnston could not have demonstrated
materiality, any motion for new trial based on Robinson's disclosure
would not have been successful. And because the claim lacked merit,
counsel cannot be deemed ineffective for failing to raise it. Therefore,
denial of this ineffectiveness claim is affirmed.
Johnston, 63 So. 3d at 736-739 (e.s.).

In addition, in his state habeas petition, Johnston alleged that appellate counsel was
ineffective for failing to raise the juror non-disclosure claim as alleged "fundamental error."
The Florida Supreme Court rejected this claim in Johnston v. State, 63 So. 3d 730, 745-746
(Fla. 2011) as follows:

B. Juror Tracy Robinson
Next, Johnston claims that his appellate counsel was ineffective for
failing to frame the issue of juror Tracy Robinson's nondisclosure as one
involving fundamental error. We disagree.
Consistent with the Strickland standard, to grant habeas relief based on
ineffectiveness of counsel, this Court must determine first, whether the alleged
omissions are of such magnitude as to constitute a serious error or substantial
deficiency falling measurably outside the range of professionally acceptable
performance and, second, whether the deficiency in performance
compromised the appellate process to such a degree as to undermine
confidence in the correctness of the result.
Pope v. Wainwright, 496 So. 2d 798, 800 (Fla. 1986); see also Freeman v.
State, 761 So. 2d 1055, 1069 (Fla. 2000); Thompson v. State, 759 So. 2d 650,
660 (Fla. 2000).

In raising such a claim, "[t]he defendant has the burden of alleging a
specific, serious omission or overt act upon which the claim of ineffective
35

App 209

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 36 of 156 PagelD 860

assistance of counsel can be based." Freeman, 761 So. 2d at 1069 (citing
Knight v. State, 394 So. 2d 997, 1001 (Fla. 1981)). Claims of ineffective
assistance of appellate counsel may not be used to camouflage issues that
should have been presented on direct appeal or in a postconviction motion.
See Rutherford v. Moore, 774 So. 2d 637, 643 (Fla. 2000). "If a legal issue
'would in all probability have been found to be without merit' had counsel raised ·
the issue on direct appeal, the failure of appellate counsel to raise the meritless
issue will not render appellate counsel's performance ineffective." Id. (quoting
Williamson v. Dugger, 651 So. 2d 84, 86 (Fla. 1994)).
We deny relief for two reasons. First, Johnston's claim is
procedurally barred. Johnston's argument that he is entitled to a new trial
based on juror Robinson's alleged misconduct was raised in direct
appeal to this Court, Johnston, 841 So. 2d at 357, and as the first issue
in his rule 3.851 motion. Johnston is not permitted to camouflage the
underlying argument as an ineffective assistance of appellate counsel
claim. See Schoenwetter v. State, 46 So. 3d 535, 562 (Fla. 2010) ("Because
every argument raised in this portion of appellant's habeas petition either could
have been or in fact was raised in his motion filed pursuant to rule 3.851, this
claim is rejected as procedurally barred."); Blanco v. Wainwright, 507 So 2d
1377, 1384 (Fla. 1987) ("By raising the issue in the petition for writ of habeas
corpus, in addition to the rule 3.850 petition, collateral counsel has
accomplished nothing except to unnecessarily burden this Court with
redundant material.").

Second, even if the claim were not procedurally barred, it is
meritless. Contrary to Johnston's assertion, appellate counsel did raise on
direct appeal the unpreserved issue of entitlement to a new trial based on juror
misconduct. See Johnston, 841 So. 2d at 357 ("Johnston next asserts that he
is entitled to a new trial because juror Robinson deliberately failed to disclose
that she pied nolo contendere to a misdemeanor charge within the past year.").
Inherent in this Court's treatment of the claim on direct appeal was the
determination that Johnston's claim was not fundamental error. See Carratelli,
961 So. 2d at 325 ("If an appellate court refuses to consider unpreserved error,
then by definition the error could not have been fundamental.").
Accordingly, we deny relief.
Johnston, 63 So. 3d 730, 745-746 (e.s).

CONCLUSION AS TO GROUND ONE

Ground One Is Procedurally Barred and Has no Merit.
Johnston's juror non-disclosure claim is procedurally barred, as the Florida Supreme
36

App 210

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 37 of 156 PagelD 861

Court ruled on direct appeal. Because the state court found this claim to be barred, it is
barred in this Court. Wainwright v. Sykes, 433 U.S. 72, 97 S. Ct. 2497 (1977). Because the
claim is barred, this Court cannot address the merits of this claim, absent a showing of cause
and prejudice. Coleman v. Thompson, 501 U.S. 722, 111 S. Ct. 2546 (1991); Wainwright v.
Sykes, 433 U.S. 72, 97 S. Ct. 2497 (1977). The burden is on Petitioner to make that showing.
United States v. Frady, 456 U.S. 152, 102 S. Ct. 1584 (1982). Petitioner Johnston attempts

to show cause and prejudice by asserting that his trial counsel was ineffective or his
appellate counsel was ineffective for not raising the juror non-disclosure claim as
"fundamental" error.
Here, Johnston's claim of ineffective assistance of counsel does not establish cause
and prejudice because it is not meritorious, which is true because the Florida Supreme
Court's rejection of this claim was not contrary to, or an unreasonable application of, clearly
established United States Supreme Court prejudice. Williams v. Taylor, 529 U.S. 362, 41213, 120 S. Ct. 1495 (2000). On post conviction appeal, the Florida Supreme Court correctly
identified Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984), as providing the
standard for adjudicating claims of ineffective assistance of counsel and accurately
enunciated that standard. Moreover, the facts underlying this claim are not materially
indistinguishable from the facts of Strickland or any of its United States Supreme Court
progeny. As such, the rejection of this claim was not contrary to Strickland. Williams, 529
U.S. at 412-13.
The rejection of this claim was not an unreasonable application of Strickland. The
Florida Supreme Court rejected the claim of ineffective assistance of counsel for failure to
sufficiently question juror Robinson at voir dire because Robinson's non-disclosure of her
37

App 211

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 38 of 156 PagelD 862

capias status would not have provided a reason for Robinson to be removed for cause; trial
counsel was pursuing a reasonable strategy of seating jurors who matched the profile shared
by juror Robinson; and Johnston failed to establish prejudice because defense counsel would
not have moved to strike juror Robinson even if she had disclosed her criminal history. The
Florida Supreme Court also rejected Johnston's claim of ineffective assistance of counsel for
failing to include a claim of juror nondisclosure in the motion for new trial because Johnston
could not demonstrate prejudice. Because Johnston could not have demonstrated materiality,
any motion for new trial based on Robinson's disclosure would not have been successful;
and, because the claim lacked merit, counsel cannot be deemed ineffective for failing to raise
it.
Addttionally, Johnston's current expanded claim is procedurally barred because it was
not raised in state court. On direct appeal, Johnston raised the juror non-disclosure sub-claim
as issue l(D) of his amended initial brief as a matter of state law. (Ex. A27 at 50-57).
Although Johnston quoted one sentence from a state case which included that the Florida
Constitution and "the Sixth amendment to the United States Constitution guarantee the
criminally accused the right to a trial by an impartial jury," (Ex. A27 at 52), Johnston's juror
non-disclosure claim otherwise was predicated exclusively on state law.
Now, Johnston's theory relies on the United States Supreme Court's decision

McDonough Power Equipment, Inc. v. Greenwood, [464 U.S. 548,] 104 S. Ct. 845 (1984).
(Doc. 18 at 5-6). The United States Supreme Court has recognized that presenting one legal
theory in support of a claim does not exhaust a different theory for the same claim. Gray v.

Netherland, 518 U.S. 152, 161-65, 116 S. Ct. 207 4 (1996); Anderson v. Harless, 459 U.S.
4, 5-7, 103 S. Ct. 276 (1982); Picard v. Connor, 404 U.S. 270, 92 S. Ct. 509 (1971). Any
38

App 212

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 39 of 156 PagelD 863

claim based on an alleged broader theory is unexhausted and procedurally barred. Under
Florida law, a defendant is procedurally barred from raising a claim that was previously raised
and rejected based on a different argument. State v. Riechmann, 777 So. 2d 342, 365 (Fla.
2000); Teffetellerv. Dugger, 734 So. 2d 1009, 1018 (Fla. 1999).
Even if the claim were not barred, Petitioner would still be entitled to no relief. On
direct appeal, Johnston argued that he was entitled to a new trial because juror Robinson (1)
was under prosecution at the time of the trial; (2) withheld a material fact during voir dire; and
(3) may have been abusing drugs during the trial. Johnston, 841 So. 2d at 355. The Florida
Supreme Court rejected Johnston's arguments, holding that (1) the capias did not statutorily
disqualify Robinson from jury service and (2) Johnston had failed to raise the issue of juror
Robinson's nondisclosure with the trial court and, therefore, this sub-claim would not be
considered on appeal. Id. at 357-58. In state court, Johnston sought to adjudicate this claim
under the state law standard in De la Rosa v. Zequeira, 659 So. 2d 239 (Fla. 1995). This
standard only requires a litigant to show is that (1) "the information is relevant and material
to jury service in the case;" (2) "the juror concealed the information during questioning;" and
(3) "the failure to disclose the information was not attributable to the complaining party's lack
of diligence." De la Rosa v. Zequeira, 659 So. 2d 239,241 (Fla. 1995). Moreover, under this
standard, information is considered material if the litigant "may have been influenced to
peremptorily challenge the juror from the jury," and the information is considered concealed
even if the failure to provide the information was unintentional. Roberts v. Tejeda, 814 So.
2d 334, 341, 343 (Fla. 2002).
The United States Supreme Court has rejected this standard in McDonough Power
Equipment, Inc. v. Greenwood, 464 U.S. 548, 104 S. Ct. 845 (1984), the case now cited by
39

App 213

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 40 of 156 PagelD 864

Johnston in his habeas memorandum. Instead, it has required a demonstration that a juror
was biased and subject to removal for cause before an incorrect or incomplete answer during
voir dire would serve as a basis for vacating a judgment. Id. at 556; see also, Smith v.

Phillips, 455 U.S. 209, 102 S. Ct. 940 (1982). Given these circumstances, the claim that
Petitioner presented to the state courts was a claim under state law. However, a claim is not
exhausted when the claim presented to the state courts was a state law question. See,

Baldwin v. Reese, 541 U.S. 27, 124 S. Ct. 1347 (2004). As such, the substantive federal
claim now presented by Johnston is unexhausted and procedurally barred. Furthermore,
claims of ineffective assistance of counsel regarding an alleged error and claims regarding
the underlying error are separate and distinct claims. Hammond v. Hall, 586 F.3d 1289,
1321-23 (11th Cir. 2009); LeCroy v. Sec'y, Florida Dept. of Corrections, 421 F.3d 1237,
1260-61 & n.24 (11th Cir. 2005).
The Florida Supreme Court also rejected Petitioner's IAC claim because he did not
show prejudice. Rejecting a claim of ineffective assistance of counsel because a defendant
did not show prejudice is in accordance with Strickland, 466 U.S. at 691-92. As the United
States Supreme Court has recognized, the focus of a prejudice inquiry regarding a claim of
ineffective assistance of counsel is to determine whether counsel's alleged deficiency
deprived the defendant of a fair trial. Strickland, 466 U.S. at 696; see also, Lockhart v.

Fretwell, 506 U.S. 364, 368-39, 113 S. Ct. 838 (1993); Nix v. Whiteside, 475 U.S. 157, 175,
106 S. Ct. 988 (1986) (noting that under Strickland, the "benchmark" of the right to counsel
is the "fairness of the adversary proceeding").
Finding that a defendant did not show prejudice because he did not make a showing
necessary to find that he did not receive a fair trial is not an unreasonable application of
40

App 214

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 41 of 156 PagelD 865

Strickland. Williams, 529 U.S. at 411. Since the Florida Supreme Court's rejection of the

claim of ineffective assistance of counsel was not contrary to, or an unreasonable application
of Strickland, the claim is meritless. As such, it does not establish cause and prejudice to
overcome the bar to relief on the substantive claim. Johnston's juror non-disclosure claim
remains procedurally barred.
Petitioner is incorrect in insisting that his juror "non-disclosure" claim "is not
procedurally barred" because he litigated a claim of ineffective assistance of trial counsel in
state post-conviction. (Doc. 25 at 6). Petitioner's reply conflates the substantive "juror nondisclosure" (trial) claim, which is procedurally barred, with the IAC claim as alleged "cause"
to excuse his procedural default. A substantive claim is "separate and distinct" from an
ineffective assistance of counsel claim based on the substantive claim. See Pietri v. Dept.
of Corr., 641 F.3d 1276, 1289 (11th Cir. 2011); Edwards v. Carpenter, 529 U.S. 446,451

(2000). Petitioner's juror non-disclosure claim was raised on direct appeal, but it was not
considered by the Florida Supreme Court because it was not raised in the trial court;
therefore, it was not preserved for appeal. See Johnston v. State, 841 So. 2d 349, 357 (Fla.
2002). As a result, it is procedurally barred. The "refusal to consider" this claim as
procedurally barred rests on an independent and adequate state ground that precludes
federal habeas consideration of this substantive issue. See LeCroy v. Dept. of Corr., 421
F.3d 1237, 1260 n.25 (11th Cir. 2005). Because the substantive "juror non-disclosure" claim
is procedurally barred, this Court cannot address the merits, absent a showing of cause and
prejudice. Coleman v. Thompson, 501 U.S. 722 (1991).
Ineffective assistance of counsel, if established, can be cause to excuse a procedural
default. Murray v. Carrier, 477 U.S. 478,488 (1986). Although Petitioner raised an IAC/juror
41

App 215

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 42 of 156 PagelD 866

non-disclosure claim in state post-conviction, and repeats his IAC claim in Issue Ill of his
federal habeas petition, Petitioner failed to demonstrate any basis for relief under Strickland.
In other words, his IAC claim failed both as a separate claim for relief and as cause to excuse
the procedural default. As a result, Petitioner's juror non-disclosure claim remains
procedurally barred. Petitioner's IAC claim does not establish cause and prejudice because
it is not meritorious, which is true because the Florida Supreme Court's rejection of this claim
was not contrary to, or an unreasonable application of, clearly established United States
Supreme Court precedent.
Ground one does not warrant habeas corpus relief.
GROUND TWO
THE STATE COURTS ERRED IN FAILING TO GRANT GUilT PHASE
RELIEF BASED ON FOREPERSON JUROR MISCONDUCT, INCLUDING
HER DRUG ARREST AND LIKELY DRUG ABUSE AT THE TIME OF JURY
SERVICE. THIS DEPRIVED MR. JOHNSTON OF A FUNDAMENTALLY FAIR
TRIAL GUARANTEED UNDER THE FOURTH, FIFTH, SIXTH, EIGHTH, AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES CONSTITUTION.
THE STATE COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO
FEDERAL LAW AND AN UNREASONABLE APPLICATION OF THE SAME.
THE COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT. THIS COURT SHOULD GRANT THE WRIT.
Petitioner's Allegations

Robinson had an active capias for her arrest. But she was not arrested at the time of
jury service on the capias. She was arrested mid-penalty phase on drugs and weapon
charges. A police officer smelled burning marijuana outside her residence, and obtained
consent for entry into her residence. Following the first day of penalty phase testimony, that
night, jury foreperson Robinson was arrested and jailed for possession of crack cocaine,
marijuana, and an illegal firearm. (Vol. XVIII R.1687; Vol. V R. 781 ). Though she attempted
42

App 216

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 43 of 156 PagelD 867

credit her child's father with ownership of the contraband, he was actually incarcerated and
therefore could not have lighted the marijuana cigarette.
The defense requested that the court bring Robinson from jail and inquire of her under
oath whether she was smoking crack cocaine at any time during the trial or guilt phase
deliberations, but this request was denied. (Vol. XVIII R. 1765). The court then replaced
Robinson with an alternate juror over the objection of the defense, because the defense had
seen this alternate juror shaking hands with the victims' family after the verdict of guilty was
read, and feared bias. Caught between the prospect of Robinson or a possibly biased juror
for the penalty phase, the defense had a difficult decision to make. The defense request to
keep Ms. Robinson on the jury was denied. Later a written motion was filed by the defense
for an interview of this juror to see if she was using drugs during the trial, and if she knew
there was a capias out for her arrest. This motion was denied.
Based on the fact that crack cocaine is highly addictive, Robinson was likely abusing
the drug during the trial. Based on the fact that she was provided notice that "FAILURE TO
PAY [COURT COSTS] ON TIME OR APPEAR IN COURT WOULD RESULT IN A
WARRANT FOR YOUR ARREST," Robinson likely knew there was a warrant for her arrest.
That is why she failed to disclose the arrest upon direct questioning, and that is
unacceptable.
The juror misconduct in this case is egregious. The state court decisions on this issue
were contrary to federal law and an unreasonable application of the same. The courts'
decisions were also based on an unreasonable finding of fact.

Petitioner's Allegations in the Reply
Petitioner argues that the State's contention that this claim involves only state law, not
43

App 217

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 44 of 156 PagelD 868

federal law, is incorrect. The Sixth Amendment right to a trial by jury is a federal constitutional
right. The Petitioner had a right to a jury foreperson who was not impaired through crack
cocaine abuse. Although there is no evidence of juror Robinsons' ingesting drugs or
appearing intoxicated during trial, there is record evidence showing that she was arrested at
her apartment mid-trial and that during the incident the officer smelled the odor of burning
marijuana in her apartment. As far an external influences, this is the same juror who failed
to disclose her prior arrest during voir dire, failed to pay court costs, and was actually serving
as foreperson under an active capias for her arrest. These are external influences.
Johnson alleges that if there can be no review of the performance of appellate
counsel, then Martinez v. Ryan allows the claim to be raised on federal habeas corpus.
Johnston is entitled to the effective assistance of appellate counsel on direct appeal as a
matter of right. This is apart from the ineffective assistance of trial counsel that is addressed
in ground Ill which raises a claim for relief that trial counsel was ineffective. Here appellate
counsel's ineffectiveness overcomes the alleged procedural bar and allows this Court to
determine the claim itself.
Exhaustion, Procedural Bar and Disposition of Ground Two in State Court:

Ground two is not subject to de novo review in this Court. The distinction between
mere error and an objectively unreasonable application of Supreme Court precedent creates
a substantially higher threshold for obtaining relief than de novo review. The AEDPA imposes
a highly deferential standard for evaluating state-court rulings, and demands that state-court
decisions be "given the benefit of the doubt." Renico v. Lett, 130 S. Ct. 1855, 1862 (2010).
On direct appeal, Johnson argued that he was entitled to a new trial or, at a minimum,
a juror interview, to determine whether juror Robinson abused drugs during the guilt phase
44

App 218

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 45 of 156 PagelD 869

of the trial. (Amended Initial Brief, claim l(E), Ex. A27 at 58-72). Johnston's amended initial
brief (Ex. A27 at 66) recognized that the State would likely argue that the United States
Supreme Court's decision in Tannerv. United States, 483 U.S. 107, 107 S. Ct. 2739 (1987)
overruled Florida case law regarding juror inquiry on drug and/or alcohol use. In Tanner, the
Supreme Court discussed the extraneous information exception to the rule of juror
incompetency contained in Fed. R. Evid. 606(b). The Supreme Court held that juror alcohol
and drug use during the trial was not an external influence, and thus, evidence of alcohol and
drug use was not admissible to impeach the verdict.
On direct appeal, the Florida Supreme Court denied this claim as follows:
Finally, the defendant asserts that he is entitled to a new trial, or at a
minimum, a juror interview, to determine whether juror Robinson abused drugs
during the guilt phase of the trial. Specifically, he contends that based on the
addictive nature of crack cocaine and the timing of Robinson's arrest for drug
possession, she may have been under the influence of illegal substances
during the guilt phase. In order to be entitled to juror interviews, a party must
present "sworn allegations that, if true, would require the court to order a new
trial because the alleged error was so fundamental and prejudicial as to vitiate
the entire proceedings." Johnson v. State, 804 So. 2d 1218, 1225 (Fla. 2001).

In this case, Johnston is not entitled to relief because his request for an
interview was based on mere speculation. [FN1 OJ Johnston never alleged

that any juror, party, or witness observed Robinson appearing to be
intoxicated during the course of the trial, nor did anybody see Robinson
abusing drugs. Accordingly, the trial court did not err in its decision to
deny the motion to interview Robinson.
FN 10. See Hackman v. City of St. Petersburg, 632 So. 2d 84, 85
(Fla. 2d DCA 1993) ("The motion to interview and supporting
affidavits are speculative at best. As such, they fail to establish
a legally sufficient reason to interview the jurors."); Walgreens,
Inc. v. Newcomb, 603 So. 2d 5, 6 (Fla. 4th DCA 1992) ("A
request to interview a juror requires something more than
conjecture and speculation by movant's counsel.").

Johnston, 841 So. 2d at 355-58 (e.s.)
In postconviction, Johnston sought to interview juror Robinson (on her motives or
45

App 219

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 46 of 156 PagelD 870

intent during voir dire) based on a state rule of criminal procedure. The postconviction court
denied Johnston's request for a juror interview and the Florida Supreme Court affirmed the
trial court's ruling in Johnston v. State, 63 So. 3d 730, 739-740 (Fla. 2011) as follows:
C. The postconviction court's denial of motion for juror interview
Johnston claims that the postconviction trial court should have permitted
him to conduct an interview of juror Robinson under Florida Rule of Criminal
Procedure 3.575. Johnston told the postconviction court that he sought to
question juror Robinson on her motives or intent during voir dire. [FN8] We
affirm the trial court's denial.
FN8. To the extent that Johnston alleges entitlement to a juror
interview on the same grounds advanced on direct appeal -- the
issue of Robinson's active capias-the trial court correctly
denied an interview because the subject claim was procedurally
barred. See, e.g., Green v. State, 975 So. 2d 1090, 1106 (Fla.
2008) ("Because the ... issue was raised on direct appeal, Green
is not permitted to relitigate it on postconviction appeal.").
"A trial court's decision on a motion to interview jurors is reviewed
pursuant to an abuse of discretion standard." Anderson v. State, 18 So. 3d
501, 519 (Fla. 2009). The trial court does not abuse its discretion in denying
motions to interview jurors based on juror bias or misconduct where there is no
indication of bias or misconduct in the record. See id. Here, the trial court did
not abuse its discretion in denying Johnston's rule 3.575 motion because
a juror interview was unnecessary given that the substance of
Robinson's nondisclosure was already known.
Johnston, 63 So. 3d at 739-740 (e.s.)
CONCLUSION AS TO GROUND TWO
Ground Two Has no Merit
In his amended initial brief on direct appeal (Ex. A27, Claim IE, at 58.;.72), Johnston
relied primarily on state law; he argued that juror inquiry on drug/alcohol use was permissible
under state law and he sought to distinguish Tanner's prohibition on juror inquiry as not
applicable to Florida law. (Ex. A27 at 66-70). In postconviction, Johnston again sought to
question juror Robinson, this time on her motives or intent during voirdire. His postconviction
46

App 220

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 47 of 156 PagelD 871

motion for juror interview was based on a state rule of procedure.
The principle is well-settled that a federal court may only entertain an application for
a writ of habeas corpus from a state prisoner who claims his custody violates the
"Constitution or the laws or treaties of the United States." 28 U.S.C. § 2254(a). Questions of
state law are generally insufficient to warrant review or relief by a federal court under§ 2254.
Estelle v. McGuire, 502 U.S. 62, 68, 112 S. Ct. .475 (1991); Cabberiza v. Moore, 217 F.3d

1329, 1333 (11th Cir. 2000). A violation of a state rule of procedure, or of state law itself, is
not a violation of the federal constitution. Wallace v. Turner, 695 F.2d 545, 548 (11th Cir.
1982); Branan v. Booth, 861 F.2d 1507, 1508 (11th Cir. 1989). Moreover, "state courts are
the final arbiters of state law, and federal habeas courts should not second-guess them on
such matters." Herring v. Sec'y. Dep't of Corr., 397 F.3d 1338, 1355 (11th Cir. 2005).
Petitioner's juror misconduct/juror interview claims in state court were based, primarily, on
state law and are not cognizable on federal habeas review.
To the extent Petitioner arguably exhausted a federal law claim in state court, he must
demonstrate either that the state court's determination was. contrary to, or involved an
unreasonable application of federal law, or show that the state court's denial of this claim
resulted in an unreasonable determination of the facts in light of the evidence presented in
the state court proceeding. In his memorandum of law on this ground, Johnston cites one
United States Supreme Court case - Jordan v. Massachusetts, 225 U.S. 167, 176 (1912).
(Doc. 18 at page 31 ). Although the United States Supreme Court's subsequent decision in
Tanner v. United States, 483 U.S. 107, 107 S. Ct. 2739 (1987), a case in which both the

majority and the dissent addressed Jordan, 483 U.S. at 126-27, 134 was cited by the
defense on direct appeal, Johnston now conspicuously omits any mention of Tanner. In
47

App 221

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 48 of 156 PagelD 872

Tanner, the majority ruled that jurors would not be permitted to testify on jury conduct during

deliberations, including juror intoxication. Under Tanner, juror intoxication is not an "outside
influence" about which jurors may testify to impeach their verdict.
Johnston's speculative allegation of possible use of intoxicating substances did not
support a juror interview. On direct appeal, the Florida Supreme Court rejected Johnston's
speculative claim because "Johnston never alleged that any juror, party, or witness observed
Robinson appearing to be intoxicated during the course of the trial, nor did anybody see
Robinson abusing drugs. Accordingly, the trial court did not err in its decision to deny the
motion to interview Robinson."
On direct appeal, Johnston sought to distinguish Tanner, based on Tanner's reliance
upon the legislative history of Federal Rule of Evidence 606(b), from the Florida Supreme
Court's discussion in Devoney v. State, 717 So. 2d 501, 503 (Fla. 1998). The Devoney
decision discussed, with approval, federal decisions which use the external/internal
distinction to decide the admissibility of juror testimony to impeach the verdict. The Florida
Supreme Court has analyzed a request to interview jurors based upon the distinction
between external and internal influences. In Devoney, 717 So. 2d at 503, the Florida
Supreme Court cited Tanner, 483 U.S. 107, with approval, and explained that even
allegations of juror misconduct including consuming alcohol and ingesting and selling
narcotics during court recess did not constitute external influences on the jury which would
violate a defendant's Sixth Amendment right to a fair trial. The Tanner Court reasoned that
intoxication was similar to mental incompetency which had previously been found to be an
internal influence. See, Tanner, 483 U.S. 107,118, 107 S. Ct. 2739. According to Tanner,
"drugs or alcohol voluntarily ingested by a juror seems no more an 'outside influence' than
48

App 222

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 49 of 156 PagelD 873

a virus, poorly prepared food, or a lack of sleep." Devaney, at 504, citing Tanner, 483 U.S.
at 122, 107 S. Ct. 2739 ..
Johnston failed to demonstrate that any improper external influence acted upon the
jury's deliberations. In Tanner, the Supreme Court placed drug or alcohol use squarely in the
realm of internal influences: "However severe their effect and improper their use, drugs or
alcohol voluntarily ingested by a juror seems no more an "outside influence" than a virus,
poorly prepared food, or a lack of sleep." Id. at 122. Thus, the allegation of possible drug or
alcohol use constitutes an internal influence that did not require a hearing and into which
court inquiry is not appropriate under Tanner.
Moreover, if Petitioner Johnston suggests that counsel was ineffective in his handling
of the allegation of juror misconduct, Johnston is not entitled to relief. Again, to establish that
he received ineffective assistance of counsel, a petitioner must show, first, that counsel's
performance was deficient and, second, that counsel's deficient performance prejudiced the
petitioner. Strickland, 466 U.S; 668, 687, 104 S. Ct. 2052. A petitioner may show that
counsel's performance was deficient by establishing that counsel's performance was "outside
the wide range of professionally competent assistance." Id. at 689. This "requires a showing
that counsel made errors so serious that counsel was not functioning as the 'counsel'
guaranteed by the Sixth Amendment." Id. at 687. To satisfy the prejudice prong, a petitioner
must show that "there is a reasonable probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome." Id. at 694. "[T]he focus should
be on whether the result of the trial was 'fundamentally unfair or unreliable."' Lockhart v.
Fretwell, 506 U.S. 364,369,113 S. Ct. 838 (1993).
49

App 223

Case 8:11-:cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 50 of 156 PagelD 874

As noted above, Supreme Court law did not require the trial judge to conduct any
inquiry of the juror because the nature of the influence was intrinsic, which did not require an
evidentiary hearing. See, Tanner, 483 U.S. at 120. Thus, Johnston's counsel could not be
deemed ineffective where no hearingwas warranted. In addition, Johnston has not shown
that he was prejudiced by counsel's action where the alleged influence on the jurors was
internal rather than external. Counsel is not required to proceed in a manner inconsistent with
controlling Supreme Court precedent. Petitioner has not demonstrated that the state court's
determination was contrary to, or involved an unreasonable application of federal law, nor
has he shown that the state court's denial of this claim resulted in an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.
In his amended initial brief on direct appeal (Ex. A27, Claim IE, at 58-72), Johnston
relied primarily on state law; he argued that juror inquiry on drug/alcohol use was permissible
under state law and he sought to distinguish the prohibition on juror inquiry, derived from

Tanner v. United States, 483 U.S. 107 (1987), as not applicable to Florida law. (Ex. A27 at
66-70). In postconviction, Johnston again sought to question juror Robinson, this time on her
motives or intent during voirdire. His postconviction motion for juror interview was based on
a state rule of procedure. As a result, Petitioner's juror misconduct/juror interview claims in
state court were based, primarily, on state law.
Even if the juror misconduct claim asserted in state court is viewed as fairly presenting
a federal constitutional claim, Petitioner still fails to demonstrate any basis for relief under
AEDPA. In his reply, Petitioner still fails to mention Tanner, in which the Supreme Court
concluded that juror intoxication is not an "outside influence" about which jurors may testify
to impeach their verdict. In short, Supreme Court precedent did not require the trial judge to
50

App 224

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 51 of 156 PagelD 875

conduct any inquiry of the juror because the nature of the influence was intrinsic, which did
not require an evidentiary hearing. See Tanner, 483 U.S. at 120. As a result, Petitioner failed
to show how the state court's determination was contrary to, or involved an unreasonable
application of, federal law.
Petitioner argues "[i]fthere can be no review of the performance of appellate counsel,
then Martinez v. Ryan allows the claim to be raised on federal habeas corpus." (Doc. 25 at
8). Martinez is limited to claims of ineffective assistance of trial counsel that are

otherwise procedurally barred due to the ineffective assistance of postconviction
counsel. If Petitioner is renewing a claim of ineffective assistance of appellate counsel, such
a claim was raised in state habeas and the Florida Supreme Court denied relief in Johnston
v. State, -63 So. 3d 730, 746 (Fla. 2011) as follows:
We deny relief for two reasons. First, Johnston's claim is procedurally
barred. Johnston's argument that he is entitled to a new trial based on juror
Robinson's alleged misconduct was raised in direct appeal to this Court,
Johnston, 841 So.2d at 357, and as the first issue in his rule 3.851 motion.
Johnston is not permitted to camouflage the underlying argument as an
ineffective assistance of appellate counsel claim. See Schoenwetter v. State,
46 So.3d 535,562 (Fla. 2010)("Because every argument raised in this portion
of appellant's habeas petition either could have been or in fact was raised in
his motion filed pursuant to rule 3.851, this claim is rejected as procedurally
barred."); Blanco v. Wainwright, 507 So.2d 1377, 1384 (Fla. 1987)("By raising
the issue in the petition for writ of habeas corpus, in addition to the rule 3.850
petition, collateral counsel has accomplished nothing except to unnecessarily
burden this Court with redundant material.").
Second, even if the claim were not procedurally barred, it is meritless.
Contrary to Johnston's assertion, appellate counsel did raise on direct appeal
the unpreserved issue of entitlement to a new trial based on juror misconduct.
See Johnston, 841 So.2d at 357 ("Johnston next asserts that he is entitled to
a new trial because juror Robinson deliberately failed to disclose that she pied
nolo contendere to a misdemeanor charge within the past year."). Inherent in
this Court's treatment of the claim on direct appeal was the determination that
Johnston's claim was not fundamental error. See Carratelli, 961 So.2d at 325
("If an appellate court refuses to consider unpreserved error, then by definition
51

App 225

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 52 of 156 PagelD 876

the error could not have been fundamental.").
Accordingly, we deny relief.
Johnston, 63 So. 3d at 746.
Ground two does not warrant habeas corpus relief.
GROUND THREE
TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO FAILING TO
RAISE THE SPECIFIC ISSUE OF JUROR NON-DISCLOSURE IN THE
MOTIONS FOR NEW TRIAL. MR. JOHNSTON WAS DEPRIVED OF A
FUNDAMENTALLY FAIR TRIAL GUARANTEED UNDER THE FIFTH, SIXTH,
EIGHTH, AND FOURTEENTH AMENDMENTS TO THE UNITED STATES
CONSTITUTION. THE STATE COURT DECISIONS ON THIS ISSUE WERE
CONTRARY TO FEDERAL LAW AND AN UNREASONABLE APPLICATION
OF THE SAME. THE COURTS' DECISIONS WERE ALSO BASED ON AN
UNREASONABLE FINDING OF FACT. THIS COURT SHOULD GRANT THE
WRIT.
Petitioner's Allegations
Johnston did not receive the effective assistance of counsel, violating his rights under
the Fifth, Sixth, Eighth and Fourteenth Amendments of the United States Constitution when
counsel failed to include the claim of failure to disclose in the post-trial amended motion for
new trial. The law is clear in Florida that when material information is withheld by a juror, a
petitioner should receive a new trial free from the taint of a non-disclosing juror. Although the
issue of juror non-disclosure was raised on direct appeal, the Florida Supreme Court ruled
that the specific issue of juror non-disclosure had not been raised at the trial level, and
therefore was procedurally barred, and could be raised in postconviction.
Had the specific issue been raised, it would have been granted under Florida law. In
their motions for new trial, counsel only raised 2 of 3 available issues concerning juror
Robinson: her active capias and probable drug use. The attorneys who represented the
52

App 226

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 53 of 156 PagelD 877

Petitioner at trial basically abandoned their client and the non-disclosure issue, leaving
another attorney not familiar with the trial or the issues to draft the motions for new trial. The
postconviction court denied this claim primarily because Johnston did not inform anyone on
the defense team that he did not want Robinson on the jury. ( See postconviction court's final
Order at Vol. XVI PCR 3110). The real issue was: Why did trial counsel fail to raise the juror
non-disclosure issue in the motions for new trial? Instead of answering this question, the
postconviction court sought to blame the Petitioner for failing to request a strike of this juror
after she failed to disclose material information. Johnston should not be blamed for allowing
Robinson to wrongly serve on the jury. Juror Robinson deceived everyone in her responses
during voir dire. The biggest victim of this deceit was Johnston. To blame Johnston for his
failure to voice an objection to this untruthful juror is to victimize him once again. Just as
everyone in the courtroom was duped into believing that Robinson was free from any criminal
accusations, so was Johnston. To engage in post-hoc rationalization for the defense's
retention of this juror as the postconviction court justifies at Vol. XVI PCR. 3110, and to cite

a lack of"prejudice" here is just wrong. "VoirDire"translated literally to English means "to tell
the truth." Robinson failed to tell the truth, and that is no fault of the Petitioner.
Capital defendants whose literal lives and liberties are placed in the hands of these
people should be afforded jurors who provide truthful and complete answers during the voir
dire process. When there is a breakdown in this process like what occurred here at trial, the

trial process lacks reliability and due process. Trial counsel and the state courts inexplicably
continue to fail to understand this concept. To deny this claim as the postconviction court did
in this fashion is to abandon simple, fair and constitutional notions of fairness and due
process.
53

App 227

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 54 of 156 PagelD 878

This Florida Supreme Court stated the following on first direct appeal regarding this
claim: "To the extent that Johnston is claiming his counsel was ineffective [for failure to raise
the issue that the juror failed to 'disclose that she pied nolo contendre to a misdemeanor
charge within the past year'], we find that this issue should be addressed in a rule 3.850
motion - - not on direct appeal." The postconviction court then unreasonably denied this claim
in part because the Petitioner never informed his trial team he wanted to request a new trial
based on the juror's non-disclosure. (See Order at Vol.XVI PCR. 3114).
Johnston did not represent himself prose at trial. He was represented by attorneys
who should have raised this issue, if they were exercising due care in their legal
representation of Johnston. The lead trial attorney should have included this specific claim
in the motion for new trial rather than quickly returning to Palm Beach County and leaving the
task to Gerod Hooper, an attorney who did not even observe the trial or have the benefit of
the trial transcripts. To deny this claim as the postconviction court did; to blame the Petitioner
for some failure to advise his attorneys that he wanted this issue raised in the motion for new
trial, is tantamount and analogous to denying a litigant's medical malpractice claim based on
his failure to instruct the doctors how to properly and precisely perform a certain surgical
procedure that was botched.
The postconviction court stated in its Order at Vol. XVI PCR. 3114-3115 that the juror
did not deliberately lie about her arrest. Johnston did not have to establish a "deliberate lie"
as the postconviction court suggests. Moreover, partial or inaccurate disclosure is
concealment in the voir dire process which warrants a new trial. The postconviction court
here failed to follow the law and applied flawed reasoning in denying this claim.
The postconviction court in its Order denying relief found at Vol. XVI PCR. 3115 that
54

App 228

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 55 of 156 PagelD 879

the information concerning juror Robinson's criminal history was not material. To the
contrary, the information was material, especially considering the active capias stemming
from her undisclosed criminal history. The postconviction court concluded at Vol. XVI PCR.
3115 that there was no prejudice following trial counsel's failure to include the "deliberate"
non-disclosure issue in the motions for new trial. This finding was unreasonable because
case law is clear that when material information is withheld during voir dire, be it withheld
deliberately or unintentionally, relief should be granted.
The prejudice here is clear. Johnston should have been afforded a new trial based-on
this issue. Because of trial counsel's failures and omissions, the issue was not raised at trial
and was not preserved for direct appeal. Now that it has been. shown in postconviction that
an attorney who was not even present for the voir dire or the trial prepared grossly
inadequate motions for a new trial, and not surprisingly missed this vital issue, this Court
should grant relief. The state court decisions on this issue were contrary to federal law and
an unreasonable application of the same. The courts' decisions were also based on an
unreasonable finding of fact.
Petitioner's Argument in his Reply
Petitioner again contends that this issue is not procedurally barred. He claims that trial
counsel should have raised the juror nondisclosure issue in the motions for new trial. There
would have been absolute, unequivocal prejudice considering the fact that at the time the
motions for new trial were drafted, the jury had already deliberated on guilt. Juror Robinson
was dismissed prior to the conclusion of the penalty phase. It was completely irrelevant that
Juror Robinson may have been a favorable member of the jury. The jury had already voted
for guilt and death at the time the motions for new trial were drafted. There could have been
55

App 229

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 56 of 156 PagelD 880

no strategic reason to fail to raise a meritorious issue in a motion for new trial. The jury was
already gone, and the defense had nothing to lose but a meritorious appellate issue in failing
to raise the issue of nondisclosure. To accept a "strategy" in accepting this juror is
unreasonable. One has to look on the prejudice to the appeal. The current claim was properly
raised as a state and federal claim in order to exhaust the claim. McDonough Power
Equipment, Inc. is not a different theory for relief. This is further development in federal
court, not expansion. Petitioner claims that the denial of a juror interview of juror Robinson
was evidence that Florida's process for seeking review of juror misconduct was inadequate.
This is an ineffective assistance of counsel claim. On direct appeal the Florida
Supreme Court found that the specific claim of juror nondisclosure was not raised in the trial
court in a motion for new trial. Had counsel raised the juror nondisclosure, the outcome of
this case would have been different. This is a free-standing ineffective assistance of counsel
claim. Prior to the revelation that juror Robinson had failed to disclose, perhaps she may
have been an ideal juror. But once the nondisclosure was discovered, the nondisclosure
became ideal subject matter for a motion for new trial, yet was not utilized. Johnston's
alleged approval of this juror was irrelevant. Johnston had the right to the effective assistance
of counsel and this right was violated when this issue was not raised. While Johnston would
not know the standard for a new trial for nondisclosure, the postconviction motion showed
that he would have wanted to raise a proper and fully pied motion for new trial that would
have been granted. He did not wantjurorRobinson on his jury once it was revealed she was
smoking crack and she lied during jury selection. It was unreasonable for the state courts to
fail to analyze this claim from the perspective of the prejudice to the appeal, or, from the
standpoint of getting a new trial. Attributing fault here to the Petitioner for his failure to
56

App 230

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 57 of 156 PagelD 881

request her removal prior to the discovery of her nondisclosure is absolutely unreasonable.
As acknowledged by the Eleventh Circuit Court of Appeals, sometimes a case has to
be evaluated from the standpoint of the prejudice to the appellate issue. See Davis v. State,
341 F. 3d1310, 1315-1317 (11th Cir. 2003)("the relevant focus in assessing prejudice may
be the client's appeal" Id. at 1315). Any failure of trial counsel to raise all specific issues
relating to this juror prejudiced the appeal.
The State argues that under McDonough Power Equipment, Inc. v. Greenwood that
the Petitioner's argument fails because there is a "required [] demonstration that a juror was
biased and subject to removal for cause before an incorrect or incomplete answer during voir
dire would serve as a basis for vacating a judgment." The Petitioner meets this standard.
· McDonough Power Equipment, Inc. specifically requires the following in order to obtain relief:

"a party must first demonstrate that a juror failed to answer honestly a material question on
voir dire, and then further show that a correct response would have provided a valid basis

for a challenge for cause." Id. at 556. Juror Robinson's answer during voirdire obviously was
dishonest, and had she answered truthfully, this would have led to this discovery of the
capias on the failure to pay court costs. At this point, either party, including the State, would

certainly have a reasonable argument to make a cause challenge.
Under Florida law at the time, jurors under prosecution were statutorily disqualified to
serve. Someone would have made a cause challenge, and it would have been granted in an
abundance of caution. There should be a presumption of prejudice here, and any decision
to the contrary is unreasonable.

Exhaustion, Procedural Bar and Disposition of IAC Ground Three in State Court
Johnston raised the IAC/juror non-disclosure sub-claim in his Rule 3.851 post57

App 231

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 58 of 156 PagelD 882

conviction motion to vacate. After an evidentiary hearing, the postconviction court entered
a detailed, fact-specific order denying this post-conviction claim. (Ex. 816/3104-3115).The.
post-conviction court found, inter alia, that (1) Ms. Robin.son was not statutorily disqualified
from serving on the jury; (2) Johnston failed to present any evidence that he advised anyone
on the trial team that he wanted to request a new trial based on juror Robinson's deliberate
failure to disclose that she pied nolo contendere to a misdemeanor charge within the
preceding year; (3) Robinson did not deliberately lie about the existence of the prior
misdemeanor, but failed to disclose such information and the failure to disclose was not
material to the extent of warranting a new trial; (4) based on trial counsel Ken Littman's
testimony, the fact that Ms. Robinson had pied nolo contendere within a year before the trial
to a misdemeanor of obstructing or opposing an officer was not something the defense would
have raised in the motions because she fit the profile of a young, minority juror profile
recommended by Dr. Harvey Moore, the individual who conducted Johnston's mock trial; (5)
even after Robinson was arrested between the guilt and penalty phases, the defense team
still wanted her to remain on the jury for the penalty phase; and, (6) Johnston failed to
demonstrate how he was prejudiced by trial counsel's failure to include juror Robinson's
alleged deliberate failure to disclose her nolo contendere plea to a misdemeanor charge as
such information was not material to the extent of warranting a new trial. (Ex. 816/31043115).
On post-conviction appeal, the Florida Supreme Court denied this IAC sub-claim
because Johnston failed to demonstrate any prejudice. The Florida Supreme Court
concluded that "because Johnston could not have demonstrated materiality, any motion for
new trial based on Robinson's disclosure would not have been successful. And because the
58

App 232

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 59 of 156 PagelD 883

claim lacked merit, counsel cannot be deemed ineffective for failing to raise it." Johnston, 63
So. 3dat 739. On post-conviction appeal, the Florida Supreme Court stated, in pertinent part:
B. Failure to cite juror Robinson's misconduct in motion for new trial

Johnston next claims that defense counsel was ineffective for
failing to include in the motion for new trial a claim of juror misconduct
based on juror Robinson's nondisclosure. Because Johnston cannot
demonstrate prejudice, we disagree.
This Court has explained that
[i]n determining whether a juror's nondisclosure of information
during voir dire warrants a new trial, courts have generally
utilized a three-part test. First, the complaining party must
establish that the information is relevant and material to jury
service in the case. Second, that the juror concealed the
information during questioning. Lastly, that the failure to disclose
the information was not attributable to the complaining party's
lack of diligence.
De La Rosa v. Zequeira, 659 So. 2d 239, 241 (Fla. 1995) (citations omitted); ·
see a/so Lugo v. State, 2 So. 3d 1, 13 (Fla. 2008).
Under the first prong of De La Rosa, Johnston must establish that the
nondisclosed information is relevant and material to jury service in this case.
De La Rosa, 659 So. 2d at 241; see also Murray v. State, 3 So. 3d 1108,
1121-22 (Fla. 2009). "There is no perse rule that involvement in any particular
prior legal matter is or is not material." Roberts v. Tejada, 814 So. 2d 334,345
(Fla. 2002); see a/so State Farm Fire & Cas. Co. v. Levine, 837 So. 2d 363,
366 n. 2 (Fla. 2002). Factors that may be considered in evaluating materiality
include the remoteness in time of a juror's prior exposure, the character and
extensiveness of the experience, and the juror's posture in the litigation.
Roberts, 814 So. 2d at 342.
But "materiality is only shown 'where the omission of the information
prevented counsel from making an informed judgment--which would in all
likelihood have resulted in a peremptory challenge."' Levine, 837 So. 2d at 365
(internal quotation marks omitted) (quoting Roberts, 814 So. 2d at 340). In
other words; "[a] juror's nondisclosure ... is considered material if it is so
substantial that, if the facts were known, the defense likely would peremptorily
exclude the juror from the jury." Murray, 3 So. 3d at 1121-22 (quoting
McCauslin v. O'Conner, 985 So. 2d 558, 561 (Fla. 5th DCA 2008)).
59

App 233

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 60 of 156 PagelD 884

In Lugo, we held that a juror's nondisclosure was not sufficiently
material where the juror, sitting on a death penalty case, had been a victim of
theft. Lugo, 2 So. 3d at 14. In evaluating materiality, this Court observed that
the juror's "one-time isolated incident" did not resemble the murder victim's
"extended torture and captivity." Id. Thus, we concluded that the sheer disparity
between the experiences made the juror's experience insufficiently material or
relevant to service on that jury. Id.
Similarly, here, Johnston has failed to satisfy materiality under De
La Rosa's first prong. We find nothing about the character and
extensiveness of Robinson's own experience -- she committed a
nonviolent offense and then pied nolo contendere -- that suggests she
would be biased against a defendant pleading not guilty in a death
penalty case or against legal proceedings in general. See Lugo, 2 So. 3d
at 14; cf De La Rosa, 659 So. 2d at 241. The capias, furthermore, was not .
issued for a criminal offense. Johnston, 841 So. 2d at 357. In fact, juror
Robinson's positioning as a prior defendant makes bias against Johnston
especially unlikely. See Garnett v. McClellan, 767 So. 2d 1229, 1231 (Fla. 5th
DCA 2000) (finding that prior litigation experience was immaterial, in part,
because the juror had been similarly situated to and was therefore more likely
to be sympathetic to the complaining party).
Neither was there any evidence to suggest that here, "if the facts
were known, the defense likely would [have] peremptorily exclude[d] the
juror from the jury." Murray, 3 So. 3d at 1121-22 (quoting McCauslin, 985
So. 2d at 561 ). In fact, as explained above, Robinson matched the profile
of the optimal juror sought by the defense. Defense counsel also testified
at the evidentiary hearing that in his experience, the substance of
Robinson's nondisclosure would have caused the prosecution -- not the
defense -- to exclude or strike a juror.
Accordingly, because Johnston could not have demonstrated
materiality, any motion for new trial based on Robinson's disclosure
would not have been successful. And because the claim lacked merit,
counsel cannot be deemed ineffective for failing to raise it. Therefore,
denial of this ineffectiveness claim is affirmed.

Johnston, 63 So. 3d at 738-39 (e.s.).
CONCLUSION AS TO GROUND THREE
Ground Three Has no Merit
Petitioner has not demonstrated that the state court's determination was contrary to,
60

App 234

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 61 of 156 PagelD 885

or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
The Florida Supreme Court denied this IAC claim for lack of prejudice. The Florida
Supreme Court found that (1) Johnston failed to satisfy materiality; (2) there was "nothing
about the character and extensiveness of Robinson's own experience -- she committed a
nonviolent offense and then pied nolo contendere -- that suggests she would be biased
against a defendant pleading not guilty in a death penalty case or against legal proceedings
in general;" (3) the capias was not issued for a criminal offense; (4) juror Robinson's
positioning as a prior defendant made bias against Johnston especially unlikely; (5) there
was no evidence to suggest that, "if the facts were known, the defense likely would [have]
peremptorily exclude[d] the juror from the jury;" (6) Robinson matched the profile of the
optimal juror sought by the defense; and (7) defense counsel testified at the evidentiary
hearing that in his experience, the substance of Robinson's nondisclosure would have
caused the prosecution -- not the defense -- to exclude or strike a juror. The Florida Supreme
Court concluded that because "Johnston could not have demonstrated materiality, any
motion for new trial based on Robinson's disclosure would not have been successful. And
because the claim lacked merit, counsel cannot be deemed ineffective for failing to raise it."
Johnston, 63 So. 3d at 738-39.

Rejecting a claim of ineffective assistance of counsel because a defendant did not
show prejudice is in accordance with Strickland, 466 U.S. at 691-92. This IAC claim is the
same IAC claim addressed in Ground One above, on the issue of cause and prejudice
relating to the procedurally defaulted substantive claim of juror non-disclosure. This Court
61

App 235

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 62 of 156 PagelD 886

addressed Petitioner's ineffective assistance of trial counsel claim in Ground One. In sum,
in state court, Johnston sought to adjudicate this substantive claim under the state law
standard in De la Rosa v. Zequeira, 659 So. 2d 239 (Fla. 1995). This standard only requires
a litigant to show that (1) "the information is relevant and material to jury service in the case";
(2) "the juror concealed the information during questioning"; and (3) "the failure to disclose
the information was not attributable to the complaining party's lack of diligence." De la Rosa
v. Zequeira, 659 So. 2d 239, 241 (Fla. 1995). Moreover, under this standard, information is
considered material if the litigant "may have been influenced to peremptorily challenge the
juror from the jury," and the information is considered concealed even if the failure to provide
the information was unintentional. Roberts v. Tejeda, 814 So. 2d 334, 341, 343 (Fla. 2002).
The United States Supreme Court has rejected this standard in McDonough Power
Equipment, Inc. v. Greenwood, 464 U.S. 548, 104 S. Ct. 845 (1984), the case now cited by
Johnston in his habeas memorandum. Instead, it has required a demonstration that a juror
was biased and subject to removal for cause before an incorrect or incomplete answer during
voir dire would serve as a basis for vacating a judgment. Id. at 556; see also, Smith v.
Phillips, 455 U.S. 209, 102 S. Ct. 940 (1982). Given these circumstances, the substantive
claim Petitioner presented to the state courts was a claim under state law. Furthermore, on
direct appeal, the state court specifically found that the juror was not subject to removal for
cause. Robinson's failure to pay her misdemeanor court costs meant only that she faced the
possibility of civil contempt; she was not statutorily disqualified from jury service. See §
40.013(1), Fla. Stat. (1999); Johnston, 841 So. 2d at 357-358. Petitioner's statement that
"jurors under prosecution were statutorily disqualified to serve" is a red herring. (Doc. 25 at
10). The Florida supreme Court explicitly ruled that "Robinson did not commit a criminal
62

App 236

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 63 of 156 PagelD 887

offense when she failed to pay her fine and, accordingly, was not statutorily disqualified from
serving on the jury."
In postconviction, trial counsel Littman confirmed that Robinson's misdemeanor plea
would not have caused the defense to strike Robinson because Robinson fit the profile of the
defense-preferred juror and the State is the party who typically tries to strike those individuals
with a prior involvement with law enforcement. (Ex. 859/1487; 1491-1492). Attorney Littman
informed Johnston, prior to trial, of the mock jury trial results and the recommended strategy
of seeking a young and minority jury. (Ex. 859/1487-1488). Juror Robinson fit the profile of
a defense-preferred juror, as recommended by their mock trial specialist, Dr. Harvey Moore.
(Ex. 659/1491-1492). Any juror that Johnston did not like was stricken; and, even after
Robinson was arrested, the defense still wanted to keep Robinson on the jury panel. Trial
counsel's decision was reasonable under the norms of professional conduct and the state
courts properly rejected this IAC claim under Strickland.
Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
Ground three does not warrant habeas corpus relief.

GROUND FOUR
THE STATE COURTS ERRED IN FAILING TO GRANT RELIEF BASED ON
TRIAL COUNSEL'S INEFFECTIVENESS FOR FAILING TO FOLLOW
THROUGH WITH INDIVIDUAL AND SEQUESTERED VOIR DIRE. MR.
JOHNSTON WAS DEPRIVED OF A FUNDAMENTALLY FAIR TRIAL
GUARANTEED UNDER THE FIFTH, SIXTH, EIGHTH, AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION. THE STATE
COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO FEDERAL
63

App 237

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 64 of 156 PagelD 888

LAW AND AN UNREASONABLE APPLICATION OF THE SAME. THE
COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT. THIS COURT SHOULD GRANT THE WRIT.
Petitioner's Allegations

In the instant case, it is abundantly clear that in order to receive a fair trial, Mr.
Johnston was in need of, and entitled to, individual and sequestered voir dire. ·Eight jurors
indicated that they had some knowledge of the case from the media. The media coverage
focused relentlessly on inflammatory and inadmissible material, including (but not limited to)
(1) Johnston's prior arrests and convictions for multiple rapes, robberies, burglaries,
kidnaping, and assaults; (2) his three prior long terms of imprisonment, his early releases on
all three occasions, and the anguish of the victim's father and Mr. Johnston's own brother
that he was put back on the streets to commit this murder; (3) his being a prime suspect in
the beating and strangulation murder of Janice Nugent, and in the slashing attack upon
Gillian Young; (4) his history of violence toward women and his predilection for kinky sexual
practices, with specifics involving his ex-wife Bambi Lynne Neal (including a threat of what
was coming), his girlfriend Diane Busch in the hospital, and the dominatrix Madame Raven;
(5) police reports that he had received treatment as a sexual predator; (6) the consistent
portrayal of Mr. Johnston as a con man who preyed on women, and a smooth talker and
habitual liar whose alibi was full of holes; (7) the suggestions that Johnston was stalking
Coryell days before her murder, and (8) the opinions of Johnston's own family that he was
a ticking time bomb -- violent, dangerous, and guilty of the charged crime. The remaining
questions are whose fault was it that nobody ever found out what information these jurors
(including two who actually served on the jury) had, and whether it matters who is at fault.
The trial judge was well aware of the inadmissible and extraordinarily prejudicial
64

App 238

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 65 of 156 PagelD 889

content of the publicity, and she was-- or clearly should have been --well aware of the need
to find out what these eight prospective jurors knew or had been exposed to, before any of
them could be allowed to serve on Johnston's capital jury. The judge granted the motion for
individual and sequestered voir dire on the issue, inter a/ia, of the juror's knowledge of the
case (through publicity or otherwise). (Vol. XIX R.1931-32).
At the beginning of jury selection, the defense -- perhaps unnecessarily -- renewed
its motion for individual voirdire. (Vol. VI R. 8). This time, inexplicably, the judge denied that
request, but she left the door open to individual questioning at the bench in the event that
particular jurors indicated they had knowledge of the case. {Vol. VI R. 8-9). Even during the
trial itself, in making the decision to sequester the jury during deliberations, the trial judge
noted that Johnston's prior record was in every newspaper. (Vol. XIV R. 1243).
Whether with reference to Johnston's prior record or all of the other inadmissible and
highly prejudicial reports, noone asked the jurors if they knew about it, and defense counsel
actually told a venire man who served on the jury (Mr. Ursetti) that he did not want to know,
because he did not want anything said in front of the other people. (Vol. VII R. 179). All we
know about the media exposure of the other juror who served (Mr. James) is that he simply
remembered it from the news. (Vol. VII R. 180). Clearly defense counsel was deficient here,
or seriously misunderstood the judge's ruling, but that does not mean the trial court did not
abuse its discretion in failing to ensure that a fair and impartial jury was seated, and in failing
to ascertain whether prospective jurors (including the two who served) possessed prejudicial
information that was not admissible in the trial. The judge knew exactly what the media had
broadcast to the community about Johnston, and her comments make it clear that she knew
how this could destroy his right to a fair trial, yet (after issuing an arguably confusing set of
65

App 239

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 66 of 156 PagelD 890

rulings) she "sat on her hands" while defense counsel evidenced the mistaken belief that he
could not ask the jurors what they knew without tainting the remaining jurors. The denial in
this case of Johnston's constitutional right to be tried by a fair and impartial jury is attributable
to a combination of judicial error and counsels' inattentiveness or misunderstanding.
On direct appeal, appellate counsel argued that trial counsel was ineffective for failing
to ask to approach the bench and that the Florida Supreme Court could reach this issue on
direct appeal. The Florida Supreme Court ruled that such a claim would have to be raised
in postconviction. From the trial record, the purposes of the contemporaneous objection rule
were satisfied, the grounds were fully argued, the judge from her own comments plainly
understood the reasons why individual voir dire was necessary in this case, and she had
more than enough information before her to trigger her obligation to ascertain what the jurors
knew from the publicity. To the extent that counsel's inaction amounts to a waiver, then it also
amounts to ineffective assistance. After arguing strenuously pre-trial that individual voir dire
was constitutionally necessary in the face of the overwhelmingly prejudicial media coverage,
and after renewing the motion (even after it had been granted pre-trial), saying we would
especially like to do it on the ... pretrial publicity part, it would be unreasonable to believe that
the defense attorneys changed their minds as some sort of strategic decision. Moreover, any
such strategy would be indefensible as a matter of law and logic. Is there any conceivable
way, in a trial where the defense was identity, that counsel could have wanted jurors who
might know about Johnston's life history as a sexually violent criminal, or the fact that he was
a prime suspect in the beating and strangulation murder of another woman, or that his own
family was sure he was guilty?
In the instant case --which involves the death penalty and the heightened due process
66

App 240

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 67 of 156 PagelD 891

protections that are constitutionally mandated -- there was overwhelming hostile and
inflammatory publicity which presumed Johnston's guilt of the charged murder (as well as an
uncharged murder and an uncharged assault), and relentlessly informed the community of
his prior criminal record, his previous imprisonments and early releases, his propensities to
violence, kinky sexual practices, and con artistry. To preserve his right to a trial by a fair and
impartial jury, Johnston had a right to individually question the jurors to determine the extent
of their exposure, and whether they possessed any inadmissible information from the media.
The trial court's announced denial of individual voir dire on publicity (Vol. VI R. 8) was error,
but she did leave the door open for defense counsel to ask to approach the bench, and not
only did defense counsel inexplicably fail to take the opportunity that was given, he went so .
far as to tell a juror who actually served that he did not want to know what the juror knew
about the case, because he did not want it spoken in front of the other jurors. (Vol. VII R.
179). Despite the Florida Supreme Court's apparent recognition of the prejudice that
Johnston suffered because of counsel's deficiency in dropping the ball, the court failed to
grant relief and instead found that the trial court did not abuse its discretion by refusing to
independently voir dire the jury.
Based on the facts of the case and the Florida Supreme Court apparently
acknowledging that the pre-trial publicity was prejudicial, Johnston raised an ineffective
assistance of counsel claim for failing to individually question the jurors familiar with the
highly-prejudicial pretrial publicity. This claim was denied because Johnston could not prove
actual bias. Given the extent and nature of the pre-trial media in this case, prejudice should
be presumed and relief should be given.
Attorney Littman could offer no explanation why he failed to individually voir dire the
67

App 241

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 68 of 156 PagelD 892

members of the venire who had been exposed to the media. (Vol. LIX PCR. 1438).
The test for prejudice is whether there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the outcome of
· the trial. There can be no confidence in the outcome of this case where at least two of the
sitting jurors were exposed to the completely prejudicial news media in this case. The

common thread in all the media reports was not the lack of evidence and the circumstantial
nature of the evidence against Johnston. The common thread was that Johnston was a
career criminal who repeatedly engaged in violent crimes against women, and who was
repeatedly released early from prison for his crimes.
Front page newspaper articles and television news broadcasts highlighted Johnston's
criminal past in sensational fashion. There can be no confidence in the outcome of the verdict
and jury's 12-0 death recommendation in this case due to the pervasively prejudicial media
content and extent to which the jury knew of Johnston's criminal past. It is unreasonable to
. say that the Petitioner has failed to prove prejudice due to media exposure, when it was trial
counsel who failed to question these jurors about the media exposure.
The State court decisions on these issues were contrary to federal law and an
unreasonable application of the same. The court decisions were also based on an
unreasonable finding of fact.

Petitioner's Allegations in the Reply
The media coverage in this case is just as, if not more extensive and prejudicial as in
Irvin v. Dowd, 366 U.S. 717 (1960). The United States Supreme Court has noted that when

the media coverage in a capital case is so extensive: "As one of the jurors put it, 'you can't
68

App 242

Case 8:11-cv-02094-EAK-TGW Document 29 Filed.04/17/14 Page 69 of 156 PagelD 893

forget what you hear and see.' With his life at stake, it is not requiring too much that petitioner
be tried in an atmosphere undisturbed by so huge a wave of public passion." Irvin, Id. at 728.

See alsoRideauv. Louisiana, 373 U.S. 723,726 (1963) ("Any subsequent court proceedings
in a community so pervasively exposed to such a spectacle could be but a hollow formality.").
Johnston claims that the state court's reliance on Carratelli v. State, 961 So. 2d 312,
324 (Fla. 2007) is misplaced. According to Johnston "the Florida Supreme Court held that
a defendant had to establish a biased juror sat to establish prejudice under Strickland."

Carratelli is contrary to Irvin and Rideau in that it fails to acknowledge cases where media
coverage can become so prejudicially pervasive in a community that prejudice can be
presumed, thus violating a defendant's right to due process and a fair trial. The standard in

Carratelli is unreasonable and unconstitutional, imposing a standard on a petitioner greater
than Strickland. Irvin and Rideau recognize cases where juror bias can be presumed.

Strickland would require only a reasonable probability of juror bias due to media coverage.
Carratelli is contrary to federal law in that it requires actual juror bias to be proven rather than
a reasonable probability of juror bias to establish the ineffective assistance of counsel. At the
very least, trial counsel owed a duty to individually question jurors Ursetti and James, who
actually served on the jury, when they revealed that they had been exposed to the media
coverage in this case.
Johnston alleges that the State's reliance on McDonough Power Equipment, Inc. at
556 is misplaced. He claims that, as seen in Irvin and Rideau, the United States Supreme
Court reasonably recognizes that juror bias in a community so infected by extensive media
coverage can be presumed, thus violating a defendant's right to due process and a fair trial.
Johnston claims thattrial counsel's failures during voirdirewere not based on strategy
69

App 243

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 70 of 156 PagelD 894

or reason, because there obviously was no strategy or reason involved. He claims that the
State's argument that "Attorney Littman verified that, in light of this response by Juror Ursetti,
there was no reason why [he] would be asked about this privately. (Ex. B 59/1437))" ignores
trial counsel's testimony on the following page, wherein, when asked why he did not perform
individual and sequestered voir dire regarding the jurors' exposure to the media, he
answered, atthe evidentiary hearing, "I don't recall it at all. At all." (Ex. B 59/1438). He further
argues that given the extent of the media coverage, and the content, bias can be presumed
here. Trial counsel did nothing to prevent biased jurors from serving on this case. The state
court decisions here are contrary to Irvin, Rideau, and Strickland.
Exhaustion and Disposition of Ground Four in State Court

Johnston's IAC sub-claim was raised both on direct appeal and in postconviction. On
direct appeal, Johnston argued that he was entitled to a new trial based on the failure of the
trial court and trial counsel to ascertain the extent of the exposure of eight prospective jurors
(including two who served on the jury) to inflammatory pretrial publicity.
On direct appeal, the Florida Supreme Court ruled that the trial court did not abuse its
discretion by refusing to independently voir dire the jury. The Florida Supreme Court denied
Johnston's IAC claim (for failing to individually question those jurors who had exposure to
pretrial publicity) without prejudice, because it should be raised in a postconviction motion.

Johnston, 841 So. 2d at 358. On direct appeal, the Florida Supreme Court stated:
Johnston's second claim raises the issue of whether he is entitled
to a new trial based on the failure of the trial court and counsel to
ascertain the extent of the exposure of eight prospective jurors
(including two who served on the jury) to the inflammatory pretrial
publicity which focused almost entirely on inadmissible material. The
record reveals that both the television media and the newspapers closely
followed the progress of the murder investigation and the criminal proceedings
70

App 244

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 71 of 156 PagelD 895

in the case. Media reports included numerous inadmissible details of
Johnston's criminal history and early releases, his purported proclivities for
violence against women, and statements from some of Johnston's own family
that they believed Johnston was guilty and was "a ticking time bomb." Prior to
the trial, the trial judge granted defense counsel's request to individually
question prospective jurors at the bench relative to the jurors' prior knowledge
about the case. Despite this ruling, however, defense counsel never asked to
individually question the several jurors who indicated that they recalled hearing
something about the case.
Johnston recognizes that defense counsel "dropped the ball" by
not requesting individual voir dire for these jurors, but asserts that he is
entitled to a new trial because the trial judge also had an independent
obligation to address this issue, especially in light of the fact that
defense counsel had initially alerted the court to the potential problem.
This Court has never created an independent obligation on the part of the trial
judge to question prospective jurors sua sponte, in the absence of a request
by counsel. In fact, the Court has recognized that the trial court is not required
to grant individual voir dire, even with a request by counsel. Specifically, this
Court described the legal standard as follows:
[Al trial court has broad discretion in deciding whether
prospective jurors must be questioned individually about publicity
the case has received. Individual voir dire to determine juror
impartiality in the face of pretrial publicity is constitutionally
compelled only if the trial court's failure to ask these questions
renders the trial fundamentally unfair. The mere existence of
extensive pretrial publicity is not enough to raise a presumption
of unfairness of constitutional magnitude. A prospective juror is
presumed impartial if he or she can set aside a preformed
opinion or impression and return a verdict based on evidence
presented in court.
Bolin v. State, 736 So. 2d 1160, 1164 (Fla. 1999) (citations omitted). We find
that the trial court did not abuse its discretion by refusing to
independently voir dire the jury and hence this claim is denied.

Alternatively, Johnston asserts he is entitled to a new trial because
his trial counsel was ineffective for failing to individually question those
jurors who had exposure to pretrial publicity. We deny this claim without
prejudice because it should be raised in a postconviction motion, as
opposed to direct appeal. See Teffeteller v. Dugger, 734 So. 2d 1009, 1020
(Fla. 1999) (addressing this type of postconviction motion); Loren v. State, 601
So. 2d 271, 272 (Fla. 1st DCA 1992) ("[C]laims of ineffective assistance of
counsel are generally not reviewable on direct appeal, but are properly raised
71

App 245

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 72 of 156 PagelD 896

in a motion for postconviction relief.").
Johnston, 841 So. 2d at 358 (e.s.)

Thereafter, Johnston raised this IAC sub-claim in postconviction and the trial court
denied relief after an evidentiary hearing. The trial court ruled that Johnston failed to
demonstrate any deficiency of counsel and resulting prejudice under Strickland. The trial
court's order of February 4, 2009 states, in pertinent part:
Defendant alleges ineffective assistance of counsel due to counsel's
failure to individually voir dire members of the jury venire about pretrial
publicity. Specifically, Defendant alleges prior to trial, the trial court granted
Defendant's request to individually question prospective jurors at the bench
relative to the juror's prior knowledge about the case. Defendant further alleges
that of the fifty prospective jurors, eight prospective jurors, including Mr.
Guntert (27), Ms. Welch (34), Mr. McMinn (45), Ms. McGee (6), Mr. Ursetti
(18), Mr. Arnold (15), Mr. James (20), and Mr. Rice (39), recalled that they had
read or heard about the case after limited information gained from the reading
of the indictment and voir dire. Defendant alleges that based on the trial court's
granting of Defendant's request to individually question prospective jurors,
these jurors could have been questioned individually to determine the extent
of their knowledge of the case from the media reports, and whether they had
been exposed to prejudicial and inadmissible information. However, Defendant
alleges counsel failed to individually question the eight potential jurors.
Of the eight potential jurors, only jurors Ursetti and James served on
Defendant's jury. "The test for determining juror competency is whether the
juror can lay aside any bias or prejudice and render his verdict solely upon the
evidence presented and the instructions on the law given to him by the court."
Lusk v. State, 446 So. 2d 1038, 1041 (Fla. 1984). With respect to juror Ursetti,
the record reflects the following transpired during voir dire:
LITTMAN: First row over here, which is the third row?
URSETTI: I recall something.
LITTMAN: I don't want to know what you think the details are because I don't
want you to say this in front of the other people. What that fact alone, Mr.
Ursetti, keep you from being fair and impartial?
URSETTI: It would not.
72

App 246

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 73 of 156 PagelD 897

LITTMAN: You can put aside anything? As I said, it may have been reported
accurately or inaccurately.
(See trial transcript, p. 179, attached). With respect to juror James, a review
of the record reflects the following transpired during voir dire:
LITTMAN: Because as the judge has already told you, those who are chosen
as jurors are not permitted to discuss the case while the case is pending. In
the future sometime, you might. You might say no, that's not what happened
at all because you have been a juror on the case.
LITTMAN: Next row?
JAMES: I just remember it from the news.
LITTMAN: One person feels they were influenced by it. Next row, which would
be Row4?
(See trial transcript, p. 180, attached.)
At the evidentiary hearing, when asked whether there was any reason
why he did not individually voir dire members of the jury panel about pretrial
publicity, he responded as follows:
REGISTRATO: Well, as I recall, there was a laundry list- - there was - - there's
a lot of ground that was covered on each juror, and whether they had been
exposed to pretrial publicity I'm sure was covered by somebody. And I may not
have done it myself, but either they had done it on the written questionnaires
or Mr. Pruner had done it or Mr. Littman had done it or I did it. I don't remember
who did it, but I'm sure somebody went over that with them, pretrial publicity.
I'm basically almost certain. I don't have a specific recollection of it, but I can't
imagine that it wasn't done somewhere along the line, they weren't asked
about whether they were - - had been exposed to pretrial publicity on this case.
I'm sure somebody did. Again, it's not something that you hammer four or five
times. If they were asked about it and they said they didn't know about the
case, I'm- -you know, you don't want to start reminding them that, well, now,
you know, there was a lot of publicity about this thing. That's not something
you would do.
(See January 31, 2008, transcript, p. 743, attached). He further testified that
he did not remember whether or not the trial team individually voir dired the
panel about pretrial publicity. (See January 31, 2008, transcript, p. 744,
attached).
Mr. Littman testified if Judge Allen granted individual voir dire, they
73

App 247

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 74 of 156 PagelD 898

would have done it, and would have covered pretrial publicity. (See January
31, 2008, transcript, p. 861, attached). After having his recollection refreshed
with portions of the trial transcript, Mr. Littman testified there was a pretrial
written motion to have individual voir dire, but Judge Allen denied the motion
stating if any jurors indicated they had heard about the case, she would
question them individually at the bench. (See January 31, 2008, transcript, p.
864, attached). He admitted he did not know if either Mr. Ursetti or Mr. James
heard about Defendant's prior criminal record. (See January 31, 2008,
transcript, p. 875, attached). He also testified Defendant contributed to the
pretrial publicity by giving an interview over the phone from jail to a news
reporter. (See January 31, 2008, transcript, pps. 932 and 943, attached).
After reviewing claim 3, the testimony, evidence, and argument
presented at the January 28, 2008, January 29, 2008, January 30, 2008,
January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds with
respect to the eight jurors Defendant is challenging, the Court finds only jurors
Ursetti and James actually served on the jury that convicted Defendant.
Therefore, the Court finds Defendant is unable to demonstrate prejudice with
respect to jurors Mr. Guntert (27), Ms. Welch (34), Mr. McMinn (45), Ms.
McGee (6), Mr. Arnold (15), and Mr. Rice (39).
Defendant's request to individually question prospective jurors at the
bench relative to the juror's prior knowledge about the case. Defendant further
alleges that of the fifty prospective jurors, eight prospective jurors, including Mr.
Guntert (27), Ms. Welch (34), Mr. McMinn (45), Ms. McGee (6), Mr. Ursetti
(18), Mr. Arnold (15), Mr. James (20), and Mr. Rice (39), recalled that they had
read or heard about the case after limited information gained from the reading
of the indictment and voir dire. Defendant alleges that based on the trial court's
granting of Defendant's request to individually question prospective jurors,
these jurors could have been questioned individually to determine the extent
of their knowledge of the case from the media reports, and whether they had
been exposed to prejudicial and inadmissible information. However, Defendant
alleges counsel failed to individually question the eight potential jurors.
Of the eight potential jurors, only jurors Ursetti and James, served on
Defendant's jury. "The test for determining juror competency is whether the
juror can lay aside any bias or prejudice and render his verdict solely upon the
evidence presented and the instructions on the law given to him by the court."
Lusk v. State, 446 So. 2d 1038, 1041 (Fla. 1984). With respect to juror Ursetti,
the record reflects the following transpired during voir dire:
LITTMAN: First row over here, which is the third row?
74

App 248

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 75 of 156 PagelD 899

URSETII: I recall something.
LITIMAN: I don't want to know what you think the details are
because I don't want you to say this in front of the other people.
What that fact alone, Mr. Ursetti, keep you from being fair and
impartial?
URSETII: It would not.
LITIMAN: You can put aside anything? As I said, it may have been
reported accurately or inaccurately.
(See trial transcript, p. 179, attached). With respect to juror James, a review
of the record reflects the following transpired during voir dire:
LITIMAN: Because as the judge has already told you, those who
are chosen as jurors are not permitted to discuss the case while
the case is pending. In the future sometime, you might. You
might say no, that's not what happened at all because you have
been a juror on the case.
LITIMAN: Next row?
JAMES: I just remember it from the news.
LITIMAN: One person feels they were influenced by it. Next row,
which would be Row 4?
(See trial transcript, p. 180, attached).
At the evidentiary hearing, when asked whether there was any reason
why he did not individually voir dire members of the jury panel about pretrial
publicity, he responded as follows:
REGISTRATO: Well, as I recall, there was a laundry list- - there
was - - there's a lot of ground that was covered on each juror,
and whether they had been exposed to pretrial publicity I'm sure
was covered by somebody. And I may not have done it myself,
but either they had done it on the written questionnaires or Mr.
Pruner had done it or Mr. Littman had done it or I did it. I don't
remember who did it, but I'm sure somebody went over that with
them, pretrial publicity. I'm basically almost certain.
I don't have a specific recollection of it, but I can't imagine that it
wasn't done somewhere along the line, they weren't asked about
75

App 249

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 76 of 156 PagelD 900

whether they were - - had been exposed to pretrial publicity on
this case. I'm sure somebody did. Again, it's not something that
you hammer four or five times. If they were asked about it and
they said they didn't know about the case, I'm - -you know, you
don't want to start reminding them that, well, now, you know,
there was a lot of publicity about this thing. That's not something
you would do.
(See January 31, 2008, transcript, p. 743, attached). He further testified that
he did not remember whether or not the trial team individually voir dired the
panel about pretrial publicity. {See January 31, 2008, transcript, p. 744,
attached).
Mr. Littman testified if Judge Allen granted individual voir dire, they
would have done it, and would have covered pretrial publicity. {See January
31, 2008, transcript, p. 861, attached). After having his recollection refreshed
with portions of the trial transcript, Mr. Littman testified there was a pretrial
written motion to have individual voir dire, but Judge Allen denied the motion
stating if any jurors indicated they had heard about the case, she would
question them individually at the bench. {See January 31, 2008, transcript, p.
864, attached). He admitted he did not know if either Mr. Ursetti or Mr. James
heard about Defendant's prior criminal record. {See January 31, 2008,
transcript, p. 875, attached). He also testified Defendant contributed to the
pretrial publicity by giving an interview over the phone from jail to a news
reporter. (See January 31, 2008, transcript, pps. 932 and 943, attached).
After reviewing claim 3, the testimony, evidence, and argument
presented at the January 28, 2008, January 29, 2008, January 30, 2008,
January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds
with respect to the eight jurors Defendant is challenging, the Court finds
only jurors Ursetti and James actually served on the jury that convicted
Defendant. Therefore, the Court finds Defendant is unable to demonstrate
prejudice with respect to jurors Mr. Guntert (27), Ms. Welch (34), Mr. McMinn
(45), Ms. McGee (6), Mr. Arnold (15), and Mr. Rice (39).
Moreover, the Court finds "[a] prospective juror is presumed
impartial if he or she can set aside a performed opinion or impression
and return a verdict based on evidence presented in court." Johnston v.
State, 841 So. at 358. With respect to Ursetti, the record clearly reflects
Mr. Ursetti assured Mr. Littman that what he recalled about the case
would not keep him from being fair and impartial. (See trial transcript,
pps. 179-180, attached). Therefore, the Court finds Mr. Ursetti was
competent to serve as a juror, and Defendant failed to demonstrate
76

App 250

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 77 of 156 PagelD 901

prejudice as a result of counsel's failure to individually voir dire Mr.
Ursetti about pretrial publicity.
With respect to Mr. James, the record reflects the following transpired during
voir dire:
LITTMAN: Anyone here think they've heard, or read, or seen
anything about this particular case?
[Several prospective jurors raise their hands.]
LITTMAN: My question to you, sir- - I believe, Mr. MacMinn, you
already answered it. You have read something that you feel
would prevent you from being a fair and impartial juror.
MACMINN: More in the line of news report, not read but seen.
LITTMAN: Of course, we knowif something's in the newspaper,
it must be accurate because they wouldn't make a mistake. I say
that, in large, tongue and cheek. Mr. Pruner and I have done this
for a long time, so has Ms. Stanley and Mr. Registrato, and we
say we know that's not what we have heard, so had Judge Allen,
who's presiding over this case. Do you think you can be fair and
impartial in giving this man a fair trial?
MACMINN: I think I'm already predisposed with a feeling in my
gut.
LITTMAN: Let me ask.the folks over here. Anyone in the first row
heard or read about the case?
MCGEE: I just remember the face.
LITTMAN: The face?
MCGEE: I didn't remember him at first, but I remember his face.
I just remember he was in the news or in the newspapers.
LITTMAN: You don't remember anything specifically?
MCGEE: But I don't remember what was developed.
LITTMAN: The reason we ask these questions, I guess. gee, if
I read about the case, I guess I can't be a juror. That's not true
at all.
77

App 251

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 78 of 156 PagelD 902

The follow-up question in your case, which you answered
the fact you read and think you know something about the
case, does not prevent you from being a fair and impartial
juror and listening to the evidence with an open mind?
Now, if you say no, I can't do that, then, of course, you can't be
a juror. But if you said, look, I can make up my mind based on
what's presented in court, which is what you're supposed to do,
I don't care what they said on some network channel or
newspaper, that's okay.
If you think of· all the famous cases in this country in the last
years, you can't say none of the jurors have ever heard of it.
That's not the test. The test is, you keep an open mind and judge
what the State presents, or what they don't present in court. Can
you do that?
MCGEE: (Indicating affirmatively.)
[Prospective jurors indicating affirmatively.]
LITTMAN: Anybody in the second row heard anything about the
case?
[Prospective jurors indicating negatively.]
LITTMAN: First row over here, which is the third row?
URSETTI: I recall something.
LITTMAN: I don't want to know what you think the details
are because I don't want you to say this in front of the other
people. Would that fact alone, Mr. Ursetti, keep you from
being fair and impartial?
URSETTI: It would not.
LITTMAN: You can put aside anything'? As I said, it may have
been reported accurately or inaccurately. Sir, I'm sorry. Your
name?
ARNOLD: David Arnold. I have seen him before in a different
setting and heard information about the case, and I didn't recall
until just now.
78

App 252

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 79 of 156 PagelD 903

LITTMAN: All right. Now, as the case goes on, certain things
may refresh your recollection or may not, but the question is,
simply, can you put that aside and judge the case just on what's
presented here?
ARNOLD: Yes.
LITTMAN: Because as the judge has already told you, those who
are chosen as jurors are not permitted to discuss the case while
the case is pending. In the future sometime, you might. You
might say no, that's not what happened at all because you have
been a juror on the case.
LITTMAN: Next row?
JAMES: I just remember it from the news.
LITIMAN: One person feels they were influenced by it. Next row,
which would be Row 4?
(See trial transcript, pps. 176-180, attached). Therefore, Mr. Littman was
referring to juror MacMinn as the individual who felt he was influenced
by the pretrial publicity, not Mr. James. Mr. James simply stated that he
remembered it from the news.
Moreover, "[t]he mere existence of extensive pretrial publicity is not
enough to raise a presumption of unfairness of constitutional magnitude."
Johnston, 841 So. 2d at 358. The Court finds Mr. James simply stated he
remembered it from the news, and did not express any preformed
opinion or impression regarding the case. The Court further finds when
it came time to determine whether Mr. James was accepted by the
defense, the defense still had some remaining peremptory challenges
and chose not to exercise them on juror James. (See trial transcript, pps.
236-242, attached). Therefore, the Court finds Mr. Littman and the State
were satisfied that Mr. James' ability to be fair and impartial was not
impacted by what he remembered from the news. Consequently, the
Court finds Defendant failed to demonstrate that counsel acted
deficiently in failing to request individual voir dire of Mr. James. Lastly,
the Court finds Defendant failed to demonstrate prejudice as a result of
counsel's failure to individually voir dire Mr. James. As such, no relief is
warranted upon claim 3.
(Ex. B16/3115-3122)(e.s.).

79

App 253

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 80 of 156 PagelD 904

Johnston repeated this IAC claim on postconviction appeal and the Florida Supreme
Court affirmed the denial of this IAC sub-claim as follows:
K. Pretrial publicity

Johnston claims that trial counsel was ineffective for failing to sufficiently
question members of the venire regarding their exposure to pretrial publicity.
Because Johnston has not shown that the jurors were actually biased,
our confidence in the outcome is not undermined. See Carratelli v.
State,961 So. 2d 312, 324 (Fla. 2007).
During voir dire, two eventual jurors indicated that they had heard about
the case on the news. Trial counsel asked one of those jurors directly whether,
given exposure to media reports, he could be fair and impartial. That juror
responded that he could. While counsel did not directly question the other
juror, the second juror gave no indication as to what he had heard on the news
or whether he was at all influenced by the news report, even after defense
counsel invited jurors to respond to his repeated explanation of the
requirement that jurors must be fair and impartial.
In Carratelli, we explained:
[W]here a postconviction motion alleges that trial counsel was
ineffective for failing to raise or preserve a cause challenge, the
defendant must demonstrate that a juror was actually biased.
A juror is competent if he or she "can lay aside any bias or
prejudice and render his verdict solely upon the evidence
presented and the instructions on the law given to him by the
court." Therefore, actual bias means bias-in-fact that would
prevent service as an impartial juror. Under the actual bias
standard, the defendant must demonstrate that the juror in
question was not impartial -- i.e., that the juror was biased
against the defendant, and the evidence of bias must be plain on
the face of the record.
961 So. 2d at 324 (citations omitted) (emphasis supplied) (quoting Lusk v.
State, 446 So. 2d 1038, 1041 (Fla. 1984)}. To be entitled to relief, the
defendant must show that the juror "was actually biased, not merely that there
was doubt about her impartiality." Owen v. State, 986 So. 2d 534, 550 (Fla.
2008).
In Carratelli, we held that the defendant failed to demonstrate actual
bias where the challenged juror represented during voir dire that he could be
80

App 254

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 81 of 156 PagelD 905

fair, listen to the evidence, and follow the law. See 961 So. 2d ·at 327. And in
Lugo, we found that the defendant could not demonstrate actual bias where,
after the trial court's specific discussion on improper bias, the juror simply did
not indicate that his ability to be impartial was affected by a prior experience.
2 So. 3d at 16.
Johnston has failed to demonstrate actual bias. See id.; Owen, 986
So. 2d at 550; Ca"atelli, 961 So. 2d at 324. One juror, like the juror in
Ca"atelli, indicated that he retained the ability to be impartial. The other
juror, like the one in Lugo, simply declined to respond to specific
discussion on bias during voir dire. There is no evidence that either juror
was biased.
Because Johnston must show more than mere doubt about the
juror's impartiality and because there is no evidence of actual bias, we
affirm denial of this claim. See Owen, 986 So. 2d at 549-50.
Johnston, 63 So. 3d 730, 744-745 (e.s.).

CONCLUSION AS TO GROUND FOUR
Ground Four Has no Merit

Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
In reviewing this IAC claim on postconviction appeal, the Florida Supreme Court
considered whether Petitioner was entitled to relief under Carratelli v. State, 961 So. 2d 312,
324 (Fla. 2007). Carratelli concerns resolution of a claim of ineffective assistance of counsel
regarding the seating of a juror. Carratelli, 961 So. 2d at 315, 317-18, 323-24. In Carratelli,
961 So. 2d at 324, the Florida Supreme Court held that a defendant had to establish that a
biased juror sat on the jury to establish prejudice under Strickland. Therefore, the Florida
Supreme Court rejected Petitioner's claim because he did not show prejudice.
81

App 255

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 82 of 156 PagelD 906

Rejecting a claim of ineffective assistance of counsel because a defendant did not
show prejudice is in accordance with Strickland, 466 U.S. at 691-92. Moreover, determining
that prejudice is not shown unless a biased juror sat on the jury is consistent with United
States Supreme Court precedent. As previously noted, the United States Supreme Court has
required a showing that a biased juror sat on the jury in order to demonstrate that a trial was
unfair and should be reversed. McDonough Power Equipment, Inc., 464 U.S. at 556; see
also, Smith v. Phillips, 455 U.S. 209, 102 S. Ct. 940 (1982). As the United States Supreme

Court has recognized, the focus of a prejudice inquiry regarding a claim of ineffective
assistance of counsel is to determine whether counsel's alleged deficiency deprived the
defendant of a fair trial. Strickland, 466 U.S. at 696; see also, Lockhart v. Fretwell, 506 U.S.
364, 368-39, 113 S. Ct. 838 (1993). Thus, finding that a defendant did not show prejudice
because he did not make a showing necessary to find that he did not receive a fair trial is not
an unreasonable application of Strickland. Williams, 529 U.S. at 411.
Only two of the prospective jurors who indicated some prior knowledge of the case
actually served on the jury: Ursetti and James. After Ursetti indicated that he recalled
"something" about the case, he stated that his prior knowledge would not keep him from
being fair and impartial. (Ex. A7/179). During the postconviction evidentiary hearing, attorney
Littman verified that, in light of this response by Ursetti, there was no reason why Ursetti
would be asked about this matter privately. (Ex. B59/1437). The context of the questioning
and defense counsel's comments at trial demonstrate that only one person, [MacMinn] not
James, felt influenced by pretrial publicity. (Ex. A7/179-180). Counsel's perspective at the
time of trial is paramount; Strickland requires the reviewing court "to evaluate the conduct
from counsel's perspective at the time." 466 U.S. at 689; see also, Wainwright v. Witt, 469
82

App 256

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 83 of 156 PagelD 907

U.S. 412,435, 105 S. Ct. 844,867 (1985) (reasons which may not be crystal clear from the
printed record may have been readily apparent to those viewing the jurors as they answered
questions during voir dire).
Moreover, Johnston does not dispute that when it came to jurors Ursetti and James,
the defense still had four remaining peremptory challenges and specifically chose not to
exercise them on either Ursetti or James. Thus, the responses of Jurors Ursetti and James
indicated to counsel, at the time of trial, that any prior knowledge of the case would not
impact their ability to be fair and impartial.
On postconviction appeal, the Florida Supreme Court found that Johnston failed to
demonstrate actual bias. "One juror, like the juror in Carrate/li, indicated that he retained the
ability to be impartial. The other juror, like the one in Lugo, simply declined to respond to
specific discussion on bias during voir dire. There is no evidence that either juror was
biased." Johnston, 63 So. 3d at 744-745. Because Johnston must show more than mere
doubt about the juror's impartiality and because there is no evidence of actual bias, the
Florida Supreme Court affirmed the denial of this claim. A finding regarding whether a juror
is biased is a finding offact. Witt v. Wainwright, 469 U.S. 412, 426-29, 105 S. Ct. 844 {1985);
see also, Uttecht v. Brown, 551 U.S. 1, 127 S. Ct. 2218 (2007). This Court must presume
that finding to be correct unless Petitioner presents clear and convincing evidence showing
that it is incorrect or unreasonable in light of the record. Gilliam v. Sec'y for the Dept. of
Corrections, 480 F.3d 1027, 1032 (11th Cir. 2007). Petitioner has not met his burden of
overcoming the presumption of correctness regarding the factual finding of a lack of bias.
In Owen v. Department.of Corrections, 686 F.3d 1181, 1201 (11th Cir. 2012), the
Eleventh Circuit rejected an IAC/jury selection claim in another Florida death penalty case
83

App 257

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 84 of 156 PagelD 908

and also addressed Carratelli. In Owen, the Eleventh Circuit concluded, in pertinent·part:
Therefore, to the extent the Florida Supreme Court affirmed the denial
of Owen's jury-selection ineffective assistance claim based on a finding of no
deficient performance by trial counsel's not moving to strike the three jurors
during trial, we conclude that finding was not contrary to Supreme Court
precedent, did not unreasonably apply Supreme Court precedent, and was not
based on an unreasonable determination of the facts in light of the state court
evidence.
5. Prejudice Prong
To the extent the Florida Supreme Court's denial of Owen's juryselection ineffective assistance claim was limited to an analysis of the
Strickland prejudice prong, Owen still is not entitled to relief. [FN26] Carra tel/i's
actual bias test is arguably consistent with Strickland. To "show that there is a
reasonable probability that, but for counsel's unprofessional errors, the result
of the proceeding would have been different," Strickland, 466 U.S. at 694,104
S.Ct. at 2068, Owen must show that at least one juror was biased; if no juror
were biased, then there is no "reasonable probability that...the result of the
proceeding would have been different." Id.
[FN26.] The facts of Strickland are obviously distinguishable from
Owen V, as Strickland did not concern ajury-selection ineffective
assistance of counsel claim. Indeed, Strickland did not involve a
jury at all, for the petitioner, Washington, pied guilty and then
waived his right to an advisory sentencing jury. See Strickland,
466 U.S. at 672, 104 S.Ct. at 2056-57.
Ultimately, we need not decide whether the Carratelli actual-bias test for
prejudice imposes a higher burden or contradicts the governing Strickland
prejudice standard. Even if the Carratelli prejudice test applied by the Florida
Supreme Court in Owen V were contrary to Strickland, and thus our review
were de novo, we conclude that Owen cannot prevail on his ineffective
assistance claim.
Owen, 686 F.3d at 1201.

In the instant case, as in Owen, Petitioner Johnston is not entitled to federal habeas
relief under AEDPA or de novo review.
Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
84

App 258

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 85 of 156 PagelD 909

court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
Ground four does not warrant habeas corpus relief.
GROUND FIVE

THE TRIAL COURT VIOLATED MR. JOHNSTON'S RIGHTS UNDER THE
FIFTH, SIXTH, EIGHTH AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION BY FAILING TO INSTRUCT THE JURY
ON, FIND, OR EVEN DISCUSS IN ITS SENTENCING ORDER THE
STATUTORY MITIGATING CIRCUMSTANCE THAT THE HOMICIDE WAS
COMMITTED WHILE MR. JOHNSTON WAS UNDER THE INFLUENCE OF
EXTREME MENTAL OR EMOTIONAL DISTURBANCE. THE STATE COURT
DECISIONS ON THIS ISSUE WERE CONTRARY TO FEDERAL LAW AND
AN UNREASONABLE APPLICATION OF THE SAME. THE STATE COURT
DECISIONS WERE ALSO BASED ON AN UNREASONABLE FINDING OF
FACT. THIS COURT SHOULD GRANT THE WRIT.
Petitioner's Allegations

The trial court refused to instruct the jury on this statutory mental mitigator (Vol. XVII
R. 1671-72; see Vol. XVIII R. 1809). The refusal to do so violated Johnston's rights under the
Fifth, Sixth, Eighth and Fourteenth Amendments to the United States Constitution. Although
it is true that Dr. Maher stated on cross-examination that the homicide occurred during a mild
dissociative episode (Vol. XXI R. 1608), he also testified that Johnston (while not
incompetent to stand trial), suffers from significant mental illness (Vol. XVII R.1594).
At the Spencer hearing, Dr. Harry Krop testified that Johnston suffered from a serious
emotional disorder at the time of the offense. (Vol. XXI R. 2271, 2273). He also testified that
the conditions were chronic and permanent. (Vol. XXI R. 2271 ).
In light of this testimony, especially considered in combination with the penalty phase
testimony of Dr. Maher that Johnston suffers from significant mental illness (Vol. XVII
R.1594), as well as testimony concerning his psychiatric history, his dissociative disorder;
85

App 259

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 86 of 156 PagelD 910

and his frontal lobe impairment, the trial court should have found and weighed, or at least
considered, the statutory mitigating factor that the homicide was committed while Johnston
was under the influence of extreme mental or emotional disturbance. The trial court's failure
to find, weigh, or discuss the "extreme mental or emotional disturbance" mitigator, coupled
with the court's unexplained finding on "background" mitigators was given no weight violated
Johnston's rights under the Eighth Amendmentto the United States Constitution. The Florida
Supreme Court could not be assured that the trial court properly considered all mitigating
evidence. This omission was especially critical in light of the fact that the extreme mental or
emotional disturbance mitigator (along with the impaired capacity mitigator, which the trial
court did discuss and find) are two of the weightiest mitigating factors -- those establishing
mental imbalance and loss of psychological control.
Based on the testimony of Ors. Maher, Wood, and Krop, along with Johnston's
psychiatric history, and the lay testimony of his sister concerning his inability to cope with
rejection, the instruction should have been given. In view of the importance of this mitigating
factor and the fact that Petitioner's mental and emotional condition was the focus of his
penalty phase defense, the jury should have been instructed on this statutory mitigating
factor.
Johnston was denied a full and fair penalty phase when the trial court failed to
consider this important statutory mitigating factor. The State court decisions on this matter
were contrary to federal law and an unreasonable application of the same. The state court
decisions on this matter were also based on an unreasonable finding of fact. (In his reply,
Johnston claims that his jury instruction claim is not procedurally barred.) (Doc. 25 at 13).

Exhaustion, Procedural Bar and Disposition of Ground Five in State Court
86

App 260

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 87 of 156 PagelD 911

Next, the Petitioner argues that the trial court erred in failing to instruct the penalty
phase jury, or find, the statutory mitigating circumstance of "extreme mental or emotional
disturbance at the time of the offense." (Petition, Doc. 11 at21-23;.Memo, Doc. 18 at 57-59).
This claim is procedurally barred. On direct appeal, Johnston argued that the trial court erred
by failing to instruct the penalty phase jury on the mitigating factor of "extreme mental or
emotional disturbance at the time of the offense." The Florida Supreme Court found that
defense counsel abandoned this mental health mitigator during the penalty phase jury charge
conference and acquiesced in the trial court's decision that the evidence did not support this
mental health mitigator. The trial judge ultimately gave the jury instructions which addressed
non-statutory mitigation and the statutory mitigator that "the defendant may have had
impaired capacity to conform his conduct to the requirements of the law," but did not address
the "extreme mental or emotional disturbance mitigator." See Johnston, 841 So. 2d at 35859.
On direct appeal, the Florida Supreme Court denied this claim as follows:
In his third claim of error, Johnston contends that the trial court
committed reversible error by failing to instruct the penalty phase jury on the
mitigating factor of "extreme mental or emotional disturbance at the time of the
offense." The record reveals that during the penalty phase jury charge
conference, defense counsel abandoned this mitigator:
The Court: What are you going to ask for?
Mr. Registrato: Mental health mitigators.
The Court: The statutory mental health mitigators?
Mr. Registrato: Yes, ma'am.
The Court: Who are you planning to call to establish them?
Mr. Registrato: Well, 1-1 mean, they may not have said the word,
87

App 261

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 88 of 156 PagelD 912

but I believe they've already been established.
The Court: Which they?
Mr. Registrato: Dr. Maher and Dr. Krop.
The Court: No, no, which statutory mitigators do you believe
have been established?
Mr. Registrato: I would ask for the mitigator 7(b), the capital
felony was committed while the defendant was under the
influence of extreme or mental emotional disturbance, as well as
7(g), the defendant could not have reasonably foreseen his
conduct in the course of the commission of the offense would
cause-wait a minute. That's not it.Judge. 7(e) the capacity of the
defendant to appreciate the criminality of his conduct or to
conform his conduct to the requirement of law was substantially
impaired.
The Court: Well, as to (b), the only evidence in this case that the
crime was committed while the defendant was under the
influence of mental or emotional disturbance is the testimony of
Dr. Maher who said that at the time of the crime, he was in a mild
dissociative-having a mild dissociative episode triggered by the
initial approach and rejection by the victim. I don't know how you
can get extreme mental or emotional disturbance out of that
testimony. You can certainly argue the nonstatutory mental
mitigator.
Mr. Registrato: Yes, ma'am.
The Court: But that's-unless ·you can point to some other
testimony, that's the only testimony that I heard on that mitigator.
Mr. Registrato: All right, Judge. I would ask for 7(e) as well.
· The Court: Well, I think it's (f), the capacity of the defendant to
appreciate the criminality of his conduct or to conform his or her
conduct to the requirements of the law was substantially
impaired.
Mr. Registrato: Yes, ma'am.

Defense counsel never presented further arguments relative to what
testimony supported the extreme mental disturbance mitigator but
88

App 262

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 89 of 156 PagelD 913

instead acquiesced in the trial court's decision that the evidence did not
support this mitigator. The trial judge eventually gave the jury
instructions which addressed nonstatutory mitigation and the statutory
mitigator that "the defendant may have had impaired capacity to conform
his conduct to the requirements of the law," but did not address the
extreme mental or emotional disturbance mitigator.
Accordingly, we deny this claim.
Johnston, 841 So. 2d at 358-59 (e.s.)

CONCLUSION AS TO GROUND FIVE
Ground Five Is Procedurally Barred AND Has no Merit

This claim is procedurally barred. As the Florida Supreme Court found, defense
counsel acquiesced in the trial court's decision that the evidence did not support this
mitigator. Johnston, 841 So. 2d at 358-59. Furthermore, the trial judge eventually gave the
jury instructions which addressed nonstatutory mitigation and the statutory mitigator that "the
defendant may have had impaired capacity to conform his conductto the requirements of the
law." Johnston never argued the statutory mitigator involving extreme emotional or mental
disturbance at the time of the murder to the trial court. Defense counsel filed a Motion to
Override Jury's Recommendation with Attachments (Ex. AS/795-832), and a Supplement to
Defendant's Motion to Override Jury's Death Recommendation (Ex. A5/844-847), both
outlining the statutory and non-statutory mitigators urged on Johnston's behalf. Neither of
these motions mentioned the statutory mitigator related to extreme mental or emotional
disturbance at the time of the crime. Moreover, defense counsel never argued for
consideration of this statutory mitigator in his opening or closing remarks in penalty phase
{Ex. A16/1475-1481; A18/1779-1806), or his closing argument to the trial court at the
Spencer hearing. (Ex. A21/2294-2319).
89

App 263

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 90 of 156 PagelD 914

Because this claim is barred, this Court cannot consider the merits of the claim,
absent a showing of cause and prejudice. Coleman v. Thompson, 501 U.S. 722, 11 S. Ct.
2546 (1991); Wainwright v. Sykes, 433 U.S. 72, 97 S. Ct. 2497 (1977). The burden is on
Petitioner to make that showing. United States v. Frady, 456 U.S. 152, 102 S. Ct. 1584
(1982). Petitioner makes no attempt to address cause and prejudice to overcome the
procedural bar. Furthermore, as the United States Supreme Court has recognized, a claim
of ineffective assistance of counsel may itself be barred, and a petitioner must overcome the
bar to the ineffective assistance claim independently. Edwards v. Carpenter, 529 U.S. 446,
450-53, 120 S. Ct. 1587 (2000).
Even if this claim were not procedurally barred, the claim has no merit. 4 No evidence
supported the consideration of the "under extreme mental or emotional disturbance" statutory
mitigator. Of the four mental health experts who testified on Johnston's behalf, at either the
penalty proceedings or the Spencer hearing, no one testified that Johnston was acting under
an "extreme mental or emotional disturbance" when he killed the victim.
During the penalty phase, the only expert who even mentioned Johnston's behavior
at the time of the crime was Dr. Maher. Dr. Maher testified simply that, at the time of the
murder, Johnston was "experiencing a mild dissociative episode. I don't think it was severe.
I don't think it was to the point where he didn't know who he was or she was or what the likely

Because the court finds the substantive claim to be without merit, the petitioner
cannot demonstrate the requisite prejudice under Martinez to entitle him to relief. Martinez
v. Ryan, 132 S.Ct. 1309,1318(2012)("To overcome the default, a prisoner must also
demonstrate thatthe underlying ineffective-assistance-oMrial-counsel claim is a substantial
one, which is to say that the prisoner must demonstrate that the claim has some merit.").
See Brown v. Thomas, 2013 WL 5934658 (N.D. Ala., Nov. 5, 2013).
4

90

App 264

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 91 of 156 PagelD 915

result of his actions would be." (Ex. A17/1608). This testimony actually negates any claim
that Johnston was acting under an extreme mental or emotional disturbance.
Additionally, Johnston himself testified repeatedly during the penalty phase that he
was fully aware of what he was doing at the time of the murder. (Ex. A 18/1716, 1724).
Johnston further explained that he killed Coryell simply because she did not respond to his
hello. She never did or said anything aggressive or mean-spirited to him. (Ex. A 18/17271728). Thus, no evidence was presented during the penalty phase supporting the statutory
mitigator of extreme emotional disturbance at the time of the offense. In fact, the evidence
was to the contrary.
Johnston asserts that, at the Spencer hearing, Dr. Krop testified that Johnston
suffered from a serious emotional disorder at the time of the offense. (Petition, Doc. 11 at
21). However, this testimony concerning a serious emotional disorder at the time of the
offense (Ex. A21/2273), simply does not rise to the level of the statutory mitigator of "extreme
emotional or mental disturbance." 5 Defense counsel did not propose that this statutory
mitigator be considered in his closing argument during the Spencer hearing. (Ex. A21/22942319). Moreover, whether a mitigator has been established is a question of fact. See,
Magwood v. Smith, 791 F.2d 1438, 1450 (11th Cir. 1986). Here, the state court found four

aggravating factors 6 and conscientiously reviewed all of the statutory and non-statutory

Even if Dr. Krop's testimony could be interpreted to support the extreme
disturbance mitigator, it was well within the trial court's discretion to reject it in view of the
defense expert Dr. Maher's contrary conclusion that Johnston suffered from a mild, not
severe, dissociative episode at the time of the crime. (Ex. A17/1608).
s

The aggravators found by the trial court and given great weight in this case include
that Johnston was previously convicted of a felony involving the use or threat of violence
to the person, Section 921.141 (5)(b); that the capital felony was committed while Johnston
6

91

App 265

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 92 of 156 PagelD 916

mitigators which were actually proposed by the defense. {Ex. A22/28-31 ).
Although the trial court found no evidence to support an instruction on the statutory
mitigator of an "extreme mental or emotional disturbance" at the time of the offense, the trial
court specifically told defense counsel that they could argue any relevant facts concerning
Johnston's state of mind at the time of the offense as non-statutory mitigation. (Ex.
A 17/1671-1672). Subsequently, the sentencing order did address the non-statutory mitigation
on this topic, giving no weight to the following mitigation:
a. The time passing between the decision to cause the victim's death and the
time of the killing itself was insufficient under the circumstances to allow
Defendant's cool and thoughtful consideration of his conduct.

***
d. The Defendant did not plan to commit the offense in advance, and it was the
act of a man out of control, and in an irrational frenzy.
e. The Defendant has a long history of mental illness.
f. As testified to by Dr. Michael Maher, the Defendant suffers from a
disassociative disorder.

***
h. The murder was the result of impulsivity and irritability.
(Ex. A22/29).
In sum, the only evidence arguably offered in support of the denied statutory mitigator
was considered by the trial court as non-statutory mitigation. Given the strength of the four
aggravators in comparis.on to any mitigation proposed, no error resulted from the sentencing

was engaged in the comm1ss1on of a sexual battery and a kidnapping, Section
921.141 {S)(d); the capital felony was committed for pecuniary gain, Section 921.141 (5){f);
and the capital felony was especially heinous, atrocious or cruel, Section 921.141 {S)(h).
92

App 266

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 93 of 156 PagelD 917

order's consideration of mitigating evidence.7
Petitioner's claim is procedurally barred; and to the extent Johnston continues to
assert that his constitutional rights were violated because the trial court failed to find the
statutory mitigator that the homicide was committed while he was under the influence of
extreme mental or emotional disturbance, the claim is also without merit. "Trial court's
findings on mitigating factors are presumed to be correct, see, Magwood v. Smith, 791 F.2d
1438, 1450 {11th Cir. 1986), and will be upheld if they are supported by the record. See, 28
U.S.C. § 2254{d)." Atkins v. Singletary, 965 F.2d 952, 962 {11th Cir. 1992). "Acceptance of
nonstatutory mitigating factors is not constitutionally required; the Constitution only requires
that the sentencer consider the factors." Atkins, 965 F.2d

at 962) {citing Blystone v.

Pennsylvania, 494 U.S. 299, 308, 110 S. Ct. 1078 (1990)). Johnston fails to allege or show
that the trial court failed to consider the mitigation evidence. The Constitution does not
require the sentencer to give effect to all mitigation presented. There is no constitutional
violation if the defendant is allowed to present all relevant mitigating evidence, and the jury
is given the opportunity to consider it and give it effect. Penryv. Lynaugh, 492 U.S. 302,328,
109 S. Ct. 2934 (1989).
Johnston has not met his burden to show by clear and convincing evidence that the
trial court's factual finding -- that there was no evidence supporting the statutory mitigating
factor of extreme mental or emotional disturbance -- was an unreasonable determination of
the facts. See 28 U.S.C. § 2254(e){1 ); Callahan v. Campbell, 427 F.3d 897, 926 (11th Cir.

Furthermore, in postconviction, Johnston's additional evidence of psychological
issues still related only to non-statutory mitigation. Johnston, 63 So. 3d at 742-743.
1

93

App 267

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 94 of 156 PagelD 918

2005) ("Not only must the factual determination have been unreasonable, but the state
court's factual findings must be shown unreasonable by clear and convincing evidence.").
Petitioner has not demonstrated that the state court's determination was contrary to, or
involved an unreasonable application of federal law, nor has he shown that the state court's
denial of this claim resulted in an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding.
Ground five does not warrant habeas corpus relief.
GROUND SIX
TRIAL COUNSEL WAS INEFFECTIVE AT BOTH THE GUILT AND
PENALTY PHASE FOR FAILING TO CALL WITNESS DIANE BUSCH. THIS
DEPRIVED MR. JOHNSTON OF A FUNDAMENTALLY FAIR TRIAL
GUARANTEED UNDER THE FIFTH, SIXTH, EIGHTH, AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION. THE STATE
COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO FEDERAL
LAW AND AN. UNREASONABLE APPLICATION OF THE SAME. THE
COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT.
Petitioner's Allegations

Johnston argues that trial counsel was ineffective in failing to call Diane Busch as a
witness during the guilt or penalty phase. (Petition, Doc. 11 at 23-27; Memo, Doc. 18 at 59).
He claims that Busch, a crucial witness known to both the prosecution and the defense at
trial, was an available witness who could have been called by the defense in both the guilt
and penalty phases of trial. Busch refuted the State's alleged financial motive in this case.
Through her evidentiary hearing testimony, she refuted the notion that Johnston was in
desperate need of money at the time of Coryell's murder, and Busch provided powerful
mitigation as she described her hospitalization, her subsequent medical care, and how
Johnston saved her life. Busch credits Johnston's caring for her while she was hospitalized,
94

App 268

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 95 of 156 PagelD 919

and credits him for actually saving her life. (See her EH testimony at Vol. LX PCR 1557.)
In a first degree murder case where the victim was murdered and money taken from
her bank account, evidence that the accused had the opportunity to steal $10,000 from
another woman shortly before the murder, yet did not, is very compelling. It refutes the notion
that the Petitioner would have killed a woman to obtain $500 from an ATM machine when
a month earlier he had $10,000 cash in front of him. In a death penalty case where a young
woman was beaten and strangled, there can perhaps be no more powerful mitigation than
a witness like Busch who testified in postconviction that the defendant actually saved her life
while she was in critical care. Busch was known at the time of trial, and she was available
at the time of trial to testify. Johnston actually asked his attorneys to interview her, yet they
failed to do so.
Busch testified at the evidentiary hearing that she met Johnston at church in
approximately June 1997. (Vol. LX PCR. 1534). She described their dates, how he treated
her like a lady, how he was a gentleman, how polite he was, and how he never appeared to
be in financial trouble. (Vol. LX PCR 1535-1536). Such testimony refutes the notion that
Johnston was desperate for money in 1997, and it shows that he was a caring individual.
Busch was hospitalized for four months with a severe respiratory problem; Busch
reflected on how Johnston cared for her. (Vol. LX PCR. 1549). At the evidentiary hearing,
she explained in detail how she gave Johnston access to $10,000 in cash for temporary
counting, safe keeping and transition to a female friend's bank account, and how he never
took the cash for his own use. He also had access to her vehicle and credit cards, and he
never stole from her. (Vol. LX PCR. 1553-1556). The above testimony would have created
reasonable doubt in the guilt phase and caused the jury to acquit Johnston. The failure to call
95

App 269

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 96 of 156 PagelD 920

a witness can constitute ineffective assistance of counsel if the witness may have been able
to cast doubt on the defendant's guilt.
In the unlikely event that Johnston would have been convicted even with Busch's
testimony, the jury would have recommended life over death at the penalty phase because
Busch stated that she felt that Petitioner had saved her life. (Vol. LX PCR. 1557). Busch
credits Johnston with saving her life because he helped her get the medical attention she
needed while she was in critical condition at the hospital, her vital organs were shutting
down, and she was being ignored by hospital staff. (Vol. LX PCR. 1557). Without Johnston's
help, she feels she would have died.
As far as penalty phase testimony and valuable non-statutory mitigation, Busch's
testimony "does not get much more powerful than the above testimony." Trial counsel was
ineffective for failing to present Busch's testimony to the jury. Busch testified, at the
evidentiary hearing, that no one from the public defender's office ever contacted her, and that
she would have been willing to testify for Johnston. (Vol. LX PCR. 559). Trial counsel was
ineffective and Johnston's sentence of death should be vacated because there is a
reasonable probability that the jurors and or the court could have been persuaded to spare
Johnston's life in light of Busch's compelling testimony.
No one from the defense team claimed to have interviewed Busch. No one from the
defense team claimed to have strategically decided that she was not a good witness. The
failure to call Busch at trial was not a strategic choice; "it was an omission, a big mistake, a
huge oversight." There is documented evidence that the public defender's office was aware
of Busch, and that Johnston described his relationship with her. (See EH exhibit 13, attorney
Deborah Goins' jail interview notes at Vol. XXIX PCR 5434;
96

App 270

see Johnston's notes to trial

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 97 of 156 Page1D 921

counsel admitted at the evidentiary hearing as EH exhibit 14; specifically, see Vol. XX.IX
PCR. 5439-5440, wherein Johnston actually urged his attorneys to speak with Busch alone,
and how he saved her life three times, and see Johnston's testimony cited in the
postconviction court's order at Vol. XVI PCR 3161.)
An interview of Busch would have provided a wealth of information vital to both guilt
and penalty phase issues. Busch's testimony refutes the State's theory that Johnston was
in financial shambles near the time of the Coryell murder, refutes the notion that the motive
for this murder might be money, and as an added bonus, her testimony includes powerful
mitigating evidence that Johnston saved her life. Johnston even provided his trial team with
Busch's telephone number. (See Vol. XX.IX PCR. 5439.) Busch should have been contacted;
she should have been interviewed; and she should have testified at trial.
In a case where the State is seeking the death penalty, it is important for defense
attorneys to investigate, appreciate, and present this type of testimony and vital evidence at
the penalty phase. This omission and error at the penalty phase was not harmless. The ·
decision not to interview Busch and present her testimony at both phases of Johnston's trial
did not reflect reasonable professional judgment. The state court decisions on this issue were
contrary to federal law and an unreasonable application of the same. The courts' decisions
were also based on an unreasonable finding of fact.
Exhaustion and Disposition of Ground Six in State Court:

Johnston raised this IAC sub-claim in his postconviction motion to vacate; With regard
to the guilt phase, Johnston asserted that Busch refuted the alleged financial motive in this
case. Years after the penalty phase, Busch credited Johnston with saving her life in 1997
because he helped get her needed medical attention in the hospital. During the summer of
97

App 271

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 98 of 156 PagelD 922

1997, the same summer that Busch was hospitalized, Johnston murdered Coryell. 8
The trial court held an evidentiary hearing and entered a fact-specific order denying
postconviction relief. In denying this IAC sub-claim, the trial court's order (Ex. 816/31563170) states; in pertinent part:
***

When asked if she requested a favor of him involving cash, [Ms. Busch]
responded as follows:
BUSCH: It was possibly the second day I was in the hospital. I
know I was still on Dale Mabry University Community Hospital.
I had been estranged from my husband for approximately a yearand-a-half and had some cash in the house. I asked Mr.
Johnston if he would go and get that with my girlfriend. And - and they counted it out. And I asked him if he would give that to
her and she would deposit it into her bank account and that was
carried out.
(See February 1, 2008, transcript, pps. 982-983, attached). She further testified
she trusted Defendant to carry out that request. (See February 1, 2008,
transcript, p. 984, attached).
Additionally, she testified while she was in the hospital, Defendant had
access to her personal effects, her car, and her credit cards, but Defendant did
not ever steal anything from her or ask to borrow any of the ten thousand
dollars cash. (See February 1, 2008, transcript, pps. 984-985, attached). She
testified although she was available in June of 1999 to testify and would have
testified, during the years 1997 through 1999, nobody contacted her to testify.
(See February 1, 2008, transcript, pps. 986-988, attached).
On cross-examination, she admitted that although she asked him
to go with her girlfriend to get the ten thousand dollars cash, Defendant
never had use or possession of that money, other than counting it. (See
February 1, 2008, transcript, p. 995, attached). She further admitted she had
no reason to believe Defendant had access to the ten thousand dollars while

The murder victim, Leanne Coryell, was described as a thirty-year-old, physically
fit, blond-haired, attractive woman. Johnston, 863 So. 2d 271, 277 (Fla. 2003). At the postconviction evidentiary hearing, Ms. Busch confirmed that she also was blonde, tan, 5'6" tall
and weighed approximately 135 pounds. (Ex. 860/1559-1560).
0

98

App 272

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 99 of 156 PagelD 923

it was in her girlfriend's account. (See February 1, 2008, transcript, p. 996,
attached). However, she testified that Defendant had access to her home and
he could have stayed there if he wanted to and used her credit cards that were
in her purse, but he did not. (See February 1, 2008, transcript, p. 996,
attached).
On March 7, 2008, Mr. Joseph Registrato testified he recognized
Detective Taylor's summary of interviews of Diane Busch and her mother
Ms. Klug as one of the many investigative reports that was in the Public
Defender's Office possession during the pretrial discovery phases. (See
March 7, 2008, transcript, pps.1159-1160, attached). Detective Taylor's report
was admitted into evidence as State's exhibit #28. (See March 7, 2008,
transcript, p. 1160, State's exhibit#28, attached). He further testified he did not
have any specific recollection from the time of trial and preparing for trial of any
discussion with Mr. Littman and the trial team regarding Ms. Busch and trusting
Defendant with ten thousand dollars, nor did he have any specific recollection
of any discussion with Mr. Littman and the trial team regarding whether or not
to call Ms. Busch either at guilt phase or penalty phase. (See March 7, 2008,
transcript, pps. 1180-1181, attached).

***
On cross-examination, Defendant testified he physically took the
ten thousand dollars, counted it out on the bed, put it in a bank deposit
envelope, and physically gave it to Trena. (See March 7, 2008, transcript,
p. 1220, attached). However, he admitted that at the time of Ms. Coryell's
murder, he did not have access to the ten thousand dollars because it
remained in Mr. Busch's neighbor's account. (See March 7, 2008,
transcript, pps. 1221-1222, attached). Defendant also confirmed the fact that
the Sheriff's Office honored the fact that he had been appointed counsel and
did not send a detective to interview him about Ms. Busch or any other matter
relating to the Coryell homicide. (See March 7, 2008, transcript, p. 1231,
attached).
After reviewing this portion of claim 9.2c, the testimony, evidence, and
argument presented at the January 28, 2008, January 29, 2008, January 30,
2008, January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds Mr.
Registrato's testimony to be more credible than that of Defendant.
Therefore, the Court finds Defendant did not request that Mr. Registrato
interview and call Ms. Busch to testify regarding the ten thousand dollars
she entrusted with Defendant. However, even if were to find that
Defendant did ask his counsel to interview and call Ms. Busch to testify
99

App 273

Case 8:11-cv-02094-'EAK-TGW Document 29 Filed 04/17/14 Page 100 of 156 PagelD 924

during the guilt phase about the ten thousand dollars, the Court finds by
Ms. Busch's own admission, other than for the purpose of counting the
ten thousand dollars, Defendant never had use or possession of the
money, nor did she have any reason to believe Defendant had access to
it while it was in her girlfriend's account. The Court further finds by
Defendant's own admission, he did not have access to the ten thousand
dollars at the time of Ms. Coryell's murder because it remained in Ms.
Busch's girlfriend's account.
Because Defendant did not have access to the ten thousand
dollars at the time of Ms. Coryell's murder, the Court finds Ms. Busch's
testimony would not have refuted the State's theory that Defendant
murdered Ms. Coryell for pecuniary gain. Consequently, Defendantfailed
to demonstrate how counsel's alleged deficient conduct resulted in
prejudice as Ms. Busch's testimony would not have changed the verdict.
As such, no relief is warranted upon this portion of claim 9.2c.
Defendant further alleges Ms. Busch could have testified during
the penalty phase in support of nonstatutory mitigation. At the
evidentiary hearing, Hillsborough County Sheriff's Office Detective
Caritad Taylor testified on August 26, 1997, she interviewed Diane Busch
at University Community Hospital. (See March 6, 2008, transcript, pps.
1125-1126, attached). When asked to testify to everything Ms. Busch told her,
she responded as follows:
TAYLOR: During my interview with Ms. Busch, she did indicate
that she had had a short term relationship with Mr. Johnston.
And she told me that she had suffered a medical problem, during
the course she was hospitalized. She also said that during that
hospitalization originally she was under a lot of medication. But
as time went on, there were other issues that came up with
Mr. Johnston's visits to her and that she requested that he
not be permitted to enter her ICU room any longer. The
nurses carried out her request.
(See March 6, 2008, transcript, p. 1126, attached). When asked to read off her
report, she responded:
TAYLOR: She stated that it wasn't until she was transferred
to UCH, Fletcher and her family was with her that she
realized how possessive and obsessed Johnston had been
behaving towards her. She learned that he was telling
everyone he was her fiance when, in fact, they had only - she had only known him for two weeks. She said that he
100

App 274

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 101 of 156 PagelD 925

was verbally abusive to her family and the nurses, but
because of the medication she was under, she was not able
to do a whole lot. She said that when she finally realized
how out of control things were getting, she requested that
Johnston not be permitted to enter her ICU room any longer.
And this request was carried out by the nurses who were
caring for her in ICU. She also requested they not accept
any phone calls from him.
(See March 6, 2008, transcript, p. 1127, attached).
On cross-examination, she testified she went to the hospital in
response to a directive to respond to leads provided to the Hillsborough
County Sheriff's Office. (See March 6, 2008, transcript, pps. 1128-1129,
attached). She testified Ms. Busch was not heavily medicated or sedated
when she interviewed her as she was very clear in her conversation with
her. (See March 6. 2008, transcript, pps. 1129 and 1132, attached). She
further testified that she interviewed Ms. Busch's mother and sister. (See
March 6, 2008, transcript, p. 1129, attached). When asked what the mother
and sister said, she responded as follows:
TAYLOR: That she [Ms. Busch's mother] was saying that her - I mean, I'd have to read from here to recollect what was said.
She was staying at her daughter's house while she was in the
hospital. She spoke up when she was originally hospitalized, she
came to the hospital and met Johnston for the first time. She was
upset over his behavior, his language and his treatment of Diane
and the nurses.
She said he used Diane's car the entire time that he was
permitted to visit her in ICU. He left his car at Diane's house. She
said that she looked inside the car because Johnston had
advised that there was a tag that could be used - - to be used in
the vehicle in case they needed it. She looked at the vehicle
but could not find the bag, instead she found a paper bag in
the back seat, back passenger side which contained a pair
of surgical gloves, an elastic wristband and a knife similar
to a paring knife with an approximate two-inch pointed
blade. She said that she also found a Barnett Bank checking
account receipt that .indicated that he had $24 in his
account.
She became concerned over the items that she found in the
back seat and contacted the Sheriff's Office to file a report
101

App 275

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 102 of 156 PagelD 926

and had property impounded, and then that number attached
to my supplement indicating that she did call back in June. She
said that the deputy that responded advised no crime has been
committed; therefore, the .call was cleared NRA, which is no
report written.

She said that her other daughter, Susie Reed came in town
and had demanded - - had commanded Johnston return
Diane's car. There's been no further information.
(See March 6, 2008, transcript, pps. 1130-1131, attached). However, she
testified she never spoke with Joseph Registrato, Kenneth Littman, or any
investigators from the Public Defender's Office. (See March 6, 2008, transcript,
pps. 1131-1132, attached). She further testified she was never deposed in
Defendant's case. (See March 6, 2008, transcript, p. 1132, attached). When
asked if Ms. Busch could have been medicated but she just might not have
known, she responded, "I make it a point to ask the nurses if she is under
medication that would prohibit her from giving a statement and/or she would
not want me to talk to her. That's one of the first things I do is make sure that
the person is able to communicate with me." (See March 6, 2008, transcript,
p. 1133, attached).

At the February 1, 2008, evidentiary hearing, Ms. Busch testified
that when she was ill, Defendant managed all of her medical care, was
caring, loving, and wanted the best possible care for a successful
recovery. (See February 1, 2008, transcript, p. 978, attached). When asked
why he advised the hospital staff that he was her fiance, she responded,
"When I was wheeled into the emergency room and had come to, Ray had
bent down and whispered to me that he had told everybody that he was my
fiance so he could be back in the back in the emergency room to be with me
because they would only allow family back there." (See February 1, 2008,
transcript, p. 978, attached). She testified she first became aware
Defendant was in trouble when while she was in intensive care unit at the
hospital, she saw something on the television which indicated law
enforcement was looking for him. (See February 1, 2008, transcript, p. 979,
attached).
She then testified that she called the Crimestoppers number and a
detective called her back. (See February 1, 2008, transcript, p. 979, attached).
However, she testified that she did not recall telling anyone at the hospital that
Defendant was verbally abusive to her family, nor did she ever hear Defendant
being verbally abusive to her family. (See February 1, 2008. transcript, p. 981982, attached). She further testified she did not recall telling anyone that she
requested that Defendant not be permitted in the intensive care unit anymore
or that she stopped taking his calls. (See February 1, 2008, transcript, p. 982,
102

App 276

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 103 of 156 PagelD 927

attached).
When asked if she ever attempted to contact Defendant after she
recovered from her illness and resumed her life, she responded in the
affirmative and further elaborated, "Approximately two to two-and-a-half
years ago, I wrote him a letter. I wanted to express my gratitude for
everything that he had done in my life as far as the medical problems that
I had. I felt that he had saved my life and I wanted to express that for
myself as well as my children." (See February 1, 2008, transcript, pps. 985986, attached). When asked why she felt Defendant was responsible for saving
her life, she responded as follows:
BUSCH: Because nobody in the hospital would listen to the pain
I was in. Nobody was doing anything, by the minute I was failing.
And Mr. Johnston was very, very concerned and protective and
listened to everything that I said, and he was the only one that
shook people up and gave attention to my needs. And my
needs were the fact my organs were shutting down and he got
me to another hospital and orchestrated the doctors to
coordinate what is going on, and just complete management.
Without him, I would have died that fourth day.
(See February 1, 2008, transcript, p. 986, attached).
However, she testified if she knew about Defendant's prior
convictions and his incarceration in Florida State Prison, she would not
have carried on a relationship. (See February 1, 2008, transcript, pps. 989990, attached). She further testified he did not tell her that he was a
convicted felon. (See February 1, 2008, transcript, p. 990, attached). She
testified her family cut off all her contact with Defendant in June of 1997,
while she was in the hospital because they had heard things about his
past and did not feel they wanted him around her. (See February 1, 2008,
transcript, pps. 996-997, attached). She testified her family then retrieved her
purse and personal belongings from Defendant. (See February 1, 2008,
transcript, pps. 997-998, attached). However, she testified she never went
out with Defendant socially again. (See February 1, 2008, transcript, pps.
998-999, attached).
When confronted with her deposition testimony about her sexual
encounter with Defendant, she repeatedly stated she did not recall her
testimony of said issue. (See February; 1, 2008, transcript, pps. 1018-1019,
attached). However, she testified that she could not recall any instance when
Defendant frightened her in any manner or mistreated her in any way. (See
February 1, 2008, transcript, p. 1019, attached). When asked having known
103

App 277

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 104 of 156 PagelD 928

Defendant was facing murder charges, if she ever contacted anyone about
helping Defendant, she responded as follows:
BUSCH: I believe if I was in a healthy normal state, I would have
felt that way. My estranged husband served divorce papers on
me when I was in ICU. I was not in a state of mind of doing
anything other than trying to get well, and all of a sudden dealing
with a divorce; I've gone through a tremendous amount of stress
and started feeling the pressure lift off a couple years ago. And
basically started seeing through the clouds. And that's when I
was feeling like I wanted to do something.
(See February 1, 2008, transcript, p. 1020, attached).
When asked to read his notes with regards to Ms. Busch, Defendant
responded as follows:
JOHNSTON: I put page 27, Diane Bush. A lot of history here,
needs to be interviewed by herself with no one else in the room.
I stayed with her for 15 days and nights. Saved her life three
times. I'm the one who called EMS the three times and call them,
911. So records will show this. I was very protective of her but
not to the point to where I was rude to others. The deposition I
gave for her divorce will more clearly explain the role I played in
her life. Need to talk to her dad and not to her mother. He will tell
you more truthfully. She had female problems and I felt it was
more appropriate to have a female nurse take care of her.
(See March 7, 2008, transcript, pps. 1218-1219, attached).
However, Mr. Registrato testified he did not recall Defendant ever
speaking to him about her in the context of a witness he wanted called in the
penalty phase and does not recall meeting or talking to her himself. (See
March 7, 2008, transcript, pps. 1160-1161, attached). Moreover, he testified
he was sure he had Detective Taylor's report at the time of preparation for
penalty phase, but does not recall Defendant ever raising her as a possible
mitigation witness. (See March 7, 2008, transcript, pps. 1161-1162, attached).
When asked if Ms. Busch had been called to the stand, with the information he
had available to him at the time, would her testimony have come with some
degree of risk to your mitigation of the case, he responded as follows:
'
REGISTRATO: The testimony from this woman would have
been bad, as far as I'm concerned, very bad, based on
what's in this report. I wouldn't have called her. If Ray would
have raised her as, you need to talk to this woman, she's a good
104

App 278

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 105 of 156 PagelD 929

witness, we would have done it. We talked to dozens of
people, but Ray, to my recollection Ray did not raise her as
a friendly witness.
(See March 7, 2008, transcript, p. 1168, attached).
On cross-examination, Mr. Registrato admitted that at the time of
preparing for trial, he was not aware of information from Ms. Busch that she felt
that Defendant had saved her life. (See March 7, 2008, transcript, p. 1177,
attached). He admitted they sent investigators out to talk to everybody and if
she was out there, they would have sent somebody to talk to her. (See March
7, 2008, transcript, p. 1179, attached). However, he testified Ms. Busch never
talked to him and never said to him that Defendant did anything for her. (See
March 7, 2008, transcript, pps. 1179-1180, attached). He further testified he did
not know if an investigator from the Public Defender's Office talked with Ms.
Busch, and did not have any specific recollection of specifically requesting an
investigator to go out and speak with Ms. Busch. (See March 7, 2008,
transcript, p. 1179, attached). He further testified he did not do any weighing
of the pros and cons of prospective testimony from Ms. Busch because he did
not know there was any Ms. Busch that would have helped them. (See March
7, 2008, transcript, p. 1180, attached).
After reviewing this portion of claim 9.2c, the testimony, evidence, and
argument presented at the January 28, 2008, January 29, 2008, January 30,
2008, January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds Mr.
Registrato's testimony to be more credible than that of Defendant.
Therefore, the Court finds Defendant did not request that Mr. Registrato
interview and call Ms. Busch to testify as a nonstatutory mitigation
witness during the penalty phase. Moreover, the Court finds, by Ms.
Busch's own admission, she never contacted anyone about testifying on
Defendant's behalf. Consequently, Defendant failed to demonstrate how
counsel acted deficiently in failing to call Ms. Busch when Defendant did
not make such a request.
Moreover, the Court finds based on the contents of Detective
Taylor's report regarding Ms. Busch's statements, Ms. Busch would not
have been a good nolistatutory mitigation witness for the defense as the
introduction of such testimony would have allowed the State to call Ms.
Busch's mother and Ms. Busch's sister and the jury would have heard
how the family had to intervene because he was being overprotective of
Ms. Busch. Therefore, after reviewing the testimony, evidence, and argument
presented at the penalty phase hearing, as well as the testimony presented at
105

App 279

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 106 of 156 PagelD 930

the evidentiary hearings, the Court finds Defendant failed to demonstrate
how counsel's failure to call Ms. Busch during the penalty phase would
have resulted in the jury choosing life over death. As such, no relief is
warranted upon this portion of claim 9.2c.
(Ex. 816/3156-3170) (e.s.)
On post-conviction appeal, the Florida Supreme Court determined that the decision
to not use Johnston's friend [Diane Busch] as a witness at trial was clearly within "the wide
range of professionally competent assistance." Strickland, 466 U.S. at 690,104 S. Ct. 2052.
Moreover, given the slight value of her proffered testimony and the likelihood that it would
have opened the door to the prosecution's highly damaging cross-examination and
impeachment evidence also presented to the postconviction court, trial counsel's decision
was reasonable." Johnston, 63 So. 3d at 740-41. On postconviction appeal, the Florida
Supreme Court stated, in pertinent part:

E. Failure to call Diane Busch as a witness
Johnston claims that counsel was ineffective for failing to investigate
and call Diane Busch as a witness. We disagree.
Johnston proffered the testimony of his friend, Diane Busch, at the
postconviction evidentiary hearing. She testified that in the months prior to the
murder, Johnston paid for several social outings and did not appear to be in
need of money. She also testified that when she was hospitalized for an
illness, Johnston saved her life by being concerned for her and listening
to her. However, Busch also testified that while she was still in recovery
at the hospital, she saw something on television indicating law
enforcement was looking for Johnston and reported him to the police. At
the postconviction evidentiary hearing, her statement to the police was
introduced to show that she found Johnston to be "possessive and
obsessed" and verbally abusive to her family and hospital staff during
her hospital stay. She told police that once she realized how Johnston
was acting, she requested that he be kept from visiting her.
This Court has "consistently held that a trial counsel's decision to not
call certain witnesses to testify attrial can be reasonable trial strategy." Everett
106

App 280

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 107 of 156 PagelD 931

v. State, 54 So. 3d 464,474 (Fla. 2010); see also Hertz v. State, 941 So. 2d
1031, 1039 (Fla. 2006) (holding counsel not ineffective for failing to call a
witness at the penalty phase when counsel decided that he "was not a good
witness and not that helpful" during the guilt phase). "[l]t is reasonable for trial
counsel to forego evidence that, if presented in mitigation, could damage a
defendant's chances with the jury." Nelson v. State, 43 So. 3d 20, 32 (Fla.
201 O); see also Reed v. State, 875 So. 2d 415, 437 (Fla. 2004) ("An ineffective
assistance claim does not arise from the failure to present mitigation evidence
where that evidence presents a double-edged sword.").
The decision to not use Johnston's friend as a witness at trial was
clearly within "the wide range of professionally competent assistance."
Strickland, 466 U.S. at 690, 104 S.Ct. 2052. Given the slight value of her
proffered testimony and the likelihood that it would have opened the door
to the prosecution's highly damaging cross-examination and
impeachment evidence also presented to the postconviction court, trial
counsel's decision was reasonable. See Gaskin v. State, 822 So. 2d 1243,
1248 (Fla. 2002) ("Trial counsel will not be held to be deficient when she
makes a reasonable strategic decision to not present mental mitigation
testimony during the penalty phase because it could open the door to other
damaging testimony.").

Accordingly, we affirm denial of this claim.
Johnston, 63 So. 3d at 740-41 (e.s.).
CONCLUSION AS TO GROUND SIX
Ground Six Has no Merit

Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding. Once again, as amended by the
AEDPA, § 2254 sets several limits on a federal court's power to grant habeas relief to a state
prisoner. This "difficult to meet," Harrington v. Richter, 562 U.S.--,--, 131 S. Ct. 770,
and '"highly deferential standard' ... demands that state-court decisions be given the benefit
of the doubt," Woodford v. Visciotti, 537 U.S. 19, 24, 123 S. Ct. 357. Under the AEDPA,
107

App 281

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 108 of 156 PagelD 932

Johnston must do more than convince a federal court that he can satisfy the Strickland
standard. See 28 U.S.C. § 2254(d). Rather, Petitioner must show that the state court's
decision to deny relief on his IAC claim was an objectively unreasonable application of the
Strickland standard. See, Schriro, 550 U.S. at 473, 127 S. Ct. at 1939. As the Eleventh

Circuit reiterated in Allen v. Secretary, Florida Dept. of Corrections, 611 F.3d 740, 751 (11th
Cir. 2010):
. . . Because the Florida courts have already rejected his ineffective
assistance claims, Allen must show that their decision to deny relief on
these claims was an objectively unreasonable application of the
Strickland standard. See Schriro, 550 U.S. at 473, 127 S.Ct. at 1939 ("The
question under AEDPA is not whether a federal court believes the state court's
determination was incorrect but whether that determination was unreasonable a substantially higher threshold."); Bell v. Cone, 535 U.S. 685, 699, 122 S.Ct.
1843, 1852, 152 L.Ed.2d 914 (2002); Rutherford v. Crosby, 385 F.3d 1300,
1309 (11th Cir.2004) ("[T]he AEDPA adds another layer of deference .... [The
petitioner] must also show that in rejecting his ineffective assistance of counsel
claim the state court applied Strickland to the facts of his case in an objectively
unreasonable manner." (internal quotation marks and citation omitted)); see
also Hammond, 586 F.3d at 1324.
The state courts' rejection of Johnston's IAC claim was not contrary to, or an
unreasonable application of Strickland. Williams, 529 U.S. at 411, 120 S. Ct. at 1522. As to
the IAC guilt phase claim, the trial court found that because the defendant did not have
access to Busch's ten thousand dollars at the time of Coryell's murder, Busch's testimony
would not have refuted the State's theory that Defendant murdered Coryell for pecuniary
gain. Consequently, Johnston failed to demonstrate how counsel's alleged deficient conduct
resulted in prejudice as Ms. Busch's testimony would not have changed the verdict. As to the
penalty phase, the trial court found that the defendant failed to demonstrate any deficiency
and, based on the contents of Detective Taylor's report regarding Busch's statements, Busch
would not have been a good non-statutory mitigation witness for the defense as the
108

App 282

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 109 of 156 PagelD 933

introduction of her testimony would have allowed the State to call Busch's mother and
Busch's sister in rebuttal.
The Florida Supreme Court found that the decision not to use Johnston's friend,
Busch, as a witness at trial was clearly within "the wide range of professionally competent
assistance." Strickland, 466 U.S. at 690, 104 S. Ct. 2052. "[G]iven the slight value of her
proffered testimony and the likelihood that it would have opened the door to the prosecution's
highly damaging cross-examination and impeachment evidence also presented to the
postconviction court, trial counsel's decision was reasonable." 9
Johnston was afforded an evidentiary hearing in state court and he failed to establish
deficient performance and resulting prejudice under Strickland. With respect to the IAC
penalty phase claim, to determine "whether there is a reasonable probability that, absent the
errors, the sentencer ... would have concluded that" death was not warranted, Strickland,
at 695, 104 S. Ct. 2052, the aggravating evidence is reweighed "against the totality of
available mitigating evidence," Wiggins v. Smith, 539 U.S. 510,534, 123 S. Ct. 2527.
In this case, the State presented extensive aggravating evidence at both the guilt and
penalty phases. The mitigating evidence presented at the penalty phase included Johnston
himself, as well as testimony from family members, lay witnesses and expert witnesses. After
considering the evidence, the jury returned a recommended sentence of death, by a vote of
12-0, and the trial court imposed the death sentence, which was affirmed on direct appeal.

9 In his reply, Johnson alleges: "Contrary to the State's assertions, it would not have
opened the door to permit the State to present the testimony of Busch's mother and sister.
This case was a 12-0 recommendation for death. It could not have gotten any worse for
Mr. Johnston." This Court cannot determine how the second sentence is related to the first
sentence.

109

App 283

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 110 of 156 PagelD 934

There is no reasonable probability that the postconviction testimony from Busch would have
changed the verdict or sentence. The "new" evidence is of questionable mitigating value and
would have opened the door to rebuttal by the State. Given what little additional "mitigating"
evidence Bu.sch could offer, it cannot be said that the state court's determination was
unreasonable. See, Cullen v. Pinholster, 131 S. Ct. 1388, 1410 (2011) (addressing opening
the door to rebuttal), citing Wong v. Belmontes, 558 U.S.--,--, 130 S. Ct. 383, 389-90
(2009) (per curiam) (taking into account that certain mitigating evidence would have exposed
the petitioner to further aggravating evidence); Atkins v. Virginia, 536 U.S. 304, 321, 122 S.
Ct. 2242 (2002) (recognizing that mitigating evidence can be a "two-edged sword").
Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
Ground six does not warrant habeas corpus relief.

GROUND SEVEN
TRIAL COUNSEL WAS INEFFECTIVE AT BOTH THE GUILT AND
PENALTY PHASE FOR FAILING TO INFORM THE JURY OF THE
PETITIONER'S PRESCRIBED PSYCHOTROPIC MEDICATION. THIS
DEPRIVED MR. JOHNSTON OF A FUNDAMENTALLY FAIR TRIAL
GUARANTEED UNDER THE FIFTH, SIXTH, EIGHTH, AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION. THE STATE
COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO FEDERAL
LAW AND AN UNREASONABLE APPLICATION OF THE SAME. THE
COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT.
Petitioner's Allegations
Trial counsel was ineffective for failing to inform the jury that the Petitioner was using
110

App 284

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 111 of 156 PagelD 935

prescribed psychotropic medications at the time of his trial. Clinical and forensic
Pharmacologist Dr. James O'Donnell reviewed the inmate medication dispersing logs from
the Hillsborough County Jail and testified that Johnston was given high doses of psychotropic
medication three times daily. This went on for more than two years while Johnston awaited
trial.
O'Donnell testified at the evidentiary hearing that Johnston was impaired at the time
of trial due to the medications he was ingesting. (Vol. LV PCR 989-990). O'Donnell
described in detail the specific side effects of the psychotropic medications Johnston was
taking at the time of trial (Vol. LV PCR. 986-989).
At the very least, Johnston should have had a competency evaluation performed prior
to his testimony. Regarding Johnston testifying and the medication issues, trial attorney
Gerod Hopper testified that no attorney on the defense team advised against Johnston
testifying at the penalty phase, and Hooper was not made aware that Johnston was taking
psychotropic medications when he provided advice to the team. The jury should have been
informed that Johnston was taking psychotropic medications from the time he was arrested
through his penalty phase testimony. Johnston argues that trial counsel was ineffective at the
guilt and penalty phase in failing to inform the jury of Johnston's prescribed psychotropic
medications. (Petition, Doc. 11 at 27-30; Memo, Doc. 18 at 59).
Exhaustion and Disposition of Ground Seven in State Court:

Johnston raised this IAC sub-claim in his state postconviction motion. The trial court
denied relief on this IAC claim after an evidentiary hearing, and found, among other things,
that Johnston's demeanor was not impacted by the psychotropic medication and trial counsel
did not act deficiently in failing to request that the jury be instructed that the defendant was
111

App 285

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 112 of 156 PagelD 936

on psychotropic medication. The trial court's postconviction order states, in pertinent part:
... When asked if the trial team considered advising the jury that Defendant
was taking psychotropic medication, Mr. Littman responded as follows:
LITTMAN: No. I understand what you're saying. I'm still not sure
that that would be relevant. I mean, we wanted the jury to believe
that what he was saying was the truth and was sincere, that he
was basically fessing up. I'll put it that way. But there were
reasons why they should spare his life. And of course that tied in
with the frontal lobe information which Mr. Registrato did present,
that there was a mental impairment in this gentleman, which was
not in any way his own fault.
(See January 31, 2008, transcript, pps. 880-881, attached).
Mr. Littman testified he had several face-to-face conversations with
Defendant in the months between his arrest and trial. (See January 31,
2008, transcript, p. 895, attached). He further testified he came to know him
as a person, became familiar with his demeanor, personality, and
intellect, and discussed various legal procedures and legal principles
with Defendant which applied to his case. (See January 31, 2008,
transcript, pps. 895-896, attached). He testified Defendant appeared to
indicate an understanding of the evidence against him, including taking
issue with certain items and requesting that the investigators follow up
on several witnesses. (See January 31, 2008, transcript, p. 896, attached).
Additionally, he testified that following his arrest and up until the
penalty phase recommendation, Defendant never expressed to him, nor
did he detect, that Defendant was confused or experiencing mental
confusion resulting from his consumption of prescribed medications.
(See January 31, 2008, transcript, pps. 896-897. attached). He further
testified Defendant did not express any difficulty in concentrating, did not
express that he was in a fog, and did not indicate he was almost unable
to get out of his jail cell. (See January 31, 2008, transcript, pps. 897-898,
attached). He testified he was aware Defendant suffered from a seizure
disorder and was taking seizure medication, but stated Defendant did not
advise him that he was suffering any side effects of any type from the
medication he was taking. (See January 31, 2008, transcript, pps. 898-899,
attached). He admitted that it was his ongoing responsibility to raise
Defendant's incompetency as an issue if he had a good faith basis to do so,
but reiterated that he had no reason to, so he did not. (See January 31, 2008,
transcript, pps. 899, attached).

112

App 286

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 113 of 156 PagelD 937

Mr. Littman testified Defendant was very attentive, participated,
conversed with him, and took notes during the guilt phase of the trial.
(See January 31, 2008, transcript, p. 918, attached). He testified he did not
want to inform the jury via an instruction that Defendant was on antiseizure medication during the guilty phase because "it could suggest to
the jury that perhaps this gentleman has seizures and acts violently. Of
course he's charged with a violent crime." (See January 31, 2008,
transcript, p. 918, attached).
After reviewing claim 9.2f, the testimony, evidence, and argument
presented at the January 28, 2008, January 29, 2008, January 30, 2008,
January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds by
Dr. Cunningham's own admission, he could not testify within a reasonable
degree of medical probability that the medication caused Defendant to exert
bad judgment in his decision to testify. The Court further finds based on Dr.
Cunningham's testimony, the medications may have a blunting affect on
Defendant's judgments. However, Dr. Cunningham acknowledged that
although some of Defendant's penalty phase testimony sounded glib,
because Dr. Cunningham was not present to observe Defendant at the
time he testified, he does not know for a fact whether or not Defendant
testified with a blunted or calloused demeanor.
Moreover, the Court finds although Dr. O'Donnell opined
Defendant was impaired at the time of the trial and sentencing hearing,
he could not express his opinion with a reasonable degree of
pharmacological certainty whether or not Defendant was impaired from
the ingestion of these drugs at any time before trial because he did not
probe that. The Court finds Dr. O'Donnell further admitted that a finding of
impairment from the ingestion of psychotropic medication doesn't necessarily
mean that an individual is legally incompetent to proceed at a phase of trial.
Additionally, the Court finds Dr. Maher, who examined Defendant
between the guilt and penalty phases, to be a very credible witness.
Therefore, the Court finds based on his testimony, Defendant was not
suffering from any clinical impairment, had no flat affect, and did not
express to Dr. Maher that he was confused or feeling the effects of
overmedication from drugs. The Court further finds Defendant did not
give Dr. Maher any reason to question Defendant's competency. The
Court also finds, based on Mr. Registrato's testimony, Defendant
participated in conversations with Defendant throughout the guilt and
penalty phases, was alert, well-spoken, articulate, smart, and never
complained to him or anyone else in his presence that he was in a fog or
113

App 287

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 114 of 156 PagelD 938

having problems concentrating as a result of his medication or any other
cause.
Furthermore, the Court finds through his representation of
Defendant, Mr. Littman became familiar with Defendant's demeanor,
personality, and intellect, and Defendant never expressed to him, nor did
he detect, that Defendant was confused or experiencing mental
confusion resulting from his consumption of prescribed medications.
The Court further finds Defendant never expressed to Mr. Littman any
difficulty in concentrating, did not express that he was in a fog, and did
not indicate he was almost unable to get out of his jail cell, nor did
Defendant advise him that he was suffering any side effects of any type
from the medication he was taking. The Court also finds based on Mr.
Littman's testimony, Defendant was very attentive, participated,
conversed with him, and took notes during the guilt phase of the trial.
Therefore, after reviewing the Hillsborough County Sheriffs Office
medical records, the testimony of Dr. Cunningham, Dr. O'Donnell, Dr. Maher,
Mr. Registrato, and Mr. Littman, the Court finds Dr. Maher had the benefit
of examining Defendant between the guilt and penalty phases and Mr.
Registrato and Mr. Littman extensively interacted with Defendant
throughout their representation of Defendant. Consequently, the Court
gives greatweightto their testimony and finds the medications, including
the psychotropic medications, did not interfere with Defendant's ability
to understand the proceedings. The Court further finds neither Mr.
Registrato or Mr. Littman coerced Defendant to confess during the
penalty phase, nor did they coach Defendant regarding the contents of
his confession. Lastly, the Court finds, based on the fact that Defendant's
demeanor was not impacted by the psychotropic medication, counsel did
not act deficiently in failing to request that the jury be instructed that
Defendant was on psychotropic medication. As such, no relief is warranted
·
upon claim 9.2f.
(Ex. B16/3202-3206)(e.s.).
On postconviction appeal, the Florida Supreme Court denied this IAC claim based on
a lack of prejudice. The Florida Supreme Court's opinion states:
F. Johnston's use of prescribed psychotropic medication at trial
Johnston claims that counsel was ineffective because counsel failed to
inform the jury that Johnston was taking prescribed psychotropic medications
at the time of trial. Johnston alleges that the medications rendered him
114

App 288

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 115 of 156 PagelD 939

incompetent and that when he testified at the penalty phase, the medications
made him appear cold and callous. However, this ineffectiveness claim is
without merit because Johnston has failed to demonstrate prejudice.
"In order to demonstrate prejudice from counsel's failure to investigate
his competency, a petitioner has to show that there exists 'at least a
reasonable probability that a psychological evaluation would have revealed that
he was incompetent to stand trial."' Futch v. Dugger, 874 F.2d 1483, 1487
(11th Cir. 1989) (quoting Alexander v. Dugger, 841 F.2d 371, 375 (11th Cir.
1988)), quoted in, Nelson v. State, 43 So. 3d 20, 29 (Fla. 2010).
A defense expert evaluated Johnston's general competency several
times throughout the trial and testified at the postconviction evidentiary hearing
that he never saw any reason to question Johnston's competence. Johnston's
defense counsel also testified that Johnston never appeared blunted or
confused at any stage of the proceedings. With respect to Johnston's
testimony at the penalty phase, both the expert and defense counsel testified
that Johnston appeared emotional and not cold or callous at the time he
delivered his testimony.
Johnston has failed to demonstrate prejudice because there was
no reasonable probability that an evaluation would have produced a
finding of incompetence. In fact, the postconviction court determined
that Johnston was not incompetent, confused, or blunted. This finding was
supported by competent, substantial evidence in the form of testimony from an
evaluating defense expert and from counsel. See Reed, 875 So. 2d at421-22;
Zakrzewski v. State, 866 So. 2d 688, 696 (Fla. 2003) (where defendant's and
counsel's testimony conflicted, upholding the trial court finding that counsel
was credible).
Regarding the failure to request an instruction prior to Johnston's
penalty-phase testimony, because Johnston was not incompetent and
did not appear cold or callous, the lack of instruction in this case does
not undermine our confidence in the outcome. Thus, Johnston cannot
demonstrate prejudice.

Accordingly, we affirm denial of this claim.
Johnston, 63 So. 3d at 741-42(e.s.).
CONCLUSION AS TO GROUND SEVEN
Ground Seven Has no Merit

Ground seven is not subject to de novo review in this Court. Federal habeas relief
115

App 289

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 116 of 156 PagelD 940

may not be granted for claims subject to§ 2254(d) unless it is shown that the earlier state
court's decision "was contrary to" federal law then clearly established in the holdings of this
Court,§ 2254(d)(1); Williams v. Taylor, 529 U.S. 362,412,120 S. Ct. 1495 (2000); or that
it "involved an unreasonable application of' such law,§ 2254(d)(1 ); or that it "was based on
an unreasonable determination of the facts" in light of the record before the state court, §
2254(d)(2). Petitioner has not met those standards.
The question that matters under§ 2254(d)(1), is whether a state court's application
of the Strickland standard was unreasonable. The Supreme Court states, in Harrington v.
Richter, 131 S. Ct. 770, 785-787 (2011):
The pivotal question is whether the state court's application of the
Strickland standard was unreasonable. This is different from asking whether
defense counsel's performance fell below Strickland's standard. Were that the
inquiry, the analysis would be no different than if, for example, this Court were
adjudicating a Strickland claim on direct review of a criminal conviction in a
United States district court. Under AEDPA, though, it is a necessary premise
that the two questions are .different. For purposes of § 2254(d)(1), "an
unreasonable application offederal law is different from an incorrect application
of federal law." Williams, supra, at 410, 120 S.Ct. 1495. A state court must be
granted a deference and latitude that are not in operation when the case
involves review under the Strickland standard itself.

A state court's determination that a claim lacks merit precludes federal
habeas relief so long as "fairminded jurists could disagree" on the correctness
of the state court's decision. Yarborough v. Alvarado, 541 U.S. 652,664, 124
S.Ct. 2140, 158 L.Ed.2d 938 (2004). And as this Court has explained,
"[E]valuating whether a rule application was unreasonable requires considering
the rule's specificity. The more general the rule, the more leeway courts have
in reaching outcomes in case-by-case determinations." Ibid. "[l]t is not an
unreasonable application of clearly established Federal law for a state court to
decline to apply a specific legal rule that has not been squarely established by
this Court." Knowles v. Mirzayance, 556 U.S.--,--, 129 S.Ct. 1411,
1413-14, 173 L.Ed.2d 251 (2009) (internal quotation marks omitted).
Here it is not apparent how the Court of Appeals' analysis would have
been any different without AEDPA. The court explicitly conducted a de novo
review, 578 F.3d, at 952; and after finding a Strickland violation, it declared,
116

App 290

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 117 of 156 PagelD 941

without further explanation, that the "state court's decision to the contrary
constituted an unreasonable application of Strickland." 578 F.3d, at 969.
AEDPA demands more. Under§ 2254(d), a habeas court must determine what
arguments or theories supported or, as here, could have supported, the state
court's decision; and then it must ask whether it is possible fairminded jurists
could disagree that those arguments or theories are inconsistent with the
holding in a prior decision of this Court. The opinion of the Court of Appeals all
but ignored "the only question that matters under§ 2254(d)(1)." Lockyer v.
Andrade, 538 U.S. 63, 71,123 S.Ct. 1166, 155 L.Ed.2d 144 (2003).
The Court of Appeals appears to have treated the unreasonableness
question as a test of its confidence in the result it would reach under de nova
review: Because the Court of Appeals had little doubt that Richter's Strickland
claim had merit, the Court of Appeals concluded the state court must have
been unreasonable in rejecting it. This analysis overlooks arguments that
would otherwise justify the state court's result and ignores further limitations of
§ 2254(d), including its requirement that the state court's decision be evaluated
according to the precedents of this Court. See Renico v. Lett, 559 U.S. - - ,
- - , 130 S.Ct. 1855, 1866, 176 L.Ed.2d 678 (2010). It bears repeating that
even a strong case for relief does not mean the state court's contrary
conclusion was unreasonable. See Lockyer, supra, at 75, 123 S.Ct. 1166.
If this standard is difficult to meet, that is because it was meant to be.
As amended by AEDPA, § 2254(d) stops short of imposing a complete bar on
federal court relitigation of claims already rejected in state proceedings. Cf.
Felkerv. Turpin, 518 U.S. 651,664,116 S.Ct. 2333, 135 L.Ed.2d 827 (1996)
(discussing AEDPA's "modified res judicata rule" under§ 2244). It preserves
authority to issue the writ in cases where there is no possibility fairminded
jurists could disagree that the state court's decision conflicts with this Court's
precedents. It goes no farther. Section 2254(d) reflects the view that habeas
corpus is a "guard against extreme malfunctions in the state criminal justice
systems," not a substitute for ordinary error correction th rough appeal. Jackson
v. Virginia, 443 U;S. 307, 332, n. 5, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979)
(Stevens, J., concurring in judgment). As a condition for obtaining habeas
corpus from a federal court, a state prisoner must show that the state court's
ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.
Richter, 131 S. Ct. at 785-787 {e.s.).

Johnston's postconviction experts' assessment of Johnston's alleged impairment was
belied by the contemporaneous evaluations of Dr. Maher and the eyewitness observations
117

App 291

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 118 of 156 PagelD 942

of every member of the defense team who interacted with Johnston at trial, were familiar with
his demeanor, and uniformly described Johnston as alert, lucid, and articulate at the time of
the penalty phase. Moreover, under Florida law, a defendant is "entitled" to have the jury
instructed pursuant to Florida Rule of Criminal Procedure 3.215(c)(2), that he is taking
psychotropic medications during trial only when there is a prior adjudication of incompetence
or restoration, or when a defendant exhibits inappropriate behavior and it is shown that the
inappropriate behavior is the result of the psychotropic medication. Alston v. State, 723 So.
2d 148 (Fla. 1998). In the absence of either event, such evidence would not be material to
any issue before the jury. Trial counsel cannot be deemed ineffective for failing to introduce
otherwise inadmissible evidence. More importantly, as all defense counsel uniformly agreed
in postconviction, Johnston did not exhibit any inappropriate behavior or "flat affect" at the
time of trial; it would not have served any beneficial purpose to seek such an instruction; and
it could have undermined the contemporaneous defense arguments at the time of trial.
Again, Petitioner simply repeats his claim as if he were entitled to relitigate this issue
anew. Johnston cannot meet his burden merely by showing that the avenue chosen by
counsel proved unsuccessful. Rather, the standard is whether "no competent counsel would
have taken the action that [petitioner's] counsel did take." Johnson v. Sec'y Dept. of Corr.,
643 F.3d 907,928 (11th Cir. 2011) (quoting Chandlerv. United States, 218 F.3d 1305, 1315
(11th Cir. 2000)). Counsel's performance is constitutionally adequate so long as "some
reasonable lawyer at the trial could have acted, in the circumstances, as defense counsel
acted at trial." White v. Singletary, 972 F .2d 1218, 1220 (11th Cir. 1992). Petitioner has not
demonstrated that the state court's determination was contrary to, or involved an
unreasonable application of federal law, nor has he shown that the state court's denial of this
118

App 292

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 119 of 156 PagelD 943

claim resulted in an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding.
Ground seven does not warrant habeas corpus relief.
GROUND EIGHT
TRIAL COUNSEL WAS INEFFECTIVE AT THE PENALTY PHASE FOR
PROVIDING THE PETITIONER WITH ILL-CONSIDERED AND IMPROPER
ADVICE ABOUT THE NEED TO TESTIFY AT THE PENALTY PHASE OF
THE TRIAL. THIS DEPRIVED MR. JOHNSTON OF A FUNDAMENTALLY
FAIR TRIAL GUARANTEED UNDER THE FIFTH, SIXTH, EIGHTH, AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES CONSTITUTION.
THE STATE COURT DECISIONS ON THIS ISSUE WERE CONTRARY TO
FEDERAL LAW AND AN UNREASONABLE APPLICATION OF THE SAME.
THE COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT.
Petitioner's Allegations
Johnston should not have testified during his penalty phase. Trial counsel provided
Johnston with very poor and ineffective advice concerning the need to testify and admit to
the murder of Coryell. The Hillsborough County Public Defender's Office represented
Johnston in the Coryell murder first, and then represented him in the Nugent murder. The
attorneys' ultimate unusual advice in Coryell urging him to testify and admitthe murder during
the penalty phase was woefully.ineffective, and caused prejudice on several levels.
First of all, his impaired testimony derailed the positive effects of the mitigating mental
health testimony in the penalty phase, causing the jury to ignore the powerful available
mitigation and vote 12-0 for death. Secondly, the Coryell penalty phase confession carried
with it the added detriment and devastation of being utilized against him in the Nugent guilt
phase as similar fact evidence.
The instant prejudice was realized in the Coryell trial as Johnston, through his trial
119

App 293

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 120 of 156 PagelD 944

testimony, immediately diminished the powerful available mitigation, and sealed his case for
death. Regarding Johnston's trial testimony, clinical and forensic psychologist Dr.
Cunningham opined that Johnston's penalty phase testimony could be viewed by the jury as
not being remorseful. (Vol. LIi PCR. 667). Trial counsel's plan to place Johnston on the stand
and exhibit remorse backfired. He was not able to show remorse, and he negated the
statutory and non-statutory mental health mitigation that was previously presented. Dr.
Cunningham testified that because Johnston could be seen as a "smooth talker" on the
stand, there was a risk that his verbal functioning would interfere with the jury's appreciation
of Johnston's brain function and related mitigation. Dr. Cunningham noted several other
areas of concern in the defense penalty phase presentation. The decision to place Johnston
on the stand was not the only thing that caused Dr. Cunningham concern. Dr. Cunningham
noted the following in his review of the background materials in the Johnston case:
1) Failure of the defense to articulate a coherent theory of mitigation.
2) Failure of the defense to elicit testimony regarding both historical and
contemporaneous evidence supportive of the presence of neurological disorder
and brain functioning impairment.
3) Failure of the defense to elicit adequate testimony regarding the nexus of
Mr. Johnston's brain impairments and criminal conduct.
4) Failure of the defense to offer evidence of Mr. Johnston's broader
aggressive reactivity.
5) Failure of the defense to offer crime-specific evidence of both reactive
impulsivity and poor judgment.
6) Failure of the defense to elicit testimony regarding evidence of affective and
anxiety disorders in Mr. Johnston.
7) Failure of the defense to elicit testimony regarding dysfunctional factors in
Mr. Johnston's family of origin.
120

App 294

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 121 of 156 PagelD 945

8) Failure of the defense to sponsor testimony regarding Attention Deficit
Hyperactivity Disorder.
Nowhere in the penalty phase did the defense bring up the available evidence of
family dysfunction. To the contrary, the jury was misled to believe that the Johnston family
had little problems. Dr. Cunningham described the marital infidelity and domestic violence
that permeated the Johnston home. Dr. Cunningham described how Mrs. Johnston broke a
beer bottle over the Petitioner's father's head, and how observed violence in the family
causes severe psychological damage to children from violent homes. (Vol. LIii PCR 780).
Unlike the mental health experts at trial, Dr. Cunningham explained that there is a
definite correlation between violence in the family and violence in the community. (Vol.
LIIIPCR. 780-781 ). In Johnston's case, the state court decisions on this issue were contrary
to federal law and an unreasonable application of the same. The courts' decisions were also
based on an unreasonable finding of fact.
Johnston alleges that trial counsel provided him with "ill-considered and improper
advice about the need to testify at the penalty phase" of the Coryell murder trial. (Petition,
Doc. 11 at 30-33; Memo, Doc. 18 at 59).

Exhaustion and Disposition of Ground Seven in state court
Johnston raised this IAC claim in his state postconviction motion to vacate. The trial
court held an evidentiary hearing on this IAC claim and found that trial counsel discouraged
Johnston from testifying. The trial court specifically found, "Mr. Registrato, Mr. Littman, and
Ms. Fulguiera all discouraged Defendant from testifying during the penalty phase but
Defendant insisted on testifying because he wanted to apologize to the victim's mother and
show his remorse to the jury." (Ex. 616/3154-3155). The trial court's order denying this IAC
121

App 295

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 122 of 156 PagelD 946

claim (Ex. 816/3146-3156) states, in pertinent part:
Mr. Registrato testified that he was aware that the decision to
testify ultimately and finally rests with Defendant. (See January 31, 2008,
transcript, p. 786, attached). He further testified he knew he could not
prevent Defendant from testifying if he wanted to. (See January 31, 2008,
transcript, p. 786, attached). During the trial, Judge Allen, contained within
pages 1708 through 1710 of the trial transcript, went through a colloquy with
Defendant regarding his right to or not to testify, and such was admitted into
evidence as State's exhibit #8. (See January 3 1, 2008, transcript, pps. 786788, State's exhibit #8, attached). He testified Defendant was able to decide
whether or not he wanted to testify during penalty phase, and recollected that
Defendant testified coherently, his answers were responsive to his questions,
his demeanor was not blunted, emotionless, cold, callous, or impaired, and he
actually became emotional during the penalty phase. (See January 31, 2008,
transcript, pps. 788-789, attached).
Mr. Littman testified although he was present when Defendant told them
he wanted to testify during the penalty phase, he had nothing to do with that
because that was Mr. Registrato's aspect of the trial. (See January 31, 2008,
transcript, pps. 877-878, attached). However, he further testified as follows:
LITTMAN: Well, I understand what our goal was, to save his life,
if he were to testify. I said I was present for those discussions
from the very first time he made any kind of incriminating
statement to us. I remember that very well. And I know you
asked me about this last year. I remember that very vividly, and
it was rather dramatic. But it was actually Mr. Registrato's
advice. I mean, not in a vacuum. We were all present for that,
the whole three or four of us.
(See January 31, 2008, transcript, p. 878, attached). When asked what was
Mr. Registrato's advice, he responded as follows:
LITTMAN: Well, let me back up. Our - - we convinced Mr.
Johnston, we explained to him, the only way this would be
beneficial to him would be - - he'd already been found guilty. He
was facing at least life in prison, is if he, A, did not blame Ms.
Coryell in any way, which was contrary to the way he first
expressed what happened. And we said, you can't be testifying
like that. We had quite a bit of discussion about this. We went
over it with him several times. Okay. And as I said,
remember, we had already done a mock trial. We had seen
potential problems in I'll say the manner in which he
testified. He's a very smart man. It's not a matter of his
122

App 296

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 123 of 156 PagelD 947

intellect. But at that point, all we were trying to do was to
save his life. Because we knew the State had a lot of good
aggravators including his prior record, of course, and the
means of this homicide. And it was his decision after
discussing it with us. That's about the best I can - - that's the
short version of what I can tell you.
(See January 31, 2008, transcript, pps. 878-879, attached).
A copy of Mr. Littman's case activity record was admitted into evidence
as State's exhibit#?. (See January 31, 2008, transcript, pps. 927- 928, State's
exhibit #7, attached). He admitted that during their June 14, 1999, meeting,
Defendant advised the defense team that he had killed Ms. Coryell and
wanted to testify during the penalty phase to express remorse to the jury.
(See January 31, 2008, transcript, p. 928, attached). However, he testified he
never had any concern about Defendant's mental ability to make that
decision. (See January 31, 2008, transcript, p. 928, attached).
After reviewing this portion of claim 9.2b, the testimony, evidence, and
argument presented at the January 28, 2008, January 29, 2008, January 30,
2008, January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds the
testimony of Mr. Hooper, Ms. Fulguiera, Mr. Registrato, and Mr. Littman to be
credible. Therefore, the Court finds Mr. Hooper did not notice anything wrong
with Defendant, nor did he notice anything about his speech or affect that
caused him any concern. The Court finds Ms. Fulguiera did not have any
concerns Defendant was overmedicated between the guilt phase and penalty
phase. The Court further finds Mr. Registrato, Mr. Littman, and Ms. Fulguiera
all discouraged Defendant from testifying during the penalty phase but
Defendant insisted on testifying because he wanted to apologize to the victim's
mother and show his remorse to the jury.
Additionally, the Court finds that prior to penalty phase, the Court
inquired of Defendant as follows:
REGISTRATO: I believe we're going to call Mr. Johnston, Judge.
I would like to have a two-minute time to talk to him one more
time, but I believe we're going to put him on.
COURT: All right. Mr. Johnston, the reason I had the jury taken
into the jury room was to inquire of you at this time whether or
not you were going to testify and to advise you that you do
have the right to testify in this proceeding, but you cannot
be forced to testify and the decision whether you testify or
123

App 297

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 124 of 156 PagelD 948

not is still your decision in this proceeding as it was in the
first phase. So I encourage you to consult with your
attorneys and to follow your attorney's. advice, but the
decision is yours and I'll give you a couple of minutes to speak
with your attorneys again.
REGISTRATO: We'll put him on, Judge. We'll call him as a
witness.
COURT: All right. All right, Mr. Registrato, you and your client
have had sufficient time to confer?
REGISTRATO: Yes, Judge.
COURT: And, Mr. Johnston, have you made a decision?
DEFENDANT: Yes, ma'am, I want to testify.
(See trial transcript, pps. 1708-1709, attached). Therefore, Defendant assured
the Court he wanted to testify.
Consequently, the Court finds based on the testimony presented
Defendant was able to decide whether or not he wanted to testify during
penalty phase, and Defendant testified coherently, his answers were
responsive to his questions, his demeanor was not blunted, emotionless,
cold, callous, or impaired, and he actually became emotional during the
penalty phase. Moreover, the Court further finds based on Mr.
Registrato's experience in dealing with Defendant throughout the case,
the medications did not have a blunting affect on Defendant. The Court
further finds Mr. Littman never had any concerns about Defendant's
ability to make the decision to testify. Therefore, the Court finds
Defendant failed to demonstrate that either Mr. Registrato or Mr. Littman
provided Defendant with ill-considered and improper advice about the
need to testify at the penalty phase of the trial as the evidence
demonstrates they actually discouraged Defendantfrom testifying during
the penalty phase. As such, no relief is warranted upon this portion of
claim 9.2b.
(Ex. B16/3152-3156) (e.s.)

On postconviction appeal, the Florida Supreme Court denied this IAC sub-claim as
follows:

124

App 298

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 125 of 156 Page1D 949

G. Johnston's decision to testify at the penalty phase
We also affirm the denial of Johnston's claims that defense counsel
provided him with ill-considered and improper advice about the need to testify
at the penalty phase. The trial court found after an evidentiary hearing that
defense counsel in fact discouraged Johnston from testifying. The trial court's
finding was based on the competent substantial evidence provided by
defense counsel's evidentiary hearing testimony. See Roberts v. State,
840 So. 2d 962, 973 (Fla. 2002) ("Findings on the credibility of evidence by a
lower court are not overturned if supported by competent, substantial
evidence."). The voluntariness of Johnston's decision is underscored by
the penalty-phase colloquy in which Johnston represented that he
understood it was his decision whether to testify and that he wanted to
testify. See Gonzalez v. State, 990 So. 2d 1017, 1031-32 (Fla. 2008).
Accordingly, this claim does not warrant relief.
Johnston, 63 So. 3d at 742 (e.s.).

CONCLUSION AS TO GROUND EIGHT

Ground Eight Has no Merit
This claim is not subject to de novo review, but must be evaluated under the doubly
deferential lens of Strickland and the AEDP A. As recently emphasized in Reese v. Secretary,
Florida Dept. of Corrections, 2012 WL 1059452, 6 (11th Cir. 2012), the "pivotal question" in

a federal habeas proceeding is "whether the state court's application of [clearly established
federal law] was unreasonable." Harrington, 131 S. Ct. at 785. This inquiry is different from
determining whether we would decide de novo that the petitioner's claim had merit. Id. To
obtain habeas relief "a state prisoner must show that the state court's ruling on the claim
being presented in federal court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for fairminded
disagreement." Id. at 786-87.
The decision whether or not to testify is a uniquely personal decision that belongs
entirely to the defendant. Florida v. Nixon, 543 U.S. 175, 125 S. Ct. 551 (2004). At the time
125

App 299

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 126 of 156 PagelD 950

of trial, Johnston was repeatedly informed, both by defense counsel and by the trial court,
that they could neither prohibit, nor require, Johnston to testify; it was Johnston's decision,
alone. (Ex. A13/1137-1138; A14/1234-1235; A18/1708-1709). Prior to the commencement
of the penalty phase, the defense team (Attorneys Littman and Registrato and mitigation
specialist, Carolyn Fulguiera) met with Johnston at the county jail on three consecutive days,
June 13 through 15, 1999. (Ex. 859/1498-1499). They met with Johnston for two hours on
June 13, 1999 (1 :00-3:00 p.m.) and for 3 1/2 hours (2:00-5:00 p.m.) on June 14, 1999. (Ex.
B59/1498-1499). This was the first time that Johnston admitted that he killed Coryell.
(B59/1499). Trial counsel discouraged Johnston from testifying. (Ex. B58/1329, 1331-1332,
1355, 1357). Nevertheless, Johnston elected to testify and, at trial, Johnston admitted that
he was the one who told [counsel] that he wanted to testify and no one was forcing him to
testify. (Ex. B18/1708-1709). Johnston insisted on testifying; it was Johnston's idea to try to
garner sympathy from the jury by apologizing to the victim's mother. (Ex. 858/1329, 1332).
Johnston's overriding personal decision to testify because he hoped to garner sympathy from
the jury by saying that he was "sorry [for] what [he] did to Leanne" (Ex. 818/1226), precluded
any claimed deficiency of counsel under Strickland. 10

To the extent Petitioner claims that he should have had a competency evaluation
performed, this issue is procedurally barred. Moreover, the federal standard for
competence to stand trial is whether the defendant has sufficient present ability to consult
with his lawyer with a reasonable degree of rational understanding and a rational as well
as factual understanding of the proceedings against him. See, Godinez v. Moran, 509 U.S.
389, 396-97, 113 S. Ct. 2680 (1993) (citing Dusky v. United States, 362 U.S. 402, 80 S.
Ct. 788 (1960) (per curiam); Drope v. Missouri, 420 U.S. 162, 171, 95 S. Ct. 896 (1975).
Johnston was represented by experienced trial counsel and also evaluated by mental
health experts at the time of trial. The post-conviction court specifically found that Johnston
did not give Dr. Maher any reason to question the defendant's competency. The postconviction court also found, based on Mr. Registrato's testimony, that Johnston participated
in conversations with him throughout the guilt and penalty phases, was alert, well:..spoken,
10

126

App 300

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 127 of 156 PagelD 951

Johnston was denied relief in state court because of his own personal election to
testify, despite counsel's contrary advice. Petitioner has not demonstrated that the state
court's determination was contrary to, or involved an unreasonable application offederal law,
nor has he shown that the state court's denial of this claim resulted in an unreasonable
determination of the facts in light of the evidence presented in the.state court proceeding.
Ground eight does not warrant habeas corpus relief.
GROUND NINE
TRIAL COUNSEL WAS INEFFECTIVE AT THE GUILT PHASE FOR FAILING
TO CHALLENGE THE FINGERPRINT EVIDENCE. THIS DEPRIVED MR.
JOHNSTON OF A FUNDAMENTALLY FAIR TRIAL GUARANTEED UNDER .
THE FOURTH, FIFTH, SIXTH, EIGHTH, AND FOURTEENTH AMENDMENTS
TO THE UNITED STATES CONSTITUTION. THE STATE COURT
DECISIONS ON THIS ISSUE WERE CONTRARY TO FEDERAL LAW AND
AN UNREASONABLE APPLICATION OF THE SAME. THE COURTS'
DECISIONS WERE ALSO BASED ON AN UNREASONABLE FINDING OF
FACT.
Petitioner's Allegations

The postconviction court's denial of this claim is found at Vol. XVI PCR. 3045-3046.
The postconviction court was wrong to "procedurally barff' this claim, as it is proper for
postconviction presentation and consideration. The postconviction court refused to consider

articulate, smart, and never complained to him or anyone else in his presence that he was
in a fog or having problems concentrating as a result of his medication or any other cause.
Furthermore, Mr. Littman became familiar with the defendant's demeanor, personality, and
intellect and Johnston never expressed to him, nor did he detect, that Johnston was
confused or experiencing mental confusion resulting from his consumption of prescribed
medications. Johnston never expressed to Mr. Littman any difficulty in concentrating, did
not express that he was in a fog, and did not indicate he was almost unable to get out of
his jail cell, nor did Johnston advise that he was suffering any side effects of any type from
the medication he was taking. The post-conviction court also found, based on Mr. Littman's
testimony, that Johnston was very attentive, participated, conversed with him, and took
notes during the guilt phase of the trial. (Ex. B16/3202-3206).
127

App 301

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 128 of 156 PagelD 952

Dr. Simon Cole's evidentiary hearing testimony regarding the fallibility of fingerprint science
and evidence. The Petitioner here relies on the extensive evidentiary hearing proffer of Dr.
Simon Cole located at Vol. XLIX PCR. 445-518 to support the claim that trial counsel was
ineffective in the case at bar for failure to consult an expert such as Dr. Simon Cole to rebut
the State's forensic fingerprint evidence in this case. The Petitioner submits that Dr. Cole's
testimony stands on its own, and supports its own admissibility as it has a general
acceptance in the scientific community. The State courts' refusal to consider and
acknowledge the value of this testimony violates both the due process and confrontation
clauses the United States Constitution.
The state court decisions on this issue were contrary to federal law and an
unreasonable application of the same. The courts' decisions were also based on an
unreasonable finding of fact.
Exhaustion, Procedural Bar and Disposition of Ground Nine in State Court
Johnston alleges that trial counsel was ineffective at the guilt phase for failing to
challenge the fingerprint evidence, by calling an "expert" such as Dr. Simon Cole. (Petition,
Doc. 11 at 33-35; Memo, Doc. 18 at 59).
Johnston raised this IAC sub-claim in his state post-conviction motion to vacate; this
claim was based on the proffered testimony of Dr. Simon Cole. The trial court ruled that Dr.
Cole's testimony was irrelevant and inadmissible. The trial court also found that the
defendant failed to present any competent, admissible evidence to support his claim that an
expert could testify two or more individuals could possess the same characteristics by
estimating frequencies of the patterns by counting. Therefore, the trial court found that the
defendant failed to meet his burden, thereby failing to demonstrate any deficient conduct or
128

App 302

Case 8:ll-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 129 of 156 PagelD 953

any resulting prejudice. The trial court's order states, in pertinent part:
With respect to the fingerprints, in the defense's written closing
arguments, the defense asserts they are relying on the proffered testimony of
Simon Cole to support this claim. On December 1, 2006, the Court allowed
Defendant to proffer the testimony of Dr. Simon Cole in the postconviction
evidentiary hearing in Defendant's other death case (Hillsborough County Case
99-11338 -- Nugent victim). (See December 1, 2006, transcript, pps. 20-91,
attached). On August 24, 2007, upon stipulation of both defense and the State,
the Court allowed the proffer of Dr. Simon Cole's testimony in case 99-11338
to be used in the postconviction evidentiary hearing in this case. (See August
24, 2007, transcript, attached).
However, the Third District Court of Appeal found "Dr. Cole's
'informed hypothesis' is nothing more than a creative attempt to attack
the predicate for the admission of latent fingerprint comparison
analysis." State v. Armstrong, 920 So. 2d 769, 771 (Fla. 3d DCA 2006).
Therefore, the Court finds Dr. Cole's testimony is irrelevant and,
therefore, inadmissible.
When asked if the trial team ever consulted a fingerprint expert in this
case, Mr. Registrato responded as follows:
REGISTRATO: If there were - - if there would have been a
fingerprint issue, it would have been during the guilt phase and
there - - there was - - I believe there was a fingerprint issue, but
I don't remember if we specifically had our own expert look at it
or not. It would - - it was not one of the focuses of my attention
because it was a guilt phase issue, it was not a penalty phase
issue.
(See January 31, 2008. transcript, pps. 765-766, attached). Mr. Littman
testified he probably did not consult a fingerprint expert regarding the
fingerprint found on Ms. Coryell's car. (See January 31, 2008, transcript, pps.
883-884, attached). However, he testified it was his recollection that the
only fingerprint belonging to Defendant that was lifted was from the
exterior of Ms. Coryell's car, and the expert could not identify with
precision the time the fingerprint was left on the car, nor could the expert
establish it was left at the time of her abduction and murder. (See
January 31, 2008, transcript, pps. 930-931, attached).
Additionally, he testified a possible explanation for the presence
of the latent print was that Defendant in his statement to police indicated
that he had been with her socially on several occasions. (See January 31,
2008,transcript, p. 931, attached). He also testified in his opinion, the
129

App 303

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 130 of 156 PagelD 954

fingerprint evidence did not conclusively identify Defendant as
murderer because the car was in a public place, he lived across
parking lot from her in the same apartment complex, he parked in
same parking lot, and claimed to know her socially. (See January
2008, transcript, pps. 93 1-932, attached).

the
the
the
31,

After reviewing this portion of claim 9.2e, the testimony, evidence, and
argument presented at the January 28, 2008, January 29, 2008, January 30,
2008, January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds
Defendant has the burden of proving his ineffective assistance of counsel claim
at an evidentiary hearing. Williams v. State, 974 So. 2d 405,407 (Fla. 2d DCA
2007). Defendant failed to present any competent, admissible evidence
to support his claim that an expert could testify two or more individuals
could possess the same characteristics by estimating frequencies of the
patterns by counting. Therefore, the Court finds Defendant failed to meet
his burden, thereby failing to demonstrate any deficient conduct or any
resulting prejudice. As such, no relief is warranted upon this portion of
claim 9.2c.
(Ex. B16/3045-3046) (e.s.).
On postconviction appeal, the Florida Supreme Court denied this IAC sub-claim
because, regardless of the admissibility of the proffered testimony, defense counsel's failure
to present it did not undermine confidence in the outcome. "Because the expert was neither
qualified nor prepared to offer testimony on whether the latent fingerprint found on the
victim's car indeed matched Johnston's fingerprint, the expert could not have called into
question the State's positive identification of Johnston." Johnston, 63 So. 2d at 743-44. As
the Florida Supreme Court explained:

I. Fingerprint evidence
Johnston claims that counsel was ineffective for failing to consult and
present an expert who could testify as to the lack of reliability regarding latent
fingerprint analysis. However, the expert presented by Johnston had no formal
training in latent fingerprint analysis and did not examine the latent fingerprints
in this case. Therefore, it is highly unlikely that this testimony would have been
admissible.
130

App 304

Case 8:11-cv,.02094-EAK-TGW Document 29 Filed 04/17/14 Page 131 of 156 PagelD 955

Regardless of the admissibility of such testimony, defense counsel's
failure to present it does not undermine confidence in the outcome. Because
the expert was neither qualified nor prepared to offer testimony on whether the
latent fingerprint found on the victim's car indeed matched Johnston's
fingerprint, the expert could not have called into question the State's positive
identification of Johnston. See Morris v. State, 931 So. 2d 821,830 (Fla. 2006)
("[T]he failure to call witnesses can constitute ineffective assistance of counsel
if the witnesses may have been able to cast doubt on the defendant's guilt. ... "
(quoting Ford v. State, 825 So. 2d 358, 360-61 (Fla. 2002))).
Accordingly, this ineffectiveness ofcounsel claim does not warrant relief.
Johnston, 63 So. 2d at 743-44.
CONCLUSION AS TO GROUND NINE
Ground Nine Has no Merit

Johnston does not dispute the state court's dispositive factual finding that "[b}ecause
the expert was neither qualified nor prepared to offer testimony on whether the latent
fingerprint found on the victim's car indeed matched Johnston's fingerprint, the expert could
not have called into question the State's positive identification of Johnston." Johnston, 63 So.
2d at 743-44. Therefore, the state courts resulting determination -- that defense counsel's
failure to present the expert does not undermine confidence in the outcome - is based on
this undisputed factual determination and unassailable.
To the extent that Petitioner complains because the postconviction court ruled that Dr.
Cole's testimony was irrelevant and inadmissible in postconviction, Petitioner cannot
establish any basis for habeas relief. The principle is well-settled that a prisoner's challenge
to the process afforded him in a state postconviction proceeding does not constitute any
cognizable basis for habeas corpus relief because such a claim represents an attack on a
proceeding collateral to the prisoner's confinement and not the confinement itself. See,
131

App 305

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 132 of 156 PagelD 956

Quince v. Crosby, 360 F.3d 1259, 1261-62 (11th Cir. 2004) (explaining that "while habeas

relief is available to address defects in a criminal defendant's conviction and sentence, an
alleged defect in a collateral proceeding does not state a basis for habeas relief."); Alston v.
Dep't of Corr., 610 F.3d 1318, 1326 (11th Cir. 2010) (holding that habeas petitioner's

challenge to state postconviction proceeding (the state court's ruling that he waived his state
collateral proceedings) was not cognizable on federal habeas review); Carroll v. Sec'y, DOC,
Fla. Attorney Gen., 574 F.3d 1354, 1366 (11th Cir.) (holding that habeas petitioner's claim--

that the state court violated his due process rights when it summarily denied his
postconviction claim without an evidentiary hearing -- did not state a claim on which a federal
court may grant habeas relief), cert. denied, -

U.S.--, 130 S. Ct. 500, 175 L.Ed.2d 355

(2009).
Petitioner has not demonstrated that the state court's determination was contrary to,
or involved an unreasonable application of federal law, nor has he shown that the state
court's denial of this claim resulted in an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding.
Ground nine does not warrant habeas corpus relief.
GROUND TEN
TRIAL COUNSEL WAS INEFFECTIVE AT THE GUilT PHASE FOR FAILING
TO CHALLENGE THE SHOE TREAD EVIDENCE. THIS DEPRIVED MR.
JOHNSTON OF A FUNDAMENTALLY FAIR TRIAL GUARANTEED UNDER
THE FIFTH, SIXTH, EIGHTH, AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION. THE STATE COURT DECISIONS ON
THIS ISSUE WERE CONTRARY TO FEDERAL LAW AND AN
UNREASONABLE APPLICATION OF THE SAME. THE COURTS'
DECISIONS WERE ALSO BASED ON AN UNREASONABLE FINDING OF
FACT.

Petitioner's Allegations
132

App 306

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 133 of 156 PagelD 957

Trial counsel was ineffectiveforfailing to presentthe most accurate, highest, and most
defense-friendly statistic for the number of shoes that could have made the tread wear
impressions at the crime scene. Rather than a mere 588,054 pairs of shoes manufactured
by Reebok that could have made the treadwear impressions at the Coryell murder scene,
trial counsel should have presented the higher figure of "millions" of shoes, supported by EH
defense exhibit number eight (the "Stacey Moord/Reebok Memorandum"). See Vol. XX.VIII
PCR. 5390-5410. Trial counsel received an inadequate affidavit from Reebok, and at the very
least, counsel should have requested an amended affidavit from the company prior to
presenting the inadequate affidavit at trial. See EH defense exhibit number seven (the "Rodd
Patten/Reebok Affidavit" at Vol. XX.VIII PCR. 5312-5314). No such request was made, and
counsel was therefore ineffective. Had the jury heard the higher figure, there is a reasonable
probability that the outcome would have been different in this case.
The State court decisions on this issue the court's decision were contrary to federal
law and an unreasonable application of the same. The courts' decisions were also based on
an unreasonable finding of fact.

Exhaustion and Disposition of Ground Ten in State Court
Johnston repeats his postconviction claim that trial counsel was ineffective in failing
to present "the most accurate, highest, and most defense-friendly statistic for the number of
shoes that could have made the treadwear impressions at the crime scene." (Doc. 11 at 36).
An evidentiary hearing was granted on this IAC sub-claim, but collateral counsel, like trial
counsel, was similarly unable to secure and present any higher and more "defense-friendly"
statistic from Reebok. In denying this IAC sub-claim, the trial court set forth a fact-intensive

133

App 307

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 134 of 156 PagelD 958

order which detailed the efforts by defense counsel to obtain the most defense-friendly
statistic from Reebok at the time of trial. (Ex. 816/3175-3183). The trial court ultimately
concluded that the defendant failed to present any competent admissible evidence at the
evidentiary hearing to support his claim that 14,700,000 pairs of shoes could have made
those impressions. Moreover, the trial court found that the defendant failed to demonstrate
how counsel's alleged failure to pursue independent tests and analysis from their own
experts of the shoes resulted in prejudice. The trial court's order concluded, in pertinent part:
... the Court finds an affidavit was admitted into evidence at trial which
reflected that over 588,000 pairs of Reebok shoes existed with that tread.
The Court further finds Defendant has the burden of proving his ineffective
assistance of counsel claim at an evidentiary hearing. Williams v. State, 974
So. 2d 405, 407 (Fla. 2d DCA 2007). Defendant failed to present any
competent admissible evidence at the evidentiary hearing to support his
claim that 14,700,000 pairs of shoes could have made those impressions.
Moreover, the Court finds Defendant has failed to demonstrate how
counsel's alleged failure to pursue independent tests and analysis from
their own experts of the shoes resulted in prejudice. As such, no relief is
warranted upon this portion of claim 9.2e.

(Ex. 816/3183) (e.s.).
On postconviction appeal, the Florida Supreme Court found that Johnston also failed
to obtain any evidence in postconviction -- from the shoe manufacturer or from any other
source -- to establish that the number of matching shoes was "millions," as he claimed in his
postconviction motion, or that the affidavit presented at trial was otherwise incorrect. The
Florida Supreme Court denied this IAC sub-claim on the following grounds:

J. Shoe tread evidence
Johnston claims that defense counsel was ineffective for failing to
secure the most defense-friendly statistic on the number of shoes that could
have matched the impressions found at the crime scene. However, counsel
cannot be deemed deficient for failing to present evidence that does not
exist. See, e.g., Clark v. State, 35 So. 3d 880, 888 (Fla. 2010) ("At the
134

App 308

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 135 of 156 PagelD 959

evidentiary hearing, Clark presented no evidence to support this claim. Trial
counsel cannot be ineffective for failing to present evidence that did not exist
at the time of trial."). Johnston himself failed to obtain any evidence from
the shoe manufacturer or from any other source to establish that the
number of matching shoes was "millions," as he claims, or that the
affidavit presented at trial was otherwise incorrect. Therefore, we affirm
denial of this claim.

Johnston, 63 So. 3d at 744 (e.s.).
CONCLUSION AS TO GROUND TEN
Ground Ten Has no Merit
Petitioner is not entitled to relitigate this IAC claim. Instead, the "pivotal question" in
a federal habeas proceeding is "whether the state court's application of [clearly established
federal law] was unreasonable." Harrington, 131 S. Ct. at 785. To obtain habeas relief "a
state prisoner must show that the state court's ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement." Id. at

786-87.
At the time of trial, Reebok prepared the affidavit that was submitted by the defense
at trial and the information provided to trial counsel was the latest information provided by
Reebok. (Ex. 859/1500-1501). In postconviction, Johnston's collateral counsel was unable
to obtain any more "defense-friendly" statistic from Reebok than trial counsel was able to
obtain at the time of trial. The state courts denied this IAC sub-claim based on Johnston's
failure of proof. Petitioner has not demonstrated that the state court's determination was
contrary to, or involved an unreasonable application of federal law, nor has he shown that
the state court's denial of this claim resulted in an unreasonable determination of the facts
in light of the evidence presented in the state court proceeding.
135

App 309

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 136 of 156 PagelD 960

Ground ten does not warrant habeas corpus relief.

GROUND ELEVEN
TRIAL COUNSEL WAS INEFFECTIVE AT THE GUilT PHASE FOR FAILING
TO FILE A MOTION TO SUPPRESS STATEMENTS BASED ON LAW
ENFORCEMENT'S MIDSTREAM RECITATION OF M/RANDAWARNINGS.
MR. JOHNSTON DID NOT RECEIVE THE EFFECTIVE ASSISTANCE OF
COUNSEL, VIOLATING HIS RIGHTS UNDER THE FIFTH, SIXTH, EIGHTH
AND FOURTEENTH AMENDMENTS OF THE UNITED STATES
CONSTITUTION AND HIS CORRESPONDING RIGHTS UNDER THE
FLORIDA CONSTITUTION WHEN COUNSEL FAILED TO QUESTION
RESEARCH, INVESTIGATE, AND FILE A MOTION TO SUPPRESS
STATEMENTS. THE COURTS' DECISIONS WERE CONTRARY TO
FEDERAL LAW AND AN UNREASONABLE APPLICATION OF THE SAME.
THE COURTS' DECISIONS WERE ALSO BASED ON AN UNREASONABLE
FINDING OF FACT. THIS COURT SHOULD GRANT THE WRIT.
Petitioner's Allegations
Trial counsel was ineffective for failing to file a motion to suppress the Mirandaviolative statements Johnston made to detectives in a police station's small interrogation
room following the murder of Coryell. These statements came on the heels of extensive
media coverage reporting on Johnston's criminal record, including the broadcasting of
dramatic videotape of Johnston using the deceased's ATM card following the discovery of
the victim's body.
Johnston raised this claim of ineffective assistance of counsel in his postconviction
motion. After an evidentiary hearing, the postconviction court denied relief. On appeal, the
Florida Supreme Court affirmed. These decisions were contrary to federal law and an
unreasonable application of the same. The courts' decisions were also based on an
unreasonable finding of fact. This Court should grant the writ.
Regarding the early-morning interrogation, Sergeant Iverson was questioned at the
136

App 310

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 137 of 156 PagelD 961

evidentiary hearing, and informed that Johnston made several statements regarding his use
of the victim's ATM card before the Miranda warnings were provided. (Vol. LV PCR10331035).
There should be no question in this case that Johnston was subjected to custodial
interrogation at the Criminal Investigations Division of the Hillsborough County Sheriffs Office
and was not initially informed of his Miranda rights.
Trial counsel failed to research and consider a viable motion to suppress statements
made to law enforcement in this case. As such, trial counsel was ineffective and Johnston
should receive a new trial free from the taint of the unconstitutionally-obtained statements
regarding his relationship with Coryell and his whereabouts on the night of Coryell's
disappearance and murder.
Homicide detectives from the Hillsborough County Sheriffs Office violated Johnston's
Fifth Amendment right to remain silent when they coaxed him into, then trapped him in their
"lair" and intentionally failed to comply with the constitutionally-required Miranda
admonishments. Johnston's defense team then violated his Sixth Amendment right to
effective counsel when they failed to consider a legally-viable motion to suppress the illegallyobtained statements.
Subjectively, and objectively, Johnston knew he was not free to leave the scene when
he arrived at the police station. He testified to this extensively during the evidentiary hearing,
describing his experience at the police station. (See Vol. LVII PCR. 1243-1288.) Johnston
was subjected to an interrogation at the police station initially without the benefit of Miranda
until he admitted using the victim's ATM card, then he was arrested for grand theft. Law
enforcement obviously was not seeking to talk to Johnston about his golf game or the
137

App 311

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 138 of 156 PagelD 962

Brandon Chamber of Commerce. The "invitation" to the police station was no social call. With
arrest warrant in hand for grand theft, they wanted to speak with Johnston about his use of
the recently murdered woman's ATM card. He was at least in the functional equivalent of
custody when he walked through the secured doors of the Hillsborough County Sheriff's
Office that early morning. Law enforcement was seeking to elicit statements from Johnston,
and they should have provided Miranda warnings before express questioning or its functional
equivalent. Miranda warnings should have been provided before any words or actions on the
part of police that the police should know are reasonably likely to elicit an incriminating
response from Johnston.
Law enforcement clearly wanted to speak with Johnston. Law enforcement actually
sought the media's and the general public's assistance in identifying and locating Johnston
for arrest and questioning, and it worked. (See Vol. XI R. 699, 805, Vol. XII R. 923.) Given
the fact that the police basically summoned Johnston for questioning utilizing the media, the
statements at the police station were the product of custodial "interrogation." Miranda
warnings were surely needed when Johnston appeared at the police station to answer
questions about his wherabouts over the last few days, and his relationship with Coryell. As
the news broadcasts explained, law enforcement wanted to talk to Johnston. They were
looking for him. They even had an arrest warrant for him. Johnston was not free to leave the
scene. Any reasonable person in his position would have known that their freedom to walk
out of the station house was restricted by the authority of armed law enforcement officers.
Law enforcement controlled Johnston's movements, and controlled the situation once he
entered the station house. What might have begun as voluntary entry into the station house
quickly transformed into a custodial situation requiring the constitutional protections of
138

App 312

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 139 of 156 Page1D 963

Miranda once they sought to elicit statements from him about this murder case.
Johnston stated that upon entering the building the officers asked if they could search
his car, and they took his car keys. (Vol. LVII PCR. 1251). He did not feel free to leave the
scene when he was led into the interrogation room. He stated that in order to leave the
interrogation room, he would have to go around the table and get around Detectives Iverson
and Walters. (Vol. LVII PCR. 1254). He testified that once inside the interrogation room, the
detectives mentioned the videos and photographs related to Coryell's A TM card. They asked
him about his relationship with Coryell, and he admitted using her ATM card. (Vol. LVI I PCR.
1256). Immediately thereafter he was officially arrested. (Vol. LVII PCR. 1256). A reasonable
person in Johnston's shoes would not feel free to leave the police station once he entered
the police station. Johnston informed the court that he relayed these circumstances to his
appointed attorney Deb Goins and her investigator, yet a motion to suppress was never filed.
(Vol. LVII PCR. 1279).
No reasonable person in this situation would feel free to leave the scene at the police
station. Johnston did not subjectively feel free to leave the police station once he stepped
inside. This was custodial interrogation. Miranda should have been provided to Johnston up
front, not just midstream. Miranda addresses the "interrogation practices ... likely .. .to disable
an individual from making a free and rational choice about speaking" and held that a suspect
must be "adequately and effectively" advised of the choice the constitution guarantees.
Miranda warnings that do not include an advisement of the right to have attorney present
during questioning are inadequate to fully inform defendant of his constitutional rights. The
State suggested through cross-examination of Johnston at the evidentiary hearing that
because Johnston had been arrested before, he knew he had a right to remain silent.
139

App 313

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 140 of 156 PagelD 964

Miranda, however, requires the suspect to be warned of the rights. If the rights are not
provided prior to questioning, this would invalidate any subsequent alleged waiver. The law
does not allow circumstantial evidence that an individual may have been aware of his rights
to satisfy the clear requirement of warnings.
Because custodial interrogations are inherently coercive, law enforcement simply must
advise persons of their constitutional rights before subjecting them to custodial interrogation
or any words or actions likely to elicit incriminating statements about a criminal offense. The
statements the detectives said Johnston made should have been suppressed because once
he entered the police station, the doors were locked and he was not free to leave the scene.
An individual is in custody for purposes of Miranda when he comes under official control
either by physical force or by submission to control of authority. Deputy Caimano testified at
the evidentiary hearing that at the police station, Johnston rang the buzzer, he and Detective
Shepard let him in, and they patted him down and escorted him into the squad area. (Vol. LXI
PCR. 1632-1633). At that point, no reasonable person would have felt free to leave the
station until expressly told they were so permitted by law enforcement. Strangely, both
Caimano and Shepard did not recall that there was a signed arrest warrant for Johnston upon
his arrival at CID, even though they fielded the call from Johnston early in the evening and
they knew they would be responsible for receiving Johnston at the station house following
his telephone call. See (Vol. LXI PCR 1632). and (Vol. LXI PCR 1685). Though they may or
may not have known that an arrest warrant had been secured for Johnston's arrest, one thing
was absolutely clear: law enforcement wanted to question Johnston. Johnston's statements
to law enforcement were not simply volunteered. Clearly, law enforcement intended to elicit
statements, and did in fact elicit statements from Johnston without first administering the
140

App 314

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 141 of 156 PagelD 965

required Miranda warnings.
At the station house, Johnston was never told that he was free to leave. (Vol. LXI
PCR. 1635). Caimano stated that law enforcement officers were constantly by Johnston's
side, and if Johnston needed to use the restroom, an officer would have "accompanied" him
to the restroom. (Vol. LXI PCR. 1636). The news spots on TV showing a photograph of
Johnston and news that he was wanted for questioning for this murder support the
detectives' intentions to arrest him. Law enforcement actually had a signed arrest warrant.
Therefore, when Johnston entered the detectives' office building and the door was locked,
a "seizure" had in fact occurred. At the very least, Johnston was in custody for purposes of
Miranda when he was escorted into the interrogation room by the lead homicide detectives

Walters and Iverson.
Failure to give Miranda warnings and obtain a waiver of rights before custodial
questioning requires exclusion of any statements obtained. A reasonable person in
Johnston's situation would not feel reasonably free to leave the scene once one entered the
station house. Law enforcement should have read Johnston his Miranda rights prior to any
questioning as they had a signed arrest warrant at the time of this interrogation. The
circumstances were such that Johnston was not free to leave the police station once he
entered the police station and encountered the interrogating detectives. Johnston was not
in control of his movements in the police station. He was not in control of his freedom. The
detectives were in complete control and the doors were locked upon entry. Johnston was not
free to use the restroom without the escort of a detective in that building. The lawful and
constitutional practice would have been to read Miranda prior to any questioning. What may
have started as a voluntary encounter quickly escalated into a seizure because no
141

App 315

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 142 of 156 PagelD 966

reasonable person would have felt free to leave the scene on their own power once they
entered the buzzer-controlled door, and were "greeted" by law enforcement officers with
frisk, and commanded to have a seat.
Law enforcement's advising Johnston of his Miranda rights after significant
questioning, did not cure the violation of Johnston's rights under Miranda. How would
Johnston understand that he had a right to remain silent when minutes earlier law
enforcement questioned Johnston expecting answers, and he provided answers? Moreover,
how would Johnston understand that he had the right to speak with an attorney and have
one present during questioning if minutes earlier law enforcement questioned Johnston
without an attorney and without law enforcement advising him that he had this right?
Johnston's interrogation was continual with no breaks. It took place in the same place with
the same two detectives, who did not advise Johnston that his statements made prior to
being given Miranda would be used against him. The statements were in fact used against
Johnston at his trial. These circumstances challenge the comprehensibility and efficacy of
the Miranda warnings to the point that a reasonable person in the suspect's shoes could not
have understood them to convey a message that he retained a choice about continuing to
talk.
Detectives Walters and Iverson relied on Johnston's pre-warning statements to obtain
the post-warning ones used at trial which shows the temptations for abuse inherent in the
two-step interrogation technique. As a result, any statements made by Johnston were
inadmissible. This midstream recitation of warnings after interrogation and unwarned
statements could not effectively comply with Miranda's constitutional requirement, and any
statements made pre-or post-Miranda ere not admissible. Law enforcement readily admits
142

App 316

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 143 of 156 PagelD 967

in this case that the Miranda warnings were not provided until after Johnston had made
several statements concerning his relationship with Coryell and his use of her ATM card. Trial
counsel should have filed a motion to suppress statements on this basis.
A motion to suppress statements was not filed at the trial level. As a result, Johnston
was barred from raising this issue on direct appeal. Trial counsel acted unreasonably by
failing to investigate, research, and file a motion to suppress. Johnston was prejudiced
because, had a motion to suppress been filed and granted by the trial court, incriminating
statements would not have been introduced and used against Johnston and there was a
reasonable probability the outcome would have been different.
The State court decisions on this issue were contrary to federal law and an
unreasonable application of the same. The State court decisions were also based on an
unreasonable finding of fact.

Exhaustion of Ground Eleven in State Court
Johnston raised this IAC sub-claim in his postconviction motion to vacate. In denying
this IAC claim, the trial court set forth an extensive fact-intensive analysis (Ex. B16/3209B17/3236) and concluded that Johnston failed to establish any deficient performance and
resulting prejudice. The trial court's post-conviction order states, in pertinent part:
After reviewing claim 11, the testimony, evidence, and argument
presented at the January 28, 2008, January 29, 2008, January 30, 2008,
January 31, 2008, February 1, 2008, March 6, 2008, and March 7, 2008,
evidentiary hearings, the written closing arguments, the notice of supplemental
authority, the applicable law, the court file, and the record, the Court finds
"Miranda warnings are required whenever the State seeks to introduce
against a defendant statements made by the defendant while in custody
and under interrogation." Davis v. State, 698 So. 2d 1182, 1188 (Fla.
1997). "Absent one or the other, Miranda warnings are not required." Id.
Moreover, the Court finds the single fact that law enforcement had a
warrant for Defendant's arrest at the time he arrived at the station does
143

App 317

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 144 of 156 PagelD 968

not automatically demonstrate that Defendant was in custody. Id.
("Although custody encompasses more than simply formal arrest, the sole fact
that police had a warrant for Davis's arrest at the time he went to the station
does not conclusively establish that he was in custody."). The Court finds
"there must exist a 'restraint on freedom of movement of the degree associated
with a formal arrest." Id; see also Roman v. State, 475 So. 2d 1228, 1231 (Fla.
1985).
Moreover, the Court finds the testimony of Detective Iverson to be
credible. Therefore, the Court finds Defendant was free to leave up until
Detective Iverson realized that Defendant's time frames when he was with
Coryell were inconsistent with what co-workers were saying she was at
work, and when Detective Iverson realized the inconsistency in his time
frames, he advised Defendant he was under arrest and gave him his
Miranda warnings. The Court further finds if Defendant would have given
Detective Iverson a plausible explanation for why he was on video using
Ms. Coryell's ATM card, it would not have been necessary for Detective
Iverson to make an arrest at that time. The Court finds post-Miranda he
talked to Defendant about searching his vehicle and Defendant signed
the consent form to search the vehicle and handed over the keys.
Additionally, the Court finds Defendant initiated contact with law
enforcement, drove himself to the Sheriff's office, was sitting in a chair
in the lobby without law enforcement personnel around him, was wearing
a suit and his chamber of commerce pin, and was not handcuffed or
restrained physically in the lobby. The Court also finds as Detective
Walters, Detective Iverson, and Defendant walked to the interview room,
Defendant initiated small talk about his golf game, and neither Detective
Walters or himself laid a hand on Defendant, raised their voice towards
Defendant, made any type of threatening or menacing gesture towards
Defendant, or were confrontational with Defendant either verbally or
physically prior to advising Defendant he was under arrest. The Court
further finds that at no time prior to Miranda did Defendant ever indicate
to Detective Iverson in words or substance that he did not want to talk
anymore and wanted to leave, and prior to his arrest, Defendant's
freedom of movement was not restrained in any way as Defendant could
have exited the side door by merely pushing the push bar and it would
open.
Moreover, the Court finds, by Defendant's own admission, he
called the sheriff's office and advised Lieutenant Caimano that he wanted
to talk to the detective on the case. The Court further finds when
Defendant arrived at the building, he was buzzed in and patted down for
weapons. The Court also finds Defendant gave permission for Lieutenant
144

App 318

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 145 of 156 PagelD 969

Caimano to search his briefcase and a search for weapons was
conducted. The Court finds once Detectives Iverson and Walters arrived,
they escorted Defendant to a room where they shut the door. The Court
also finds that although Defendant testified that he did not know if the
door was locked, he testified he felt like he could not leave. However,
when asked at what point he felt that he was not going to be able to leave
the police station, Defendant replied, "That's hard to say. I think I knew
before I even went there I wouldn't be able to leave." (See January 30,
2008, transcript, p. 684, attached). Therefore, the Court finds although
Defendant voluntarily went to the station, he had a preconceived notion
that he was going to be arrested prior to entering the station. However,
Defendant admitted that prior to Miranda being read to him, the
detectives were courteous to him, never did anything physically
threatening or intimidating to him, and never raised their voice to him.
The Court further finds after Defendant admitted to using the ATM card,
he was arrested. However, the Court finds that prior to such admission,
Defendant was not in custody for purposes of Miranda.
Based on Detective Ernest Walters' deposition to perpetuate testimony
(State's exhibit #68), the Court finds when he met with Defendant,
Defendant voluntarily went with him into the interview room and did not
indicate to him that he did want to speak with him or that he wanted an
attorney present. (See trial transcript, p. 554, State's exhibit #6B, attached).
The Court further finds Detective Walters did not promise Defendant
anything to go back and speak with him. (See trial transcript, p. 554,
attached). The Court also finds it was not until Defendant admitted to
using Ms. Coryell's ATM card that he was arrested, and then read his
Miranda rights. (See trial transcript, pps. 56 1-562, attached).
Additionally, the Court finds that prior to his arrest, Defendant did
not indicate to Detective Walters that he wanted to terminate the
interview, did not indicate any hesitancy in speaking with Detective
Walters, did not appear to be intoxicated, appeared to understand the
questions being asked of him, appeared to understand who Detective
Walters was and where he was, and did not at any time ask to speak with
an attorney regarding the situation. (See trial transcript, pps. 562-563,
attached). The Court further finds, based on Detective Walters' testimony,
Defendant indicated that he understood the Miranda rights as they were
being read to him, and agreed to speak with him and Detective Iverson.
(See trial transcript, pps. 563-566, attached).
Furthermore, the Court finds Mr. Littman to be credible. Therefore,
the Court finds although he considered filing a motion to suppress those
statements, because he was familiar with the law on suppressing
145

App 319

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 146 of 156 PagelD 970

statements, he concluded that he did not want his statements
suppressed. The Court further finds the statements Defendant made to
law enforcement prior to being given his Miranda rights were denials of
guilt and he never incriminated himself in Ms. Coryell's death. The Court
further finds with respect to the discrepancy between the time Defendant
alleged to have had dinner with Ms. Coryell and the time she punched out
of work at the dental office, Mr. Littman admitted that he would want to
exclude any evidence which could show Defendant had made a false
statement, but asserted there was no legal basis for suppressing his
statements in addition to the fact that Defendant made those statements
before he was arrested. The Court further finds Mr. Littman was a very
experienced criminal attorney who based on the version of events
relayed to him by Defendant and depositions taken by he and Ms. Goins
concluded Defendant was not under custodial interrogation at the time
he made the statements to law enforcement. The Court also finds that if
Mr. Littman had somehow successfully prevented admission of
Defendant's statements to law enforcement as evidence at trial, the jury
would have been left with the fact that Defendant was on video using the
victim's ATM card in close proximity to the time of her death, which
would have left the jury to infer that the only way he could have obtained
the victim's ATM card was he obtained it at the time of and as a result of
Ms. Coryell's murder. Consequently, the Court finds Mr. Littman wanted
his statements to law enforcement to come in so the jury would have a
lawful and rational reason for Defendant having possession and use of
her ATM card, evidence the State intended to present to the jury.
Additionally, the Court finds Defendant never advised Mr. Littman
that when he arrived at the sheriff's office on the night in question that
sheriff personnel took his car keys from him, that they made him remove
his jewelry, empty his pockets, took his wallet, and put all that stuff in his
briefcase. The Court further finds at the time Mr. Littman made the
decision not to file a motion to suppress, there was no fact before him
that Defendant was in custody or that his freedom was restrained in any
fashion at the time Defendant gave his statement and, therefore, he did
not believe he had a valid basis to file a motion to suppress.
The Court also finds former Hillsborough County Sheriff detective
Jim Caimano (currently FBI agent) to be credible. Therefore, the Court
finds although Agent Caimano patted Defendant down for officer safety,
he did not take any of Defendant's personal items such as briefcase, wallet,
keys, or money for the entire time Defendant was there. The Court further finds
Defendant did not indicate to Agent Caimano that he wanted to leave the
criminal investigations division, nor did Agent Caimano conduct any
questioning of Defendant before the arrival of Detectives Iverson and Walters.
146

App 320

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 147 of 156 Page1D 971

The Court also finds although Agent Caimano did not tell Defendant he was
free to leave, Defendant was free to leave the Sheriff's Office after he entered
the Sheriff's Office, and if Defendant asked him to leave, he would have
conferred with the on-scene supervisors and called the detectives saying that
Defendant wanted to leave.

Moreover, the Court finds Agent Caimano's contact with Defendant
was in no way different than that of a citizen not involved in this case and
who had appeared at 1 :30 in the morning, including that a citizen
unrelated to the Coryell case would not have been allowed to roam freely
throughout the entirety of the offices. Consequently, the Court finds
Defendant was treated as a normal citizen unrelated to the Coryell case
would have been treated.
The Court also finds Detective Tony Shepherd's testimony to be
credible. Therefore, the Court finds on August 21, 1997, Detective
Shepherd did not at any time search Defendant, nor did he take from him
any personal items, including his wallet, keys, money, or briefcase, nor
did he witness anybody else take any items from Defendant.
In conclusion, the Court finds Defendant was not in custody for the
purposes of Miranda. Therefore, the Court finds Defendant failed to
demonstrate how counsel acted deficiently in failing to file the alleged
motion to suppress when Defendant was not in custody for purposes of
Miranda. The Court further finds Defendant failed to demonstrate how
counsel's alleged deficient conduct resulted in prejudice as the alleged
motion to suppress would have been meritless. As such, no relief is
warranted upon claim 11.
(Ex. B16/3231-B17/3236) (e.s.).
The Florida Supreme Court affirmed the trial court's denial of postconviction relief on
this IAC sub-claim, finding no deficiency of counsel. The Florida Supreme Court noted that
trial counsel wanted the jury to hear Johnston's statements because they provided the only
lawful explanation as to why Johnston possessed the victim's ATM card. Therefore, trial
counsel made a strategic decision not to challenge Johnston's voluntary statements to law
enforcement. Furthermore, Johnston was not in custody at the time of his initial statements
and, thus, Miranda warnings were not required at the time of his.initial statements. "Because
147

App 321

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 148 of 156 PagelD 972

defense counsel made a reasonable strategic choice and because a motion to suppress
would have lacked merit, Johnston cannot demonstrate the deficiency prong of Strickland."
Johnston, 63 So. 3d at 740. In denying this IAC sub-claim, the Florida Supreme Court stated,

in pertinent part:
D. Johnston's statement to law enforcement

Johnston argues that trial counsel was ineffective under Strickland for
failing to move to suppress his statement made to law enforcement prior to
issuance of a Miranda warning. Johnston also asserts that counsel should
have moved to suppress the statement made after Johnston received a
Miranda warning because the warning came in the middle of continual
interrogation. We affirm denial of both arguments.
Upon seeing his picture on television, Johnston phoned police, drove
himself to the police station, and made a statement to detectives he knew to
be assigned to the case. He believed his statements would account for his
whereabouts on the night of the murder and his use of the victim's ATM card.
At the postconviction evidentiary hearing, defense counsel explained that he
wanted the jury to hear Johnston's statements because they provided the only
lawful explanation as to why Johnston possessed the victim's ATM card.
Defense counsel's explanation demonstrates that his decision not to
move to suppress Johnston's statements was a reasonable, strategic choice.
See Occhicone, 768 So. 2d at 1048; Lawrence v. State, 969 So. 2d 294, 309
(Fla. 2007). Short of calling Johnston to testify, there was no available
evidence aside from the statement that could explain Johnston's use of the
ATM card.
Additionally, counsel cannot be deemed ineffective because any motion
to suppress would have been meritless. See Kormondy v. State, 983 So. 2d
418, 430 (Fla. 2007); Fitzpatrick v. State, 900 So. 2d 495, 511 (Fla. 2005).
Evidence presented at the postconviction evidentiary hearing demonstrated
that Johnston's initial statement was voluntary. Therefore, no Miranda
warnings were required until Johnston was formally arrested. See Traylor v.
State, 596 So. 2d 957, 965-66 (Fla. 1992). And, since Johnston was not in
custody when he gave his initial statement, it follows that Johnston's postMiranda statement was obtained following a valid waiver. See Ault v. State,
866 So. 2d 674, 682 (Fla. 2003} ("[l]t is custodial interrogation that triggers the
Miranda prophylactic."}. Therefore, a motion to suppress either statement
would have been denied.
148

App 322

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 149 of 156 PagelD 973

Because defense counsel made a reasonable strategic choice and
because a motion to suppress would have lacked merit, Johnston cannot
demonstrate the deficiency prong of Strickland. Therefore, we affirm the trial
court's denial of this ineffectiveness claim.
Johnston, 63 So. 3d at 740.
CONCLUSION AS TO GROUND ELEVEN
Ground Eleven Has no Merit
Applicable Law

Aside from a perfunctory conclusory statement on the AEDPA requirements, Johnston
repeats this claim as if it were subject to de novo review; it is not. The standard established
in section 2254(d) is "difficult to meet because the purpose of AEDPA is to ensure that
federal habeas relief functions as a guard against extreme malfunctions in the state criminal
justice systems, and not as a means of error correction." Greene v. Fisher, -

U.S.--,

132 S. Ct. 38, 43 (2011) (citations and internal quotation marks omitted). Furthermore, as
noted in Reese v. Secretary, Florida Dept. of Corrections, 2012 WL 1059452, 7 (11th Cir.
2012), "[t]he question whether a state court errs in determining the facts is a different
question from whether it errs in applying the law." Rice v. Collins, 546 U.S. 333, 342, 126 S.
Ct. 969, 976 (2006). This court's standard of review is again deferential. In a habeas
proceeding, "[o]ur review of findings of fact by the state court is even more deferential than
under a clearly erroneous standard of review." Reese, quoting Stephens v. Hall, 407 F.3d
1195, 1201 (11th Cir. 2005).
When, as here, the state courts have denied an ineffective assistance of counsel claim
on the merits, the standard a petitioner must meet to obtain federal habeas relief is a difficult
one. Harrington v. Richter, -

U.S.--, 131 S. Ct. 770, 786 (2011). The standard is not
149

App 323

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 150 of 156 PagelD 974

whether an error was committed, but whether the state court decision is contrary to or an
unreasonable application of federal law that has been clearly established by decisions of the
Supreme Court. 28 U.S.C. § 2254(d)(1 ). As the Supreme Court explained, error alone is not.
enough, because "[f]or purposes of§ 2254(d)(1 ), an unreasonable application of federal law
is different from an incorrect application of federal law." Harrington, 131 S. Ct. at 785
(quotation marks omitted}.
When faced with an ineffective assistance of counsel claim that was denied on the
merits by the state courts, a federal habeas court "must determine what arguments or
theories supported or, [if none were stated], could have supported, the state court's decision;
and then it must ask whether it is possible fairminded jurists could disagree that those
arguments or theories are inconsistent with the holding in a prior decision of [the Supreme]
Court." So long as fairminded jurists could disagree about whether the state court's denial
of the claim was inconsistent with an earlier Supreme Court decision, federal habeas relief
must be denied. Stated the other way, only if "there is no possibility fairminded jurists could
disagree that the state court's decision conflicts with [the Supreme] Court's precedents" may
relief be granted. Id. Even without the deference due under§ 2254, the Strickland standard
for judging the performance of counsel "is a most deferential one." Id. at 788. When
combined with the extra layer of deference that § 2254 provides, the result is double
deference and the question becomes whether "there is any reasonable argument that
counsel satisfied Strick/ands deferential standard." Id.
Discussion

The state courts' rejection of this IAC sub-claim was not contrary to or an
unreasonable application of Strickland. Trial counsel cannot be deemed deficient under
150

App 324

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 151 of 156 PagelD 975

Strickland for failing to file a motion to suppress which is without merit. In this case, the
deputies were not required to give Miranda warnings to Johnston when he voluntarily came
to the CID division and offered his self-serving explanations. Johnston was not "in custody"
simply because questioning took place at the Sheriff's office. See, California v. Beheler, 463
U.S. 1121, 103 S. Ct. 3517 (1983); Oregon v. Mathiason, 429 U.S. 492, 97 S. Ct. 711 (1977).
And, whether a suspect was in custody depends on the objective circumstances, not on
subjective views of the defendant. See, Stansbury v. California, 511 U.S. 318, 114 S. Ct.
1526 (1994); Yarborough v. Alvarado, 541 U.S. 652, 124 S. Ct. 2140 (2004).
At trial, the State presented evidence that Johnston was interviewed by Detective
Ernest Walters just after 2:00 a.m. on August 21, 1997; Detective Iverson was also present.
(Ex. A9/553; V11/757-58). Johnston was not under arrest. Johnston, acting on his own, went
to the Sheriff's Office after his photograph had been televised; Johnston wanted to explain
the situation. (Ex. A/955; A 10/592-93; 603; A 11/767). According to Johnston, on August 19th,
at about 6:15 p.m., they (he and the victim) met at Malio's, had a drink and decided to go to
Carrabba's for dinner. They arrived at Carrabba's, in separate cars, around 7:30 or 7:45, and
left between 8:30 and 9:00 p.m. Johnston said that he was going to go for a run, and Coryell
was going to shop for groceries. (Ex. A9/557-59; A10/607-09; A11/759). When they
separated at Carrabba's, Coryell gave Johnston her ATM card and PIN number to repay
$1200which he had loaned her. (Ex. A9/559-60). Johnston went home, changed his clothes,
and went for his run. When he returned to his apartment, Johnston had a disagreement with
his roommate, Gary, over rent and cable TV payments. (Ex. A9/560-61; 573-74; A 10/585-86;
613). Johnston said he took a shower, went to Taco Bell, then to Barnett Bank, where he
found that the ATM was not working, and then to Nations Bank, where he withdrew $500 in
151

App 325

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 152 of 156 PagelD 976

cash. (Ex. A9/560-61; A10/586; 613-14). At this point, Johnston was placed under arrest for
grand theft and read his Miranda rights. Johnston indicated that he understood his rights and
agreed to continue speaking with the officers. (Ex. A9/562-66; A11/770-71).
Johnston went to the Sheriff's station on his own and volunteered his self-serving
version of events. The officers were not required to refuse Johnston's calls and volunteered
statements. They did not seize Johnston, or take Johnston into custody, or place him under
arrest, or handcuff him, or place him in a locked cell, or threaten him in any way. Moreover,
the issuance of an arrest warrant for grand theft did not support Johnston's IAC complaint.
In state court, Johnston failed to show that any motion to suppress his statements would
have been meritorious and that trial counsel's actions were not the result of reasonable
professional judgment. To the contrary, as trial counsel confirmed in post-conviction, there
was no legal basis for suppressing the defendant's exculpatory statements (Ex. A59/14051406, 1412-1413); Johnston was not in custody at the time he made the statements. (Ex.
A59/1410, 1412-1414). Moreover, defense counsel wanted to use Johnston's denials of guilt
and volunteered statements because they enabled the defense to rebut the presumption of
possession of recently stolen property and present Johnston's exculpatory version of events
without "opening the door" to Johnston's prior convictions. (Ex. A59/1473-1476). Trial
counsel's strategic decision at the time of trial is unassailable under Strickland.
Even if Johnston arguably could establish any deficiency of counsel in failing to seek
suppression of Johnston's volunteered statements, which the State emphatically disputes,
he could not demonstrate any resulting prejudice under Strickland. At trial, the State also
introduced videotapes of two news broadcasts in which Johnston spoke with reporters by
telephone from the jail. (Ex. A 12/965-968, 978, 957-58). During these broadcasts, Johnston
152

App 326

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 153 of 156 PagelD 977

essentially repeated his earlier volunteered statements to law enforcement. According to
Johnston, he and Coryell were friends, and she had given him her ATM card and PIN number
to withdraw money to repay a loan. (Ex. A12/966, 978). According to Johnston, he was
supposed to meet her the next day at Malia's; and when he got there, he learned of her
death, and some people said that they'd seen his picture on TV. Johnston left, drove around,
and then called the Sheriffs department and went there on his own. (Ex. A12/966-67).
Therefore, Johnston's same volunteered explanations were obtained from an independent
source unrelated to any alleged Miranda violation and would have been, and were, inevitably
discovered.
To the extent that Johnston attempts to substantively challenge both his pre-arrest
statements and his post-arrest statements, as allegedly· inadmissible under Missouri v.
Seibert, 542 U.S. 600, 124 S. Ct. 2601 (2004), any such claim is procedurally barred. Even

if Seibert arguably applied, which it does not, under Seibert, "the two-step interrogation
technique [must be] used in a calculated way to undermine the Miranda warning." 542 U.S.
at 62. In Seibert, the plurality held that when an officer intentionally questioned a suspect
without giving Miranda warnings in order to elicit an unwarned confession and then used that
unwarned confession to elicit a second warned confession, Miranda was violated. Because
this is not such a case, Johnston's volunteered statements to law enforcement would not
qualify for any relief under Seibert. See, Seibert, 542 U.S. at 622. Furthermore, Johnston has
not established that Seibert is retroactive. See, Davis v. Secretary Dept. of Corrections, 2009
WL 3336043 (M.D. Fla. 2009) (noting that "Seibert is not subject to retroactive application
under Teague").
Johnston's volunteered statements were not taken in violation of Miranda; the defense
153

App 327

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 154 of 156 PagelD 978

relied on Johnston's exculpatory statements to explain his possession of the victim's ATM
card; and Johnston's statements to law enforcement were cumulative to his taped statements
to the press. Even if the substantive Miranda claim were cognizable (which it is not because
it is procedurally barred), error, if any, based on the admission of Johnston's volunteered
statements would have been harmless. See, Brecht v. Abrahamson, 507 U.S. 619, 622, 113
S. Ct. 1710 (1993).

Petitioner Johnston has not demonstrated that the state court's determination was
contrary to, or involved an unreasonable application of federal law, nor has he shown that
the state court's denial of this claim resulted in an unreasonable determination of the facts
in light of the evidence presented in the state court proceeding.
Ground eleven does not warrant habeas corpus relief.

GROUND TWELVE 11
CUMULATIVE ERROR
Due to the errors that occurred individually and cumulatively in the
postconviction court, this Court should grant the writ.
CONCLUSION AS TO GROUND TWELVE
Ground Twelve Has no Merit
Cumulative error is not a cognizable claim on federal habeas. The Eleventh Circuit
has never expressly recognized a freestanding "cumulative effect" claim, based upon the
assertion that alleged errors of the trial court, defense counsel, or the State, or a combination
thereof, rendered the trial fundamentally unfair even though such errors were individually

11

twelve.

Johnston raises this ground as Ground XIII. His petition does not contain a ground
154

App 328

Case 8:11-cv-02094-EAK-TGW Document 29 Filed 04/17/14 Page 155 of 156 PagelD 979

harmless or non-prejudicial, as cognizable under § 2254. See, Forrest v. Florida Dept. of

Corrections, 342 Fed. Appx. 560, 564-65 (11th Cir. 2009) (unpublished); see also, Ferguson
v. Sec'y for the Dept. of Corrections, 580 F.3d 1183, 1202 (11th Cir. 2009).
Moreover, even if Petitioner arguably was entitled to a cumulative error analysis, which
he is not, any such analysis should evaluate only matters determined to be in error, not the
cumulative effect of non-errors. See, United States v. Waldon, 363 F.3d 1103, 1110 (11th
Cir. 2004) (where no individual errors have been demonstrated, no cumulative errors can
exist). Therefore, Petitioner is not entitled to federal habeas relief on this "cumulative error''
claim. See, Bronstein v. Wainwright, 646 F .2d 1048 (11th Cir. 1981) ("[A] state trial must be
so 'fundamentally unfair' as to amount to a denial of due process before federal habeas relief
can be appropriately applied.") (internal quotation and citation omitted)).
Ground twelve does not warrant habeas corpus relief.
Accordingly, the Court orders:
That Johnston's petition is denied. The Clerk is directed to enter judgment against
Johnston and to close this case.

CERTIFICATE OF APPEALABILITY AND
LEAVE TO APPEAL IN FORMA PAUPERIS DENIED
The Court declines to issue a certificate of appealability pursuant to Rule 11 (a) of the
Rules Governing Section 2254 Cases in the United States District Courts because Petitioner
has failed to make a substantial showing of the denial of a constitutional right as required by
28 U.S.C. § 2253(c)(2).
Because Petitioner is not entitled to a certificate of appealability, Petitioner is not
entitled to appeal in forma pauperis. Petitioner is required to pay the $505.00 appellate filing

155

App 329

Case 8:11-cv-02094-EAK-TGW Document29 Filed 04/17/14 Page 156 of 156 PagelD 980

fee unless the appellate court grants Petitioner in forma pauperis status on appeal.
ORDERED at Tampa, Florida, on April 11; 2014.

ELIZABE1nHi.AA~.rco¥.AciJ·:tit-.,'.T~-

TINITEn STATES DISTRIC

Counsel of Record

156

App 330

APPENDIX N

App 331

App 332

APPENDIX O

App 333

Johnston v. State, 246 So.3d 266 (2018)
43 Fla. L. Weekly S162

246 So.3d 266 (Mem)
Supreme Court of Florida.
Ray Lamar JOHNSTON, Appellant,
v.
STATE of Florida, Appellee.
No. SC17–1678
|
April 5, 2018
An Appeal from the Circuit Court in and for Hillsborough County, Michelle Sisco, Judge—Case No.
291997CF013379000AHC
Attorneys and Law Firms
James Vincent Viggiano, Jr., Capital Collateral Regional Counsel, James L. Driscoll Jr., David Dixon Hendry and Gregory
W. Brown, Assistant Capital Collateral Regional Counsel, Middle Region, Temple Terrace, Florida, for Appellant
Pamela Jo Bondi, Attorney General, Tallahassee, Florida, and Timothy A. Freeland, Senior Assistant Attorney General,
Tampa, Florida, for Appellee
Opinion
PER CURIAM.
Ray Lamar Johnston appeals an order summarily denying his first successive postconviction motion filed under Florida Rule
of Criminal Procedure 3.851.1
1

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.

The underlying facts of this case were described in this Court’s opinion on direct appeal. Johnston v. State, 841 So.2d 349,
351–55 (Fla. 2002). Johnston was convicted of the first-degree murder of Leanne Coryell, kidnapping, robbery, sexual
battery, and burglary of a conveyance with assault. Id. at 351. Following a unanimous jury recommendation for death, the
trial court sentenced Johnston to death. Id. at 355.
In this successive postconviction motion, we affirm the denial of Johnston’s claim that he is entitled to relief pursuant to
Hurst v. Florida, ––– U.S. ––––, 136 S.Ct. 616, 193 L.Ed.2d 504 (2016), and Hurst v. State, 202 So.3d 40 (Fla. 2016), cert.
denied, ––– U.S. ––––, 137 S.Ct. 2161, 198 L.Ed.2d 246 (2017). Johnston received a unanimous jury recommendation of
death and, therefore, the Hurst error in this case is harmless beyond a reasonable doubt. See Davis v. State, 207 So.3d 142,
175 (Fla. 2016). Additionally, we affirm the denial of Johnston’s Hurst-induced Caldwell2 claim. See Reynolds v. State, No.
SC17-793, ––– So.3d ––––, –––– – ––––, slip op. at 26-36, 2018 WL 1633075, at *10–12 (Fla. Apr. 5, 2018).
2

Caldwell v. Mississippi, 472 U.S. 320, 105 S.Ct. 2633, 86 L.Ed.2d 231 (1985).

Accordingly, we affirm the denial of postconviction relief.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 334

1

Johnston v. State, 246 So.3d 266 (2018)
43 Fla. L. Weekly S162

It is so ordered.

LABARGA, C.J., and PARIENTE, LEWIS, and LAWSON, JJ., concur.
CANADY and POLSTON, JJ., concur in result.
QUINCE, J., dissents with an opinion.

QUINCE, J., dissenting.
*267 I cannot agree with the majority’s finding that the Hurst error was harmless beyond a reasonable doubt. As I have stated
previously, “[b]ecause Hurst requires ‘a jury, not a judge, to find each fact necessary to impose a sentence of death,’ the error
cannot be harmless where such a factual determination was not made.” Hall v. State, 212 So.3d 1001, 1036–37 (Fla. 2017)
(Quince, J., concurring in part and dissenting in part) (citation omitted) (quoting Hurst v. Florida, ––– U.S. ––––, 136 S.Ct.
616, 619, 193 L.Ed.2d 504 (2016) ); see also Truehill v. State, 211 So.3d 930, 961 (Fla.) (Quince, J., concurring in part and
dissenting in part), cert. denied, ––– U.S. ––––, 138 S.Ct. 3, 199 L.Ed.2d 272 (2017). The jury in this case did not make all
the factual findings that Hurst requires a jury to make in order to impose all the aggravators at issue in this case. Therefore, I
dissent.
All Citations
246 So.3d 266 (Mem), 43 Fla. L. Weekly S162
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 335

2

APPENDIX P

App 336

App 337

App 338

App 339

App 340

App 341

App 342

App 343

App 344

App 345

App 346

App 347

App 348

App 349

App 350

APPENDIX Q

App 351

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

KeyCite Blue Flag – Appeal Notification
Petition for Certiorari Docketed by RICHARD KNIGHT v. FLORIDA DEPARTMENT OF CORRECTIONS, U.S., April 23, 2020

936 F.3d 1322
United States Court of Appeals, Eleventh Circuit.

Richard KNIGHT, Petitioner-Appellant,
v.
FLORIDA DEPARTMENT OF CORRECTIONS, Respondent-Appellee.
No. 18-13390
|
(August 30, 2019)

Synopsis
Background: Following affirmance of conviction and death sentence for first degree murder of his cousin’s girlfriend and
her daughter, and denial of state habeas claims, defendant petitioned for federal habeas relief. The United States District
Court for the Southern District of Florida, No. 0:17-cv-61921-RNS, Robert N. Scola, J., denied petition. Defendant appealed.

Holdings: The Court of Appeals, Grant, Circuit Judge, held that:
as a matter of first impression, Supreme Court’s decision that Florida’s death penalty sentencing scheme violated the Sixth
Amendment announced a new constitutional rule, as would support finding that decision did not apply retroactively;
Supreme Court’s decision that Florida’s death penalty sentencing scheme violated the Sixth Amendment announced a
procedural rule, and not a substantive one, such that exception to nonretroactivity for holdings that create substantive rules
did not apply;
state court’s factual determination that trial counsel’s decision not to call DNA expert was a matter of trial strategy could not
support ineffective assistance of counsel claim;
state court reasonably applied Strickland in concluding that trial counsel’s decision not to call equivocal DNA expert was
well within the wide range of reasonably competent performance; and
state court’s conclusion that defendant failed to establish prejudice was not an unreasonable application of Strickland.
Affirmed.
Attorneys and Law Firms
*1328 Todd Gerald Scher, Law Office of Todd G. Scher, PL, DANIA BEACH, FL, for Petitioner - Appellant.
Lisa-Marie Lerner, Attorney General’s Office, WEST PALM BEACH, FL, Pam Bondi, Attorney General’s Office,
TALLAHASSEE, FL, for Respondent - Appellee.
Appeal from the United States District Court for the Southern District of Florida, D.C. Docket No. 0:17-cv-61921-RNS
Before TJOFLAT, JORDAN, and GRANT, Circuit Judges.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 352

1

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

Opinion
GRANT, Circuit Judge:
Richard Knight, a Florida prisoner sentenced to death for the murders of Odessia Stephens and her daughter, Hanessia
Mullings, appeals the district court’s denial of his federal habeas corpus petition. At this stage—almost 20 years after the
crimes were committed and more than a decade after a Florida jury found Knight guilty of the murders and recommended a
death sentence—Knight’s claims have been winnowed down to two: first, that his death sentence is invalid under Hurst v.
Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016), and second, that he received ineffective assistance of
counsel at trial. Because Hurst does not apply retroactively to Knight, any challenge to his death sentence on that basis is
beyond our reach on federal habeas review. Nor can Knight find success in his other challenge; the Florida Supreme Court’s
rejection of his ineffective-assistance claim was not an unreasonable application of Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). We therefore affirm.

I.

A.
According to evidence introduced at his murder trial, Knight lived in an apartment with his cousin, Hans Mullings, and
Hans’s girlfriend, Odessia. Hans and Odessia’s four-year-old daughter, Hanessia, also lived with them in the apartment.
Odessia was tired of supporting Knight and one evening while Hans was out she argued with Knight, insisting that he move
out the next day. After the argument got heated, Knight left the house to walk around. But as he later confessed to another
inmate, instead of getting less angry with Odessia *1329 once he got some air, Knight became increasingly irate. He returned
to the apartment and after exchanging more words with Odessia, he got a knife from the kitchen. When he went back to the
master bedroom, he found Odessia and her little girl in the bed. He began stabbing Odessia and continued his attack until she
stopped resisting and curled up on the bedroom floor. He then moved on to little Hanessia, stabbing her until his knife broke
and cutting his hand in the process. As he was leaving the bedroom, he heard “popping noises” from where Hanessia lay on
the floor, and he thought that the little girl was “drowning in her own blood.” Apparently not considering his revenge
complete, he retrieved a second knife from the kitchen and returned to continue his attack on Odessia. In the meantime,
Odessia had crawled from the bedroom to the living room, where she had collapsed. Knight turned her over, saw that she was
still alive, and started stabbing her again.
Both Odessia and Hanessia died that night. In total, Odessia had 21 stab wounds, including 14 in the neck, 24 puncture or
scratch wounds, bruising and ligature marks consistent with having been hit and strangled with a belt, defensive wounds, and
bruises from being hit or punched in the mouth and head. Little Hanessia had four stab wounds in her upper body and neck, a
deep defensive wound on her hand, bruises on her neck consistent with manual strangulation, and bruises on her arms
consistent with having been grabbed.
Knight showered and changed after completing his brutal acts, then headed to the living room with a rag to wipe off the
knives. Interrupted by a knock on the front door—it was police responding to a neighbor’s 911 call—Knight ran to his room
and climbed out the window.
Shortly after they arrived, police encountered Knight near the apartment. He told them that he lived there, but that he did not
have a key. This was odd; the officers had already found that all the doors to the apartment were locked. Knight was also
visibly wet—but it was not raining. Knight explained to police that he had been jogging, a remarkable contention from a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 353

2

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

person who was wearing long pants and dress shoes. He did not appear to be sweating, in any event. And Knight’s personal
appearance subsequently revealed even more clues—he had blood on the back of his shirt, scratches on his chest and
midsection, a scrape on his shoulder, and fresh cuts on his hand.
Knight was arrested and indicted for two counts of first-degree murder. A Florida jury found him guilty as charged. That
same jury heard evidence and argument at the penalty phase and unanimously recommended two death sentences—one for
each murder. Consistent with Florida’s then-current death penalty sentencing procedure, the judge held an additional hearing,
made his own findings regarding aggravating and mitigating circumstances, and sentenced Knight to death. The Florida
Supreme Court affirmed Knight’s convictions and sentences on direct appeal. Knight v. State, 76 So. 3d 879, 890 (Fla. 2011).
The United States Supreme Court denied his petition for certiorari. Knight v. Florida, 566 U.S. 998, 998, 132 S.Ct. 2398, 182
L.Ed.2d 1038 (2012).

B.
Knight filed motions for state collateral relief raising the two claims at issue here, as well as others that have already been
resolved. Specifically, he argued that the state court should vacate his death sentence in light of Hurst v. Florida, in which the
Supreme Court held—four years after Knight’s conviction was final—that Florida’s death penalty sentencing scheme
violated the Sixth Amendment. *1330 136 S. Ct. at 622. The problem identified by the Supreme Court in Hurst, and argued
by Knight in his post-conviction pleadings, was that the jury’s role in sentencing was to make a non-binding
recommendation; the judge alone made the ultimate findings of fact necessary to impose the death penalty. Id. at 619,
621–22. Knight also argued that his guilt-phase counsel was constitutionally ineffective for failing to call an available DNA
expert.
The Florida Supreme Court rejected his postconviction claims on the merits. Knight v. State, 225 So. 3d 661, 668 (Fla. 2017)
(per curiam). A plurality of the court agreed with Knight that the sentencing procedure used in his case violated the Sixth
Amendment under Hurst, but also concluded that the Hurst error was harmless. Id. at 682. The plurality explained that under
the facts of Knight’s case the penalty-phase jury had necessarily made the factual findings necessary to impose the death
penalty—that “sufficient aggravators existed” and that “the aggravation outweighed the mitigation”—when it returned a
unanimous vote recommending death.1 Id. at 682–83 (citation omitted). As for his ineffective-assistance claim, the court held
that Knight had failed to meet his burden under Strickland because he had not shown that his attorney’s decision not to call
his DNA expert constituted deficient performance, or that there was any reasonable probability that that decision negatively
affected the outcome of his trial. Id. at 673–74.
1

Three out of seven justices joined the opinion on Knight’s Hurst claim. Two additional justices concurred in the result only.
Knight, 225 So. 3d at 684.

C.
Knight filed a petition for federal habeas review in the Southern District of Florida, pursuant to 28 U.S.C. § 2254. The district
court denied relief but granted a certificate of appealability on the two claims now before us.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 354

3

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

II.

A.
Federal courts may grant habeas corpus relief to prisoners who are being detained “in violation of the Constitution or laws or
treaties of the United States.” 28 U.S.C. §§ 2241(c)(3); 2254(a). But our authority to award this kind of relief to state
prisoners is limited—by both statute and Supreme Court precedent.
First, the Antiterrorism and Effective Death Penalty Act (AEDPA) limits our authority to award habeas relief. A federal court
may not grant a state prisoner’s habeas petition on any issue that was decided on the merits by the state court unless the state
court’s ruling “(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States; or (2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d).
And as the Supreme Court has explained, “clearly established” federal law means “the holdings, as opposed to the dicta”
from its controlling precedents at the time of the relevant state court decision. Lockyer v. Andrade, 538 U.S. 63, 71, 123 S.Ct.
1166, 155 L.Ed.2d 144 (2003) (quoting Williams v. Taylor, 529 U.S. 362, 412, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000)).
A decision is “contrary to” clearly established federal law “if the state court arrives at a conclusion opposite to that reached
by [the Supreme] Court on a question of law or if the state court decides a case differently than [the Supreme] Court has on a
set of materially indistinguishable *1331 facts.” Williams, 529 U.S. at 413, 120 S.Ct. 1495. A state court decision involves an
unreasonable application of federal law “if the state court identifies the correct governing legal principle from [the Supreme]
Court’s decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Id. To justify issuance of the writ
under the “unreasonable application” clause, the state court’s application of Supreme Court precedent must be more than just
wrong in the eyes of the federal court; it “must be ‘objectively unreasonable.’ ” Virginia v. LeBlanc, ––– U.S. ––––, 137 S.
Ct. 1726, 1728, 198 L.Ed.2d 186 (2017) (quoting Woods v. Donald, ––– U.S. ––––, 135 S. Ct. 1372, 1376, 191 L.Ed.2d 464
(2015)); see also Bell v. Cone, 535 U.S. 685, 694, 122 S.Ct. 1843, 152 L.Ed.2d 914 (2002) (explaining that “an unreasonable
application is different from an incorrect one.”).
Second, Supreme Court precedent demands that in any federal habeas proceeding—including collateral proceedings in capital
cases—where the petitioner seeks the benefit of a “new” rule of constitutional law, we must first determine whether the rule
actually qualifies as new, and then whether that rule applies retroactively to the case. See Teague v. Lane, 489 U.S. 288,
300–01, 109 S.Ct. 1060, 103 L.Ed.2d 334 (1989) (plurality opinion); Penry v. Lynaugh, 492 U.S. 302, 313–14, 109 S.Ct.
2934, 106 L.Ed.2d 256 (1989) (stating that the retroactivity approach from Teague applies in capital cases), abrogated on
other grounds by Atkins v. Virginia, 536 U.S. 304, 312–16, 321, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002). In most cases, we
cannot disturb a state conviction based on a constitutional rule announced after a conviction became final. Teague, 489 U.S.
at 310, 109 S.Ct. 1060. Only two narrow exceptions pierce this general principle of nonretroactivity: new rules that are
“substantive rather than procedural,” and “watershed rules of criminal procedure implicating the fundamental fairness and
accuracy of the criminal proceeding.” Schriro v. Summerlin, 542 U.S. 348, 352–53, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004)
(internal quotation marks and citations omitted). In all other cases the rule applies only prospectively.
What this means in plain English is that, in the vast majority of cases, prisoners will not be able to secure federal habeas
relief based on a new constitutional rule—even when that rule runs in their favor. “This is but a recognition that the purpose
of federal habeas corpus is to ensure that state convictions comply with the federal law in existence at the time the conviction
became final, and not to provide a mechanism for the continuing reexamination of final judgments based upon later emerging
legal doctrine.” Sawyer v. Smith, 497 U.S. 227, 234, 110 S.Ct. 2822, 111 L.Ed.2d 193 (1990).
Though these two constraints—the rule of nonretroactivity set out in Teague and the deference to state court decisions
mandated by AEDPA—are similar in some respects, they are nonetheless “quite separate” in their operation, and a state
prisoner seeking federal habeas relief must clear both hurdles to succeed. Greene v. Fisher, 565 U.S. 34, 39, 132 S.Ct. 38,
181 L.Ed.2d 336 (2011). Accordingly—and the Supreme Court has made this clear—“in addition to performing any analysis
required by AEDPA, a federal court considering a habeas petition must conduct a threshold Teague analysis when the issue is
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 355

4

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

properly raised by the state.” Horn v. Banks (Banks I), 536 U.S. 266, 272, 122 S.Ct. 2147, 153 L.Ed.2d 301 (2002) (per
curiam).

B.
Before conducting that analysis here, we pause to explain why we cannot simply accept the Florida Supreme Court’s decision
to apply Hurst retroactively to *1332 Knight and review only its harmless-error analysis, as Knight urges us to do. Because
the Florida Supreme Court had already decided to give him the benefit of Hurst, Knight says, the Teague retroactivity
analysis no longer has any bearing in his case. He is wrong. While states may fashion their own retroactivity doctrines as a
matter of state law, those doctrines cannot displace Teague on the federal stage. Our ability to consider whether Florida
applied Hurst correctly depends entirely on whether we can apply Hurst ourselves. So far, neither the Supreme Court nor this
Circuit has answered that question by analyzing Hurst’s retroactivity under Teague.2
2

We have noted in passing that Hurst would not apply retroactively to a petitioner whose convictions became final long before the
Supreme Court decided Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), on which Hurst relied, and even
before Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000), which formed the basis for Ring. See
Lambrix v. Sec’y, Fla. Dep’t of Corr., 851 F.3d 1158, 1165 n.2 (11th Cir. 2017). And we have concluded in the context of an
improvidently granted certificate of appealability that the Florida Supreme Court’s decision not to apply Hurst retroactively to the
same petitioner as a matter of state law was not contrary to or an unreasonable application of existing Supreme Court precedents.
See Lambrix v. Sec’y, Dep’t of Corr., 872 F.3d 1170, 1182 (11th Cir. 2017) (per curiam). But the question of Hurst’s retroactivity
under Teague to a petitioner like Knight—whose convictions became final after Ring but before Hurst—was not squarely
presented in either case, so we did not conduct that analysis.

Florida, on the other hand, has its own retroactivity standard—and is free to give broader retroactive effect to new
constitutional rules in state court proceedings than Teague allows in federal cases. See Danforth v. Minnesota, 552 U.S. 264,
282, 128 S.Ct. 1029, 169 L.Ed.2d 859 (2008). That is because the Teague bar “was intended to limit the authority of federal
courts to overturn state convictions—not to limit a state court’s authority to grant relief for violations of new rules of
constitutional law when reviewing its own State’s convictions.” Id. at 280–81, 128 S.Ct. 1029. So when states choose to
apply new rules of constitutional procedure that are not retroactive under Teague in federal courts, they “do not do so by
misconstruing the federal Teague standard. Rather, they have developed state law to govern retroactivity in state
postconviction proceedings.” Id. at 288–89, 128 S.Ct. 1029 (emphasis in original).
In deciding to apply Hurst retroactively to certain state habeas cases, the Florida Supreme Court did just that. See Mosley v.
State, 209 So. 3d 1248, 1274–83 (Fla. 2016) (per curiam). Florida’s retroactivity doctrine is unique to Florida—it applies to a
limited class of constitutional decisions that announce changes “of fundamental significance,” which for procedural rules
requires consideration of three factors: “(a) the purpose to be served by the rule, (b) the extent of reliance on the prior rule,
and (c) the effect that retroactive application of the new rule would have on the administration of justice.” Asay v. State, 210
So. 3d 1, 16–17 (Fla. 2016) (per curiam) (citation omitted). For new constitutional rules involving the death penalty, Florida
courts also consider on a case-by-case basis whether fundamental fairness requires retroactive application of the rule. Mosley,
209 So. 3d at 1274 (citing James v. State, 615 So. 2d 668, 668 (Fla. 1993)).3 If *1333 that sounds broader than Teague, it is
for good reason—the Florida Supreme Court has itself acknowledged that this retroactivity standard is “more expansive” than
the federal rule. Johnson v. State, 904 So. 2d 400, 409 (Fla. 2005) (per curiam), abrogated on unrelated grounds by Asay,
210 So. 3d at 15–16.
3

The Florida Supreme Court is now considering whether it should recede from the retroactivity analysis employed in Asay, Mosley,
and James. See Owen v. State, No. SC18-810, April 24, 2019 order (directing parties to brief the issue). The uncertain fate of
Florida’s current retroactivity doctrine offers another reason that we cannot simply rely on a state retroactivity decision as a basis
for federal habeas relief. If the state doctrine were to change during our review, would we then be faced with the question of
whether to apply the state’s new retroactivity doctrine—retroactively?

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 356

5

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

All that to say, Florida may make its own choice about the retroactivity of a given case as a matter of state law. And for
Hurst, it has done so. Using its own standard, the Florida Supreme Court decided that Hurst would apply retroactively in
state collateral review proceedings for petitioners whose convictions had not yet become final when the U.S. Supreme Court
decided Ring v. Arizona; Ring held in 2002 that the Sixth Amendment requires a jury (rather than a judge) to find the
aggravating factors necessary to impose the death penalty. See Mosley, 209 So. 3d at 1283 (citing Ring v. Arizona, 536 U.S.
584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002)). The Florida Supreme Court reasoned that because Hurst struck down
Florida’s capital sentencing scheme based on Ring, prisoners whose cases were still pending on direct appeal when Ring was
decided “should not suffer due to the United States Supreme Court’s fourteen-year delay in applying Ring to Florida.” Id.
Following that rule, because Knight’s conviction became final ten years after Ring was decided, the Florida Supreme Court
applied Hurst retroactively in his postconviction proceeding. Knight, 225 So. 3d at 682.
But that state-law retroactivity determination has no significance in federal court. Unlike state courts, lower federal courts are
not free to create our own rules of retroactivity—if the government raises the issue, a Teague analysis is mandatory. Banks I,
536 U.S. at 271–72, 122 S.Ct. 2147. As we have said, “States may exercise their collateral review power without regard to
the Teague doctrine. Their doing so has no effect on later federal review.” Glock v. Singletary, 65 F.3d 878, 890–91 (11th
Cir. 1995) (en banc). So we are bound to follow Teague’s retroactivity principles whether or not the state court chose to
apply the new rule in its own collateral proceeding. See, e.g., Banks I, 536 U.S. at 271–72, 122 S.Ct. 2147.
Here, then, we must conduct our own retroactivity analysis, using the standards articulated in Teague. And to repeat: Teague
retroactivity is a “threshold question in every habeas case.” Caspari v. Bohlen, 510 U.S. 383, 389, 114 S.Ct. 948, 127
L.Ed.2d 236 (1994). When “issues of both retroactivity and application of constitutional doctrine are raised,” we must decide
the retroactivity issue first. Bowen v. United States, 422 U.S. 916, 920, 95 S.Ct. 2569, 45 L.Ed.2d 641 (1975). Where the
State raises the issue, therefore, “federal habeas corpus courts must apply Teague before considering the merits” of the
petitioner’s claims. Beard v. Banks (Banks II), 542 U.S. 406, 412, 124 S.Ct. 2504, 159 L.Ed.2d 494 (2004) (emphasis in
original) (internal quotation marks and citation omitted).
What’s more, if a constitutional claim is Teague-barred, we do not reach its merits. See, e.g., id. at 410 n.2, 124 S.Ct. 2504.
That is because the Supreme Court’s “jurisprudence concerning the ‘retroactivity’ of ‘new rules’ of constitutional law is
primarily concerned, not with the question whether a constitutional violation occurred, but with the availability or
nonavailability of remedies.” Danforth, 552 U.S. at 290–91, 128 S.Ct. 1029. If the holding relied on qualifies as a new rule
and does not meet Teague’s strict requirements for retroactivity, *1334 then the claim is not redressable here—the
“nonretroactivity principle prevents a federal court from granting habeas corpus relief to a state prisoner based on a rule
announced after his conviction and sentence became final.” Caspari, 510 U.S. at 389, 114 S.Ct. 948 (emphasis in original).
And as we have said before, if “the court cannot relieve the harm of which a plaintiff complains, the court should not take the
case; in the absence of an effective remedy its decision can amount to nothing more than an advisory opinion.” Wymbs v.
Republican State Exec. Comm., 719 F.2d 1072, 1085 (11th Cir. 1983).
Our authority to overturn state convictions is limited, and the retroactivity principles articulated in Teague are tailored to
those limitations. See Danforth, 552 U.S. at 277, 128 S.Ct. 1029. The fact that state courts do not face the same constraints on
collateral review of their own criminal proceedings as we do does not relieve us of the obligation to apply federal
retroactivity standards. See id. at 280–81, 128 S.Ct. 1029; Banks I, 536 U.S. at 271, 122 S.Ct. 2147. In fact, our narrow
authority as federal courts to disrupt final state-court convictions reflects our recognition of the states’ own sovereignty. So
Florida may design and apply its retroactivity principles as generously as it wishes. But notwithstanding Florida’s decision to
apply Hurst—or any future decision—retroactively as a matter of state law, as a federal court we are required to perform the
Teague analysis to determine whether prisoners can receive retroactive relief under federal law.
In sum, if Hurst announced a new rule of constitutional law, but one that does not fall into one of the exceptions to Teague’s
bar on retroactivity, Knight cannot obtain federal habeas relief for any Hurst error in his sentence—regardless of what Florida
may choose to do under state law. And if Knight cannot obtain federal habeas relief for his Hurst claim in any event, we may
not offer an advisory opinion on whether the claim could have merit.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 357

6

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

III.

A.
Turning to Teague, our analysis has three steps. First, we determine the date when the petitioner’s conviction became final.
Banks II, 542 U.S. at 411, 124 S.Ct. 2504. This happens when the United States Supreme Court “affirms a conviction on the
merits on direct review or denies a petition for a writ of certiorari, or when the time for filing a certiorari petition expires.”
Clay v. United States, 537 U.S. 522, 527, 123 S.Ct. 1072, 155 L.Ed.2d 88 (2003). Here, the Court denied Knight’s petition
for a writ of certiorari on May 14, 2012—more than three years before Hurst was decided. Knight, 566 U.S. at 998, 132 S.Ct.
2398.
Second, if the rule that the petitioner wants to apply had not been announced by that final-conviction date, we “assay the legal
landscape” as it existed at the time and determine whether existing precedent compelled the rule—that is, whether the case
announced a new rule or applied an old one. Banks II, 542 U.S. at 413, 124 S.Ct. 2504. If—and only if—the holding was
“dictated by precedent existing at the time the defendant’s conviction became final,” then the rule is not new and may be
applied retroactively on federal habeas review (indeed, it must be). Caspari, 510 U.S. at 390, 114 S.Ct. 948 (emphasis in
original) (quoting Teague, 489 U.S. at 301, 109 S.Ct. 1060). And that is not a light test—a rule is not dictated by prior
precedent “unless it would have been ‘apparent to all reasonable jurists.’ ” Chaidez v. United States, 568 U.S. 342, 347, 133
S.Ct. 1103, 185 L.Ed.2d 149 (2013) (quoting *1335 Lambrix v. Singletary, 520 U.S. 518, 528, 117 S.Ct. 1517, 137 L.Ed.2d
771 (1997)). The fact that a decision is “within the logical compass of” or even “controlled by” prior precedent is not
conclusive in the Teague analysis. Butler v. McKellar, 494 U.S. 407, 415, 110 S.Ct. 1212, 108 L.Ed.2d 347 (1990) (internal
quotation marks and citation omitted). To “ ‘dictate’ a result, prior precedent must be specific; it is not enough that it name
the general principle from which the assertedly new rule sprang.” Glock, 65 F.3d at 884.
Knight argues that Ring v. Arizona dictated the rule in Hurst. In Ring, the Supreme Court held that Arizona’s capital
sentencing scheme, which required judges alone to hear penalty-phase evidence and make factual findings relevant to the
imposition of the death penalty, violated the defendant’s Sixth Amendment right to a jury trial. 536 U.S. at 588–89, 122 S.Ct.
2428. In doing so, the Court explicitly overruled its precedent upholding Arizona’s death penalty sentencing scheme, “to the
extent that it allows a sentencing judge, sitting without a jury, to find an aggravating circumstance necessary for imposition
of the death penalty.” Id. at 609, 122 S.Ct. 2428 (emphasis added) (overruling Walton v. Arizona, 497 U.S. 639, 647–49, 110
S.Ct. 3047, 111 L.Ed.2d 511 (1990)).
Knight wants us to find that the new Hurst rule is actually the old Ring rule for an obvious reason—if the rule is not new, and
instead was binding on lower courts at the time of Knight’s conviction, then he is entitled to the benefit of the rule on federal
habeas review. See Yates v. Aiken, 484 U.S. 211, 216–17 & n.3, 108 S.Ct. 534, 98 L.Ed.2d 546 (1988). But Ring did not
dictate the Supreme Court’s later invalidation of Florida’s death penalty sentencing scheme in Hurst. In fact, the Ring Court
specifically acknowledged that Florida’s capital sentencing procedure differed from the Arizona scheme that it rejected. See
Ring, 536 U.S. at 607–08 & n.6, 122 S.Ct. 2428 (categorizing state capital sentencing schemes according to jury involvement
in sentencing). In Arizona, the judge alone made the factual findings necessary to impose the death penalty and imposed that
penalty entirely apart from the jury. See id. at 588, 122 S.Ct. 2428. Florida’s scheme, in contrast, incorporated an advisory
jury that considered penalty-phase evidence and recommended a sentence of life or death to the court. Only after the jury’s
recommendation did the judge impose a sentence. See id. at 608 n.6, 122 S.Ct. 2428; Fla. Stat. Ann. § 921.141 (2001).
Hurst’s conclusion that Florida’s “hybrid” death penalty sentencing system violated the Sixth Amendment was not “apparent
to all reasonable jurists” when Knight’s convictions became final in 2012. We venture to count ourselves and our colleagues
on this Court as members of that distinguished group. And in Evans v. Secretary, Florida Department of Corrections, we
held that Ring did not invalidate Florida’s capital sentencing scheme. 699 F.3d 1249, 1264–65 (11th Cir. 2012). We found it
significant that Florida’s statute—unlike the Arizona law at issue in Ring—required the penalty phase jury to find that
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 358

7

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

sufficient aggravating circumstances existed before it could recommend a death sentence, and directed the sentencing court to
give “great weight” to the jury’s advisory verdict. Id. at 1261 (citation omitted). We also noted that the Supreme Court had
taken obvious pains in Ring to distinguish hybrid systems like Florida’s from the “judge-only” sentencing scheme in Arizona
and concluded that such distinctions would not have been necessary if the Court had intended to strike down both systems.
Id. at 1262.
And we were not the only ones. In fact, Justice Alito wrote along those same lines in his dissenting opinion in Hurst:
“Although *1336 the Court suggests that today’s holding follows ineluctably from Ring, the Arizona sentencing scheme at
issue in that case was much different from the Florida procedure now before us.” 136 S. Ct. at 625 (Alito, J., dissenting).
After describing the “critically important role” of the advisory jury in Florida’s death penalty sentencing scheme, Justice
Alito concluded that the “decision in Ring did not decide whether this procedure violates the Sixth Amendment, and I would
not extend Ring to cover the Florida system.” Id. at 626. Clearly, reasonable jurists could—and did—disagree that Ring
compelled the outcome in Hurst. The Alito dissent and this Court’s pre-Hurst holding strongly indicate that Hurst announced
a new constitutional rule rather than applying an old one. See Banks II, 542 U.S. at 415, 124 S.Ct. 2504.
That conclusion is only strengthened by the fact that Ring did not specifically address the continued validity of the Supreme
Court’s precedents upholding Florida’s death-penalty sentencing system—Spaziano v. Florida, 468 U.S. 447, 104 S.Ct. 3154,
82 L.Ed.2d 340 (1984), and Hildwin v. Florida, 490 U.S. 638, 109 S.Ct. 2055, 104 L.Ed.2d 728 (1989) (per curiam). And the
Court has repeatedly instructed us to follow its precedents, even if later decisions appear to undermine them, unless and until
the Court itself sets them aside. See, e.g., Bosse v. Oklahoma, ––– U.S. ––––, 137 S. Ct. 1, 2, 196 L.Ed.2d 1 (2016) (per
curiam) (“Our decisions remain binding precedent until we see fit to reconsider them, regardless of whether subsequent cases
have raised doubts about their continuing vitality.” (citation omitted)); Rodriguez de Quijas v. Shearson/Am. Express, Inc.,
490 U.S. 477, 484, 109 S.Ct. 1917, 104 L.Ed.2d 526 (1989). So Spaziano and Hildwin remained good law until the Court
explicitly overruled them in Hurst. See Saffle v. Parks, 494 U.S. 484, 488, 110 S.Ct. 1257, 108 L.Ed.2d 415 (1990)
(explaining that the “explicit overruling of an earlier holding no doubt creates a new rule”); see also Hurst, 136 S. Ct. at 623.
It is hard to imagine that the Supreme Court overruled those cases in Ring but forgot to say so until Hurst.
Because all these factors show that Hurst was not dictated by prior precedent—and in fact explicitly overruled existing
precedent upholding Florida’s death penalty sentencing scheme—we can see that the rule in Hurst, which led to a conclusion
that the Florida scheme was unconstitutional, was new.
Having determined that Hurst announced a new rule of constitutional law, we proceed to the final step in the Teague
analysis—whether Hurst “falls within either of the two exceptions to nonretroactivity.” Banks II, 542 U.S. at 411, 124 S.Ct.
2504. Those exceptions, again, include (1) holdings that create substantive (not procedural) rules that place “certain kinds of
primary, private individual conduct beyond the power of the criminal law-making authority to proscribe,” and (2) holdings
that constitute “watershed rules of criminal procedure.” Teague, 489 U.S. at 311–13, 109 S.Ct. 1060 (citation omitted).
The Hurst rule does not fit within either exception. To begin, substantive rules include decisions that change “the range of
conduct or the class of persons that the law punishes.” Schriro, 542 U.S. at 353, 124 S.Ct. 2519. Procedural rules, on the
other hand, “regulate only the manner of determining the defendant’s culpability.” Id. (emphasis in original). In considering
which category the Hurst rule falls into, we have a head start because the Supreme Court has already held that Ring
represented a “prototypical procedural rule[ ].” Id. And that makes sense: Ring changed the permissible procedure for
sentencing in a capital case when it required “that a jury rather than a *1337 judge find the essential facts” necessary to
impose the death penalty. See id. Because Hurst’s holding—that an advisory “jury’s mere recommendation is not enough” to
satisfy this procedural requirement—is an extension of the rule from Ring, we have no trouble concluding that Hurst also
announced a procedural rule, and not a substantive one. Hurst, 136 S. Ct. at 619.
The second exception is for “watershed rules of criminal procedure.” Banks II, 542 U.S. at 417, 124 S.Ct. 2504. This
exception is extremely limited in scope—it applies “only to a small core of rules” so fundamental to our criminal process that
it is “unlikely that many such components of basic due process have yet to emerge.” Id. (citations omitted). Indeed, the
watershed exception remains somewhat theoretical at this point; in the years following Teague, the Supreme Court has never
found a rule that fits. See id. And in “providing guidance as to what might fall within this exception,” the Court has
“repeatedly referred to the rule of Gideon v. Wainwright, 372 U. S. 335, 83 S.Ct. 792, 9 L.Ed.2d 799 (1963) (right to
counsel), and only to this rule.” Id. Knight does not contend that Hurst announced a new watershed rule that compares to
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 359

8

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

Gideon, and we do not see how it could have either. In short, Hurst meets neither exception, and therefore is not retroactive.

B.
Because the Hurst rule is not retroactive, Knight cannot receive federal habeas relief on his Hurst claim. That is as it must
be—we are conscientious about the fact that “Teague’s nonretroactivity principle acts as a limitation on the power of federal
courts to grant habeas corpus relief.” Id. at 412, 124 S.Ct. 2504 (internal quotation marks and citation omitted). And because
we would have no lawful remedy to offer even if we could identify an error, we must decline to consider whether any Hurst
error exists. That means, of course, that we also do not consider whether the un-found and un-remediable error could be
harmless.
Knight disputes this path. He argues that, even conceding the lack of an available remedy for any Hurst error, whether that
un-remediable error was harmless is itself a separate question of federal law under Brecht v. Abrahamson, 507 U.S. 619,
637–38, 113 S.Ct. 1710, 123 L.Ed.2d 353 (1993). He thus urges us to review the state court’s harmless-error analysis,
regardless of whether we reach the merits of his Hurst claim. We will not. It strains the imagination—as well as our
constitutional and institutional respect for state courts—to suppose that we cannot remedy an error, but that we can somehow
remedy an erroneous state-court conclusion that the error was harmless.
And Brecht does not stand for the proposition that Knight asserts in any event. While Brecht established the harmless-error
standard for collateral review of constitutional trial errors, it did not create a stand-alone federal claim severable from the
question of whether remediable error existed in the first place.4 See Williams v. Singletary, 114 F.3d 177, 180 (11th Cir.
1997) (per curiam), as amended on denial of reh’g (July 29, 1997). Some underlying violation of federal law that we can
address is a necessary predicate to federal *1338 habeas relief—unless we agree that an error has occurred, it makes no
difference whether the purported error was harmless. “We have consistently applied the Brecht harmless error standard only
after determining that there was an error.” Id.; cf. Wilson v. Corcoran, 562 U.S. 1, 6, 131 S.Ct. 13, 178 L.Ed.2d 276 (2010)
(per curiam) (“It is not enough to note that a habeas petitioner asserts the existence of a constitutional violation; unless the
federal court agrees with that assertion, it may not grant relief.” (emphasis in original)). There is no free-floating federal
constitutional right to infallible application of harmless-error principles.
4

As an aside, what Brecht really decided was that federal courts evaluating constitutional trial error on collateral review would
apply a more relaxed harmless-error standard—whether the error “had substantial and injurious effect or influence in determining
the jury’s verdict”—rather than the harmless-beyond-a-reasonable-doubt standard used on direct review. Brecht, 507 U.S. at 638,
113 S.Ct. 1710 (quoting Kotteakos v. United States, 328 U.S. 750, 776, 66 S.Ct. 1239, 90 L.Ed. 1557 (1946)).

And again, where our retroactivity doctrine forecloses the possibility of federal habeas relief for a constitutional error, we are
constrained to stop looking. See Bowen, 422 U.S. at 920, 95 S.Ct. 2569. The Supreme Court “consistently has declined to
address unsettled questions regarding the scope of decisions establishing new constitutional doctrine in cases in which it
holds those decisions nonretroactive,” and has instructed us to do the same. Id. at 920–21, 95 S.Ct. 2569. This directive
carries constitutional weight; as an Article III court, we are “without power to decide questions that cannot affect the rights of
litigants in the case” at hand. North Carolina v. Rice, 404 U.S. 244, 246, 92 S.Ct. 402, 30 L.Ed.2d 413 (1971) (per curiam).
So even if we found Hurst error in Knight’s sentencing, we would still be prohibited from issuing a writ of habeas corpus on
that ground because Hurst is not retroactively applicable to Knight under Teague. After all, Teague’s nonretroactivity
command is a limitation on our power, not a polite suggestion. Banks II, 542 U.S. at 412, 124 S.Ct. 2504. So our
opinion—whatever it might be—on Knight’s Hurst claim would be purely advisory. “And it is quite clear that the oldest and
most consistent thread in the federal law of justiciability is that the federal courts will not give advisory opinions.” Flast v.
Cohen, 392 U.S. 83, 96, 88 S.Ct. 1942, 20 L.Ed.2d 947 (1968) (internal quotation marks and citation omitted).
Where, as here, Teague bars relief before we reach the preliminary question of whether constitutional error occurred at all,
consideration of the secondary question of whether any such error was harmless would be a prohibited and pointless exercise
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 360

9

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

for both the petitioner and this Court. We therefore cannot grant Knight relief on his Hurst claim, whether or not it is cloaked
in the garb of harmless error.

IV.
We now turn to Knight’s other claim. The State presented extensive DNA evidence against him during the guilt phase of his
trial. Kevin Noppinger, a serologist with the Broward County Sheriff’s Office crime lab, testified that Knight had Odessia’s
blood on his hand and her DNA on his shirt when he was arrested. Fingernail scrapings from Odessia’s body showed that
she, in turn, had Knight’s DNA under her fingernails. Noppinger also tested samples from the bloody clothes (boxer shorts, a
shirt, and jean shorts) found under the bathroom sink. He found Knight’s blood mixed with Hanessia’s blood on the boxer
shorts, Odessia’s and Hanessia’s blood elsewhere on the boxer shorts and on the jean shorts, and Odessia’s blood on the shirt.
One of the State’s other experts was Kevin McElfresh of Bode Technology Group, whose DNA analysts had conducted
additional testing on different samples from the same items of clothing. In particular, McElfresh’s group analyzed DNA
samples from an unstained area of the waistband of the boxer shorts in an attempt to determine who owned them. Although
Bode’s initial report stated that Knight’s DNA was not on the waistband *1339 sample, McElfresh testified at trial that he
had conducted some additional analysis and determined that some of the DNA on the waistband could have been Knight’s.
Knight’s guilt-phase counsel consulted with DNA expert Dr. Norah Rudin, who was listed as a potential trial witness by the
defense. Dr. Rudin informed counsel that, although some of Noppinger’s sample labeling practices were sloppy, she
generally agreed with his conclusions about the sources of the DNA samples he analyzed. She was much more critical of
McElfresh’s analysis: she called his methods “fundamentally incorrect and inherently biased” and his testimony “incomplete
and misleading.” In her opinion, the DNA test results for the waistband samples were “inconclusive.” But Dr. Rudin did not
stop there—she also considered McElfresh’s testimony “relatively inconsequential when viewed in the context of the
biological evidence as a whole.” She told Knight’s counsel that she did not believe that she could help his case, and that she
would not call herself as an expert if she were in his shoes. Counsel, it appears, agreed with her perspective and did not call
her at trial.
Testimony indicates that one additional fact persuaded counsel that calling Dr. Rubin to quibble with McElfresh’s methods
would not be good trial strategy. At the time of Knight’s trial, Florida permitted a defendant who did not put up any evidence
at trial to give both initial and rebuttal closing arguments—an advantage ordinarily offered to the prosecution. Dr. Rudin
would have been Knight’s only witness, so calling her to testify would have meant giving up the opportunity to have the first
word and the last at closing. Given that fact, she would have largely corroborated Noppinger’s testimony while also costing
Knight an advantage at closing arguments.
Nonetheless, on state collateral review, Knight contended that his counsel provided constitutionally ineffective assistance by
failing to call Dr. Rudin as an expert. He argued that Dr. Rudin’s criticisms of McElfresh’s methods and the crime lab’s
labeling practices would have cast doubt on all of the State’s DNA evidence and significantly damaged the State’s case. The
Florida Supreme Court disagreed, finding that Knight had not met his burden on either prong of the two-part test for
ineffective assistance of counsel claims set out in Strickland. See Knight, 225 So. 3d at 672–74. Knight, however, argues that
the state court’s decision “was contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1).
To begin, the Florida Supreme Court correctly identified the governing standard. Strickland is the relevant “clearly
established” Supreme Court precedent for purposes of an ineffective-assistance claim. See Premo v. Moore, 562 U.S. 115,
118, 131 S.Ct. 733, 178 L.Ed.2d 649 (2011). Under Strickland, to succeed on a claim of ineffective assistance of counsel, a
defendant must show both that his attorney’s performance was deficient—that is, “that counsel’s representation fell below an
objective standard of reasonableness”—and that he was prejudiced by the inadequate performance. Strickland, 466 U.S. at
687–88, 104 S.Ct. 2052. In applying the first prong, courts “must indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance.” Id. at 689, 104 S.Ct. 2052. And to show prejudice, the
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 361

10

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

“defendant must show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id. at 694, 104 S.Ct. 2052.
*1340 The Strickland standard is “highly deferential,” as is the review of a state-court decision under AEDPA; “when the
two apply in tandem, review is ‘doubly’ so.” Harrington v. Richter, 562 U.S. 86, 105, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011)
(citations omitted). In reviewing a state court’s application of Strickland, therefore, a federal habeas court cannot conduct a
de novo review and reverse simply because it strongly disagrees with the state court’s conclusion. Id. at 102, 131 S.Ct. 770.
Instead, for Knight to succeed on his ineffective-assistance claim, we must conclude that the Florida Supreme Court’s
decision “was an objectively unreasonable application of the Strickland standard.” Allen v. Sec’y, Fla. Dep’t of Corr., 611
F.3d 740, 751 (11th Cir. 2010).
The Florida Supreme Court determined that counsel’s decision not to call Dr. Rudin at trial was reasonable trial strategy.
Knight, 225 So. 3d at 674. Whether the decision was actually a matter of strategy is a question of fact; thus, the state court’s
finding on that issue is presumed to be correct. Provenzano v. Singletary, 148 F.3d 1327, 1330 (11th Cir. 1998). We must
accept all factual findings made by the state court unless the petitioner rebuts the presumption of correctness “by clear and
convincing evidence.” 28 U.S.C. § 2254(e)(1); see also Wood v. Allen, 542 F.3d 1281, 1285 (11th Cir. 2008). Knight has not
presented any evidence to suggest that counsel’s decision was anything other than a matter of strategy, and we accept the
state court’s finding on that point.
Whether counsel’s strategic decision not to call Dr. Rudin was reasonable is a question of law, which we review through the
lens of AEDPA deference. See Ferrell v. Hall, 640 F.3d 1199, 1223–24 (11th Cir. 2011). In assessing an attorney’s
performance under Strickland, “strategic choices made after thorough investigation of law and facts relevant to plausible
options are virtually unchallengeable.” Strickland, 466 U.S. at 690, 104 S.Ct. 2052. “Which witnesses, if any, to call, and
when to call them, is the epitome of a strategic decision, and it is one that we will seldom, if ever, second guess.” Waters v.
Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995) (en banc). We have no reason to doubt the Florida Supreme Court’s conclusion
that counsel’s decision not to call an equivocal expert, in part to preserve an advantage at closing, was well within the wide
range of reasonably competent performance.
The Florida Supreme Court also determined that Knight had not met his burden of showing prejudice under Strickland
because there was no reasonable probability that Dr. Rudin’s testimony would have made a difference in the outcome of the
trial, given the weight of the evidence against him. See Knight, 225 So. 3d at 674. That conclusion was also reasonable.
Dr. Rudin generally agreed with Noppinger’s conclusions regarding the DNA evidence. With or without Dr. Rudin’s
testimony, therefore, there was no dispute that Knight had Odessia’s blood on his hand and her DNA on his shirt when he
was arrested, or that Knight’s DNA was found under Odessia’s fingernails. Knight’s blood—as well as Odessia’s blood and
Hanessia’s—was on the clothes discarded at the crime scene. And even if the jury had heard Dr. Rudin’s criticism of
McElfresh’s testimony that Knight could not be ruled out as a DNA contributor for the waistband of the boxer shorts, other
evidence showed that the clothes were his: the boxer shorts were the same brand and size as the ones that Knight was wearing
when he was arrested, and Knight’s cousin testified that the bloody shirt was one that Knight wore often.
*1341 And the evidence did not stop there. Knight was known to be home with Hanessia less than an hour before the
murders, and the jury heard evidence of ongoing tension with Odessia. Police found him near the scene of the murders
shortly after they arrived, and his answers to their questions were inconsistent with his appearance. All of that is in addition
to the testimony of an inmate housed with Knight at the Broward County jail, who testified that Knight confessed the crime
to him, providing a detailed description of events and a floorplan of the apartment. In short, even if the jury had entirely
discounted McElfresh’s testimony as a result of Dr. Rudin’s criticism of his testing methods, the remaining evidence against
Knight was so strong that the chance of a not-guilty verdict still would have been remote, to say the least.
The Florida Supreme Court’s conclusion that Knight failed to make the required showings of deficient performance and
prejudice was not an unreasonable application of Strickland.
***
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 362

11

Knight v. Florida Department of Corrections, 936 F.3d 1322 (2019)
28 Fla. L. Weekly Fed. C 238

In sum, we are prohibited from considering Knight’s Hurst claim by Teague’s rule of nonretroactivity, which eliminates any
possibility of relief regardless of whether there was an error and regardless of whether any error was harmless. And our
review of Knight’s ineffective-assistance claim shows that the state court’s ruling on that issue was not an unreasonable
application of governing Supreme Court precedent. We therefore affirm the district court’s denial of Knight’s federal habeas
petition.
AFFIRMED.
All Citations
936 F.3d 1322, 28 Fla. L. Weekly Fed. C 238
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 363

12

APPENDIX R

App 364

State v. Poole, --- So.3d ---- (2020)

2020 WL 3116597
Only the Westlaw citation is currently available.
Supreme Court of Florida.
STATE of Florida, Appellant/Cross-Appellee,
v.
Mark Anthony POOLE, Appellee/Cross-Appellant.
No. SC18-245
|
January 23, 2020
|
Rehearing Denied April 2, 2020

Synopsis
Background: After death sentence for capital murder was affirmed on direct appeal, 151 So.3d 402, defendant filed motion
for postconviction relief, challenging constitutionality of Florida’s death penalty scheme. The Circuit Court, 10th Judicial
Circuit, Polk County, Jalal A. Harb, J., denied guilt phase claims, but set aside sentence and ordered resentencing, under
Hurst v. Florida, 202 So.3d 40. State appealed.

Holdings: The Supreme Court held that:
in determining defendant’s eligibility for death penalty, issue was solely whether defendant jury found existence of one or
more aggravating circumstances, not whether they were “sufficient”;
decision whether to impose death sentence was not “element” that had to be submitted to jury and proven beyond reasonable
doubt, receding from Hurst v. State, 202 So.3d 40; and
Sixth Amendment right to jury trial did not require that jury’s sentence recommendation of death be unanimous.
Affirmed in part; remanded with instructions to reinstate sentence.
Lawson, J., specially concurred, with opinion.
Labarga, J., filed dissenting opinion, and concurred in part and dissented in part on denial of rehearing.
Opinion, 292 So.3d 694, superseded.
An Appeal from the Circuit Court in and for Polk County, Jalal A. Harb, Judge - Case No. 532001CF007078A0XXXX
Attorneys and Law Firms
Ashley Moody, Attorney General, Tallahassee, Florida, and Scott A. Browne, Chief Assistant Attorney General, Tampa,
Florida, for Appellant/Cross-Appellee
Eric Pinkard, Capital Collateral Regional Counsel, and James L. Driscoll Jr., David Dixon Hendry, and Rachel P. Roebuck,
Assistant Capital Collateral Regional Counsel, Middle Region, Temple Terrace, Florida; and Mark J. MacDougall and Z.W.
Julius Chen, Washington, District of Columbia, and Parvin Daphne Moyne of Akin Gump Strauss Hauer & Feld LLP, New
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 365

1

State v. Poole, --- So.3d ---- (2020)

York, New York, for Appellee/Cross-Appellant
Opinion
PER CURIAM.
*1 The State of Florida appeals from a postconviction order setting aside Mark Anthony Poole’s 2011 death sentence for the
2001 murder of Noah Scott. The sentence became final in 2015. Poole v. State (Poole II), 151 So. 3d 402 (Fla. 2014), cert.
denied, ––– U.S. ––––, 135 S. Ct. 2052, 191 L.Ed.2d 960 (2015).1 The trial court set aside the sentence and ordered a new
penalty phase proceeding after finding the sentence to have been imposed in violation of the United States and Florida
Constitutions as interpreted and applied in Hurst v. State, 202 So. 3d 40 (Fla. 2016). Arguing that Poole suffered no
constitutional deprivation in his sentencing proceeding, the State requests that we reexamine and partially recede from Hurst
v. State.
1

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.; State v. Fourth Dist. Court of Appeal, 697 So. 2d 70, 71 (Fla. 1997).

Poole filed a cross-appeal, arguing that his trial counsel’s concession of guilt on related non-homicide offenses violated his
Sixth Amendment right to counsel and constituted structural error requiring reversal of his convictions and a new guilt phase
trial.
We address the cross-appeal first because relief on Poole’s guilt phase postconviction claim would moot the sentencing issue.
The trial court rejected the guilt phase claim, and we affirm the trial court as to this issue because Poole did not preserve the
issue for review on appeal. As for the sentencing issue, we agree with the State that we must recede from Hurst v. State
except to the extent that it held that a jury must unanimously find the existence of a statutory aggravating circumstance
beyond a reasonable doubt. Accordingly, we reverse the portion of the trial court’s order setting aside Poole’s sentence.

BACKGROUND
The opinion on direct appeal set out the following facts:
Mark Anthony Poole was convicted of the first-degree murder of Noah Scott, attempted first-degree murder of Loretta
White, armed burglary, sexual battery of Loretta White, and armed robbery. Poole was convicted based on the following
facts presented at trial. On the evening of October 12, 2001, after playing some video games in the bedroom of their
mobile home, Noah Scott and Loretta White went to bed sometime between 11:30 p.m. and 12 a.m. Later during the night,
White woke up with a pillow over her face and Poole sitting on top of her. Poole began to rape and sexually assault her as
she begged Poole not to hurt her because she was pregnant. As White struggled and resisted, Poole repeatedly struck her
with a tire iron. She put her hand up to protect her head, and one of her fingers and part of another finger were severed by
the tire iron. While repeatedly striking White, Poole asked her where the money was. During this attack on White, Scott
attempted to stop Poole, but was also repeatedly struck with the tire iron. As Scott struggled to defend White, Poole
continued to strike Scott in the head until Scott died of blunt force head trauma. At some point after the attack, Poole left
the bedroom and White was able to get off the bed and put on clothes but she passed out before leaving the bedroom. Poole
came back in the bedroom and touched her vaginal area and said “thank you.” White was in and out of consciousness for
the rest of the night. She was next aware of the time around 8 a.m. and 8:30 a.m. when her alarm went off.
*2 When her alarm went off, White retrieved her cell phone and called 911. Shortly thereafter, police officers were
dispatched to the home. They found Scott unconscious in the bedroom and White severely injured in the hallway by the
bedroom. White suffered a concussion and multiple face and head wounds and was missing part of her fingers. Scott was
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 366

2

State v. Poole, --- So.3d ---- (2020)

pronounced dead at the scene. Evidence at the crime scene and in the surrounding area linked Poole to the crimes. Several
witnesses told police officers that they saw Poole or a man matching Poole’s description near the victims’ trailer on the
night of the crimes. Stanley Carter stated that when he went to the trailer park around 11:30 that night, he noticed a black
male walking towards the victims’ trailer. Carter’s observations were consistent with that of Dawn Brisendine, who knew
Poole and saw him walking towards the victims’ trailer around 11:30 p.m. Pamela Johnson, Poole’s live-in girlfriend,
testified that on that evening, Poole left his house sometime in the evening and did not return until 4:50 a.m.
Poole was also identified as the person selling video game systems owned by Scott and stolen during the crime. Ventura
Rico, who lived in the same trailer park as the victims, testified that on that night, while he was home with his cousin’s
girlfriend, Melissa Nixon, a black male came to his trailer and offered to sell him some video game systems. Rico agreed
to buy them for $50, at which point the black male handed him a plastic trash bag. During this exchange, Nixon got a good
look at the man and later identified Poole when the police showed her several photographs. Nixon testified that the next
morning, when her son was going through the trash bag, he noticed that one of the systems had blood on it.
Pamela Johnson also testified that on the same morning, she found a game controller at the doorstep of Poole’s house, she
handed it to Poole, and Poole put it in his nightstand. She indicated that she had never seen that game controller before that
morning and did not know what it would be used for because neither she nor Poole owned any video game systems.
During the search of Poole’s residence, the police retrieved this controller. In addition, the police retrieved a blue Tommy
Hilfiger polo shirt and a pair of Poole’s Van shoes, shoes Poole said he had been wearing on the night of the crimes. A
DNA analysis confirmed that the blood found on the Sega Genesis box, Super Nintendo, Sega Dreamcast box and
controller matched the DNA profile of Scott. Also, a stain found on the left sleeve of Poole’s blue polo shirt matched
White’s blood type. The testing of a vaginal swab also confirmed that the semen in White was that of Poole. A footwear
examination revealed that one of the two footwear impressions found on a notebook in the victims’ trailer matched Poole’s
left Van shoe. The tire iron used in the crimes was found underneath a motor home located near the victims’ trailer. A
DNA analysis determined that the blood found on this tire iron matched Scott’s DNA profile.
Poole v. State (Poole), 997 So. 2d 382, 387-88 (Fla. 2008) (footnote omitted).
The trial began on April 21, 2005, and the jury returned a verdict six days later finding Poole guilty of all charges, namely
first-degree murder of Noah Scott, attempted first-degree murder of Loretta White, armed burglary, sexual battery of Loretta
White, and armed robbery. The penalty phase began on May 2, 2005. The jury recommended death by a vote of twelve to
zero two days later, which allowed the trial court to consider a death sentence under section 921.141, Florida Statutes (2005).
On August 25, 2005, the trial court sentenced Poole to death.
On direct appeal Poole raised a number of challenges to his convictions and death sentence, including that his death sentence
violated the dictates of Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), because Florida’s statutory
sentencing scheme did not require the jury to unanimously find all of the aggravators necessary to impose a death sentence.
Poole, 997 So. 2d at 396. This Court rejected that argument, holding that Florida’s capital sentencing scheme was not
unconstitutional pursuant to Ring. Id. Alternatively, we held that Poole’s case fell outside the scope of Ring because the jury
had unanimously found that Poole committed other violent felonies during the murder—specifically attempted first-degree
murder, sexual battery, armed burglary, and armed robbery. Id. Those convictions unanimously found by Poole’s jury formed
the basis of one of the statutory aggravators found by the trial court—that Poole had prior violent felony convictions. Id.
Thus, this case fell “outside the scope of Ring.” Id. However, this Court determined that Poole was entitled to a new penalty
phase proceeding because the prosecutor improperly introduced inadmissible nonstatutory aggravation by cross-examining
witnesses about unproven prior arrests and the unproven content of a tattoo on Poole’s body. Id. at 393-94. We vacated
Poole’s sentence of death and remanded for a new penalty phase. Id. at 394.
*3 On June 29, 2011, following a new penalty phase, the jury recommended death by a vote of 11 to 1. Poole II, 151 So. 3d
at 408. The trial court found four aggravating circumstances: (1) the contemporaneous conviction for the attempted murder of
Loretta White (very great weight); (2) the capital felony occurred during the commission of burglary, robbery, and sexual
battery (great weight); (3) the capital felony was committed for financial gain (merged with robbery but not burglary or
sexual battery) (less than moderate weight); and (4) the capital felony was committed in a heinous, atrocious, or cruel (HAC)
manner (very great weight). Id. Again, three of these four aggravators were found unanimously by the jury because the jury
found Poole guilty of the other charged crimes on which these aggravators are based.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 367

3

State v. Poole, --- So.3d ---- (2020)

The trial court found two statutory mitigating circumstances: (1) the capital felony was committed while the defendant was
under the influence of extreme mental or emotional disturbance (moderate to great weight); and (2) the defendant’s capacity
to appreciate the criminality of his conduct or conform his conduct to the requirements of the law was substantially impaired
(great weight). It found eleven nonstatutory mitigating circumstances:

(1) borderline intelligence (little weight); (2) defendant dropped out of school (very little weight); (3)
loss of father figure had emotional effect and led to his drug abuse (very little weight); (4) defendant
sought help for drug problem (very little weight); (5) defendant had an alcohol problem at time of
crime (very little weight); (6) drug abuse problem at time of crime (very little weight); (7) defendant
has a relationship with son (very little weight); (8) strong work ethic (very little weight); (9) defendant
is a religious person (very little weight); (10) dedicated uncle (very little weight); and (11) defendant
needs treatment for mental disorder unrelated to substance abuse (very little weight). The trial court
determined that the proposed mitigator that the defendant has severe chronic alcohol and cocaine
problem for which he needs treatment was not proven.

Id.
The trial court concluded that the aggravating factors far outweighed the mitigating circumstances; specifically, the HAC
aggravator alone outweighed all mitigating circumstances. Id. Accordingly, the trial court sentenced Poole to death on
August 19, 2011, and we upheld the trial court’s resentencing on June 26, 2014. Id. at 419.
On April 8, 2016, Poole filed his initial postconviction motion, raising two issues pertinent to this appeal: (1) counsel was
ineffective for conceding that Poole committed the nonhomicide offenses; and (2) Poole is entitled to resentencing because
the jury did not make the findings required by Hurst v. State.
The trial court entered an interim order vacating Poole’s death sentence pursuant to Hurst v. State, finding the error was not
harmless because the jury’s recommendation of death was not unanimous. Following an evidentiary hearing, the trial court
denied Poole’s claim that counsel was ineffective for conceding guilt on the nonhomicide offenses. The trial court granted the
State’s request for a stay of its order requiring a new penalty phase, pending this appeal.

GUILT PHASE CLAIM
Poole argues that he is entitled to a new trial because, over his express objections, defense counsel conceded Poole’s guilt on
the non-homicide offenses. Poole bases this claim on McCoy v. Louisiana, ––– U.S. ––––, 138 S. Ct. 1500, 200 L.Ed.2d 821
(2018).2 The State argues that Poole failed to preserve the specific legal argument that he raises on appeal and thus this issue
was waived. We agree.
2

In McCoy, the Supreme Court reviewed a state supreme court decision affirming the petitioner’s murder conviction on direct
appeal. See McCoy, 138 S. Ct. at 1507. The Supreme Court decided McCoy on direct appeal. Because we have concluded that
Poole did not preserve his guilt phase claim for appellate review, we need not address how McCoy’s holding applies in the
postconviction context. See Weaver v. Massachusetts, ––– U.S. ––––, 137 S. Ct. 1899, 198 L.Ed.2d 420 (2017).

*4 “In order to preserve an issue for appeal, the issue ‘must be presented to the lower court and the specific legal argument or
grounds to be argued on appeal must be part of that presentation.’ ” Bryant v. State, 901 So. 2d 810, 822 (Fla. 2005)
(emphasis added) (quoting Archer v. State, 613 So. 2d 446, 448 (Fla. 1993)). Raising a claim for the first time during closing
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 368

4

State v. Poole, --- So.3d ---- (2020)

arguments is insufficient to preserve a postconviction claim. Deparvine v. State, 146 So. 3d 1071, 1103 (Fla. 2014). Rather,
the specific legal argument must be raised in the postconviction motion. Wickham v. State, 124 So. 3d 841, 853 (Fla. 2013).
Applying these principles here, we conclude that Poole did not preserve this claim for appellate review.
In his postconviction motion, Poole argued that counsel’s concession of guilt on the nonhomicide offenses violated Poole’s
rights to remain silent and to the attorney-client privilege under the Fifth and Sixth Amendments. Poole emphasized the
specific wording of counsel’s concession, noting that counsel told the jury that Poole “acknowledges” that he committed
burglary, sexual battery, and robbery. Poole contrasted “acknowledging” that a defendant committed a crime with simply
conceding that a charge has been proven by the state. In the former case, according to Poole’s motion, “the attorney-client
privilege is violated, and the right to remain silent is waived, opening the door to rebuttal evidence and argument.”
The argument that Poole now raises on appeal did not appear until written closing argument. Only then did Poole assert that
counsel’s concession of guilt without Poole’s consent violated Poole’s constitutional rights. Poole’s written closing argument
presented this argument as one of “two errors,” each of which “individually would constitute grounds for vacating Mr.
Poole’s conviction.” (The other error, of course, was the one he asserted in his postconviction motion—the alleged violation
of Poole’s rights to remain silent and to the attorney client privilege.) Poole presented each argument under a separate
heading in his closing argument memorandum and said that the second argument (his original argument) provided “additional
grounds for vacating Mr. Poole’s conviction.”
Poole’s postconviction motion did not present the specific legal argument that he now presses on appeal. Raising the
argument in his post-hearing, written closing argument memorandum was insufficient. Therefore, we hold that Poole did not
preserve his guilt phase argument for our review on appeal.

SENTENCING PHASE CLAIM
We now turn to the State’s argument that Poole suffered no constitutional deprivation in his sentencing proceeding and that
we should partially recede from Hurst v. State.

I. Statutory and Legal Background

A. Florida’s Capital Sentencing Law
Poole was sentenced to death under the familiar statutory framework that governed Florida’s capital sentencing proceedings
from 1973 until 2016. Florida adopted that framework in response to the Supreme Court’s decision in Furman v. Georgia,
408 U.S. 238, 92 S.Ct. 2726, 33 L.Ed.2d 346 (1972). “A fair statement of the consensus expressed by the Court in Furman is
that ‘where discretion is afforded a sentencing body on a matter so grave as the determination of whether a human life should
be taken or spared, that discretion must be suitably directed and limited so as to minimize the risk of wholly arbitrary and
capricious action.’ ” Zant v. Stephens, 462 U.S. 862, 874, 103 S.Ct. 2733, 77 L.Ed.2d 235 (1983) (quoting Gregg v. Georgia,
428 U.S. 153, 189, 96 S.Ct. 2909, 49 L.Ed.2d 859 (1976) (plurality opinion)). The Supreme Court has fleshed out this
principle by requiring states to narrow the class of death-eligible murders and by mandating individualized sentencing that
considers offender-specific mitigating circumstances.
*5 Florida’s capital sentencing procedures begin with an evidentiary hearing at which the judge and jury hear evidence
relevant to the nature of the crime and the character of the defendant, including statutory aggravating and mitigating
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 369

5

State v. Poole, --- So.3d ---- (2020)

circumstances. § 921.141(1), Fla. Stat. (2011).3 Next the jury deliberates and renders an “advisory sentence” to the court. §
921.141(2), Fla. Stat. Finally, “[n]otwithstanding the recommendation of a majority of the jury, the court, after weighing the
aggravating and mitigating circumstances,” must enter a sentence of life imprisonment or death. § 921.141(3), Fla. Stat. If the
court imposes a sentence of death, it is required to issue written findings “upon which the sentence of death is based as to the
facts: (a) [t]hat sufficient aggravating circumstances exist as enumerated in subsection (5); and (b) [t]hat there are insufficient
mitigating circumstances to outweigh the aggravating circumstances.” Id.
3

For simplicity, unless otherwise indicated, throughout our discussion we refer in the present tense to Florida’s capital sentencing
law as it existed in 2011, when Poole was resentenced.

Soon after the legislature adopted this capital sentencing framework, this Court in State v. Dixon, 283 So. 2d 1 (Fla. 1973),
considered whether the new law passed muster under Furman. The Court concluded that it did, because the statutory scheme
“controlled and channeled” discretion “until the sentencing process becomes a matter of reasoned judgment.” Id. at 10.

B. From Proffitt to Walton
In several cases that are directly relevant to the issues before us now, the Supreme Court itself considered and rejected Sixth
and Eighth Amendment challenges to Florida’s post-Furman capital sentencing law. In Proffitt v. Florida, 428 U.S. 242, 96
S.Ct. 2960, 49 L.Ed.2d 913 (1976), the Court took up the question whether Florida’s capital sentencing system complied with
the Eighth Amendment. The Court noted that, in Florida, the “jury’s verdict is determined by majority vote. It is only
advisory; the actual sentence is determined by the trial judge.” Id. at 248-49, 96 S.Ct. 2960. No matter, the Court concluded,
because the Court’s decisions had “never suggested that jury sentencing is constitutionally required.” Id. at 252, 96 S.Ct.
2960. The Court’s ultimate holding in Proffitt was that “[o]n its face the Florida system ... satisfies the constitutional
deficiencies identified in Furman.” Id. at 253, 96 S.Ct. 2960.
Next, in Spaziano v. Florida, 468 U.S. 447, 457, 104 S.Ct. 3154, 82 L.Ed.2d 340 (1984), the Supreme Court considered
whether Florida’s capital sentencing system violated the Sixth or Eighth Amendment by allowing the trial judge to override a
jury’s recommendation of life. Id. at 457, 104 S.Ct. 3154. As to the Sixth Amendment, the Court observed that, “despite its
unique aspects, a capital sentencing proceeding involves the same fundamental issue involved in any other sentencing
proceeding—a determination of the appropriate punishment to be imposed on an individual.” Id. at 459, 104 S.Ct. 3154. And
“[t]he Sixth Amendment never has been thought to guarantee a right to a jury determination of that issue.” Id. The Court also
found no Eighth Amendment violation in the possibility of a jury override: “We are not persuaded that placing the
responsibility on a trial judge to impose the sentence in a capital case is so fundamentally at odds with contemporary
standards of fairness and decency that Florida must be required to alter its scheme and give final authority to the jury to make
the life-or-death decision.” Id. at 465, 104 S.Ct. 3154. The Court concluded that “there is no constitutional imperative that a
jury have the responsibility of deciding whether the death penalty should be imposed.” Id.
Finally, in Hildwin v. Florida, 490 U.S. 638, 639, 109 S.Ct. 2055, 104 L.Ed.2d 728 (1989), the Supreme Court considered a
claim that “the Florida capital sentencing scheme violates the Sixth Amendment because it permits the imposition of death
without a specific finding by the jury that sufficient aggravating circumstances exist to qualify the defendant for capital
punishment.” The Court rejected the claim, reasoning that “the existence of an aggravating factor here is not an element of
the offense but instead is ‘a sentencing factor that comes into play only after the defendant has been found guilty.’ ” Id. at
640, 109 S.Ct. 2055 (quoting McMillan v. Pennsylvania, 477 U.S. 79, 86, 106 S.Ct. 2411, 91 L.Ed.2d 67 (1986)). Based on
that premise, the Court held that “the Sixth Amendment does not require that the specific findings authorizing the imposition
of the sentence of death be made by the jury.” Id. at 640-41, 109 S.Ct. 2055.
*6 A final, non-Florida case bears explaining before we turn to the cases that led directly to Hurst v. State. Decided one year
after Spaziano, Walton v. Arizona, 497 U.S. 639, 110 S.Ct. 3047, 111 L.Ed.2d 511 (1990), involved a challenge to Arizona’s
capital sentencing law, which required the trial court to find and weigh aggravating and mitigating circumstances before
imposing a death sentence. The Arizona law under review did not include any role for the jury in the capital sentencing
process. The petitioner in Walton argued that “every finding of fact underlying the sentencing decision must be made by a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 370

6

State v. Poole, --- So.3d ---- (2020)

jury, not by a judge” and that therefore “the Arizona scheme would be constitutional only if a jury decides what aggravating
and mitigating circumstances are present in a given case and the trial judge then imposes sentence based on those findings.”
Id. at 647, 110 S.Ct. 3047. The Court rejected that claim, relying largely on Hildwin and the Court’s other decisions
upholding Florida’s capital sentencing system.
The argument that Florida’s advisory jury verdict materially distinguished the two states’ systems did not persuade the Court.
Instead, the Court emphasized that Florida’s capital jury does not make specific factual findings about aggravators and
mitigators and that the jury’s recommendation is not binding on the trial judge. Id. at 647-48, 110 S.Ct. 3047. The Court
reasoned that “[a] Florida trial court no more has the assistance of a jury’s findings of fact with respect to sentencing issues
than does a trial judge in Arizona.” Id. at 648, 110 S.Ct. 3047. The Court also rejected the argument that, in Arizona,
aggravating factors were “elements of the offense.” Id. The Court ultimately held that “the Arizona capital sentencing scheme
does not violate the Sixth Amendment.” Id. at 649, 110 S.Ct. 3047.

C. Apprendi and Ring
The Court’s retreat from the rationale underlying the Sixth Amendment holdings of Spaziano, Hildwin, and
Walton—specifically, that aggravators are sentencing factors rather than de facto elements of the crime of capital
murder—began with the seminal case of Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000).
Apprendi had pleaded guilty to illegal possession of a firearm, an offense that carried a maximum punishment of ten years’
imprisonment. Later, in a separate sentencing proceeding, the trial court found by a preponderance of the evidence that
Apprendi had also violated a New Jersey hate crime sentencing statute. That judicial finding resulted in Apprendi being
sentenced to a term of imprisonment two years above the statutory maximum for the base firearm offense. The Supreme
Court described the question presented in Apprendi as whether the Fourteenth Amendment’s Due Process Clause “requires
that a factual determination authorizing an increase in the maximum prison sentence for an offense from 10 to 20 years be
made by a jury on the basis of proof beyond a reasonable doubt.” Id. at 469, 120 S.Ct. 2348.
The Court’s analysis proceeded from the foundational principle that the Fifth Amendment (due process) and the Sixth
Amendment (jury trial) combine to “entitle a criminal defendant to a ‘jury determination ... of every element of the crime
with which he is charged, beyond a reasonable doubt.’ ” Id. at 477, 120 S.Ct. 2348 (quoting United States v. Gaudin, 515
U.S. 506, 510, 115 S.Ct. 2310, 132 L.Ed.2d 444 (1995)). From that principle the Court derived the more specific rule that is
the central holding of Apprendi: “[I]t is unconstitutional for a legislature to remove from the jury the assessment of facts that
increase the prescribed range of penalties to which a criminal defendant is exposed. It is equally clear that such facts must be
established by proof beyond a reasonable doubt.” Id. at 490, 120 S.Ct. 2348 (Stevens, J., concurring) (alteration in original)
(quoting Jones v. United States, 526 U.S. 227, 252-53, 119 S.Ct. 1215, 143 L.Ed.2d 311 (1999)). The only exception to this
rule is “the fact of a prior conviction.” Id.
Most pertinent to our case here, the Court in Apprendi rejected New Jersey’s argument that the factual finding supporting
Apprendi’s hate crime sentencing enhancement was a mere “sentencing factor,” rather than a fact that constitutes an element
of the offense. Id. at 494, 120 S.Ct. 2348. The Court stated: “Despite what appears to us the clear ‘elemental’ nature of the
factor here, the relevant inquiry is one not of form but of effect—does the required finding expose the defendant to a greater
punishment than that authorized by the jury’s guilty verdict[.]” Id.
*7 In the penultimate paragraph of its opinion, the Court anticipated and rejected the argument that “the principles guiding”
its decision “render invalid state capital sentencing schemes requiring judges, after a jury verdict holding a defendant guilty
of a capital crime, to find specific aggravating factors before imposing a sentence of death.” Id. at 496, 120 S.Ct. 2348. The
Court deemed the capital cases “not controlling” because, according to the Court, the offenses of conviction in those cases
already subjected the defendant to a sentence of death; the aggravating factor findings merely informed the judge’s choice of
life or death. Id. This reasoning turned out to be short-lived.
Two years later, Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), gave the Supreme Court the
opportunity to apply its Apprendi rule in the capital sentencing context. As we explained earlier, capital sentencing hearings
under Arizona law were conducted by the trial court alone, and the court made all required findings. Id. at 592, 122 S.Ct.
2428. As in Florida, Arizona law provided that a death sentence could not be imposed unless at least one aggravating factor
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 371

7

State v. Poole, --- So.3d ---- (2020)

was found to exist beyond a reasonable doubt. Id. at 597, 122 S.Ct. 2428. The Court framed the question presented as
“whether that aggravating factor may be found by the judge, as Arizona law specifies, or whether the Sixth Amendment’s
jury trial guarantee ... requires that the aggravating factor determination be entrusted to the jury.” Id.
The Court acknowledged its earlier decision in Walton upholding Arizona’s capital sentencing scheme against a similar Sixth
Amendment challenge. The Court recognized that Walton had characterized Arizona’s required aggravating factors as
“sentencing considerations” rather than “elements of the offense.” Id. at 598, 122 S.Ct. 2428. But the Court explained that
Apprendi had since clarified that the Sixth Amendment inquiry must focus on effect rather than form: “If a State makes an
increase in a defendant’s authorized punishment contingent on a finding of fact, that fact—no matter how the State labels
it—must be found by a jury beyond a reasonable doubt.” Id. at 602, 122 S.Ct. 2428.
With that baseline established, the Court revisited whether, as the Walton decision had assumed, a first-degree murder
conviction in Arizona necessarily included all the jury findings necessary to expose the defendant to a death sentence. The
Court looked to an Arizona Supreme Court decision holding that the answer is no—“Defendant’s death sentence required the
judge’s factual findings.” Id. at 603, 122 S.Ct. 2428 (quoting State v. Ring, 200 Ariz. 267, 25 P.3d 1139, 1151 (2001)).
“Recognizing that the Arizona court’s construction of the State’s own law is authoritative,” the Court concluded that
“Walton, in relevant part, cannot survive the reasoning of Apprendi.” Id. The Court ended its opinion:
[W]e overrule Walton to the extent that it allows a sentencing judge, sitting without a jury, to find an aggravating
circumstance necessary for imposition of the death penalty. Because Arizona’s enumerated aggravating factors operate as
“the functional equivalent of an element of a greater offense,” the Sixth Amendment requires that they be found by a jury.
Id. at 609, 122 S.Ct. 2428 (citations omitted) (quoting Apprendi, 530 U.S. at 494 n.19, 120 S.Ct. 2348).
Justice Breyer declined to join the Court’s opinion. He concurred in the judgment, however, on the ground that he “believe[d]
that jury sentencing in capital cases is mandated by the Eighth Amendment.” Id. at 614, 122 S.Ct. 2428 (Breyer, J.,
concurring in the judgment).

D. Hurst v. Florida
It was not until Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016), that the Supreme Court addressed
the significance of Ring for the constitutionality of Florida’s capital sentencing procedure. Although it ultimately chose to
address only the Sixth Amendment in its decision, the Supreme Court granted certiorari on the question “[w]hether Florida’s
death sentencing scheme violates the Sixth Amendment or the Eighth Amendment in light of this Court’s decision in Ring v.
Arizona.” Hurst v. Florida, 575 U.S. 902, 902, 135 S.Ct. 1531, 191 L.Ed.2d 558 (2015).
*8 In his briefing to the Supreme Court, Hurst made a Sixth Amendment argument and an Eighth Amendment argument. His
Sixth Amendment argument was that “Florida’s capital sentencing scheme violates the Sixth Amendment under Ring v.
Arizona ... because it assigns to the judge alone the power to render a defendant eligible for the death penalty by finding
aggravating circumstances.” Reply Brief for Petitioner at 2, Hurst v. Florida, 136 S. Ct. 616 (2016) (No. 14-7505), 2015 WL
5138584 at *2. Hurst’s Eighth Amendment argument was that “Florida’s capital sentencing scheme also violates the Eighth
Amendment because it assigns to the judge the power to impose the death penalty.” Reply Brief for Petitioner at 5.
The Court had little trouble concluding that “the analysis the Ring Court applied to Arizona’s sentencing scheme applies
equally to Florida’s.” Hurst v. Florida, 136 S. Ct. at 621-22. Pointing to section 921.141(3), Florida Statutes (2010), the
Court noted that Florida law required the judge, not the jury, to find the “facts” necessary to impose the death penalty. Id. at
622. The Court said it was “immaterial” that Florida’s system, unlike Arizona’s, incorporated an advisory jury verdict. Id.
The Court rejected the State’s argument that “when Hurst’s sentencing jury recommended a death sentence, it ‘necessarily
included a finding of an aggravating circumstance.’ ” Id. (quoting the State’s brief). What mattered was that “the Florida
sentencing statute does not make a defendant eligible for death until ‘findings by the court that such person shall be punished
by death.’ ” Id. (quoting § 775.082(1), Fla. Stat. (2010)).
The Court ultimately held that “Florida’s sentencing scheme, which required the judge alone to find the existence of an
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 372

8

State v. Poole, --- So.3d ---- (2020)

aggravating circumstance, is therefore unconstitutional.” Id. at 624. And, paralleling the language it used in Ring to overrule
Walton, the Court overruled Spaziano and Hildwin “to the extent they allow a sentencing judge to find an aggravating
circumstance, independent of a jury’s factfinding, that is necessary for the imposition of the death penalty.” Id.
As we noted earlier, the Court’s opinion did not address Hurst’s Eighth Amendment argument. In fact, notwithstanding its
earlier order, the Court described itself as having granted certiorari to resolve only “whether Florida’s capital sentencing
scheme violates the Sixth Amendment in light of Ring.” Id. at 621. In a solo concurrence, Justice Breyer did address the
Eighth Amendment claim. Citing his own concurring opinion in Ring, he concluded that “the Eighth Amendment requires
that a jury, not a judge, make the decision to sentence a defendant to death.” Id. at 624 (Breyer, J., concurring in the
judgement) (quoting Ring, 536 U.S. at 614, 122 S.Ct. 2428).

E. Hurst v. State
When Hurst’s case returned to this Court on remand from the Supreme Court, it would have been reasonable to expect that
the application of Hurst v. Florida would be straightforward. Hurst had asked the Supreme Court to find that Florida’s capital
sentencing statute violated the Sixth Amendment “because it assigns to the judge alone the power to render a defendant
eligible for the death penalty by finding aggravating circumstances.” Reply Brief for Petitioner at 2, Hurst v. Florida, 136 S.
Ct. 616 (2016) (No. 14-7505), 2015 WL 5138584 at *2. In a relatively brief opinion that did not expand on Ring, the
Supreme Court agreed. As Justice Canady correctly observed in his Hurst v. State dissent, “Hurst v. Florida simply applies
the reasoning of Ring and Apprendi to Florida’s death penalty statute and concludes that the jury’s advisory role under
Florida law does not satisfy the requirements of the Sixth Amendment.” 202 So. 3d at 79 (Canady, J., dissenting). Years
before, while it awaited definitive guidance from the Supreme Court, this Court had already addressed what it would mean
“if Ring did apply in Florida”: “we read [Ring] as requiring only that the jury make the finding of ‘an element of a greater
offense.’ That finding would be that at least one aggravator exists ....” State v. Steele, 921 So. 2d 538, 546 (Fla. 2005)
(citation omitted) (quoting Ring, 536 U.S. at 609, 122 S.Ct. 2428).
*9 Nonetheless, this Court on remand concluded that Hurst v. Florida had far greater implications for Florida’s capital
sentencing law. The new rule announced in Hurst v. State was as follows:

[B]efore the trial judge may consider imposing a sentence of death, the jury in a capital case must
unanimously and expressly find all the aggravating factors that were proven beyond a reasonable
doubt, unanimously find that the aggravating factors are sufficient to impose death, unanimously find
that the aggravating factors outweigh the mitigating factors, and unanimously recommend a sentence
of death.

202 So. 3d at 57.
The Court based its holding on several sources of law. The Court looked to Apprendi, Ring, and Hurst for the principle that
the Sixth Amendment requires the jury to find “every fact ... necessary for the imposition of the death penalty” and for the
conclusion that each of these facts constitutes an “element.” Id. at 53. Expanding on the Supreme Court’s concept of “facts,”
the Court looked to the Florida statutes to identify “those critical findings that underlie the imposition of a death sentence.”
Id. at 51. The Court looked to article I, section 22 of the Florida Constitution4 for the principle that jury verdicts must be
unanimous on all the elements of criminal offenses—including the new capital sentencing “elements” that the Court had
purported to identify. See id. at 55. And finally, “in addition to the requirements of unanimity that flow from the Sixth
Amendment and from Florida’s right to trial by jury,” the Court concluded that “juror unanimity in any recommended verdict
resulting in a death sentence is required under the Eighth Amendment.” Id. at 59.
4

Article I, section 22 provides in pertinent part: “The right of trial by jury shall be secure to all and remain inviolate.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 373

9

State v. Poole, --- So.3d ---- (2020)

II. Analysis
The State asks us to recede from Hurst v. State “to the extent its holding requires anything more than the jury to find an
aggravating circumstance—what Hurst v. Florida requires.” We now explain how this Court erred in Hurst v. State and why
we have concluded that we must partially recede from our decision in that case.

A. The Correct Understanding of Hurst v. Florida
It helps first to consider Hurst v. Florida in light of the principles underlying the Supreme Court’s capital punishment cases.
Those cases “address two different aspects of the capital decisionmaking process: the eligibility decision and the selection
decision.” Tuilaepa v. California, 512 U.S. 967, 971, 114 S.Ct. 2630, 129 L.Ed.2d 750 (1994). As to the eligibility decision,
the Court has required that the death penalty be reserved for only a subset of those who commit murder. “To render a
defendant eligible for the death penalty in a homicide case, [the Supreme Court has] indicated that the trier of fact must
convict the defendant of murder and find one ‘aggravating circumstance’ (or its equivalent) at either the guilt or penalty
phase.” Id. at 971-72, 114 S.Ct. 2630. “[A]n aggravating circumstance must genuinely narrow the class of persons eligible for
the death penalty and must reasonably justify the imposition of a more severe sentence on the defendant compared to others
found guilty of murder.” Zant, 462 U.S. at 877, 103 S.Ct. 2733.
*10 By contrast, the selection decision involves determining “whether a defendant eligible for the death penalty should in
fact receive that sentence.” Tuilaepa, 512 U.S. at 972, 114 S.Ct. 2630. The Supreme Court’s cases require that the selection
decision be an individualized determination that assesses the defendant’s culpability, taking into account “relevant mitigating
evidence of the character and record of the defendant and the circumstances of the crime.” Id.
Hurst v. Florida is about eligibility, not selection. We know this from the face of the Court’s opinion: “Florida concedes that
Ring required a jury to find every fact necessary to render Hurst eligible for the death penalty.” Hurst v. Florida, 136 S. Ct. at
622 (emphasis added). We know it from the opinion’s exclusive focus on aggravating circumstances, the central object of the
Court’s death eligibility jurisprudence. We know it because Hurst’s counsel conceded it at oral argument. Transcript of Oral
Argument at 12, Hurst v. Florida, 136 S. Ct. 616 (2016) (No. 14-7505). And most fundamentally, we know it from the
Apprendi-based principle that animates the Court’s decision: “[I]t is unconstitutional for a legislature to remove from the jury
the assessment of facts that increase the prescribed range of penalties to which a criminal defendant is exposed.” Apprendi,
530 U.S. at 490, 120 S.Ct. 2348 (alteration in original) (quoting Jones, 526 U.S. at 252, 119 S.Ct. 1215 (Stevens, J.,
concurring)).
Justice Scalia explained “the import of Apprendi in the context of capital-sentencing proceedings” this way:
[F]or purposes of the Sixth Amendment’s jury-trial guarantee, the underlying offense of “murder” is a distinct, lesser
included offense of “murder plus one or more aggravating circumstances.” Whereas the former exposes a defendant to a
maximum penalty of life imprisonment, the latter increases the maximum permissible sentence to death.
Sattazahn v. Pennsylvania, 537 U.S. 101, 111, 123 S.Ct. 732, 154 L.Ed.2d 588 (2003).
This of course describes Florida’s capital sentencing law. As the Supreme Court itself noted in Hurst v. Florida, section
775.082(1), Florida Statutes, states that the punishment for a capital felony is life imprisonment unless “the procedure set
forth in s. 921.141 results in findings by the court that such person shall be punished by death.” The required trial court
findings are set forth in section 921.141(3), Florida Statutes, which is titled “Findings in Support of Sentence of Death.”
When the Supreme Court referred to “the critical findings necessary to impose the death penalty,” it referred to those findings
as “facts” and cited section 921.141(3). Hurst v. Florida, 136 S. Ct. at 622. Tellingly, the Court did not cite section
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 374

10

State v. Poole, --- So.3d ---- (2020)

921.141(2), which sets out the process for the jury to render an advisory verdict.
Section 921.141(3) requires two findings. One is an eligibility finding, the other a selection finding. The eligibility finding is
in section 921.141(3)(a): “[t]hat sufficient aggravating circumstances exist as enumerated in subsection (5).” The selection
finding is in section 921.141(3)(b): “[t]hat there are insufficient mitigating circumstances to outweigh the aggravating
circumstances.”
We know that section 921.141(3)(a) is the eligibility finding because that is what our Court said repeatedly and consistently
for many decades prior to Hurst v. State. In our first case interpreting Florida’s post-Furman capital sentencing law, we said:
“When one or more of the aggravating circumstances is found, death is presumed to be the proper sentence unless it or they
are overridden by one or more of the mitigating circumstances provided in Fla. Stat. s. 921.141(7).” State v. Dixon, 283 So.
2d 1, 9 (Fla. 1973). Beginning with that holding, it has always been understood that, for purposes of complying with section
921.141(3)(a), “sufficient aggravating circumstances” means “one or more.” See Miller v. State, 42 So. 3d 204, 219 (Fla.
2010) (“sufficient aggravating circumstances” means “one or more such circumstances”); Zommer v. State, 31 So. 3d 733,
754 (Fla. 2010) (same); see also Douglas v. State, 878 So. 2d 1246, 1265 (Fla. 2004) (Pariente, J., concurring as to conviction
and concurring in result only as to sentence) (“A defendant convicted of first-degree murder cannot qualify for a death
sentence unless at least one statutory aggravating factor is found to exist.”).
*11 Poole’s suggestion that “sufficient” implies a qualitative assessment of the aggravator—as opposed simply to finding that
an aggravator exists—is unpersuasive and contrary to this decades-old precedent. Likewise, our Court was wrong in Hurst v.
State when it held that the existence of an aggravator and the sufficiency of an aggravator are two separate findings, each of
which the jury must find unanimously. Under longstanding Florida law, there is only one eligibility finding required: the
existence of one or more statutory aggravating circumstances.

B. The Errors of Hurst v. State
This Court clearly erred in Hurst v. State by requiring that the jury make any finding beyond the section 921.141(3)(a)
eligibility finding of one or more statutory aggravating circumstances. Neither Hurst v. Florida, nor the Sixth or Eighth
Amendment, nor the Florida Constitution mandates that the jury make the section 941.121(3)(b) selection finding or that the
jury recommend a sentence of death.

1. Sixth and Eighth Amendment Errors
Weighing Under Section 941.121(3)(b). Again, the Apprendi rule drives the Sixth Amendment inquiry: “[I]t is
unconstitutional for a legislature to remove from the jury the assessment of facts that increase the prescribed range of
penalties to which a criminal defendant is exposed.” Apprendi, 530 U.S. at 490, 120 S.Ct. 2348 (alteration in original)
(quoting Jones, 526 U.S. at 252, 119 S.Ct. 1215 (Stevens, J., concurring)). Only such “facts” are “elements” that must be
found by a jury. The section 921.141(3)(b) selection finding—“that there are insufficient mitigating circumstances to
outweigh the aggravating circumstances”—fails both aspects of the Apprendi test.
The section 921.141(3)(b) selection finding is not a “fact.” As the Supreme Court observed in a case decided shortly after
Hurst v. Florida, “the ultimate question whether mitigating circumstances outweigh aggravating circumstances is mostly a
question of mercy.” Kansas v. Carr, ––– U.S. ––––, 136 S. Ct. 633, 642, 193 L.Ed.2d 535 (2016). That stands in stark
contrast to the “aggravating-factor determination,” which is “a purely factual determination.” Id. A subjective determination
like the one that section 921.141(3)(b) calls for cannot be analogized to an element of a crime; it does not lend itself to being
objectively verifiable. Instead, it is a “discretionary judgment call that neither the state nor the federal constitution entrusts
exclusively to the jury.” State v. Wood, 580 S.W.3d 566, 585 (Mo. 2019); see also Hurst v. State, 202 So. 3d at 82 (Canady,
J., dissenting) (weighing of mitigators and aggravators is a determination that “require[s] subjective judgment”).
We acknowledge that section 921.141(3)(b) requires a judicial finding “as to the fact[ ]” that the mitigators do not outweigh
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 375

11

State v. Poole, --- So.3d ---- (2020)

the aggravators. But the legislature’s use of a particular label is not what drives the Sixth Amendment inquiry. See Apprendi,
530 U.S. at 494, 120 S.Ct. 2348. In substance, what section 921.141(3)(b) requires “is not a finding of fact, but a moral
judgment.” United States v. Gabrion, 719 F.3d 511, 533 (6th Cir. 2013) (describing balancing provision in federal death
penalty statute).
In any event, even if we were to consider the section 921.141(3)(b) selection finding to be a fact, it still would not implicate
the Sixth Amendment. The selection finding does not “expose” the defendant to the death penalty by increasing the legally
authorized range of punishment. As we have explained, under longstanding Florida law, it is the finding of an aggravating
circumstance that exposes the defendant to a death sentence. The role of the section 921.141(3)(b) selection finding is to give
the defendant an opportunity for mercy if it is justified by the relevant mitigating circumstances and by the facts surrounding
his crime.
*12 This passage from the Supreme Court’s decision in Alleyne v. United States, 570 U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d
314 (2013), illuminates this point:

Juries must find any facts that increase either the statutory maximum or minimum because the Sixth
Amendment applies where a finding of fact both alters the legally prescribed range and does so in a
way that aggravates the penalty. Importantly, this is distinct from factfinding used to guide judicial
discretion in selecting a punishment “within limits fixed by law.” While such findings of fact may lead
judges to select sentences that are more severe than the ones they would have selected without those
facts, the Sixth Amendment does not govern that element of sentencing.

Id. at 113 n.2, 133 S.Ct. 2151 (quoting Williams v. New York, 337 U.S. 241, 246, 69 S.Ct. 1079, 93 L.Ed. 1337 (1949)). And
Alleyne merely echoes what the Supreme Court said in Apprendi: “We should be clear that nothing in this history suggests
that it is impermissible for judges to exercise discretion—taking into consideration various factors relating both to offense
and offender—in imposing a judgment within the range prescribed by statute.” Apprendi, 530 U.S. at 481, 120 S.Ct. 2348.
In sum, because the section 921.141(3)(b) selection finding is not a “fact” that exposes the defendant to a greater punishment
than that authorized by the jury’s guilty verdict, it is not an element. And because it is not an element, it need not be
submitted to a jury. See Hurst v. Florida, 136 S. Ct. at 621 (defining “element”).
Unanimous Jury Recommendation. The Hurst v. State requirement of a unanimous jury recommendation similarly finds no
support in Apprendi, Ring, or Hurst v. Florida. As we have explained, the Supreme Court in Spaziano upheld the
constitutionality under the Sixth Amendment of a Florida judge imposing a death sentence even in the face of a jury
recommendation of life—a jury override. It necessarily follows that the Sixth Amendment, as interpreted in Spaziano, does
not require any jury recommendation of death, much less a unanimous one. And as we have also explained, the Court in
Hurst v. Florida overruled Spaziano only to the extent it allows a judge, rather than a jury, to find a necessary aggravating
circumstance. See Hurst v. Florida, 136 S. Ct. at 624.
Even without Spaziano, the Apprendi line of cases cannot be read to require a unanimous jury recommendation of death.
Those cases are about what “facts”—those that are the equivalent of elements of a crime—the Sixth Amendment requires to
be found by a jury. Sentencing recommendations are neither elements nor facts. As Justice Scalia said, the judgment in
Ring—and by extension the judgment in Hurst v. Florida—“has nothing to do with jury sentencing.” Ring, 536 U.S. at 612,
122 S.Ct. 2428 (Scalia, J., concurring).
Finally, we further erred in Hurst v. State when we held that the Eighth Amendment requires a unanimous jury
recommendation of death. The Supreme Court rejected that exact argument in Spaziano. See Spaziano, 468 U.S. at 465, 104
S.Ct. 3154; see also Harris v. Alabama, 513 U.S. 504, 515, 115 S.Ct. 1031, 130 L.Ed.2d 1004 (1995) (“The Constitution
permits the trial judge, acting alone, to impose a capital sentence.”). We are bound by Supreme Court precedents that
construe the United States Constitution.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 376

12

State v. Poole, --- So.3d ---- (2020)

2. State Law Errors
*13 For many decades, this Court considered Florida’s post-Furman sentencing procedures to be facially consistent with our
state constitution. Even after Ring, in cases where the aggravator consisted of a prior violent felony, we rejected claims that
Florida’s capital sentencing scheme violated the right to a jury trial under our state constitution. See, e.g., Doorbal v. State,
837 So. 2d 940, 963 (Fla. 2003).
We departed from those precedents in Hurst v. State, when we decided that article I, section 22 of the Florida Constitution
requires a unanimous jury recommendation of a sentence of death and unanimous jury findings as to all the aggravating
factors that were proven beyond a reasonable doubt, that the aggravating factors are sufficient to impose death, and that the
aggravating factors outweigh the mitigating factors. We based that holding on our determination that each of these findings is
the equivalent of an element of an offense and on the longstanding principle of Florida law that all elements must be found
unanimously by the jury.
Here we already have explained that our holding in Hurst v. State was based on a mistaken view of what constitutes an
element. Under the principles established in Apprendi, Ring, and Hurst v. Florida, only one of the findings we identified in
Hurst v. State—the finding of the existence of an aggravating circumstance—qualifies as an element, including for purposes
of our state constitution. There is no basis in state or federal law for treating as elements the additional unanimous jury
findings and recommendation that we mandated in Hurst v. State. As to state law, subsequent to our decision in Hurst v.
State, we already have receded from the holding that the additional Hurst v. State findings are elements. We held:

To the extent that in Perry v. State, 210 So. 3d 630, 633 (Fla. 2016), we suggested that Hurst v. State
held that the sufficiency and weight of the aggravating factors and the final recommendation of death
are elements that must be determined by the jury beyond a reasonable doubt, we mischaracterized
Hurst v. State, which did not require that these determinations be made beyond a reasonable doubt.
Since Perry, in In re Standard Criminal Jury Instructions in Capital Cases and Foster [v. State, 258
So. 3d 1248 (Fla. 2018)], we have implicitly receded from its mischaracterization of Hurst v. State. We
now do so explicitly. Thus, these determinations are not subject to the beyond a reasonable doubt
standard of proof, and the trial court did not err in instructing the jury.

Rogers v. State, 285 So.3d 872, 886(Fla. 2019).
Last, lest there be any doubt, we hold that our state constitution’s prohibition on cruel and unusual punishment, article I,
section 17,5 does not require a unanimous jury recommendation—or any jury recommendation—before a death sentence can
be imposed. The text of our constitution requires us to construe the state cruel and unusual punishment provision in
conformity with decisions of the Supreme Court interpreting the Eighth Amendment. Binding Supreme Court precedent in
Spaziano holds that the Eighth Amendment does not require a jury’s favorable recommendation before a death penalty can be
imposed. See Spaziano, 468 U.S. at 464-65, 104 S.Ct. 3154. Therefore, the same is true of article I, section 17.
5

Article I, section 17 provides in pertinent part: “Excessive fines, cruel and unusual punishment, attainder, forfeiture of estate,
indefinite imprisonment, and unreasonable detention of witnesses are forbidden. The death penalty is an authorized punishment for
capital crimes designated by the legislature. The prohibition against cruel or unusual punishment, and the prohibition against cruel
and unusual punishment, shall be construed in conformity with decisions of the United States Supreme Court which interpret the
prohibition against cruel and unusual punishment provided in the Eighth Amendment to the United States Constitution.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 377

13

State v. Poole, --- So.3d ---- (2020)

C. Stare Decisis
*14 While this Court has consistently acknowledged the importance of stare decisis, it has been willing to correct its
mistakes. In a recent discussion of stare decisis, we said:
Stare decisis provides stability to the law and to the society governed by that law. Yet stare decisis does not command
blind allegiance to precedent. “Perpetuating an error in legal thinking under the guise of stare decisis serves no one well
and only undermines the integrity and credibility of the court.”
Shepard v. State, 259 So. 3d 701, 707 (Fla. 2018) (quoting State v. Gray, 654 So. 2d 552, 554 (Fla. 1995)). Similarly, we
have stated that “[t]he doctrine of stare decisis bends ... where there has been an error in legal analysis.” Puryear v. State, 810
So. 2d 901, 905 (Fla. 2002). And elsewhere we have said that we will abandon a decision that is “unsound in principle.”
Robertson v. State, 143 So. 3d 907, 910 (Fla. 2014) (quoting Brown v. Nagelhout, 84 So. 3d 304, 309 (Fla. 2012)).
It is no small matter for one Court to conclude that a predecessor Court has clearly erred. The later Court must approach
precedent presuming that the earlier Court faithfully and competently carried out its duty. A conclusion that the earlier Court
erred must be based on a searching inquiry, conducted with minds open to the possibility of reasonable differences of
opinion. “[T]here is room for honest disagreement, even as we endeavor to find the correct answer.” Gamble v. United States,
––– U.S. ––––, 139 S. Ct. 1960, 1986, 204 L.Ed.2d 322 (2019) (Thomas, J., concurring).
In this case we cannot escape the conclusion that, to the extent it went beyond what a correct interpretation of Hurst v.
Florida required, our Court in Hurst v. State got it wrong. We say that based on our thorough review of Hurst v. Florida, of
the Supreme Court’s Sixth and Eighth Amendment precedents, and of our own state’s laws, constitution, and judicial
precedents. Without legal justification, this Court used Hurst v. Florida—a narrow and predictable ruling that should have
had limited practical effect on the administration of the death penalty in our state as an occasion to disregard decades of
settled Supreme Court and Florida precedent. Under these circumstances, it would be unreasonable for us not to recede from
Hurst v. State’s erroneous holdings.
Invoking North Florida Women’s Health & Counseling Services, Inc. v. State, 866 So. 2d 612 (Fla. 2003), Poole urges us to
stand by our decision in Hurst v. State. Our opinion in North Florida Women’s Health said that, before deciding to overrule a
prior opinion, “we traditionally have asked several questions, including the following”: whether the decision has proved
unworkable; whether the decision could be reversed “without serious injustice to those who have relied on it and without
serious disruption in the stability of the law;” and whether there have been drastic changes in the factual premises underlying
the decision. Id. at 637. Though we do not doubt that this list of considerations could have been culled from our pre-North
Florida Women’s Health precedents, we note that the Court there offered no citation to support its compilation.
In the years since our decision in North Florida Women’s Health, we have not treated that case as having set forth a stare
decisis test that we must follow in every case. On the contrary, we have repeatedly receded from erroneous precedents
without citing North Florida Women’s Health or asking all the questions it poses. See, e.g., Shepard, 259 So. 3d at 707; State
v. Sturdivant, 94 So. 3d 434, 440 (Fla. 2012); Westgate Miami Beach, Ltd. v. Newport Operating Corp., 55 So. 3d 567, 574
(Fla. 2010); Allstate Indem. Co. v. Ruiz, 899 So. 2d 1121, 1131 (Fla. 2005).
*15 More fundamentally, we are wary of any invocation of multi-factor stare decisis tests or frameworks like the one set out
in North Florida Women’s Health. They are malleable and do not lend themselves to objective, consistent, and predictable
application. They can distract us from the merits of a legal question and encourage us to think more like a legislature than a
court. And they can lead us to decide cases on the basis of guesses about the consequences of our decisions, which in turn can
make those decisions less principled. Multi-factor tests or frameworks like the one in North Florida Women’s Health often
serve as little more than a toolbox of excuses to justify a court’s unwillingness to examine a precedent’s correctness on the
merits.
We believe that the proper approach to stare decisis is much more straightforward. In a case where we are bound by a higher
legal authority—whether it be a constitutional provision, a statute, or a decision of the Supreme Court—our job is to apply
that law correctly to the case before us. When we are convinced that a precedent clearly conflicts with the law we are sworn
to uphold, precedent normally must yield.
We say normally because “stare decisis means sticking to some wrong decisions.” Kimble v. Marvel Entertainment, LLC,
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 378

14

State v. Poole, --- So.3d ---- (2020)

576 U.S. 446, 135 S. Ct. 2401, 2409, 192 L.Ed.2d 463 (2015). “Indeed, stare decisis has consequence only to the extent it
sustains incorrect decisions; correct judgments have no need for that principle to prop them up.” Id. But once we have chosen
to reassess a precedent and have come to the conclusion that it is clearly erroneous, the proper question becomes whether
there is a valid reason why not to recede from that precedent.
The critical consideration ordinarily will be reliance. It is generally accepted that reliance interests are “at their acme in cases
involving property and contract rights.” Payne v. Tennessee, 501 U.S. 808, 828, 111 S.Ct. 2597, 115 L.Ed.2d 720 (1991).
And reliance interests are lowest in cases—like this one—“involving procedural and evidentiary rules.” Id.; see also Alleyne,
570 U.S. at 119, 133 S.Ct. 2151 (Sotomayor, J., concurring) (“[W]hen procedural rules are at issue that do not govern
primary conduct and do not implicate the reliance interests of private parties, the force of stare decisis is reduced.”).
Here any reliance considerations cut against Poole. No one, including Poole, altered his behavior in expectation of the new
procedural rules announced in Hurst v. State. To the extent that reliance interests factor here at all, they lean heavily in favor
of the victims of Poole’s crimes and of society’s interest in holding Poole to account and in the substantial resources that
have been spent litigating and adjudicating Poole’s case.
We acknowledge that the Legislature has changed our state’s capital sentencing law in response to Hurst v. State. Our
decision today is not a comment on the merits of those changes or on whether they should be retained. We simply have
restored discretion that Hurst v. State wrongly took from the political branches.
Having thoroughly considered the State’s and Poole’s arguments in light of the applicable law, we recede from Hurst v. State
except to the extent it requires a jury unanimously to find the existence of a statutory aggravating circumstance beyond a
reasonable doubt.

CONCLUSION
The jury in Poole’s case unanimously found that, during the course of the first-degree murder of Noah Scott, Poole
committed the crimes of attempted first-degree murder of White, sexual battery of White, armed burglary, and armed
robbery. Under this Court’s longstanding precedent interpreting Ring v. Arizona and under a correct understanding of Hurst
v. Florida, this satisfied the requirement that a jury unanimously find a statutory aggravating circumstance beyond a
reasonable doubt. See Poole II, 151 So. 3d at 419. In light of our decision to recede from Hurst v. State except to the extent it
requires a jury unanimously to find the existence of a statutory aggravating circumstance, we reverse the portion of the trial
court’s order vacating Poole’s death sentence. We affirm the trial court’s denial of Poole’s guilt phase claim. And we remand
to the trial court with instructions that Poole’s sentence be reinstated and for proceedings consistent with this opinion.
*16 It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ, JJ., concur.
LAWSON, J., concurs specially with an opinion.
LABARGA, J., dissents with an opinion.

LAWSON, J., concurring specially.
I fully concur in the majority opinion and write separately to address the dissent’s contentions: (1) that “national consensus,”
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 379

15

State v. Poole, --- So.3d ---- (2020)

dissenting op. at ––––, is relevant to our consideration of any legal issue decided today; (2) that today’s decision “returns
Florida to its status as an absolute outlier among the jurisdictions in this country that utilize the death penalty,” id. at ––––;
(3) that “settled [Florida] law compelled this Court’s conclusion in Hurst v. State [202 So. 3d 40 (Fla. 2016)] that the
unanimity requirement applied not only to the jury’s duty to determine whether to convict the defendant, but upon conviction,
to the jury’s duty to determine whether the defendant should receive the death penalty,” dissenting op. at –––– – ––––; and
(4) that our decision “removes an important safeguard for ensuring that the death penalty is only applied to the most
aggravated and least mitigated of murders,” id. at –––– – ––––.

I. National consensus is irrelevant to our legal analysis.
It is axiomatic that we are bound by decisions of the United States Supreme Court when construing provisions of the United
States Constitution. Carnival Corp. v. Carlisle, 953 So. 2d 461, 465 (Fla. 2007) (“[S]tate courts are bound by the decisions of
the United States Supreme Court construing federal law.” (quoting Chesapeake & O. Ry. Co. v. Martin, 283 U.S. 209,
220-21, 51 S.Ct. 453, 75 L.Ed. 983 (1931))). While political decisions by the various states are regularly considered in Eighth
Amendment analysis to gauge “evolving standards of decency,” see, e.g., Spaziano v. Florida, 468 U.S. 447, 463-64 n. 9, 104
S.Ct. 3154, 82 L.Ed.2d 340 (1984) (considering the statutory approaches of a number of jurisdictions to capital sentencing),
overruled in part by Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016), a consideration when
determining what constitutes cruel and unusual punishment, the Supreme Court has held that the Eighth Amendment does not
require a jury determination on the ultimate question of whether to impose a death sentence. Id. at 465, 104 S.Ct. 3154. In
conducting its Eighth Amendment analysis of this issue in Spaziano v. Florida, the Supreme Court acknowledged that a
significant majority of jurisdictions entrusted the sentencing decision to a jury in the death penalty context, id. at 463, 104
S.Ct. 3154, making Florida one of only three jurisdictions that permitted a judge to impose a death sentence in the absence of
a jury’s unanimous determination that a death sentence should be imposed. Id. Despite Florida’s minority position, the
Supreme Court found no Eighth Amendment violation, reasoning:
The fact that a majority of jurisdictions have adopted a different practice, however, does not establish that contemporary
standards of decency are offended by the jury override. The Eighth Amendment is not violated every time a State reaches a
conclusion different from a majority of its sisters over how best to administer its criminal laws. “Although the judgments
of legislatures, juries, and prosecutors weigh heavily in the balance, it is for us ultimately to judge whether the Eighth
Amendment” is violated by a challenged practice. See Enmund v. Florida, 458 U.S. 782, 797, 102 S.Ct. 3368, 73 L.Ed.2d
1140 (1982); Coker v. Georgia, 433 U.S. 584, 597, 97 S.Ct. 2861, 53 L.Ed.2d 982 (1977) (plurality opinion). In light of
the facts that the Sixth Amendment does not require jury sentencing, that the demands of fairness and reliability in capital
cases do not require it, and that neither the nature of, nor the purpose behind, the death penalty requires jury sentencing, we
cannot conclude that placing responsibility on the trial judge to impose the sentence in a capital case is unconstitutional.
*17 Id. at 464, 104 S.Ct. 3154. Because the Supreme Court has already considered arguments based upon “national
consensus” in its analysis of this precise issue, id., and because we are bound by this precedent, Carlisle, 953 So. 2d at 465,
we cannot conduct an original Eighth Amendment analysis, consider national consensus, and reach a different result than that
of the Supreme Court on this same legal issue. Id.
Moreover, because the Supreme Court in Spaziano expressly held that the Eighth Amendment does not require jury
sentencing in capital cases, the Florida Constitution expressly prohibits us from reaching a different result under the Florida
Constitution. See art. I, § 17, Fla. Const. (“The prohibition against cruel or unusual punishment, and the prohibition against
cruel and unusual punishment, shall be construed in conformity with decisions of the Supreme Court which interpret the
prohibition against cruel and unusual punishment provided in the Eighth Amendment to the United States Constitution.”).
For these reasons, “national consensus” is irrelevant to our analysis of the legal issues presented in this appeal, and its
consideration is therefore properly absent from the majority’s legal analysis.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 380

16

State v. Poole, --- So.3d ---- (2020)

II. Our decision today does not make Florida an “outlier.”
The majority today decides constitutional questions, not political ones. Those constitutional questions are properly decided
through legal reasoning, not policy analysis. It is true that Congress has made a policy decision requiring a unanimous jury
recommendation before death can be imposed as a sentence under federal law. 18 U.S.C. § 3593(e) (2019). It is also true, as
already discussed, that an overwhelming majority of states still authorizing death as a sentence have made the same
legislative policy choice. See Spaziano, 468 U.S. at 463, 104 S.Ct. 3154; see also Michael L. Radelet & G. Ben Cohen, The
Decline of the Judicial Override, 15 Ann. Rev. L. & Soc. Sci. 539, 548-49 (2019). As for Florida law, today’s decision does
not alter section 921.141, Florida Statutes (2019), which still requires a unanimous jury recommendation before death can be
imposed. If the Florida Legislature considers changing section 921.141 to eliminate the requirement for a unanimous jury
recommendation before a sentence of death can be imposed, the fact that this legislative change would make Florida an
“outlier” will surely be considered in the ensuing political debate. As for the constitutional questions addressed in the
majority opinion, our decision should be judged solely on the quality, clarity, and force of its legal analysis—not on
speculation regarding possible future policy choices that are constitutionally entrusted to the political branch. See art. II, § 3,
Fla. Const. (“The powers of the state government shall be divided into legislative, executive and judicial branches. No person
belonging to one branch shall exercise any powers appertaining to either of the other branches unless expressly provided
herein.”).

III. Settled Florida law did not compel “this Court’s conclusion in Hurst v. State that the unanimity requirement applied not
only to the jury’s duty to determine whether to convict the defendant, but upon conviction, to the jury’s duty to determine
whether the defendant should receive the death penalty.”
Prior to this Court’s decision in Hurst v. State, this Court had repeatedly and consistently held that Florida’s constitution was
not violated by imposition of a death sentence without unanimous jury determinations during the sentencing proceeding, see
majority op. at ––––, including in Poole’s case. Poole v. State, 151 So. 3d 402, 419 (2014). This was the “settled [Florida]
law” on the issue until Hurst v. State. The dissent’s contrary claim, that “settled [Florida] law” compelled a contrary
conclusion in Hurst v. State, is inaccurate. The “settled law” cited by the dissent is precedent existing “[f]or well more than a
century ... requir[ing] that a jury unanimously vote to convict a defendant of a criminal offense.” Dissenting op. at ––––. If
Florida’s century-plus-old unanimous-verdict requirement so obviously and necessarily applied to capital sentencing
proceedings that it compelled the conclusion reached for the first time in Hurst v. State, why was this argument soundly and
repeatedly rejected by the entirety of Florida’s judiciary until 2016, when Hurst v. State was decided?
*18 Fundamentally, the dissent’s argument, and the Hurst v. State holding, are premised on a mischaracterization of the
jury’s ultimate sentencing recommendation, and the penultimate considerations leading up to that recommendation under
section 921.141, as factual determinations that constitute elements of the charged crime. This mischaracterization was neither
grounded in reason nor supported by analysis. Rather, the Hurst v. State majority simply declared that the jury’s sentencing
determinations were “also elements [of the crime of capital murder] that must be found unanimously by the jury.” 202 So. 3d
at 54.
The erroneous declaration that the jury sentencing determinations were “elements” of the crime of capital murder—the sole
basis stated for the Hurst v. State majority’s conclusion that Florida’s Constitution required jury unanimity on those
determinations, id.—was initially corrected in Foster v. State, 258 So. 3d 1248, 1252 (Fla. 2018) (clarifying that “the Hurst
[v. State] penalty phase findings are not elements of the capital felony of first-degree murder”), an opinion joined by four
members of the original Hurst v. State majority. More recently, in Rogers v. State, 285 So.3d 872, 886 (Fla. 2019), we
explained:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 381

17

State v. Poole, --- So.3d ---- (2020)

To the extent that in Perry v. State, 210 So. 3d 630, 633 (Fla. 2016), we suggested that Hurst v. State
held that the sufficiency and weight of the aggravating factors and the final recommendation of death
are elements that must be determined by the jury beyond a reasonable doubt, we mischaracterized
Hurst v. State, which did not require that these determinations be made beyond a reasonable doubt.
Since Perry, in In re Standard Criminal Jury Instructions in Capital Cases and Foster, we have
implicitly receded from its mischaracterization of Hurst v. State. We now do so explicitly.

Id. at 886.
Hurst v. State’s implied characterization of the jury’s capital sentencing determinations as factual findings qualitatively
indistinguishable from those made by a jury when weighing evidence and rendering a guilt-phase verdict is also incorrect. In
reality, the recommendation is an individualized, conscience-based exercise of discretion. This should be obvious when
considering that a juror could judge a crime to be highly aggravated and hardly mitigated but still recommend a life sentence
based upon some consideration personal to that individual juror. It should also be obvious from the post-Hurst v. State
penalty-phase jury instructions authorized by this Court, which explain that “different [sentencing] factors or circumstances
may be given different weight or values by different jurors”; that “each individual juror must decide what weight is to be
given to a particular factor or circumstance”; and that “[r]egardless of the results of each juror’s individual weighing
process—even if [a juror] find[s] that the sufficient aggravators outweigh the mitigators—the law neither compels nor
requires [that juror] to determine that the defendant should be sentenced to death.” In re Standard Criminal Jury Instructions
in Capital Cases, 244 So. 3d 172, 191 (Fla. 2018).
While the penultimate “weighing” questions are phrased as fact-like determinations (and are certainly more fact-like than the
recommendation), they are clearly designed as an analytical tool to guide individual jurors in making their individual
recommendations—not as facts to be determined by the jury as a whole. Again, this is obvious from the instructions
themselves, which do not even require mitigation findings and tell jurors that the weight given to all factors, as well as
whether a fact is considered mitigating at all, are individual determinations.
*19 Because the ultimate jury recommendation and penultimate weighing questions are neither “facts” historically entrusted
to jurors under the Florida Constitution, nor “elements” of a crime, Foster, 258 So. 3d at 1252, the Hurst v. State majority
demonstratively erred in stating that article I, section 22 of the Florida Constitution supports or compels jury unanimity on
anything other than the existence of an aggravating circumstance. Settled Florida law was to the contrary.

IV. Today’s decision does not eliminate a safeguard needed to ensure that the death penalty is only applied to the most
aggravated and least mitigated of murders.
The Eighth Amendment’s protection against cruel and unusual punishment requires safeguards to assure that a death sentence
is not imposed unless careful consideration is first given to the “particular acts by which the crime was committed ... [and]
the character and propensities of the offender,” Woodson v. North Carolina, 428 U.S. 280, 304, 96 S.Ct. 2978, 49 L.Ed.2d
944 (1976) (quoting Pennsylvania ex.rel. Sullivan v. Ashe, 302 U.S. 51, 55, 58 S.Ct. 59, 82 L.Ed. 43 (1937)), to appropriately
narrow the class of cases in which the sentence can be imposed. Id. The procedures set forth in section 921.141 were enacted
to comply with the Eighth Amendment in this regard by requiring the State to prove at least one statutorily defined
“aggravating circumstance” before the death penalty can be considered, § 921.141(2)(b) 1., (6), and by providing for the
comprehensive consideration of mitigating circumstances. § 921.141(2)(b) 2., (3)(a)2., (3)(b), (7). Additionally, before a
death sentence can be imposed, the sentencing judge must enter a written order reflecting findings that “there are sufficient
aggravating factors to warrant the death penalty ... [and that] the aggravating factors outweigh the mitigating circumstances
reasonably established by the evidence.” § 921.141(4). Appellate review assures that these standards are met in every case. §
921.141(5) (“The judgment of conviction and sentence of death shall be subject to automatic review by the Supreme Court of
Florida and disposition rendered within 2 years after the filing of a notice of appeal. Such review by the Supreme Court shall
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 382

18

State v. Poole, --- So.3d ---- (2020)

have priority over all other cases and shall be heard in accordance with rules adopted by the Supreme Court.”); see also
Pulley v. Harris, 465 U.S. 37, 45-46, 104 S.Ct. 871, 79 L.Ed.2d 29 (1984) (discussing the importance of “meaningful
appellate review” in this context). Reviewing Florida’s death penalty procedure, the Supreme Court has determined that a
unanimous jury sentencing recommendation is not required to comply with the Eighth Amendment’s demand that discretion
to impose the death penalty be appropriately directed and limited. Spaziano, 468 U.S. at 464, 104 S.Ct. 3154 (“[T]he
demands of fairness and reliability in capital cases do not require [jury sentencing].”). Review of this Court’s 2014 opinion
affirming Poole’s sentence of death illustrates why Florida’s system meets Eighth Amendment demands of “fairness and
reliability” without requiring a unanimous jury recommendation.
Loretta White and Noah Scott had gone to bed together in their mobile home. Poole, 151 So. 3d at 406. White was startled
awake to find a stranger, Poole, attempting to rape her. Id. Scott repeatedly tried to stop the rape and, each time, Poole hit
Scott in the face with a tire iron—beating Scott to death. Id. Poole ignored White’s cries for mercy, which were emphasized
by the plea that she was pregnant; he also beat her with the tire iron, severing some of her fingers as she tried to defend
herself against the attack. Id. After raping, beating, and sexually assaulting White, Poole left her unconscious in the trailer. Id.
*20 This murder was obviously highly aggravated by Poole’s contemporaneous crimes. The trial judge appropriately found
that these aggravators were sufficient to warrant the death penalty under Florida law and that the aggravators outweighed all
mitigation so that a death sentence was appropriate. Id. at 419 (concluding that the trial court “properly” weighed “the
aggravators against the mitigators” and affirming Poole’s sentence of death). Even with the jury’s 11-1 death
recommendation, this Court appropriately and without hesitation (or dissent on this issue) determined that Florida’s
sentencing procedure had reliably guided and limited the sentencing decision in this case, as required by the Eighth
Amendment. Id.

Conclusion
The constitutionality of Poole’s sentence was already decided by this Court in 2014. Id. Hurst v. State required the trial court
to reevaluate the constitutionality of Poole’s death sentence—and deciding this appeal required this Court to address the
State’s argument that Hurst v. State was incorrectly decided. For the reasons explained in the majority opinion, and above, it
is clear that Poole suffered no constitutional deprivation in the imposition of his sentence and that we cannot reach a correct
legal result in this appeal without receding in part from Hurst v. State. I fully agree with the majority’s determination that we
should partially recede from Hurst v. State because the State and those whose interests are represented by the State in this
case, including the victims and their families, relied heavily on the significant body of precedent upholding as constitutional
the relevant statutory procedures invalidated in Hurst v. State, cf. Johnson v. State, 904 So. 2d 400, 410 (Fla. 2005)
(explaining that “Florida’s reliance on its capital sentencing has been entirely in good faith” in light of the legal precedent
upholding its constitutionality); because the State and society’s interests in the finality of Poole’s sentence are equally strong,
See In re Baxter Int’l, Inc., 678 F.3d 1357, 1367 (Fed. Cir. 2012) (Newman, J., dissenting) (“Finality is fundamental to the
Rule of Law.” (citing S. Pac. R.R. v. United States, 168 U.S. 1, 18, 18 S.Ct. 18, 42 L.Ed. 355 (1897))); and, because Poole’s
reliance interest on the erroneous Hurst v. State precedent is nonexistent. Majority op. at ––––.

LABARGA, J., dissenting.
Today, a majority of this Court recedes from the requirement that Florida juries unanimously recommend that a defendant be
sentenced to death. In doing so, the majority returns Florida to its status as an absolute outlier among the jurisdictions in this
country that utilize the death penalty. The majority gives the green light to return to a practice that is not only inconsistent
with laws of all but one of the twenty-nine states that retain the death penalty, but inconsistent with the law governing the
federal death penalty. Further, the majority removes an important safeguard for ensuring that the death penalty is only applied
to the most aggravated and least mitigated of murders. In the strongest possible terms, I dissent.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 383

19

State v. Poole, --- So.3d ---- (2020)

The requirement that a jury unanimously recommend a sentence of death comports with the overwhelming majority of states
that have the death penalty. At the time that Hurst v. Florida was decided, of the thirty-one states that legalized the capital
punishment, only three states—Florida, Alabama, and Delaware—did not require that a unanimous jury recommend the death
penalty. Since that time, the Delaware Supreme Court declared the state’s capital sentencing statute unconstitutional, See
Rauf v. Delaware, 145 A.3d 430 (Del. 2016), and we held in Hurst v. State that unanimity was required in Florida. These
developments left Alabama as the sole death penalty state not requiring unanimity—until today.
*21 Not only does requiring a unanimous recommendation of a sentence of death comport with the overwhelming majority of
death penalty states, it also comports with federal law governing the imposition of the federal death penalty. Title 18 U.S.C. §
3593(e) (2012) provides that after weighing the aggravating and mitigating factors and determining that a sentence of death is
justified, “the jury by unanimous vote, or if there is no jury, the court, shall recommend whether the defendant should be
sentenced to death, to life imprisonment without possibility of release or some other lesser sentence.” (Emphasis added.) As
we explained in Hurst v. State:

The vast majority of capital sentencing laws enacted in this country provide the clearest and most
reliable evidence that contemporary values demand a defendant not be put to death except upon the
unanimous consent of the jurors who have deliberated upon all the evidence of aggravating factors and
mitigating circumstances. By requiring unanimity in a recommendation of death in order for death to
be considered and imposed, Florida will achieve the important goal of bringing its capital sentencing
laws into harmony with the direction of society reflected in all these states and with federal law.

202 So. 3d at 61. By receding from the unanimity requirement, we retreat from the national consensus and take a huge step
backward in Florida’s death penalty jurisprudence.
The historical treatment of unanimity in Florida underscores our conclusion in Hurst v. State that Florida’s right to trial by
jury, contained in article I, section 22, of the Florida Constitution, requires that a jury unanimously recommend a sentence of
death. For well more than a century, Florida law has required that a jury unanimously vote to convict a defendant of a
criminal offense. See Ayers v. State, 62 Fla. 14, 57 So. 349, 350 (1911) (“Of course, a verdict must be concurred in by the
unanimous vote of the entire jury ....”); On Motion to Call Circuit Judge to Bench, 8 Fla. 459, 482 (Fla. 1859) (“The common
law wisely requires the verdict of a petit jury to be unanimous ....”). This settled law compelled this Court’s conclusion in
Hurst v. State that the unanimity requirement applied not only to the jury’s duty to determine whether to convict the
defendant, but upon conviction, to the jury’s duty to determine whether the defendant should receive the death penalty. We
said: “This recommendation is tantamount to the jury’s verdict in the sentencing phase of trial; and historically, and under
explicit Florida law, jury verdicts are required to be unanimous.” Hurst, 202 So. 3d at 54. Given Florida’s long history of
requiring unanimous jury verdicts, it defies reason to require unanimous juries for the conviction of a capital offense but to
then reduce the jury’s collective obligation when determining whether the defendant’s life should be taken as punishment for
that offense.
As Justice Brennan explained: “[S]tate courts cannot rest when they have afforded their citizens the full protections of the
federal Constitution. State constitutions, too, are a font of individual liberties, their protections often extending beyond those
required by the Supreme Court’s interpretation of federal law. The legal revolution which has brought federal law to the fore
must not be allowed to inhibit the independent protective force of state law—for without it, the full realization of our liberties
cannot be guaranteed.” William J. Brennan, Jr., State Constitutions and the Protection of Individual Rights, 90 Harv. L. Rev.
489, 491 (1977). Our determination that Florida’s right to trial by jury requires unanimity fell squarely within our role as “the
arbiters of the meaning and extent of the safeguards provided under Florida’s Constitution.” Busby v. State, 894 So. 2d 88,
102 (Fla. 2004). “[W]e have the duty to independently examine and determine questions of state law so long as we do not run
afoul of federal constitutional protections or the provisions of the Florida Constitution that require us to apply federal law in
state-law contexts.” State v. Kelly, 999 So. 2d 1029, 1043 (Fla. 2008).
*22 In deciding Hurst v. State, this Court was ever mindful that “where discretion is afforded a sentencing body on a matter
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 384

20

State v. Poole, --- So.3d ---- (2020)

so grave as the determination of whether a human life should be taken or spared, that discretion must be suitably directed and
limited so as to minimize the risk of wholly arbitrary and capricious action.” Gregg v. Georgia, 428 U.S. 153, 189, 96 S.Ct.
2909, 49 L.Ed.2d 859 (1976) (citing Furman v. Georgia, 408 U.S. 238, 92 S.Ct. 2726, 33 L.Ed.2d 346 (1972)). Requiring
“that a jury must unanimously recommend death in order to make a death sentence possible serves that narrowing function
required by the Eighth Amendment ... and expresses the values of the community as they currently relate to imposition of
death as a penalty.” Hurst, 202 So. 3d at 60.
The imperative for a just application of the death penalty is not a pie-in-the-sky concept. “The unusual severity of death is
manifested most clearly in its finality and enormity. Death, in these respects, is in a class by itself.” Furman, 408 U.S. at 289,
92 S.Ct. 2726 (Brennan, J., concurring). Florida holds the shameful national title as the state with the most death row
exonerations. Since 1973, twenty-nine death row inmates have been exonerated, and those exonerations have continued to
this very year. Death Penalty Information Center, https://deathpenaltyinfo.org/state-and-federal-info/state-by-state/florida
(last visited December 23, 2019). Given this history, there is every reason to maintain reasonable safeguards for ensuring that
the death penalty is fairly administered.
I strongly object to the characterization of this Court’s decision in Hurst v. State as one where this Court “wrongly took
[discretion] from the political branches.” Majority op. at ––––. As the court of last resort in Florida’s third and co-equal
branch of government—whose responsibility it is to interpret the law—that is what this Court did in Hurst v. State. The
constitutionality of a provision of Florida’s death penalty law is uniquely this Court’s to interpret.
Death is indeed different. When the government metes out the ultimate sanction, it must do so narrowly and in response to
the most aggravated and least mitigated of murders. Florida’s former bare majority requirement permitted a jury, with little
more than a preponderance of the jurors, to recommend that a person be put to death. This Court correctly decided that in
Florida, the state and federal constitutions require much more and, until today, for a “brief and shining moment,” it did just
that.6
6

Alan J. Lerner & Frederick Loewe, Camelot, act II, scene 7 (1960).

Sadly, this Court has retreated from the overwhelming majority of jurisdictions in the United States that require a unanimous
jury recommendation of death. In so doing, this Court has taken a giant step backward and removed a significant safeguard
for the just application of the death penalty in Florida.
Although in 2017, in response to our decision in Hurst v. State, the Legislature revised section 921.141(2), Florida Statutes,
to require a unanimous recommendation by the jury, nothing in the majority’s decision today requires the Legislature to
abandon the unanimity requirement. As the majority pointed out in its decision: “Our decision today is not a comment on the
merits of those changes or on whether they should be retained.” Majority op. at ––––.
For these reasons, I dissent.

Order

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 385

21

State v. Poole, --- So.3d ---- (2020)

Thursday, April 2, 2020
On February 7, 2020, Poole filed a Motion for Rehearing and Clarification. We deny rehearing but grant clarification of this
Court’s instructions on remand. Remand for “proceedings consistent with this opinion” may include resolution of Poole’s
remaining penalty-phase claims that were raised in his postconviction motion but not addressed on the merits by the trial
court in its order.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ, JJ., concur.
LABARGA, J., concurs in part and dissents in part with an opinion.

LABARGA, J., concurring in part and dissenting in part.
I concur in the majority’s decision to clarify that on remand, Poole is entitled to the resolution of penalty phase claims raised
in his postconviction motion that were not decided given this Court’s decision in Hurst v. State, 202 So. 3d 40 (Fla. 2016),
receded from in part by State v. Poole, 292 So.3d 694 (Fla. 2020).
However, I remain firmly committed to my dissent in Poole, and to my position that the opinion was wrongly decided. I
would grant rehearing, and I dissent to the majority’s decision to deny rehearing in this case.
All Citations
--- So.3d ----, 2020 WL 3116597
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App 386

22

